<html>
<title> - MILITARY CONSTRUCTION APPROPRIATIONS FOR FISCAL YEAR 1999</title>
<body><pre>[Senate Hearing 105-654]
[From the U.S. Government Printing Office]


[DOCID: f:46111]
                                                        S. Hrg. 105-654

 
       MILITARY CONSTRUCTION APPROPRIATIONS FOR FISCAL YEAR 1999

=======================================================================

                                HEARINGS

                                before a

                          SUBCOMMITTEE OF THE

            COMMITTEE ON APPROPRIATIONS UNITED STATES SENATE

                       ONE HUNDRED FIFTH CONGRESS

                             SECOND SESSION

                                   on

                           H.R. 4059/S. 2160

    AN ACT MAKING APPROPRIATIONS FOR MILITARY CONSTRUCTION FOR THE 
 DEPARTMENT OF DEFENSE FOR THE FISCAL YEAR ENDING SEPTEMBER 30, 1999, 
                         AND FOR OTHER PURPOSES

                               __________

         Printed for the use of the Committee on Appropriations




Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 senate

                                 ______


                     U.S. GOVERNMENT PRINTING OFFICE
46-111 cc                    WASHINGTON : 1998


_______________________________________________________________________
            For sale by the U.S. Government Printing Office
Superintendent of Documents, Congressional Sales Office, Washington, DC 
                                 20402
                           ISBN 0-16-057578-8






                      COMMITTEE ON APPROPRIATIONS

                     TED STEVENS, Alaska, Chairman
THAD COCHRAN, Mississippi            ROBERT C. BYRD, West Virginia
ARLEN SPECTER, Pennsylvania          DANIEL K. INOUYE, Hawaii
PETE V. DOMENICI, New Mexico         ERNEST F. HOLLINGS, South Carolina
CHRISTOPHER S. BOND, Missouri        PATRICK J. LEAHY, Vermont
SLADE GORTON, Washington             DALE BUMPERS, Arkansas
MITCH McCONNELL, Kentucky            FRANK R. LAUTENBERG, New Jersey
CONRAD BURNS, Montana                TOM HARKIN, Iowa
RICHARD C. SHELBY, Alabama           BARBARA A. MIKULSKI, Maryland
JUDD GREGG, New Hampshire            HARRY REID, Nevada
ROBERT F. BENNETT, Utah              HERB KOHL, Wisconsin
BEN NIGHTHORSE CAMPBELL, Colorado    PATTY MURRAY, Washington
LARRY CRAIG, Idaho                   BYRON DORGAN, North Dakota
LAUCH FAIRCLOTH, North Carolina      BARBARA BOXER, California
KAY BAILEY HUTCHISON, Texas
                   Steven J. Cortese, Staff Director
                 Lisa Sutherland, Deputy Staff Director
               James H. English, Minority Staff Director
                                 ------                                

                 Subcommittee on Military Construction

                     CONRAD BURNS, Montana Chairman
KAY BAILEY HUTCHISON, Texas          PATTY MURRAY, Washington
LAUCH FAIRCLOTH, North Carolina      HARRY REID, Nevada
LARRY CRAIG, Idaho                   DANIEL K. INOUYE, Hawaii
TED STEVENS, Alaska (ex officio)     ROBERT C. BYRD, West Virginia
                                       (ex officio)

                                 Staff

                              Sid Ashworth
                      C. Richard D'Amato, Minority


                            C O N T E N T S

                              ----------                              

                         Tuesday, March 3, 1998

Department of Defense:
    Department of the Army.......................................     1
    Defense agencies:
        Office of the Under Secretary of Defense (Personnel and 
          Readiness).............................................    39
        U.S. Special Operations Command..........................    39
        Defense Logistics Agency.................................    39
        TRICARE Management Activity..............................    39

                        Tuesday, March 10, 1998

Department of Defense:
    Department of the Navy.......................................    57
    Department of the Air Force..................................    87

                         Tuesday, May 12, 1998

Department of Defense:
    Department of the Navy.......................................   109
    Department of the Army.......................................   119
    Department of the Air Force..................................   125


       MILITARY CONSTRUCTION APPROPRIATIONS FOR FISCAL YEAR 1999

                              ----------                              


                         TUESDAY, MARCH 3, 1998

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 9:59 a.m., in room SD-124, Dirksen 
Senate Office Building, Hon. Conrad Burns (chairman) presiding.
    Present: Senators Burns and Stevens.

                         DEPARTMENT OF DEFENSE

                         Department of the Army

STATEMENT OF ALMA B. MOORE, ACTING ASSISTANT SECRETARY 
            OF THE ARMY (INSTALLATIONS, LOGISTICS, AND 
            ENVIRONMENT)
ACCOMPANIED BY:
        MAJ. GEN. DAVID A. WHALEY, ASSISTANT CHIEF OF STAFF FOR 
            INSTALLATION MANAGEMENT
        BRIG. GEN. JAMES R. HELMLY, DEPUTY CHIEF, ARMY RESERVE
        BRIG. GEN. MICHAEL J. SQUIER, DEPUTY DIRECTOR, ARMY NATIONAL 
            GUARD
        PAUL JOHNSON, DEPUTY ASSISTANT SECRETARY FOR INSTALLATIONS AND 
            HOUSING

                   OPENING STATEMENT OF CONRAD BURNS

    Senator Burns. We are going to call these hearings to 
order.
    Senator Murray will be by shortly. She has Mr. Gates--I 
asked her if that is the fellow that makes the tires, and it 
was not--this morning on the Hill. And we sure want to make a 
space for Senator Murray and her staff. She is a delight to 
work with on this particular committee.
    I made the suggestion earlier today that I think we ought 
to start these appropriations hearings at 8 a.m., and I see 
there are some heads going up and down out there. Now, to us 
old farm broadcasters, that is still way up in the middle of 
the day, but we would have a lot more time afterward to get 
some things done that we needed done.
    So, I will call this committee to order. This morning we 
will hear testimony on the military construction, family base 
housing [BRAC], and Reserve component programs for the U.S. 
Army, as well as the military construction programs for defense 
agencies.
    I appreciate Secretary Moore and all of you coming down 
this morning. We will hear from the Department of the Army 
first. We are pleased to have the Acting Assistant Secretary of 
the Army for Installations, Logistics, and Environment. 
Secretary Moore, welcome. I think this is the first time you 
have had the opportunity to appear before this committee. If 
you would like to introduce some of your very elite and I would 
say knowledgeable support for this morning, you may do that at 
this time.
    Ms. Moore. Thank you, sir.
    Joining me today representing the total Army is Maj. Gen. 
Dave Whaley, Assistant Chief of Staff for Installation 
Management; Brig. Gen. Michael Squier, Deputy Director of the 
Army National Guard; and Brig. Gen. James Helmly, Deputy Chief 
of the Army Reserve; and Mr. Paul Johnson, Deputy Assistant 
Secretary for Installations and Housing.
    Senator Burns. Let me tell you right now that we are very, 
very proud of the U.S. Army and our people that serve in 
uniform. We continue to be concerned about losing some good 
people, and sometimes it is quality of life issues that are the 
final decisions not only for the single soldier but also for 
our people with a high degree of dedication that are married 
and have families.
    I want to commend the leadership for its continued 
commitment toward improving the quality of life for our single 
soldiers. I guess I become more concerned about them as time 
moves on.
    The Army's emphasis on replacing and renovating barracks is 
critical to meeting the long-term recruiting and retention 
goals. It is essential that our service members and their 
families live in housing that is comparable to our civilian 
counterparts. I think that is very, very important.
    However, I continue to--about the low level proposed 
funding--we know that we are going to go into some budget 
strains. Our overall appropriations for military construction 
is almost $1 billion less than 1 year ago, and so we are going 
to have to be very, very creative and innovative to fulfill our 
mission that we have before us.
    The National Guard. I have seen the condition of some 
facilities. They are completely unacceptable. We hear a lot of 
rhetoric about whenever we try to improve our Guard and our 
Reserve facilities as taking money to our home States. Whenever 
we see the integration of the regulars with Guard and Reserves, 
we cannot expect our Guard and Reserves to be up to capacity 
unless they have the facilities in order to train and to be a 
part of this Army.
    We must do more in providing those working conditions. They 
deserve every consideration in this process. The restoring of 
those five line item veto military construction I think in the 
last appropriation was a good indication that there is support 
in the Congress for the thrust of which we are traveling down 
today to see an integrated Army as a viable force.
    So, we do appreciate your efforts. We look forward to 
working with you to ensure that those critical requirements and 
those needs are met.
    So, Madam Secretary, we are looking forward to your 
statement.
    We are joined today by the chairman of the Appropriations 
Committee, Mr. Stevens. I know you are working on a tight 
schedule. Are there any questions before you hear Secretary 
Moore's statement?
    Senator Stevens. I would like to hear the Secretary. I may 
submit my questions. It depends. I have to meet with Senator 
Byrd. They will call me when I have to go.

                          prepared statements

    Senator Burns. OK. I do have statements from Senators 
Faircloth and Craig that I would like to put in the record at 
this point.
    [The statements follow:]

             Prepared Statement of Senator Lauch Faircloth

    Mr. Chairman, we have just finished our work on the 1998 Military 
Construction Appropriation, and right on it's heels, we have to make 
the same types of repairs to the President's request for next year's 
Mil Con budget. The Administration, once again, has low-balled our 
nation's defense needs, leaving us the responsibility to be sure that 
our fine men and women in uniform are not left to operate on a 
shoestring. Same as last year, we will be expected to add the funding 
necessary to continue the essential task of rebuilding our defensive 
capability. If the Congress took a pass and simply agreed to the 
President's request, our military infrastructure would crumble.
    For example, the need to ensure the security of our military bases 
should be one of our highest priorities. At Fort Bragg, one of our 
largest and most important posts for worldwide power projection, we 
have absolutely no control over base access. Now, this deficiency has 
been well known for a number of years, but yet there is no request for 
funds in the President's budget for the security of this vital base. 
I'm sure that this is only one of many necessary projects that the 
Administration left unfunded with the expectation that Congress would 
pick up the slack.
    I intend to fight to get the extra dollars that we need so that we 
can have an adequate military construction budget. National security is 
the most important function of the Federal Government, and it must be 
funded first.
    Where do we get the offsets? By cutting back those Federal programs 
that are not properly the function of the Federal Government. And, when 
we have exhausted that as a source of funding, by moving funds within 
this budget from lower priority programs to the most important.
    Mr. Chairman, I look forward to working with you to ensure that 
adequate funds can be found for our military construction needs around 
the world. I would also like to thank you and Chairman Stevens for your 
leadership on getting those 38 military construction projects back on 
track. The urban training facility at Fort Bragg should not be put off 
even one more year.
                                 ______
                                 

              Prepared Statement of Senator Larry E. Craig

    Mr. Chairman, it is indeed a pleasure to be a member of the 
Appropriations Committee and on this very important Subcommittee on 
Military Construction. This is my second year as a member of this 
Subcommittee, and I am very proud of the work we accomplished for the 
fiscal year 1998 budget. We worked diligently to provide and restore 
funds for essential projects at our military installations in support 
of our men and women in uniform. I look forward to evaluating the 
military construction needs of our armed forces again this year.
    The military construction budget provides necessary funding for the 
planning, design, construction, alteration, and improvement of military 
facilities worldwide. It also finances construction, and improvements 
for military family housing. Military construction not only helps our 
troops to better perform their missions, it also supports our service 
members with the facilities that contributed to their quality of life 
and that of their families. Unfortunately, this is not a budget 
President Clinton seems to support. For fiscal year 1998, this 
Administration requested funding levels below both the fiscal year 1996 
and fiscal year 1997 levels. This chronic under funding by the 
Administration makes some wonder how this President can ask our service 
members to do so much, with so little.
    I think we were all pleased to see the successful override of 
President Clinton's veto of the 38 military construction projects. That 
vote sent a clear signal to the Administration that under funding of 
military construction will not be tolerated by this Congress. We 
understand the needs of service members, and we will support those 
necessary projects. As a fiscal conservative, I take seriously the 
responsibly of working within the framework of a balanced budget as we 
make decisions about program funding. However, it is also important to 
keep in mind that there is sometimes potential savings from improving 
infrastructure at military facilities.
    Mr. Chairman, once again, thank you for your work and efforts, and 
I look forward to continually working with you and the Committee, so 
that our men and women in uniform receive the support and facilities 
they deserve.

                       statement of alma b. moore

    Secretary Moore, thank you very much for coming this 
morning.
    Ms. Moore. Mr. Chairman, distinguished members of the 
subcommittee, it is an honor to appear before you today to 
discuss the Army's budget request for military construction, 
family housing, and base realignment and closures for the 
fiscal year 1999.
    I have already introduced the gentlemen behind me, and we 
have a combined statement which provides in-depth detail to the 
military construction budget request for fiscal year 1999. With 
your permission, I would like to submit the full statement for 
the record and highlight those areas that contribute to 
readiness and enhance the quality of life for our soldiers and 
their families.
    Senator Burns. Without exception, all of the statements 
will be made a part of the record.
    Ms. Moore. First I would like to talk about the program of 
which I personally am most proud, our barracks renewal. The 
fiscal year 1999 military construction budget's main focus is 
the whole barracks renewal program. This budget request 
represents our efforts to provide our single soldiers with a 
quality living environment, not just a place to live. The One 
Plus One Program provides personal privacy, larger rooms, 
closets, upgraded day rooms, and additional parking. An 
improved quality of life such as this program provides is 
essential to attracting and retaining quality soldiers. We 
thank this subcommittee for the strong support you have given 
to the Army over the years in this regard.
    The budget before you includes 12 projects totaling $307 
million for this purpose. This will keep us on track to 
accomplish our goal of modernizing all barracks in Conus by 
2008, in Europe by 2010, and in Korea by 2012.
    Next I would like to briefly discuss the Army's strategy to 
meet family housing needs through maintenance, divestiture, and 
privatization. This budget request provides funds to renovate 
514 existing units and to replace 560 units. The request also 
reflects the demolition of 350 houses that do not meet 
standards and would be too costly to repair. But, Mr. Chairman, 
these efforts do not come close to fixing the Army's housing 
problems.
    The capital venture initiative [CVI], also known as the 
military housing privatization initiative, will allow the Army 
to leverage funds appropriated for housing and Army owned 
assets such as land to encourage the private sector to own, 
manage, repair, improve, and construct family housing. Under 
current funding projections, it would take approximately 130 
years to revitalize family housing worldwide. Under CVI, if we 
can make it work, we expect to complete revitalization by 2010. 
The major benefit would be that our soldiers and their families 
would receive quality housing much sooner.
    The Army's first CVI project is planned for Fort Carson, 
CO. Congress was notified of our intent to award a contract on 
February 10 and the 30-day clock is running. If there is no 
objection expressed by Congress during the 30-day notification 
period, we plan to award a contract by mid to late March to 
improve 1,824 existing units and construct 840 new units.
    Our plan is to use these authorities wherever feasible and 
economical in the United States. We will apply Fort Carson 
lessons learned to develop 26 additional projects. Your support 
of this effort is essential to permit us to leverage scarce 
housing resources and provide quality housing to all of our 
soldiers and their families in a much shorter period of time.
    This year's military construction budget was built on the 
Army's one team, one fight, one future concept. We made a 
conscientious effort to balance our resources among all 
components: the Active Army, the National Guard, and the Army 
Reserve.
    I have already talked about whole barracks renewal and 
housing, but I want you to know that our focus is also on 
Reserve centers and National Guard readiness centers. The 
Reserve components were at the table throughout the budget 
process, and I think they will tell you they received a fair 
share of very limited resources. Readiness remains the No. 1 
priority for the Army and I would like to highlight those 
projects in the budget request that enhance our mission 
capabilities.
    This budget request continues to provide funding for the 
strategic mobility program to ensure our soldiers can deploy 
their equipment as expeditiously as possible. Funding is also 
included to complete buyout of the close combat tactical 
training facilities, a program which began in fiscal year 1994.
    Mr. Chairman, the greatest challenge facing the total Army 
in this budget, and as we move toward the future, is balancing 
today's readiness and quality of life with tomorrow's 
modernization requirements within available resources. This 
military construction budget continues our goal to provide 
better living conditions for the families and the single 
soldier while also providing the total Army with valuable 
facilities to enhance readiness.

                           prepared statement

    Mr. Chairman, this concludes my statement and we are ready 
for your questions.
    [The statement follows:]

                  Prepared Statement of Alma B. Moore

    Mr. Chairman and members of the subcommittee, it is a pleasure to 
appear before you to discuss the Active Army and Reserve Components' 
military construction request for fiscal year 1999. This request will 
provide new and renovated facilities needed to improve Army readiness, 
quality of life and efficiency. These matters are of considerable 
importance to America's Army, as well as this committee, and we 
appreciate the opportunity to report to you on them.
    Our statement is in four parts:
    Part I--Military Construction, Army family housing, Army homeowners 
assistance fund, Defense
    Part II--Military Construction, Army National Guard
    Part III--Military Construction, Army Reserve
    Part IV--Base realignment and closure (BRAC)
  part i--military construction, army family housing, army homeowners 
                        assistance fund, defense
    I am pleased to present the Active Army's portion of the Military 
Construction budget request for fiscal year 1999. This budget provides 
construction and family housing resources essential to support your 
Army's role in our National Military Strategy.
    The program presented requests fiscal year 1999 appropriations for 
Military Construction, Army (MCA) of $790,876,000, $1,208,173,000 for 
Army Family Housing (AFH) and $12,800,000 for Homeowners Assistance 
Fund, Defense. The companion request for authorization of 
appropriations in fiscal year 1999 includes $790,876,000 for MCA, 
$1,208,173,000 for AFH and $12,800,000 for Homeowners Assistance Fund, 
Defense. The fiscal year 1999 request for authorization is 
$1,134,753,000 for MCA, $1,209,812,000 for AFH and $12,800,000 for 
Homeowners Assistance Fund, Defense.
    The Army is a ``Total Force.'' We are an institution with people as 
its core. We are comprised of Active Duty, National Guard, Army 
Reserve, civilian employees, and family members serving our nation. We 
have served the United States with distinction, both at home and 
abroad, in peace and in war.
    The Army has evolved to meet the challenges of today. Our prime 
mission remains constant: To fight and win the nation's wars. However, 
the Total Army must also perform a wide variety of other missions 
around the world and at home, including deterring potential 
adversaries, reassuring and lending stability to allies and supporting 
our communities in times of emergency. In the multitude of military 
operations since the fall of the Berlin Wall, the Army has done our 
nation's heavy lifting, accounting for over 60 percent of the forces 
committed to these operations. Deployed or stationed in over 100 
countries in 1997, American soldiers and civilians helped shape the 
international environment by their presence and by carrying the values 
of our Army and the nation with them.
    The Total Army is a more streamlined force, capable of projecting 
power from installations either in the United States or from forward 
deployed bases, and of operating effectively with a broad range of 
allies or coalition partners. America's Army is a busy Army. On any 
given day in 1997, the Army had on average over 31,000 Active and 
Reserve soldiers and civilians deployed in over 70 countries. In May, 
we were deployed to over 100 countries for the first time in Army's 
history. Soldiers who were deployed on contingency deployments, 
operational deployments, and non-local training exercises were away 
from their home stations for an average of 197 days in fiscal year 
1997.
    Supporting the increased tempo of the post-Cold War requires a 
Total Army effort. In Bosnia, approximately 25 percent of the Army 
forces are from the Army Reserve and National Guard. A civilian 
contingent also provides needed support to our Army in Bosnia. Reserve 
Component soldiers also augmented active duty soldiers in Macedonia, 
participated in a wide range of training deployments and exercises, and 
provided essential backfill to critical support functions in Germany to 
replace Active units that were deployed elsewhere. In day-to-day 
operations abroad and at home, the collective efforts of Active, Guard, 
Reserve and civilian members contribute to the success of the Total 
Army.
    In order to continue to undertake our diverse missions, it is 
imperative that we achieve a predictable environment in the Army. To 
successfully meet these increasing operational commitments while 
simultaneously maintaining readiness, we require stability--in force 
structure, quality of life, installations and funding available to 
carry out our missions.
    An imperative to maintaining a trained and ready Army is taking 
care of our soldiers and families. People are the defining 
characteristic of a quality force and are the overarching nucleus of 
our Army. Our numerous and diverse operations require soldiers who are 
skilled, well-trained and well-led. They must be capable of adapting to 
complex, dangerous and ever-changing situations. High caliber quality 
of life programs are essential to ensuring that the Army continues to 
attract and retain the soldiers necessary to maintain the Total Army. 
We must continue to focus on issues important to these men and women 
who so bravely serve the nation. Programs like the Whole Barracks 
Renewal, Whole Neighborhood Revitalization, Army Family Action Plan and 
Army Communities of Excellence remain key in our focus.
    Now, I would like to discuss the Army's facilities strategy as we 
move toward the new millennium.
                          facilities strategy
    The Army's facilities vision is to provide comprehensive, adaptable 
power projection platforms with the quality facilities, infrastructure 
and services that are integral to the readiness of the force and the 
quality of life of our soldiers and their families, while protecting 
the environment.
    The Army's facilities strategy is threefold. First, because 
resources are limited, we must focus our investment on what is most 
important. To do this we must identify required facilities, 
infrastructure and services and then focus our resources on those to 
assure the desired level of readiness. Second, we must divest of all 
unneeded real property. Third, we must reduce the total cost required 
to support our facilities and related services, including maintenance 
of our real property inventory.
    As part of our effort to better focus our investment, we have 
developed a decision support tool, the Installation Status Report 
(ISR), Part One (Infrastructure) to help formulate and monitor our 
facilities strategy. We use it to assess the status of our facilities' 
condition. This identifies critical areas for consideration of resource 
allocation. Also, it assists in condition assessment of our facilities 
essential to the installation's mission and quality of life.
    We are reducing our requirement by rigorously eliminating excess 
facilities. Between our current facilities reduction program and base 
realignment and closure, we will eliminate over 200,000,000 square feet 
in the United States by 2003. We continue to demolish one square foot 
for every square foot constructed and will begin reducing our leasing 
costs significantly in fiscal year 1998. By 2003, with our overseas 
reductions included, the Army will have eliminated over 400,000,000 
square feet from its fiscal year 1990 peak of 1,157,700,000 square 
feet.
    We are looking for innovative ways to reduce the cost of our 
facilities, including privatization or competitive sourcing of certain 
functions. It is proving an effective solution for installation 
utilities systems. Our goal is to privatize all utility systems, except 
those needed for unique security reasons, where it is economically 
feasible by 2000. Privatization is also being considered to provide 
better housing for soldiers and their families while reducing the 
Army's inventory. Partnering with civilian communities around an 
installation to provide some facilities is also a viable alternative to 
Army owned facilities.
    Over the period 1999-2003, the Army plans to achieve over 
$1,000,000,000 in estimated savings from our Major Commands, with U.S. 
installations to provide additional resources for modernization and 
other high priorities. These reductions are based on estimated savings 
derived from performing A-76 cost competition studies of commercial 
activities comprising over 50,000 positions during fiscal years 1999-
2003. The Army's primary challenge is to accomplish these cost-
effective measures as soon as possible.
    At this time, I will discuss several of the highlights of the 
budget.
                   military construction, army (mca)
    Within our military construction request, we focus on four major 
categories of projects: mission facilities; quality of life projects; 
support programs such as infrastructure and environmental projects; and 
chemical demilitarization, for which the funding was transferred from 
the Military Construction, Defense account to the Military 
Construction, Army program as a result of the Defense Reform 
Initiative. I will now explain our request for each of these areas.
                           mission facilities
    In fiscal year 1999 there are nine mission facility projects 
totaling $112,450,000. Essential mission facilities include several 
initiatives such as the Army Strategic Mobility Program (ASMP), Close 
Combat Tactical Training (CCTT) facilities, and the relocation of the 
U.S. Southern Command from Panama.
    Army Strategic Mobility Program.--Fiscal year 1999 continues the 
upgrade of the strategic mobility infrastructure we started several 
years ago. This program ensures that we maintain the best power 
projection platforms to meet the mission of the Army.
    Fiscal year 1999 includes an upgrade to air deployment facilities 
at Fort Bragg, $30,000,000. We are requesting full authorization and 
advance appropriation of the railhead loading facility at Fort Hood, 
$32,500,000 with appropriations and authorization of appropriations for 
Phase I at $17,500,000. Also included are container and MILVAN loading 
and shipping facilities for McAlester Army Ammunition Plant, 
$10,800,000; Tooele Army Depot, $3,900,000; Anniston Army Depot, 
$3,550,000; Bluegrass Depot Activity, $5,300,000; and Phase 2 at Crane 
Army Ammunition Activity, $7,100,000.
    Close combat tactical trainers.--CCTT facilities leverage 
technology to enhance training and maintain readiness through a group 
of fully interactive, networked emulators and command, control and 
communications work stations. The first CCTT became operational in 1997 
and provides a long-term, cost-effective option to field exercises, 
thereby reducing our reliance on field exercises as the single method 
for combined arms training. The budget request includes one facility in 
fiscal year 1999 at Fort Lewis, $7,600,000. This request completes the 
CCTT construction program.
    Relocation of United States southern command.--The Panama Canal 
Treaty of 1977 mandates that all U.S. military forces relocate out of 
the Republic of Panama by December 31, 1999. Plans have been developed 
for the acquisition of the Miami facility for Headquarters, U.S. 
Southern Command (USSOUTHCOM) to ensure uninterrupted accomplishment of 
theater responsibilities. Based on current estimates, our fiscal year 
1999 budget requests $26,700,000 for the purchase of a headquarters 
building and land acquisition for force protection. Purchase of the 
building and land complies with the administration's position on 
acquisition of capital assets for the long term.
                        quality of life projects
    The Army remains committed to improving the quality of life of our 
soldiers and their families, since it has a dominant impact on the 
Army's readiness. Over 40 percent of the fiscal year 1999 request is 
for projects in this category. This substantial effort will maintain 
our goal to improve our unaccompanied living facilities by 2012. In 
CONUS, we will provide upgraded or new living facilities to our single 
personnel by the year 2008, while overseas, we will complete the 
renewal by 2012. Overseas, we are continuing our investment strategy to 
address long-standing shortfalls in both Korea and Europe. Our programs 
reflect significant funding levels for quality of life programs in line 
with the Department of Defense's emphasis in this area.
    Whole barracks renewal initiative.--The Army's Whole Barracks 
Renewal program provides funding for new construction and modernization 
projects. It represents our efforts to provide our single soldiers with 
a quality living environment, not just a place to live. We will provide 
more space, more privacy and a quality of life for our single soldiers 
that is comparable to living off the installation or that of our 
married soldiers. The Whole Barracks Renewal program includes personal 
privacy, larger rooms, closets, upgraded day rooms, centrally procured 
furnishings, additional parking, landscaping and administrative offices 
separated from the barracks. In fiscal year 1999, we are planning 
twelve projects totaling $306,857,000. This includes one project in 
Europe at $18,000,000 and four projects in Korea at $45,926,000 to 
address the substandard living conditions there. Our budget also 
expands and funds the completion of the Fort Sill barracks renewal 
complex, $20,500,000, that was authorized in fiscal year 1998. We are 
requesting an additional $3,500,000 authorization to complete the 
project due to an increased price estimate of the total cost to build 
the barracks complex.
    Child development centers.--Two child development centers (CDC) are 
requested in fiscal year 1999, one in Germany at $4,250,000, and the 
other in Belgium, $6,300,000. These facilities are currently located in 
a temporary, makeshift collection of prefabricated structures that are 
20 to 26 years old. The CDC's do not comply with minimum fire safety 
and health standards and cannot be modified to meet the standards. 
Constant and intense repair and maintenance are required to keep the 
facilities operational.
                            support programs
    Included in this area are those projects which provide vital 
support to installations and balance to the military construction 
program. In fiscal year 1999, we have requested fourteen projects 
totaling $163,450,000 in this budget area. Projects include three 
projects at Yakima Training Center--a central fuel facility, 
$3,950,000; a central vehicle washrack expansion, $4,650,000; and a 
road upgrade project to comply with the environmental mitigation plan, 
$2,000,000--to support stationing and training of the heavy brigade at 
Fort Lewis, WA. One project is requested for Fort Irwin: completion of 
the construction of a heliport at Barstow-Daggett for the National 
Training Center. The total cost of this project is $27,000,000; 
however, all but $7,000,000 is authorized and funded in prior years. 
Construction of the National Ground Intelligence Center at 
Charlottesville, VA, $46,200,000, is in fiscal year 1999. 
Appropriations and authorization of appropriations is requested for the 
first phase, $12,600,000, of a power plant for Kwajalein Atoll, with 
full authorization of $48,600,000 and advance appropriation of 
$36,000,000. Construction of the U.S. Army Disciplinary Barracks, begun 
in fiscal year 1998, continues with an authorization of appropriations 
and appropriations request for Phase II at $29,000,000 and a request 
for advance appropriations of $13,000,000 for the final phase in fiscal 
year 2000. Phase 2 of the Missile Software Engineering Annex, begun in 
fiscal year 1998, is also included. We are requesting appropriations 
and authorization of appropriations of $13,600,000 to complete the 
project.
    There are four other projects at Fort Leonard Wood, Fort Sill, Fort 
Detrick, Rock Island Arsenal for infrastructure and revitalization in 
the United States totaling $27,850,000. Now, let me discuss the project 
we have requested at the U.S. Military Academy.
    U.S. Military Academy.--Fiscal year 1999 requests funding for the 
first phase, $12,000,000, of the revitalization of the cadet physical 
development center at the U.S. Military Academy, West Point. In 
addition, the full authorization of $85,000,000 and advance 
appropriation of $73,000,000 is requested for this multi-year project. 
This project will revitalize through replacement the majority of the 
existing facility. The project will correct major deficiencies in fire 
and life safety codes, substandard conditions, and provide a facility 
to allow cadets to accomplish their physical development training 
requirements. This project is essential to execution of the training 
mission of the U.S. Military Academy.
                      ammunition demilitarization
    The Ammunition Demilitarization (Chem Demil) Program is designed to 
destroy the U.S. inventory of lethal chemical agents and munitions and 
related (non-stockpiled) material and provide for emergency response 
capabilities, while avoiding future risks and costs associated with the 
continued storage of chemical warfare material. The program supports 
the international initiatives to destroy chemical weapons of war. The 
Chem Demil program was established by the National Defense 
Authorization Act for 1986 (Public Law 99-145 as amended) which directs 
the Department of Defense to destroy the complete unitary chemical 
stockpile by April 29, 2007.
    In accordance with the recent Defense Reform Initiative Report, all 
program funding will be devolved from the Office of the Secretary of 
Defense to the Department of the Army beginning in fiscal year 1999. A 
total of $125,300,000 is included in the Army's fiscal year 1999 
appropriations and authorization of appropriations submission for this 
activity. In addition, advance appropriation of $418,050,000 is 
requested to complete the projects. Authorization for $404,777,000 is 
also required for the Chem Demil program which includes the balance of 
needed authorization for projects previously approved in prior years 
and full authorization for new projects.

Aberdeen Proving Ground, MD--Ammun Demil Support 
    Facility............................................      $1,850,000
Aberdeen Proving Ground, MD--Ammun Demil Facility.......      26,500,000
Newport Army Depot, IN--Ammun Demil Support Facility....       2,000,000
Newport Army Depot, IN--Ammun Demil Facility............      27,500,000
Pine Bluff Army Depot, AR--Ammun Demil Facility.........      16,500,000
Umatilla Army Depot, OR--Ammun Demil Facility...........      50,950,000
                          planning and design
    The fiscal year 1999 MCA budget includes $41,819,000 for planning 
and design. This request is based on the size of the two succeeding 
fiscal year military construction programs. The requested amount will 
be used to complete design on fiscal year 2000 projects and to initiate 
design on fiscal year 2001 projects. The size of the fiscal year 1999 
request is, therefore, a function of the fiscal year 2000 and fiscal 
year 2001 construction programs.
    Host Nation Support (HNS) Planning and Design (P&D).--The Army, as 
Executive Agent, provides HNS P&D for oversight of Host Nation funded 
design and construction projects. The U.S. Army Corps of Engineers 
oversees the design and construction to ensure the facilities meet our 
requirements and standards. The fiscal year 1998 Congressional 
reduction in HNS P&D is causing turmoil and necessitating the 
curtailment of oversight execution. Lack of oversight may result in an 
increase in design errors and construction deficiencies that will 
require U.S. dollars to rectify. Maintaining the funding level for this 
mission results in a payback where one dollar of U.S. funding gains $60 
worth of Host Nation construction. The fiscal year 1999 budget request 
for $20,450,000 will provide oversight for approximately $1 billion of 
construction in Japan, $100 million in Korea and $52 million in Europe. 
The budget includes $2,000,000 which is dedicated to the oversight of 
facilities associated with the Government of Japan (GOJ) funded 
initiative to consolidate and relocate U.S. Forces on Okinawa. The U.S. 
Government funding for this initiative is limited to $26.5 million over 
the next 11 years for costs associated with oversight of the design and 
construction of the facilities.
    Let me show you the analysis of our fiscal year 1999 request.
                        budget request analysis
    Summary.--The fiscal year 1999 MCA budget includes a request for 
appropriations of $790,876,000 and companion authorization of 
appropriations request of $790,876,000.
    Authorization request.--The request for authorization is 
$1,134,753,000. The appropriations request is reduced by the 
authorization from fiscal year 1998 to fund the second phase of the 
U.S. Disciplinary Barracks, $29,000,000; the Software Engineering Annex 
at Redstone Arsenal, $13,600,000; and the remainder of the Whole 
Barracks Renewal Complex at Fort Sill, $17,000,000. Additionally, it is 
reduced by $44,573,000 for the Umatilla Ammunition Demilitarization 
project, based on prior year authorization. The request was increased 
to provide full authorization of: $85,000,000 for the U.S. Military 
Academy project to replace the Cadet Physical Development Center (only 
$12,000,000 in appropriations is required for the first phase of this 
project); $48,600,000 for the Roi Namur Power Plant, with appropriation 
of $12,600,000 required for the first phase; $32,500,000 for the 
railhead loading facility at Fort Hood, with appropriations of 
$17,500,000 for Phase 1 in fiscal year 1999; $184,500,000 for the 
Aberdeen Proving Ground Ammunition Demilitarization project, with 
appropriations of $26,500,000; $189,550,000 for the Newport Army Depot 
Ammunition Demilitarization project, with appropriations of 
$27,500,000; and $20,500,000 for the Pine Bluff Army Depot Ammunition 
Demilitarization project, with an appropriations request of 
$16,500,000.
    The fiscal year 1999 request for appropriations for fiscal year 
1999, by investment focus, is shown in Table 1:

                TABLE 1.--INVESTMENT FOCUS APPROPRIATIONS
------------------------------------------------------------------------
                                                   Fiscal year
                    Category                          1999       Percent
                                                 appropriations
------------------------------------------------------------------------
Whole Barracks Renewal.........................    $306,857,000     38.8
Strategic Mobility.............................      78,150,000      9.9
Leadership Initiatives.........................      72,900,000      9.2
Environmental..................................       2,000,000      0.3
Critical Mission...............................     133,400,000     16.9
Planning and Design/Minor Construction.........      72,269,000      9.1
                                                ------------------------
      Subtotal Army MILCON.....................     665,576,000     84.2
Chemical Demilitarization......................     125,300,000     15.8
                                                ------------------------
      Total program............................     790,876,000    100.0
------------------------------------------------------------------------

    Table 2 shows the fiscal year 1999 distribution of the 
appropriations request among the Army's major commands.

          TABLE 2.--COMMAND SUMMARY MILITARY CONSTRUCTION ARMY
------------------------------------------------------------------------
                                                   Fiscal year   Percent
                    Command                           1999          of
                                                 appropriations   total
------------------------------------------------------------------------
Inside the United States:
    Forces Command.............................     174,500,000     22.1
    Training and Doctrine Command..............     119,831,000     15.2
    U.S. Army, Pacific.........................      47,500,000      6.0
    Army Materiel Command......................     174,850,000     22.1
    Medical Command............................      25,350,000      3.2
    Intelligence and Security Command..........      46,200,000      5.8
    U.S. Army, South...........................      26,700,000      3.4
    USMA.......................................      12,000,000      1.5
    Classified Project.........................       4,600,000      0.6
                                                ------------------------
      Subtotal.................................     631,531,000     79.9
                                                ========================
Outside the United States:
    Space and Missile Defense Command..........      12,600,000      1.6
    Eighth, United States Army.................      45,926,000      5.8
    United States Army, Europe.................      28,550,000      3.6
                                                ------------------------
      Subtotal.................................      87,076,000     11.0
                                                ========================
      Total major construction.................     718,607,000     90.9
                                                ========================
Worldwide
    Planning and Design........................      62,269,000      7.9
    Minor Construction.........................      10,000,000      1.2
                                                ------------------------
      Subtotal.................................      72,269,000      9.1
                                                ========================
      Total appropriations requested...........     790,876,000    100.0
------------------------------------------------------------------------

    Advance appropriation.--With full authorization, a single contract 
can be awarded. Advance appropriations allows the Army to construct all 
phases of a project as a continuous project and minimizes any impact to 
the contractor due to the incremental funding. With advance 
appropriations, the contract will not define the work to be performed 
by the contractor, but only limit the work by the amount appropriated 
in a given year. Advance appropriations of $555,050,000 are requested 
for: the U.S. Disciplinary Barracks, $13,000,000; the Roi Namur Power 
Plant, $36,000,000; the Fort Hood Railhead facility, $15,000,000; and 
the Cadet Physical Development Center, $73,000,000. Also included in 
the advance appropriations request are four Chem Demil projects at 
$418,050,000.
    Table 3 provides a summary of the request for Authorization and 
Advance Appropriations.

                                               TABLE 3.--AUTHORIZATION AND ADVANCE APPROPRIATIONS REQUEST
                                                                 [In million of dollars]
--------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                   Appropriation              Advance appropriations                   Authorization
                                                                        and      -----------------------------------------------------------------------
                                                                   authorization             Fiscal year--
                                                                    fiscal year  ------------------------------------    Total    Prior year    Request
                                                                        1999         2000        2001        2002
--------------------------------------------------------------------------------------------------------------------------------------------------------
Project:
    Redstone: Software Engr Anx..................................        13.600   ..........  ..........  ..........  ..........  \1\ 27.000  ..........
    Fort Sill: Barracks Complex..................................        20.500   ..........  ..........  ..........  ..........  \2\ 25.000       3.500
    Fort Leavenworth: USDB.......................................        29.000       13.000  ..........  ..........      13.000  \3\ 63.000  ..........
    Fort Hood: Railhead Fac......................................        17.500       15.000  ..........  ..........      15.000  ..........      32.500
    West Point: Cadet PDC........................................        12.000       29.000  ..........      44.000      73.000  ..........      85.000
    Kwajalein: Power Plant.......................................        12.600       36.000  ..........  ..........      36.000  ..........      48.600
Chem Demil:
    Umatilla Facility............................................        50.950        9.000  ..........  ..........       9.000     187.000       6.377
    Pine Bluff Facility..........................................        16.500       72.000      17.000  ..........      89.000     134.000      20.500
    Aberdeen Facility............................................        26.500       58.500      85.000      14.500     158.000  ..........     184.500
    Newport Facility.............................................        27.500       60.750      87.500      13.800     162.050  ..........     189.550
                                                                  --------------------------------------------------------------------------------------
      Totals.....................................................       293.250      189.500      72.300     555.050  ..........  ..........  ..........
--------------------------------------------------------------------------------------------------------------------------------------------------------
\1\ $13 million was appropriated in fiscal year 1998.
\2\ $8 million was appropriated in fiscal year 1998.
\3\ $20 million was appropriated in fiscal year 1998.

    Now, I will explain our Army Family Housing request.
                          army family housing
    No single quality of life component matches the importance of 
proper housing for Army soldiers and families. The family housing 
program provides a major incentive necessary for attracting and 
retaining dedicated individuals to serve in the Army. Yet, adequate 
housing continues to be the number one soldier concern when we ask them 
about their quality of life. Out-of-pocket expenses for soldiers living 
off post in the U.S. are approximately 20 percent of the total cost of 
their housing. Maintaining or finding adequate, quality housing for our 
soldiers and families is one of the Army's continuing challenges.
    In an effort to manage our installation family housing program in a 
more business-like manner, the Army implemented the Business Occupancy 
Program. Under the terms of this program, family housing operating 
funds are allocated to our installations on the basis of housing units 
occupied rather than the total number of units in their inventory. This 
provides an incentive to more effectively and efficiently manage 
occupancy, since installation funding is now directly related to the 
number of units occupied. We have already seen an increase in occupancy 
rates. Army-wide average occupancy has increased from 86 percent when 
the program started in October 1995, to 89 percent at the end of 
September 1997, a 3-percent increase in two years.
    The authorities included in the 1996 Military Housing Privatization 
Initiative [called Capital Venture Initiative (CVI) in the Army] offer 
the best hope of revitalizing Army family housing and eliminating the 
deficit in the United States. These authorities allow the Army to 
leverage housing appropriated funds and owned assets to gain private 
sector capital and expertise to operate, manage, repair, improve, and 
construct family housing. Fort Carson, CO, is the Army's first CVI 
project. Our plan is to use these authorities wherever feasible and 
economical in the United States. We are applying lessons learned from 
the Fort Carson project in the development of 26 additional family 
housing privatization projects. However, CVI authorities do not apply 
overseas, nor could they because we do not own the land or houses to 
leverage as we do in the United States. Therefore, we have submitted a 
legislative proposal to pilot an Overseas Housing Authority (OHA) to 
help revitalize our overseas family housing. Analyses show that both of 
these efforts, CVI and OHA, can solve our Army family housing problems 
within 5-10 years, compared to 130-plus years under the current system.
    Our fiscal year 1999 request for appropriations is $1,208,173,000, 
while the authorization request is $1,209,812,000. This difference is 
due to funding several projects with prior year funds. Our request 
includes $103,440,000 for a modest replacement construction program for 
units no longer economical to revitalize, a modest revitalization 
program for our aging housing inventory, and a planning and design 
program for future construction projects. Funding for the annual costs 
of operating, maintaining, and leasing family housing in fiscal year 
1999 is $1,104,733,000.
    Table 4 summarizes each of the categories of the Army Family 
Housing program.

                                 TABLE 4.--ARMY FAMILY HOUSING, FISCAL YEAR 1999
----------------------------------------------------------------------------------------------------------------
                                                                    Authorization            Appropriations
                      Facility category                      ---------------------------------------------------
                                                                  Amount       Percent      Amoutn       Percent
----------------------------------------------------------------------------------------------------------------
New Construction............................................      70,100,000         6      68,461,000         6
Post Acquisition Const......................................      28,629,000         2      28,629,000         2
Planning and Design.........................................       6,350,000        <1       6,350,000        <1
Operations..................................................     184,254,000        15     184,254,000        15
Utilities...................................................     250,407,000        21     250,407,000        20
Maintenance.................................................     467,914,000        39     467,914,000        39
Leasing.....................................................     202,155,000        17     202,155,000        17
Debt........................................................           3,000        <1           3,000        <1
                                                             ---------------------------------------------------
      Total.................................................   1,209,812,000  ........   1,208,173,000  ........
----------------------------------------------------------------------------------------------------------------

                   whole neighborhood revitalization
    The fiscal year 1999 request continues the initiative the Congress 
approved in fiscal year 1992 to revitalize both the housing unit and 
the entire living environment of the military family. The Whole 
Neighborhood Revitalization Program (WNR) provides for systematically 
upgrading and repairing the existing housing inventory while 
concurrently improving neighborhood amenities. The projects recommended 
for this program are based on life-cycle economic analyses and will 
provide units which meet adequacy standards. The combination of 
replacement and post-acquisition construction in fiscal year 1999 
provides for annual worldwide investment that is on an average 130-year 
replacement cycle, versus a 35-year replacement cycle, based on 
industry standards. The fiscal year 1999 Construction Program includes 
about $4,000,000 from unobligated prior year funds.
    New construction.--The fiscal year 1999 new construction program 
provides WNR projects that replace 506 units at four locations where 
there is a continuing requirement for the housing and it is more 
economical to replace than renovate current housing. This replacement 
construction, which includes the supporting infrastructure, ensures 
that adequate housing is available for our soldiers and their families 
without adding to the current inventory. At each location, the housing 
being replaced will be demolished. Each project is supported with a 
housing survey showing that adequate and affordable units are not 
available in the community.
    Post acquisition construction.--The Post Acquisition Construction 
program is an integral part of our housing revitalization program. In 
fiscal year 1999, we are requesting funds for improvements to 514 units 
at two locations in the United States and two locations in Europe. Also 
included within the scope of each of these projects are efforts to 
improve supporting infrastructure and energy conservation, and to 
eliminate environmental hazards.
                       operations and maintenance
    The operations, utilities, maintenance and leasing programs 
comprise the majority of the fiscal year 1999 budget request. The 
requested amount of $1,104,733 for 1999 is nearly 92 percent of the 
family housing request. This budget provides for the Army's annual 
expenditures for operations, municipal-type services, furnishings, 
maintenance and repair, and utilities. The level of funding is below 
the level needed to protect the Army's investment of the family housing 
inventory.
    The family housing utilities request reflects our success in 
reducing our energy consumption and supports the Army's energy 
conservation goal of a one and one half percent reduction in overall 
facility energy requirements.
                                leasing
    The leasing program provides another way of adequately housing our 
military families. We are requesting $202,155,000 in fiscal year 1999 
to fund existing Section 2835 project requirements, temporary domestic 
leases in the United States, and nearly 10,497 units overseas.
    The Army's total leasing program request supports approximately 
14,600 units in fiscal year 1999 to satisfy requirements in the United 
States, Europe, Korea, and other locations. These are our high priority 
locations where providing flexible family housing solutions is 
essential to improving the quality of life of our families.
                       real property maintenance
    The third area in the facilities arena is the Real Property 
Maintenance (RPM) program. RPM is the primary account in installation 
base support funding responsible to maintain the infrastructure to 
achieve a successful readiness posture for the Army's fighting force. 
Installations are the power projection platforms of America's Army and 
must be properly maintained in the present condition to be ready for 
the support of current Army missions and any future deployments. The 
appropriations for this program are provided as a part of the Defense 
Appropriations bill.
    RPM consists of two major functional areas. The Maintenance and 
Repair of Real Property account pays to repair and maintain buildings, 
structures, roads and grounds, and utilities systems. The Minor 
Construction account pays for projects under $1 million which are 
intended solely to correct a life, health, or safety deficiency. It 
also funds projects under $500,000 per project for the erection, 
installation or assembly of a new facility, and for the addition, 
expansion, or alteration of an existing facility.
    Within the RPM program, there are two areas which I would like to 
highlight. The first is our Barracks Upgrade Program (BUP). At the 
completion of the fiscal year 1998 program, 48 percent of our 
requirement for permanent party barracks will meet or approximate the 
new Department of Defense (DOD) 1+1 barracks standard, 27 percent must 
still be revitalized or replaced through our Whole Barracks Renewal 
Program using Military Construction funding, while 25 percent can be 
modified to an approximate 1+1 standard using RPM resources. In fiscal 
year 1998, Congress provided the Army an additional $100 million in 
Quality of Life Enhancements, Defense (QOLE,D) funding for repair of 
facilities key to improving the quality of life of our soldiers. We 
have allocated all of these funds to bring more of our VOLAR era 
barracks inventory to the 1+1 standard within the Barracks Upgrade 
Program. Starting this fiscal year and through the completion of the 
program, the Army committed approximately $150 million per year to 
continue the efforts to upgrade our single soldiers' quality of life. 
The Barracks Upgrade Program, when combined with the Whole Barracks 
Renewal program, is reducing significantly the amount of time required 
to improve the living conditions of our single soldiers to the current 
DOD standard. We expect that all barracks for permanent party soldiers 
will have been revitalized or replaced by the year 2012.
    The second area is our long range strategy to provide reliable and 
efficient utility services at our installations. As discussed earlier, 
privatization of utilities is the first part of our strategy. We are 
maximizing our efforts to partner with the local communities' utility 
departments and private utility companies to provide utility services 
that are more efficient and reliable. We have already successfully 
transferred eleven utility systems to the private sector at nine 
installations. Additionally, seventeen other utility systems are 
currently in the process of being transferred and over one hundred 
systems are currently under study for privatization. The second part of 
the strategy is the utilities modernization program to help upgrade 
those utility systems that will not be privatized such as central 
heating plants and distribution systems. We have requested $60,000,000 
for utility modernization projects in fiscal year 1999. Utility systems 
at unique or remote installations are particularly reliant on these 
modernization projects. We are also funding energy saving projects 
which will further improve our energy efficiency. We have allocated 
$40,000,000 per year for this effort to assist us in reducing our $1 
billion utility bill.
                  homeowners assistance fund, defense
    The Army is the executive agent for the Homeowners Assistance 
Program. This program provides assistance to homeowners by reducing 
their losses incident to the disposal of their homes when the military 
installations at or near where they are serving or employed are ordered 
to be closed or the scope of operations reduced. The fiscal year 1999 
request is for appropriations of $12,800,000, along with a companion 
request for authorization and authorization of appropriations for the 
same amount.
    The request will provide assistance to personnel at approximately 
25 locations that are impacted with either a base closure or a 
realignment of personnel resulting in adverse economic effects on local 
communities. The Homeowners Assistance Program is funded not only from 
the resources being requested in this budget, but is also dependent, in 
large part, on the revenue earned during the fiscal year from the sale 
of properties.
                                summary
    Mr. Chairman, our fiscal year 1999 budget for military construction 
and Army family housing is an essential part of the total Army program 
to balance all Army programs affecting readiness and the support of our 
personnel. Our strategy can only be achieved through balanced funding, 
divestiture of excess capacity and improvements in management. We will 
continue to work toward maintaining the maximum flexibility for our 
installation commanders to use the resources available to them, to 
maintain maximum readiness and to provide the needed support and 
facilities. We will also continue to streamline, consolidate and 
establish community partnerships that generate resources for 
infrastructure improvements and continuance of services.
    The fiscal year 1999 request for authorization of appropriations 
for Military Construction Army and Army Family Housing is 
$1,999,049,000 and $12,800,000 for the Homeowners Assistance Program. 
With approval of this request, we will continue to: improve our 
strategic mobilization posture, provide environmental compliant 
facilities, provide additional adequate housing for soldiers and their 
families, and meet statutory and regulatory requirements. This request 
will also provide for family housing leasing and operation and 
maintenance of the current inventory. Thank you for your continued 
support for Army facilities funding.
          part ii--military construction, army national guard
    Next, I will present the Army National Guard's Military 
Construction program for fiscal year 1999.
    The Guard's fiscal year 1999 request for military construction 
appropriation of $47,675,000 includes $42,581,000 for major 
construction, $4,548,000 for planning and design and $546,000 for 
unspecified minor construction. The companion request for authorization 
and authorization of appropriations is the same as the appropriation 
request.
    The Army National Guard is America's community based, dual-use 
reserve force, ``a trained and ready Citizen-Army,'' and, by statute, 
an integral part of the first line defense of the United States. The 
National Guard is manned with over 364,000 quality soldiers in over 
2,700 communities nationwide.
    Greater reliance is placed on this community based component of 
America's Army. We are fully engaged in joint operational support, 
nation building, military-to-military contact with emerging 
democracies, and preventive deterrence to hedge against aggression. The 
Army National Guard's equally vital role is providing assistance and 
support to our 54 States and Territories during domestic and community 
support missions. We have been an active participant in every major 
American conflict around the world. Last year we deployed 25,000 
soldiers to 70 different countries, as well as provided 285,000 Federal 
man-days of emergency services to the States.
                          facilities strategy
    The goal of the Army National Guard is to provide state-of-the-art, 
community based facilities that facilitate communications, operations, 
training and equipment maintenance in which to station, sustain, and 
deploy the force. By the end of the decade, our objective is to have 
the maximum number of units that are manned, trained, equipped, 
resourced and missioned for Federal as well as State and/or domestic 
requirements.
    In order for the Army National Guard to ensure that it will 
continue to be able to provide the forces needed to meet the needs of 
the community, the Army, and the nation, it is a necessity that we have 
quality facilities. To reach this goal, we intend to design, implement, 
operate, and maintain our facilities using private sector standards, 
21st century technologies, and commercially available, off-the-shelf 
facilities software. This is a comprehensive program including but not 
limited to:
    Education.--An extensive training program for our facilities 
managers' career field has been established. We want to ensure that 
these soldiers have the tools to meet our objectives.
    Master planning.--Six States adopted a new Statewide master 
planning initiative in fiscal year 1997. This system will provide the 
user with a spatial decision support system which uses a geographic 
information system and computer automated design technology. An 
additional 12 States are planned to be on-line each year until all 54 
States and Territories have completed their Master Plans by 2001.
    Energy management.--State-of-the-art energy efficient facilities 
are being constructed. We are also upgrading existing facilities to 
current energy efficiency standards by funding energy projects from 
current operating funds, using Energy Savings Performance contracts, 
developing Energy Conservation Investment Program projects, and 
implementing energy improvement projects funded by utility companies. 
We manage an active energy audit program performing audits in seven to 
eight States per year. The plan calls for each State to train an energy 
manager and empower them to execute an aggressive energy management 
program.
    Data analysis.--In fiscal year 1997 we began the implementation of 
computerized systems that allowed cost analysis of budget projections. 
The end product is an Army National Guard installations program focused 
on the future, investing to provide efficiencies and not just to repair 
past mistakes. This is reflected in our fiscal year 1999 budget 
request.
           military construction, army national guard (mcng)
    Within our military construction request, we focus on six 
investment areas: ranges, training facilities, maintenance support 
shops, readiness centers, minor construction, and planning and design. 
These projects are mission focused and are centered on the quality of 
life of our soldiers.
                           mission facilities
    In fiscal year 1999 there are nine mission facility projects, 
totaling $42,581,000. Essential mission facilities include several 
initiatives such as readiness centers, training site modernization and 
maintenance facility revitalization.
    Training site modernization.--Fiscal year 1999 continues the slow 
process of adapting existing State operated training sites to training 
strategies for the 21st century. We have included an additional remote 
electronic targetry system range, $1,023,000, at Camp Ripley, 
Minnesota. This project greatly enhances the utilization and realism of 
the Camp Ripley range complex and will permit year round training in 
all types of weaponry for soldiers of all components in all Services.
    Maintenance facility.--In fiscal year 1999 we have included two 
revitalization projects, and one replacement project to continue the 
revitalization of Army National Guard maintenance facilities. In 
particular, we will replace a Combined Support Maintenance Shop (CSMS) 
at Papago Park Military Reservation, Arizona. The current CSMS, built 
in 1961, is one-third the size needed to accommodate the State's 
military equipment. It also requires extensive upgrades to electrical 
and mechanical systems. The construction of this facility will greatly 
enhance the readiness posture of equipment in the State, and will 
provide a safe working environment for employees. In addition, the 
State, using their own funds, plans to convert the existing facility 
into a Readiness Center for one of their maintenance units.
    Readiness centers.--A critical focal point of Quality of Life is 
the Readiness Center. This is where America may have its first and only 
exposure to the military. The Readiness Center of yesterday, today and 
tomorrow is a place where the public seeks and finds refuge in times of 
need. Therefore, in fiscal year 1999, we have included in our budget 
request three readiness centers, two new facilities and one addition/
alteration, totaling $11,124,000.
                        budget request analysis
    This MCNG budget request includes a request for appropriation and 
authorization of $47,675,000 in fiscal year 1999.
    The fiscal year 1999 appropriations request, by investment focus, 
is shown in Table 1:

                TABLE 1.--INVESTMENT FOCUS APPROPRIATIONS
------------------------------------------------------------------------
                    Category                     Appropriations  Percent
------------------------------------------------------------------------
Ranges.........................................      $1,023,000      2.2
Maintenance Support Shops......................      24,262,000     50.9
Readiness Centers..............................      11,124,000     23.3
Training Facilities............................       6,172,000     12.9
Minor Construction.............................         546,000      1.2
Planning and Design............................       4,548,000      9.5
                                                ------------------------
      Total....................................      47,675,000    100.0
------------------------------------------------------------------------

    Table 2 shows the fiscal year 1999 distribution of the 
appropriation request:

------------------------------------------------------------------------
                                    Project--Fiscal year
        Installation/State           1999 funded program   Budget amount
------------------------------------------------------------------------
                                    Major construction..     $42,581,000
                                                         ===============
PHOENIX, AZ.......................  COMBINED SUPPORT          10,640,000
                                     MAINTENANCE SHOP.
CAMP DODGE, IA....................  TNG SITE, FUEL               737,000
                                     DISPENSING FAC.
GOWEN FIELD, ID...................  READINESS CENTER,          4,224,000
                                     ADD/ALT.
GREENVILLE, KY....................  WESTERN KENTUCKY TNG       5,435,000
                                     SITE, PH IV/V.
CAMP RIPLEY, MN...................  RANGE, MULTI-PURPOSE       1,023,000
                                     MACHINE GUN/SNIPER
                                     (RETS).
BISMARCK, ND......................  ARMY AVIATION
                                     SUPPORT FACILITY/
                                     READINESS CENTER
                                     ADD/ ALT...........       6,240,000
LEXINGTON, OK.....................  ARMY AVIATION              7,382,000
                                     SUPPORT FACILITY
                                     EXPANSION.
POWHATAN, VA......................  READINESS CENTER....       2,435,000
KINGWOOD, WV......................  READINESS CENTER....       4,465,000
VARIOUS...........................  UNSPECIFIED MINOR            546,000
                                     CONSTRUCTION.
VARIOUS...........................  PLANNING AND DESIGN.       4,548,000
                                                         ---------------
                                          TOTAL FUNDED..      47,675,000
------------------------------------------------------------------------

                       real property maintenance
    The States will continue to prudently manage their existing 
facilities, despite the challenges of age and shrinking real property 
support funding. They are committed to executing the programs you 
authorize as expeditiously and as efficiently as possible. Facilities 
built during the last decade have played major roles in meeting force 
structure changes, accomplishing quality training, maintaining 
readiness, and improving soldier quality of life.
    The operation and maintenance of our physical plant is an issue of 
concern. The replacement value of all National Guard facilities exceeds 
$18 billion. Their average age is 35 years. States take care of these 
facilities using the limited resources in Real Property Maintenance 
accounts, as authorized and appropriated by Congress.
    They do so, however, in a way appropriate to their unique Federal/
State status. The National Guard Bureau does not own, operate, or 
maintain these facilities. The States, Territories, and Commonwealths 
perform these functions. The National Guard Bureau transfers to the 
States money that Congress authorizes and appropriates for this 
purpose. This money supports critical training, aviation and logistical 
facilities. For almost half of these facilities, the States, 
Territories and Commonwealths must contribute at least 25 percent of 
operations and repair costs.
    The States, Territories, and Commonwealths then pay the utility 
bills, hire those reimbursed employees necessary to operate and 
maintain these facilities, buy the supplies necessary for operations 
and maintenance, and contract for renovation and construction projects. 
They also lease facilities when required. The Construction and Facility 
Management Offices are making a herculean effort to operate and 
maintain all National Guard facilities.
                                summary
    The National Guard is a critical part of America's Army. Today's 
challenges are not insurmountable and the National Guard will continue 
to provide the best facilities with the resources made available. The 
soldiers of the Army National Guard wish to express their appreciation 
for the efforts that this subcommittee has made in the past to support 
our requirements. We look forward to working with you this year.
             part iii--military construction, army reserve
    Next, I will present the Army Reserve's military construction 
budget request for fiscal year 1999. This budget provides essential 
military construction resources to address the Army Reserve's highest 
priority projects, and it will allow the Army Reserve to continue to 
successfully operate in a resource constrained environment.
    The Army Reserve, which is on duty in 80 countries around the 
world, is an integral part of, and an essential and relevant partner 
in, America's Army. This fact is clearly evidenced by the fact that 
Army Reserve units and personnel currently comprise 71 percent of the 
Reserve Component forces and 29 percent of the total United States 
Armed Forces Operation Joint Guard. In addition to relying on Reserve 
forces to deploy and support major worldwide contingencies and 
warfighting, the Army is increasingly dependent on its Army Reserve for 
support of a wide variety of daily, ongoing missions at home and abroad 
during peacetime, including an expanding role in commanding and 
controlling Army installations and providing regional base operations 
support. Army Reserve units and soldiers will continue to respond to 
national security needs and domestic missions into the 21st century. To 
ensure readiness, we must have the minimum essential facilities 
resources in which to train, support, and sustain our forces.
                          facilities strategy
    The organization, roles, and missions of the Army Reserve dictate 
the need for a widely dispersed inventory of facilities. It occupies 
about 1,300 facilities, consisting of more than 2,800 buildings and 
structures that have an average age of about 33 years. Army Reserve 
operated installations add another 2,600 buildings and structures to 
the total inventory. The average age of facilities on these 
installations is about 47 years.
    In order to effectively carry out its stewardship responsibilities 
toward the facilities inventory, the Army Reserve has adopted 
priorities and strategies that guide the application of resources. The 
essence of our program is straightforward: to provide essential 
facilities to improve readiness and quality of life, to preserve and 
enhance the Army's image across America, and to conserve and protect 
the facilities resources for which we are responsible. Our priorities 
are: provide critical mission needs of Force Support Package units; 
address the worst cases of facilities deterioration and overcrowding; 
pursue modernization of the total facilities inventory; and carefully 
manage Reserve-operated installations. Our strategy for managing the 
Army Reserve facilities and installations in a resource constrained 
environment rests on six fundamentals: eliminate leases; dispose of 
excess facilities; consolidate units into the best available 
facilities; use Base Realignment and Closure (BRAC) enclaves where 
practical; use the new Modular Design System (MDS) to achieve long-term 
cost savings in construction and design costs; and finally, to pursue 
economies and efficiencies in installation management, base operations 
support, and facilities engineering.
                           program highlights
    Readiness.--Army Reserve construction program requirements are 
quite different from those of the Active Army. Army Reserve forces are 
community based, not installation based, requiring that forces and 
facilities be dispersed in hundreds of cities and towns across the 
Nation. This dispersion of forces and facilities reduces the 
opportunities for regional consolidation and wholesale reductions in 
facilities inventory. Facilities must be located in the communities 
where soldiers live and where their units are based. They must be 
sufficient to meet the readiness training requirements of the units 
stationed in them. Reserve facilities serve as locally based extensions 
of the Army's power projection platforms by providing essential and 
cost effective places to conduct training, maintenance, storage of 
contingency equipment and supplies, and preparation for mobilization 
and deployment that simply cannot be accomplished elsewhere. Reserve 
operated installations support mission essential training for thousands 
of soldiers each year.
    Quality of life.--Quality, well maintained facilities provide Army 
Reserve units with the means to conduct necessary individual and 
collective training, to perform operator and unit maintenance on 
vehicles and equipment, and to secure, store, and care for 
organizational supplies and equipment. These facilities also provide 
other important benefits. Fully functional and well maintained training 
centers have a positive impact on recruiting and retention, unit 
morale, and the readiness of the full-time support personnel who work 
in the facilities on a daily basis. In addition to supporting the 
quality of life of units and support staffs, Reserve facilities project 
an important and lasting image of America's Army in the local 
community.
    Modernization.--The plant replacement value (PRV) of Army Reserve 
facilities is approximately $3.6 billion and an additional $1.9 billion 
for Army Reserve operated installations. The budget request for fiscal 
year 1999 addresses the Army Reserve's highest priorities for 
modernizing and revitalizing the inventory and for providing new 
facilities in response to new and changing missions.
    Installations and base support.--The Army Reserve continues to 
undergo significant change as America's Army continues to shape itself 
for the 21st century. One of these changes is the growing mission to 
command and control former Active Army installations. These 
installations serve as high quality, regional training sites for forces 
of both the Reserve and Active Components of the Army, as well as the 
other Services; provide sites for specialized training; and offer a 
variety of supporting facilities. To fulfill this important mission, we 
must be able to fund projects that support critical training, 
mobilization, and quality of life requirements at the installations. 
The Army Reserve's military construction program for fiscal year 1999 
includes two projects at Fort McCoy, WI, one of the Army's 15 power 
projection platforms. These projects directly support training and 
readiness of the force, aircraft operations and safety, and improved 
quality of life for hundreds of students who train at the Army Reserve 
Readiness Training Center each year. The Army Reserve is also assuming 
greater responsibilities nationwide in managing base support operations 
and facilities engineering activities, using the command, control, and 
management capabilities of its Regional Support Commands. This mission 
reinforces the Army Reserve's relevance and value to the total Army as 
a provider of combat service support and other essential infrastructure 
support in both peacetime and wartime.
                        budget request analysis
    The Military Construction, Army Reserve (MCAR) budget for fiscal 
year 1999 includes requests for appropriation and authorization of 
appropriations of $71,287,000. This budget request for fiscal year 1999 
provides essential funds for our highest priority requirements, and it 
is in line with our commitment to operate successfully in an 
environment of constrained resources. It also reflects the realities of 
maintaining near term force readiness and still meeting critical 
requirements for military construction that directly support that 
readiness. The MCAR appropriation includes three categories of funding: 
Major Construction, Unspecified Minor Construction, and Planning and 
Design.
    (1) Major construction.--These funds provide for essential 
construction, revitalization, expansion, alteration, or conversion of 
facilities, and for land acquisition, when required. For fiscal year 
1999, our requests for appropriation and authorization of 
appropriations of $71,287,000, will fund the construction of three new 
Army Reserve centers in Michigan, Utah, and Virginia to accomplish 
essential facility replacements; an Aviation Support Facility in 
Virginia that supports new mission requirements; revitalization of 
existing facilities in Colorado, Massachusetts, and New York; purchase 
of an existing leased facility in Ohio; land acquisition to support a 
future project; and two projects at Fort McCoy, WI: construction of a 
crash rescue station at the airfield and construction of an improved 
machine gun range.
    (2) Unspecified minor construction.--These funds provide for 
construction of projects not otherwise authorized by law, and which 
have a funded cost of less than $1,500,000. Unspecified minor 
construction may include construction, alteration, or conversion of 
permanent or temporary facilities. This program provides an important 
means to accomplish small projects that are not now identified, but 
which may arise during the fiscal year, and that must be accomplished 
to satisfy critical but unforeseen mission requirements. Based on the 
availability of unobligated prior year funds, the Army Reserve has 
adjusted its budget request for fiscal year 1999 to include no funds 
for unspecified minor construction.
    (3) Planning and design.--These funds provide for a continuous, 
multi-year process of designing construction projects for execution in 
the budget years and beyond. Planning and design activities include the 
preparation of engineering designs, drawings, specifications, and 
solicitation documents necessary to execute major and unspecified minor 
construction projects. Planning and design funds are also required to 
support the Army Reserve's share of the costs of the continued 
development of the Modular Design System as an effective and cost and 
time saving facility design tool. Our budget request for planning and 
design is $7,368,000 for fiscal year 1999.
    Real property maintenance (RPM).--Another important issue that is 
directly linked to the Army Reserve's overall ability to be good 
stewards of its facilities and installations, is that of funding for 
real property maintenance (RPM). Although provided separately by the 
Operation and Maintenance Army Reserve (OMAR) appropriation, these 
funds complement military construction (MILCON) funds to round out the 
Army Reserve's total resources to manage its facilities inventory. 
Long-term resource constraints in both military construction and real 
property maintenance have a combined effect of increasing the rates of 
aging and deterioration of our valuable facilities and infrastructure. 
We are applying available resources to only the most critical 
maintenance and repair needs. We solicit your support of real property 
maintenance as an essential adjunct of construction.
                                summary
    In summary, as the national military strategy has changed to meet 
the challenges of the next century, the Army Reserve will grow in its 
importance and relevance in the execution of that strategy. The men and 
women of the Army Reserve have consistently demonstrated that they can 
respond to the missions and challenges assigned to them. Our Reserve 
facilities and installations are valuable resources that support force 
readiness and power projection, while serving as highly visible links 
between America's Army and America itself. We are grateful to the 
Congress and the Nation for the support you have given and continue to 
give to the Army Reserve and our most valuable resource, our soldiers.
              part iv--base realignment and closure (brac)
                              introduction
    Our facilities strategy strives to meet the needs of today's 
soldiers while also focusing on the changes required to support the 
Army of the 21st century. To do this we identify the amount of 
infrastructure we need in order to focus our resources on modernization 
and readiness. The Army requires fewer facilities than we are currently 
maintaining. We must reduce the total cost required to support our 
facilities and manage and maintain our real property inventory. The 
principal way this is being accomplished is through BRAC. Although the 
Army is reducing its infrastructure considerably, more reductions are 
necessary. Therefore, we support the Secretary of Defense's request for 
two additional rounds of BRAC in 2001 and 2005.
    The BRAC process has proven to be the only viable method to 
identify and dispose of excess facilities. The Army is in the process 
of closing 112 installations and realigning an additional 27 from the 
first four rounds of BRAC. We are now in the final third of the 13 year 
process to implement these first four rounds. By implementing BRAC, the 
Army is complying with the law, while saving money that would otherwise 
support unneeded overhead. These closed assets are now available for 
productive reuse in the private sector.
    BRAC savings do not come immediately because of the up front costs 
for implementation and the time it takes to close and dispose of 
property. The resulting savings are not as substantial as originally 
anticipated because potential land, facilities and equipment revenues 
are being made available to support local economic opportunities that 
create jobs and expand the tax base. Environmental costs are 
significant and are being funded up front to facilitate economic 
revitalization. The remaining challenges that lie ahead are 
implementing the final round, BRAC 95, ahead of schedule, disposing of 
property at closed bases, cleaning up contaminated property and 
assisting communities with reuse.
    In fiscal year 1999, we will begin to focus almost exclusively on 
BRAC 1995, the last of the four rounds, along with the conveyance of 
properties to local communities for conversion to non-military reuse. 
The fiscal year 1999 budget is important because it contains the 
resources needed for major construction actions and unit movements, and 
allows us to increase our focus on environmental restoration and 
property transfer. Therefore, we request that the Congress appropriate 
and authorize $489,222,000 in support of the Army's fiscal year 1999 
BRAC program.
    The Army is accelerating all BRAC actions to obtain savings and 
return assets to the private sector as quickly as available resources 
will allow. We completed the remainder of all the five closures and 
realignment actions approved by the 1991 Commission during fiscal year 
1997. In fiscal year 1998, we are closing Stratford Army Engine Plant, 
Connecticut; Fort Ritchie, MD; Fort Missoula, MT; and Fort Indiantown 
Gap, PA. We completed the disestablishment and realignment of the 
Aviation and Troop Command from St. Louis, MO, to four other locations 
in December 1997. The fiscal year 1999 budget supports the movement of 
the military police and chemical schools to Fort Leonard Wood, MO, and 
the closure of Fort McClellan, AL. The Army also plans to close East 
Fort Baker, CA, and move the Concepts Analysis Agency from leased space 
in Bethesda, MD, to a new facility at Fort Belvoir, VA. These actions 
will nearly complete all planned closure actions except for the six 
that are scheduled for fiscal years 2000 and 2001.
    Although the extensive overseas closures do not receive the same 
level of public attention as those in the United States, they represent 
the fundamental shift from a forward deployed force to one relying upon 
overseas presence and power projection. Without the need for a 
Commission, we are closing about seven of ten overseas sites in Europe, 
where we are reducing the number of installations by 68 percent. Forty 
partial closures represent an additional 5 percent. Reductions in 
infrastructure roughly parallel troop reductions of 70 percent. In 
Korea, the number of installations are dropping from 104 to 83, or 20 
percent. Another 8 percent are partial closures.
    While we constantly evaluate the role of forward deployed forces, 
overseas presence helps to reassure friends and deter potential 
enemies. It can reduce our response time in crises by positioning 
forces nearer potential trouble spots. The Army currently has 100,000 
soldiers stationed overseas, and deployed another 31,000 during fiscal 
year 1997 on operational missions and training exercises. This provides 
tangible proof of the nation's commitment to defend American interests 
and those of our allies. The President's Five Part Community 
Reinvestment Program, announced on July 2, 1993, speeds economic 
recovery of communities where military bases are closing by investing 
in people, investing in industry and investing in communities. The Army 
is making its bases available more quickly for economic redevelopment 
because of the additional authorities we now have.
    During 1997, the Army reached agreements to convey properties to 
local communities at four BRAC installations that will result in 
immediate property reuse. The Army is using all of the conveyance 
options, to include interim leasing at Letterkenny Army Depot, economic 
development conveyance at the Materials Technology Lab in Watertown, 
MA, and Detroit Arsenal, and negotiated sale at Fort Sheridan, IL. In 
many instances, employment levels are expected to exceed those of the 
Army when the bases were active.
                 base realignment and closure--overseas
    On September 18, 1990, the Secretary of Defense announced the first 
round of overseas bases to be returned. Since that time, there have 
been a total of 22 announcements. On January 14, 1993, DOD announced it 
will withdraw all U.S. military forces from the Republic of Panama and 
transfer all facilities by December 31, 1999. Of the 13 sites in Panama 
announced for closure, 10 have been returned. The total number of 
overseas sites announced for closure or partial closure is 664 (see 
Table 1). Additional announcements will occur until the base structure 
matches the force identified to meet U.S. commitments. At this time, we 
do not see the need for many more overseas closures.

                                Table 1

                                                           Installations
Germany...........................................................   573
Korea.............................................................    29
France............................................................    21
Panama............................................................    13
Netherlands.......................................................     6
Turkey............................................................     6
United Kingdom....................................................     5
Greece............................................................     4
Italy.............................................................     4
Belgium...........................................................     3
                        -----------------------------------------------------------------
                        ________________________________________________
      Total.......................................................   664

    Most of the 188 million square feet (MSF) of overseas reductions 
are in Europe, where we are returning over 600 sites. This is 
equivalent to closing 12 of our biggest installations in the U.S.--Fort 
Hood, Fort Bragg, Fort Benning, Fort Stewart, Fort Leonard Wood, Fort 
Lewis, Fort Bliss, Fort Carson, Fort Gordon, Fort Meade, Fort Campbell 
and Redstone Arsenal. Unquestionably, these reductions are substantial 
and have produced savings to sustain readiness.
    The process for closing overseas is much different than in the 
United States. First, unified commanders nominate overseas sites for 
return or partial return to host nations. Next the Joint Staff, various 
DOD components, National Security Council and State Department review 
these nominations. After the Secretary of Defense approves them, DOD 
notifies Congress, host governments and the media. The Army ends 
operations by vacating the entire installation and returns it to the 
host nation. If we reduce operations, we end up keeping some of the 
facilities.
              base realignment and closure program status
    The Army has completed all realignments and closure actions from 
the BRAC 88 and BRAC 91 rounds. The work of property disposal and 
environmental remediation at 18 installations will continue for several 
years. The Army continues to work with local communities to promote 
economic redevelopment in disposal of these properties. Introduction of 
economic development conveyances and interim leasing has resulted in 
accelerating property reuse and jobs creation at installations that 
were previously unavailable pending completion of environmental 
restoration efforts.
    The Army continues to accelerate the implementation of the BRAC 93 
and BRAC 95 rounds. BRAC 93 is complete, with the exception of the 
realignment of Fort Monmouth, which is scheduled for fiscal year 1998. 
The Army is in the third year of the implementation of BRAC 95, after 
which 19 of the 29 closure and four of 11 realignment actions will be 
complete. Interim leases and economic development conveyances are 
making properties at these installations available to the local 
communities earlier in the process. The Army is currently working with 
local communities at Letterkenny Army Depot and Detroit Arsenal to make 
industrial facilities available for reuse in 1998. The former 
Fitzsimons Army Medical Center is now being converted to a University 
Medical Center. Negotiations and required environmental restoration 
continue at other installations, and additional conveyances are likely 
in the near future.
    For the period 1989 through 1997, the Army has spent $3,570,251,000 
to implement the first four rounds of BRAC. The Army is realizing 
$649,951,000 in annual recurring savings in fiscal year 1998, and has 
realized a total of $2,556,807,000 in savings during the implementation 
period through the end of fiscal year 1997. Upon implementation of all 
actions from the first four BRAC rounds the Army will achieve annual 
savings of $949,000,000 beginning in fiscal year 2002.
    The Army has completed environmental actions at 747 of a total of 
1,943 environmental cleanup sites through fiscal year 1997. 
Environmental restoration efforts were complete at 63 installations 
through fiscal year 1997, out of a total of 122 installations. The Army 
remains focused on supporting environmental cleanup actions required to 
support property reuse and will continue to fund environmental cleanup 
actions that are required in support of property transfer and reuse.
                                summary
    Closing and realigning bases saves money that otherwise goes to 
unneeded overhead and frees up valuable assets for productive reuse. 
These savings permit us to invest properly in the forces and bases we 
keep to ensure their continued effectiveness. Continuation of 
accelerated implementation requires the execution of the fiscal year 
1999 program as planned and budgeted. We request your support by 
providing the necessary BRAC funding for fiscal year 1999.
    We remain committed to promoting economic redevelopment at our BRAC 
installations. We are supporting early reuse of properties through 
economic development conveyances, as well as the early transfer and 
interim leasing options made possible by Congress last year. Real 
property assets are being conveyed to local communities, permitting 
them to quickly enter into business arrangements with the private 
sector. Local communities, with the Army's support and encouragement, 
are working to develop business opportunities that result in jobs and 
tax revenues. The successful conversion of former Army installations to 
productive use in the private sector is something all of us can be 
proud of.
    Mr. Chairman, this concludes my statement. Thank you.

    Senator Burns. Thank you very much, Madam Secretary.
    With regard to the time of the----
    Senator Stevens. I will just submit my questions.
    Senator Burns. In our progress, we have to visit a couple 
of installations. No. 1, you are to be commended for this 
commitment to this housing and decent place to live.
    When we talk about the year 2010, I can remember when the 
year 2000 sounded like it was a long way off, and it is on our 
heels right now and 2010 is not all that far off.

                                barracks

    Is the program already in place that we get these projects 
on line and authorized through the Armed Services Committee? 
And are we ready to go and is that process already in place?
    Ms. Moore. Are we talking about barracks?
    Senator Burns. That is right. These living facilities. I am 
sorry.
    Ms. Moore. The Army's investment would have to be about 
$280 million per year through that period of time, and the Army 
leadership is committed to that, sir. We plan to include 
barracks in our budget request until this program is bought 
out.

                              one plus one

    Senator Burns. We are having some experience now with one 
plus one living. There are some places that have it. You might 
ask your Army colleagues.
    I come from a different generation and I would imagine all 
of us did. When I was enlisted and we had the old barracks, the 
only private area you had was probably where you laid your head 
down on your rack and your footlocker. That was the only 
private property we had, so to speak. But there was a lot of 
camaraderie too in barracks style living. You were an outfit.
    One plus one. Is it working to really bring an outfit 
together? Are we all thinking as one? Not only are we looking 
where we all look like one, but are we thinking fire teams, 
missions? Has it done anything to affect the team work of the 
people in their missions?
    Ms. Moore. We believe it has, sir. We get enthusiastic 
responses from our soldiers in those places where we have 
completed the one plus one. Mostly they say it is the best 
thing that ever happened to them, other than a pay raise.
    Maybe General Whaley can address that.
    General Whaley. Mr. Chairman, I am General Whaley, your 
Army Assistant Chief of Staff for Installation Management.
    I have visited many of the same installations you have. I 
also enlisted in the Army in 1965, so I know what----
    Senator Burns. Well, you are just----
    General Whaley. A young guy.
    Senator Burns. I know, you are just a young fellow. What 
turned your hair so white is what I want to know. [Laughter.]
    General Whaley. Sir, the soldiers love it, so do 
noncommissioned officers and their company, battalion, and 
brigade division leadership.
    Your concerns are the same as the Chief of Staff of the 
Army. Within 2 weeks of taking this job that I currently have, 
the Chief of Staff of the Army brought me into his office. He 
had already talked to all his senior leadership across the 
Army, and continues to do so with the Sergeant Major of the 
Army, that unit cohesion, first line leadership, and the 
culture of the Army will not change. Unit cohesion will be 
maintained. Leadership will be in the barracks, live in the 
barracks, and fire team, squad, and platoon integrity will be 
maintained. In fact, the new barracks give us an opportunity to 
reinforce that in many ways with the company orderly room very 
close by, central recreation areas and training areas that can 
be used for training and recreation right there in the unit 
area, much like the unit day room used to be.
    The Chief and the entire Army leadership has taken this as 
an opportunity to reinforce your concerns. Soldiers like it 
because they are different than our generation. A 1997 survey 
said their No. 1 priority was to have a level of privacy that 
is reflected in the standard that you have approved and so 
aptly and powerfully supported. Every feedback I get is 
positive.
    Senator Burns. If you hear along that line and you talk to 
the soldiers that are on the line, after we get by the issue of 
a level of some privacy, what is their next concern?
    General Whaley. With barracks, sir?
    Senator Burns. Well, with the conditions as they exist in a 
military installation.
    General Whaley. Well, I think that our survey showed that 
right after that is medical care, retirement benefits, and 
quality of life for soldiers and families.

                            quality of life

    Senator Burns. And that quality of life. Now, we know that 
we have many more married soldiers now than probably in the 
history of the Army. Of course, I was making $62 a month. I was 
ready to go out and take on the world. I probably had more 
money in my pocket in those days than I have now, but I was a 
skillful poker player. [Laughter.]
    Anyway, is it recreation areas? Is it physical education or 
physical facilities, like basketball, handball, stuff like 
that? Now, I am speaking of the single soldier. What other 
facilities do they mention as would be desirable in their wants 
for their quality of life?
    General Whaley. Sir, I will get that in definitive detail 
in rank order for you for the record. My recollection is that 
the recreation facilities are high on their list, to include 
physical fitness facilities.
    [The information follows:]

                  Single Soldiers' Facilities Concerns

    The Community and Family Support Center provides input into the 
Deputy Chief of Staff for Personnel's semiannual Sample Survey of 
Military Personnel (SSMP) to get feedback from single soldiers about 
the use and importance of morale, welfare and recreation (MWR) 
programs. The latest findings from the Spring 1997 SSMP show that, of 
23 MWR programs listed, single soldiers ranked (in priority order) the 
following as most important: fitness center, gym/playing courts/fields, 
library services, automotive shop, outdoor recreation areas, and 
swimming pools.

    Ms. Moore. Physical fitness centers are high on their 
priority list, especially those people that are overseas.
    Senator Burns. How do those priorities change with our 
married personnel?
    General Whaley. Sir, I think there are some that are common 
with the priorities for married personnel. Those are retirement 
and medical. The married population will go to commissaries, 
PX's, and child care obviously before our single soldiers, but 
those are generally the highest priorities for both categories.

                       capital venture initiative

    Senator Burns. With the housing privatization, is that 
moving to your satisfaction, or leveraging the dollars in the 
private sector, is that moving at expected pace or are we 
behind?
    Ms. Moore. Well, it took a while to get to contract award 
on the Fort Carson project because it was all new to us. It was 
new to everyone, including the financial community and the 
contractors.
    Senator Burns. I thought Secretary Perry, when he put this 
idea forward, was very innovative about a new approach.
    Ms. Moore. As always, with a new initiative you have 
problems with OMB and how to score projects. That held things 
up for a while. But we are now ready to award a contract at 
Fort Carson, and within 60 days we plan to have a lessons 
learned conference where we will invite everybody to sit down 
and review the issues all the way from development through 
contract award--through procurement and contract award.
    We are currently working on Fort Hood and Fort Stewart. 
Those installations have been approved to develop requests for 
proposal [RFP's]. We are expecting to award those contracts in 
the year 2000. We will have 2 years of operational experience 
from Fort Carson by the time we award those contracts. So, we 
hope the others will go much quicker. There will be about 24 
housing projects in the pipeline, in the planning process, that 
are being planned simultaneously.
    Senator Burns. What kind of mortgage guarantees are the 
most frequently offered in these kind of arrangements?
    Ms. Moore. Sometimes there are no mortgage guarantees 
depending on whether we, for instance, trade land for the 
project. If financing is involved, a partial mortgage guarantee 
would be granted of up to 80 percent of the amount of dollars 
involved. That guarantee would only be paid, sir, in the event 
of something that the Department of Defense or the Army brought 
about such as a case closure, a drawdown in numbers of troops, 
or large scale deployment that would take people away from the 
local community.
    Senator Burns. Do you want to follow up on that?
    Senator Stevens. Madam Secretary, this is a 50-year 
contract at Fort Carson?
    Ms. Moore. Yes, sir; with a 25----
    Senator Stevens. I just checked with my memory bank here, 
Ms. Ashworth. Sid tells me that Fort Carson was on a projected 
closure list twice in the past.
    Ms. Moore. That is possible, sir. It has not been on a 
list, to my knowledge, since we have had the base closure 
legislation.
    Senator Stevens. No; but it was being reviewed for base 
closure.
    Now, as you say, if the base is closed or there is a 
substantial reduction in deployment to the base, that 
accelerates this contract and requires an upfront payment. Is 
that right?
    Ms. Moore. Yes, sir; it would.
    Senator Stevens. How did the OMB score that?
    General Whaley. Sir, I believe that is part of the mortgage 
guarantee piece that is in there and scored according to risk, 
that is my understanding. In every installation it would be 
scored essentially the same way I believe.
    Now, the other piece is that each installation will be 
taken separately, not necessarily from a BRAC perspective, but 
from the economics presented by that installation in its unique 
location.
    Senator Stevens. I should think that one of the criteria 
should be the cost of the current operation and Government 
management as opposed to the cost of private sector bid. Is 
that one of the factors now? Do you look at the cost of the 
operation to determine which areas are going to be privatized? 
I am looking for the criteria.
    If Fort Carson was suspect before, it is obviously going to 
be on the list in 2001 or 2003, not necessarily closed, but it 
is going to be reviewed. One of the costs associated with 
closing it then would be the cost of paying off the housing. 
So, if I wanted to prevent a base from being closed, I would 
get it privatized.
    Ms. Moore. The 801 housing built prior to this initiative 
falls into that category also, sir. It does create a problem 
when you are trying to close a base.
    Senator Stevens. I am just looking at the equity of what 
bases they close and what bases will not be closed because this 
will be a deterrent against closing any base which would 
require upfront costs through the total payout of the 
privatized contracts. I would like to run some numbers on that.
    Thank you very much.
    Senator Burns. That is the reason I asked you about the 
loan guarantees or the mortgages, what kind of a situation are 
we getting ourselves in because if we owned those homes 
outright, even though we would have to pay them off or 
whatever, they would still have commercial value. So, most of 
that cost could be saved. I am just wondering about what kind 
of a situation. That is the reason I asked you about those loan 
guarantees.
    I understand Fort Carson was on that, and now there is talk 
of more.

                         environmental cleanup

    Now, what concerns me with this particular committee is the 
obligation that we have there because you couple that with the 
possibility of fully one-third of the military construction 
budget is in the area of environmental cleanup, this does not 
leave us a lot of room to do some things that we want to do for 
the present maintenance of our infrastructure or to expand that 
infrastructure. That is why it is going to be very, very 
difficult when you are operating with less money to make some 
of these things.
    Let us move on now. We may have to sit down with Senator 
Murray and spend 1 hour going over some of these things and 
talk about that particular area before we get to the final 
appropriation. Those two areas really do concern me because we 
have obligations in the environmental cleanup part of it. I 
think we have to some way or other take in consideration what 
this facility is going to be used for and take our 
environmental cleanup so it is acceptable to that particular 
activity rather than trying to make it a day care center.
    I would put you on notice that we are going to have 
oversight hearings on environmental cleanup, and we want to 
know where the money is going, how it is being spent, and to 
what degree we have to take our facilities that we are turning 
back into the private sector--how far we are going.

                       chemical demilitarization

    Chemical demilitarization responsibility based on the 
defense reform initiative and recommendation for funding for 
the chemical demilitarization program was devolved from the 
Office of the Secretary of Defense and the Department of the 
Army. A total of $125.3 million was transferred to the Army 
Milcon budget in 1999 to assume funding responsibility for six 
military construction programs that would fall into this 
category.
    I understand the decision to realign funding for chemical 
demilitarization to the Army was made at the office. Do you 
have any concerns about executing or the execution of that 
program?
    Ms. Moore. No, sir; the Army has been the executive agent 
for the Chem Demil Program all along, so we will just continue 
to execute as we have in the past. The funding will simply be 
in the Army budget as opposed to in the Defense budget.
    Senator Burns. What happens if this program progresses but 
we find that we have a financial shortfall to complete the 
mission? Will the Army be stuck with the bill? Will that have 
to come from some other area of responsibility?
    Ms. Moore. The Army would be responsible, sir, for any cost 
overruns. It is a powerful incentive to contain the program 
costs.
    Senator Burns. I wonder what pocket I should put that in. I 
have not figured it out.

                   army national guard milcon funding

    On National Guard, Milcon funding, something we think has 
been really overlooked on why we are doing what we are doing in 
our specific States as far as National Guard is concerned. Do 
you have any kind of figure you can give us for the backlog of 
what we think is the requirements of Milcon funding for Army, 
Army Reserve, and National Guard? Do we have a backlog? Can you 
give us any idea of what that backlog might be so that we can 
start making our plans accordingly?
    Ms. Moore. General Squier.
    General Squier. For the Army National Guard, yes, sir.
    Our backlog for the military construction side of things is 
about $2.5 billion of backlog requirements, Senator.
    Mr. Chairman, it is a pleasure to address the committee 
here. The question you asked is what is our backlog. In total 
if you look at our long-range plan for military construction 
requirements for all the States and territories, is over 5 
billion dollars' worth.

                        priority of requirements

    Senator Burns. How do you assign the priorities?
    General Squier. Priorities are established based on three 
criteria. First is based on the readiness requirements of the 
Army, based on our Federal mission and how they are prioritized 
in the spectrum of warfighting. Then it is followed by the 
adequacy of facilities that comes from our States and 
territories, and then the priority established by our States 
and territories.
    Senator Burns. What are those priorities right now? 
Basically what is your greatest need right now and where from 
your standpoint?
    General Squier. Our greatest need, sir, would be in our 
infrastructure requirements for readiness centers to be able to 
supply for our force to train to meet the requirements for the 
Army's Federal mission.
    Senator Burns. I know but is it the area of armor? Is it in 
the area of infantry, aviation? If you have a spot right now 
that you would like to put an emphasis on--and I know you 
assess your strengths and your weaknesses almost on a daily 
basis. It would be strange if you did not because you are all 
the time assessing those. Where would you like to really place 
some emphasis in the next 2 years?
    General Squier. If I understand your question, I think I 
would prefer to take that for the record and give you a little 
more definition to it. I will tell you that the Army National 
Guard is a balanced force. We have about 50 percent of the 
Army's combat structures. We are heavy in combat which includes 
armor and infantry, but we also have a wide variety of the 
combat support, the aviation structure, which is a big piece 
for us, and the combat service support. We make up about one-
third of the Army's requirements. So, before I could give you a 
firm, what would be the best approach, I would like to look at 
that in some detail and give it to you for the record.
    Senator Burns. Fine.
    [The information follows:]

        Priorities for Army National Guard Military Construction

    The priorities of the Army National Guard for military construction 
are as stated in the Future Years Defense Plan. In establishing that, 
we place primacy on the readiness requirements of the support units and 
the condition of the current facilities. The resources available, 
however, to place into the Future Years Defense Plan are very limited.
    Assuming then, that we would be funded to meet our annual recurring 
requirements for military constructions, the highest priority of the 
Army National Guard in the next two years would be readiness centers. 
They constitute just one half the projects we should be doing. About 30 
percent of the remainder are training site projects (including ranges 
and schoolhouses), and the balance are surface and air maintenance 
facilities.

                                  brac

    Senator Burns. Madam Secretary, the Army plans to spend 
almost $500 million to implement the recommendations of the 
1995 BRAC Commission. How much more money will you need to 
complete these closures and realignments?
    Ms. Moore. The Army has programmed an additional $600 
million between fiscal year 2000 and fiscal year 2001 to 
complete BRAC 1995. The amount of $450 million has been 
programmed beyond fiscal year 2001 to continue the 
environmental cleanup associated with those closures.
    Senator Burns. Now, in 1999 the request will be allocated 
for studies, cleanup, and restoration. What percent of the 1999 
funding is in this request?
    Ms. Moore. Sir, the environmental program is about 45 
percent of the 1999 BRAC funding.
    Senator Burns. It is still a going concern to me on how 
those costs can get away. I guess we are concerned about that.

                        advanced appropriations

    Also in the 1999 budget request, there are a number of 
projects which are advanced appropriations being requested. 
What exactly does that mean and how does it work?
    Ms. Moore. Sir, Office of Management and Budget [OMB] 
policy requires that projects in the President's budget must be 
fully funded up front, and they have never allowed the 
Department to do the incremental funding that your committee is 
accustomed to doing. This year OMB relaxed the policy for the 
first time. The advantage for the Army is that we do not have 
to program the total cost of a project, such as the West Point 
Physical Development Center, in the first year of the 
authorization and appropriation. The major benefit is the 
services can include more projects in the budget request. This 
amounts to what you have called incremental funding as you have 
programmed it here on the Hill. This is the first year OMB 
allowed the services to do that. So, I guess the difference is 
incremental funding is in the budget request this year instead 
of having Sid take care of it over here.

                           prepared statement

    Senator Burns. I look forward in sitting down with you and 
the Generals, and we will have some more questions. Other 
members of this committee will have questions. Senator Murray 
will also have her questions. I would appeal to you to not only 
answer her questions but also make those answers available to 
the committee. She will also have an opening statement, and we 
will make that a part of the record.
    [The statement follows:]

               Prepared Statement of Senator Patty Murray

    Thank you, Mr. chairman. Thank you for arranging for this hearing 
on our Army and Defense related agencies, Military Construction, BRAC 
and Housing programs. The programs the subcommittee reviews are 
crucial, focusing as they do on the quality of life of our uniformed 
personnel here and abroad, and on the vital infrastructure that allows 
our forces to operate with assurance as the world's sole superpower. 
These programs allow us in the long run to defend our interests and 
those of our allies and friends across than increasingly confusing and 
complicated world scene. Last year, your subcommittee was able to mark-
up and report its annual bill out, get it through the Senate and 
conference and to the President's desk early in the process. The 
committee attended to the needs of the country and added some $800 
million in funding to the budget request. I would note that the 
authorization bill, which was passed after our bill, in a reverse of 
the process as we would like it to operate, substantially endorsed the 
projects we added. I would also note that we have just completed a long 
and drawn out process of overturning a rushed effort on the part of the 
administration to subject some 38 of our projects to the line-item 
veto. It is a testimony to the care and thoroughness of your efforts to 
scrub and include only very worth projects that we had the support of a 
large majority of our colleagues in both the Senate and the House in 
supporting our work and rejecting the attempt of the administration to 
strip out nearly $300 million worthy projects. I hope that we will not 
have the same experience this year, and I expect that we will use the 
same care in making any additions to the budget request and that we 
will again have the support of our colleagues.
    I note Mr. Chairman, that the budget request has again been rather 
drastically cut below last year's appropriated amount, by some 15 
percent or $1.4 billion below last year. If this were allowed to stand, 
the reduction over the last 2 years, despite our additions last year 
would amount to some 20 percent. Surely this reduction does not reflect 
the overall funding for the defense budget, yet the programs that we 
fund are crucial to maintaining a quality armed force, with adequate 
infrastructure, housing, child care, barracks and other critical 
programs. We will, I am sure, be taking a careful review of the 
adequacy of the quality of life programs in this budget.
    In addition, Mr. Chairman, we again face what appears to be an 
invitation to rewrite the request for our Guard Forces. The request is 
nearly the same as was requested last year, a request that we felt it 
necessary to more than double. Specifically, we added some $57 million 
to the budget request of $45 million last year, for a total of $102 
million for the Guard. Yet, again, despite the sense that the budget 
was not adequate to a healthy Guard Force, we are faced with an 
identical situation. The request this year is about $47 million, which, 
if we accepted it, would constitute the lowest appropriated amount for 
the Guard in 20 years. It is obvious that we will have to review the 
requests of Adjutant Generals across the country and, I would strongly 
guess, substantially rewrite the budget.
    As for housing and utility programs, the Department of Defense is 
moving toward privatization, a trend which appears promising but as yet 
not proven. Therefore, it is some cause for concern that the housing 
budget for the Army is $130 million less than last year, or almost a 
10-percent reduction. We have to exercise some care that the 
privatization programs will, in fact, work before we reduce this vital 
quality of life program area, since it not only affects the morale of 
our forces, but retention and recruitment as well.
    Again, I appreciate the efforts of the chairman to take the 
interests of all Senators and on both sides of the aisle into account, 
and I expect to have a continuation of the excellent working 
relationship that we had last year again in considering the bill for 
fiscal year 1999.
    Thank you, Mr. Chairman.

    Senator Burns. So, we will leave this record open until you 
have had the opportunity to respond to her questions and her 
concerns.
    That is about all the questions I have at this time. I have 
been involved in everything else this morning except this, and 
so I know I will think of something. As soon as the hearing is 
over, I will think of a question I should have asked.
    But, nonetheless, thank you for your testimony this morning 
and responding to these questions. I look forward in working 
with all of you, and if there is something you can think about, 
why, make sure you bring it to our attention. We will certainly 
work on it with you to make sure that it works.
    Ms. Moore. Sir, I would like to provide you a little more 
detailed answer on the CVI housing questions.
    Senator Burns. OK.
    Ms. Moore. I did not feel we handled that as well as we 
could.

                     Additional committee questions

    Senator Burns. Sure. Yes; those are things that are out 
there and they pose a certain risk to us. So, at least we 
should be aware of what we are getting into and make some sort 
of an awareness of it.
    Thank you for coming this morning. I appreciate that.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]

                  Questions Submitted by Senator Burns

                   whole barracks renewal initiative
    Question. Madame Secretary, when do you anticipate that all of the 
Army's barracks will be modernized to the ``1 Plus 1'' standard?
    Answer. It is the Army's goal to complete funding barracks 
modernization in the United States in fiscal year 2008, in Europe in 
fiscal year 2010, and in Korea in fiscal year 2012.
    Question. I notice that 42 percent of the barracks renewal projects 
are scheduled to be built overseas. I have concerns that this number is 
disproportionate since our Army is primarily. How can we be sure that 
the barracks overseas are in worse shape than at installations like 
Fort Sill or Fort Hood?
    Answer. In terms of cost, the fiscal year 1999 construction budget 
for barracks totals $306.8 million. Of this total budget, $63.9 
million, 21 percent, is going to four locations in Korea and one 
location in Germany. In order to ensure that funding for barracks 
modernization goes first to the worst permanent party barracks, we 
maintain installation level inventory data. Upon completion of the 
fiscal year 1999 program, 61 percent of barracks in the United States 
will meet or approximate the ``1 Plus 1'' standard, compared to only 42 
percent overseas. We have carefully balanced mission and barracks 
requirements during the project approval process.
                         housing privatization
    Question. Ms. Moore, the Army appears to be headed for a fast-track 
on family housing privatization with a very ambitious schedule. Can you 
provide me further details on the time line?
    Answer. A total of 27 U.S. installations have been identified to 
date as Capital Venture Initiative (CVI) sites. Out of the 27, the full 
AFH privatization project at Fort Carson is projected to be awarded May 
1998, and OSD has approved Forts Hood, Stewart and Lewis for request 
for proposal development. We hope to privatize to the maximum extent 
possible all enduring Army family housing by 2003.
    Question. How long will it take for the Army to review lessons 
learned from the privatization initiative at Fort Carson?
    Answer. We have been reviewing lessons learned from Fort Carson on 
a continuing basis through every phase of the project. We are already 
moving forward in a very deliberate fashion, taking advantage of the 
lessons learned thus far. These lessons are being applied to the 
development of projects at other participating installations. We intend 
to host a lessons learned workshop within 60 days after the Fort Carson 
award. As time progresses after the award of Fort Carson, we expect to 
take advantage of any additional operational lessons learned as well as 
those from other Services' experiences before our next project.
                  base realignment and closure funding
    Question. Madame Secretary, in fiscal year 1999, the Army plans to 
spend almost $500 million to implement the recommendations of the 1995 
BRAC Commission. How much more money does the Army intend to spend in 
the out years to complete these closures and realignments?
    Answer. The budgeted amounts for completion of BRAC 95 closures and 
realignments are $398 million in fiscal year 2000 and $201 million in 
fiscal year 2001. This includes projected environmental costs of $295 
million in fiscal year 2000 and $174 million in fiscal year 2001.
             backlog of requirements for active army milcon
    Question. What is the dollar backlog of requirements for Milcon 
funding for the Active Army?
    Answer. The backlog of requirements for MILCON funding for the 
Active Army is approximately $2.4 billion, for the Army Reserve is $1.9 
billion and for the Army National Guard is $2.5 billion.
                   real property maintenance backlog
    Question. What is the backlog of requirements for real property 
maintenance for the three Army components?
    Answer. Based on the Army's Installation Status Report (ISR), the 
estimated cost to remedy the deficiencies in all existing permanent and 
semi-permanent facilities for the Active Army Component is $24.1 
billion; for the Army National Guard is $6.8 billion, of which 73 
percent is for federally funded property; and for the Army Reserve 
Component is $1 billion.
                       active army milcon funding
    Question. How does the Army assign priorities to Active Army, 
Guard, and Reserve projects competing for the same scarce MILCON 
dollars? Is there a MILCON allocation for each component?
    Answer. There is no allocation of funds. Each component competes 
for resources during the development of the Army's future years 
program. The Army receives program and budget input from the 
installations (or in the case of the National Guard, the States), the 
major commands (MACOM's), and the Office of the Secretary of Defense 
(OSD). MACOM's provide construction priorities to Army Headquarters. 
The Army develops the Future Years Defense Program and prioritization 
list. The National Guard Bureau develops the Future Years Defense 
Program and master prioritization list, as part of the Infrastructure 
Requirement Plan. These prioritization lists compete for funding as 
part of the Installations Program Evaluation Group, the Program Budget 
Committee, and the Army Resource Board. This establishes the Army 
MILCON funding stream over the near term years. The Army then defends 
this budget through OSD and Office of Management and Budget (OMB) 
reviews and submits the resultant program to the Congress for approval.
                                 ______
                                 

                 Questions Submitted by Senator Stevens

                         housing privatization
    Question. What kind of mortgage guarantees are frequently offered 
as part of a Capital Venture Initiative such as housing privatization?
    Answer. The three types of mortgage guarantees are: (1) None--we do 
not guarantee against any risk, (2) Partial--This is the one we will 
normally use. This is called ``partial guarantee'' because we are 
guaranteeing against partial risk. Partial risk, as used in the Army, 
is defined as risk caused by the government. We are guaranteeing 
against BRAC, downsizing, or extended troop deployments, and (3) Full--
guaranteed against all risks. We do not plan to use full guarantees.
    The Army will provide a partial mortgage guarantee only at CVI 
sites where it is necessary to attract private capital. These 
guarantees will only cover events caused by the Department of Defense 
or the Army such as base closure, downsizing of the force, or extended 
deployments. These guarantees will cover no more than 80 percent of the 
loan value or the remaining balance on the mortgage, whichever is less. 
Under these guarantees, the developer must clearly show that it was one 
of these three events that caused him/her to fail to meet mortgage 
payments. Normal contingencies such as construction default or economic 
downturns will not be covered by the Army and must be born by the 
developer.
    Question. How are these mortgage guarantees scored by OMB?
    Answer. OMB scoring is based on the risk and recovery factors 
identified for individual CVI locations. Some of the factors considered 
are local market conditions, installation mission, and size and term of 
loan.
    Question. Why is the Army using such long-term leases, such as 50 
years?
    Answer. Feedback from the private sector indicates that a long-term 
lease contributes to the financial viability of the project. In 
general, the lease terms exceed the term of the outstanding mortgage 
debt in order to allow for the debt to be retired from the cash flow of 
the property.
    Question. What happens when we have a future round of BRAC? How 
much would it cost to get out of our mortgage obligation at Fort Carson 
if Fort Carson should be on the base closure list?
    Answer. If the developer could not rent the units on the open 
market, the Army potentially would be responsible for the amount equal 
to 80 percent of the value of the project or the amount of the 
outstanding principal of the loan. Without knowing the conditions at 
the time of such an event, the actual cost cannot be determined. The 
amount will depend on the type of action (closure, realignment, 
extended deployment), the remaining balance of the loan, and the market 
conditions at the time of the event.
    Question. How has the Army complied with bill language contained in 
the Fiscal Year 1998 Milcon Appropriations Act with regards to loan 
guarantees?
    Answer. In accordance with the 1998 Milcon Appropriations Act, OSD 
notified the Congress of the Fort Carson project on February 10, 1998. 
OSD will continue to provide the information required in the bill 
language when providing the Committees 60-day notification of any 
future proposed solicitation.
                                 ______
                                 

                 Questions Submitted by Senator Murray

                           service academies
    Question. A major new funding request is for the revitalization of 
the physical development center at West Point. It amounts to $12 
million this year and an advance appropriation of $73 more million for 
this multi-year project. The substantial improvements in the facilities 
at the Naval Academy have been included in the Operations and 
Maintenance account, not Milcon. What accounts for this disparity in 
the treatment of the facilities at our service academies?
    Answer. The Army project contains major portions of demolition, new 
work, and upgrades in conjunction with the revitalization. This project 
cannot be classified as maintenance and repair and must be funded with 
MILCON.
                                housing
    Question. Ms. Moore, you state in your testimony that adequate 
housing continues to be the number one issue concerning the quality of 
life for our soldiers, and for attracting and retaining dedicated 
individuals to serve our nation, and is ``one of the Army's continuing 
challenges.'' Yet your request is $300 million below last year's funded 
amount. Can you outline for us the specific nature of the Army's 
housing challenge, for both single soldiers and families?
    Answer. The Army's challenge for married soldiers and their 
families is to provide quality family housing by 2010. In the United 
States, we plan to accomplish this by privatizing through the use of 
Capital Venture Initiatives (CVI's) which will allow us to revitalize 
our existing family housing and eliminate our deficit by 2010 versus 
the current 130 year revitalization cycle. For family housing in 
foreign countries, the CVI authorities do not apply. The Army does not 
own the family housing in foreign areas and the Status of Forces 
Agreement preclude U.S. companies from managing the housing. We are 
working with OSD to seek a solution to the foreign area family housing 
problem. Until these actions are fully implemented, we must continue to 
sustain the houses and divest uneconomical or unrepairable and excess 
inventory. The Army's challenge for single soldiers is to get them out 
of gang latrines and substandard barracks. All permanent party barracks 
will be modernized/constructed to the 1+1 standard in the United States 
by fiscal year 2008; Europe by fiscal year 2010, and Korea by fiscal 
year 2012. We plan to do this through a very aggressive investment 
program which started in fiscal year 1994 and will continue through 
fiscal year 2012.
    Question. What is the deficit in housing for both groups?
    Answer. The Army family housing deficit is 10,322. The troop 
housing deficit, expressed in persons to be housed, is: 8,000--New 
Construction; 14,000--Replacement and 41,000--Improvement.
    Question. You are relying on the so-called ``Capital Venture 
Initiative'' as the ``best hope of revitalizing Army family housing and 
eliminating the deficit in the United States.'' While there is promise 
in this concept, can you really afford to keep the funding levels at 
some 5-10 percent below last year's level in the hope that this will 
work as projected and solve our Army family housing problems ``within 
5-10 years?''
    Answer. We must keep funding at levels that will make our programs 
successful. Funding is less than desired but adequate to keep units 
open and safe until we complete our privatization contract awards by 
2003.
                     adequacy of army guard funding
    Question. Ms. Moore, I cannot help but notice that the funding 
request for the Army National Guard, despite the high degree of 
visibility it got last year, and the fact that Congress had to more 
than double that funding, is back down to the same level in this year's 
request. One result of the problems that we have noticed between the 
regular Army and the Guard was the push to include a Guard general as 
member of the Joint Chiefs. Can you outline to the subcommittee the 
problems that you see in the regular Army-Guard relationship and what 
steps have been taken, and need to be taken to make it healthy?
    Answer. The fiscal year 1999 budget increases funding for Military 
Construction in the Army National Guard. The fiscal year 1999 Military 
Construction funding request for the Army National Guard is larger than 
the fiscal year 1998 request. Regarding your other concern, I can say 
that Secretary Walker and General Reimer are personally committed to 
spending more time on Reserve Component issues and meeting with Reserve 
Component leaders on a regular basis. The Army is working to meet the 
Secretary of Defense's goals of increasing the integration of the 
Active Component (AC) and the Reserve Component (RC) to ensure a 
seamless force. More than thirty major initiatives are underway toward 
this end. In the area of installations, one of them is a Army National 
Guard proposal called ``Fort State'', which seeks to leverage state 
guard installations to meet Army requirements. The entire Army is 
committed to improving the working relationships between the 
components.
                     adequacy of army guard funding
    Question. In your statement you characterize these relationships as 
part of a ``total Army'' concept. You point out that in Bosnia, for 
instance, approximately 25 percent of the Army forces come from the 
Reserve and the Guard. How would you and your colleagues in the 
department characterize the contributions of the Army Guard in Bosnia?
    Answer. To date, 145 Army National Guard (ARNG) units (4,560 
soldiers) have been mobilized for active duty under the Presidential 
Selected Reserve Call-up (PSRC). Several ARNG units were specifically 
tailored for deployment to theater. Notable examples are: (1) The 
Target Acquisition Batteries from the 28th, 29th, 34th, 35th, 38th, 
40th, 42d, and the 49th Divisions that provided counter-battery radar 
coverage throughout Bosnia. (2) The Fire Support Elements from 28th 
DIVARTY, PAARNG (1st Rotation); 101st FA Bn, MAARNG (2d Rotation); 1-
246th FA Bn, VAARNG (3d Rotation); and 49th DIVARTY, TXARNG (SFOR) each 
provided support to the Nordic-Pole Brigade.
    The Army National Guard has provided units and tailored units for 
missions throughout Bosnia. They have filled all assigned missions. 
Deployability rates were greater than 99 percent. Retention has not 
been adversely affected and readiness remains constant for 
participating units.
    The use of ARNG units for Contingency Operations furthers the Total 
Force policy and the integration of the Active Components and Reserve 
Components.
                          milcon--army reserve
    Question. I notice that you have increased the funding request for 
the Army Reserve by 50 percent over the Department's request in last 
year's request. I find it striking that this is in stark contrast to 
essentially a very nominal increase in your request, some 4 percent for 
the Guard over last year's requested amount. Why is there this 
disparity? What factors have contributed to the disparity in these 
funding requests?
    Answer. It is not useful to compare Army Reserve MILCON funding to 
Army National Guard funding. Prior to fiscal year 1998 each component 
(USAR and ARNG) developed their programs internally. The Army Reserve 
balanced its MILCON and other requirements within a specified funding 
level following Army and DOD priorities. Beginning with preparation of 
the fiscal year 1998 budget the USAR and ARNG participated in an 
integrated budget process with the Active Army component. Budgeted 
amounts are based on a variety of considerations including need, 
priority, statutory and regulatory requirements, ability to execute a 
funded level, and past performance in program management. Historically, 
the USAR has received little additional support from Congress, yet has 
executed very well. The table below ($000) illustrates that:

                                            [In thousands of dollars]
----------------------------------------------------------------------------------------------------------------
                                                                          Fiscal year--
                                                          --------------------------------------------   Totals
                                                              1995       1996       1997       1998
----------------------------------------------------------------------------------------------------------------
Pres. Budget.............................................  \1\ 7,910     42,963     48,459  \2\ 39,11
                                                                                                    2    138,444
Congress. Adds...........................................     49,460     29,765      7,084     27,115    113,424
                                                          ------------------------------------------------------
      Total..............................................     57,370     72,728     55,543     74,167  \1\ 251,8
                                                                                                              68
----------------------------------------------------------------------------------------------------------------
\1\ The USAR had no projects meeting the Priority Investment Program guidelines.
\2\ The Budget Appropriation request reflects a $7,900 DOD directed reduction in appropriation.

    Over the same period Army National Guard budget and congressionally 
added projects totaled $179,000,000 and $440,051,000, respectively, for 
a total of $619,051,000.
    MILCON and facilities support requirements are a function of many 
factors including force size and type. The Army Reserve has reduced its 
end strength and force structure by 36 percent since fiscal year 1989 
and has concurrently reduced its facilities inventory by 15 percent. 
Conversely, the ARNG facilities inventory has grown by 6 percent, end 
strength has been reduced by only 19 percent, and its force structure 
has been reduced by only 12 percent during the same period.
   army guard military-to-military contact with emerging democracies
    Question. Can you tell the subcommittee more about the Guard 
military-to-military program with emerging democracies? What countries 
are involved, and how much is in the budget for this program?
    Answer. The National Guard's portion of the Mil-to-Mil Program is 
the State Partnership Program, which links U.S. states and emerging 
democracies of Central and Eastern Europe and Eurasia through ties 
between the State Governor and State National Guard and the Ministry of 
Defense and soldiers of the partner nation. The National Guard goal is 
to demonstrate, through the example of the citizen-soldier, the role of 
the military in a democratic society.
    The State Partnership Program began in December 1992 when the 
Chief, National Guard Bureau (NGB), led an interagency team to 
Lithuania, the first visit in 50 years by an American official at this 
level. U.S. Military Liaison Teams subsequently were placed in the 
Baltic states of Latvia, Lithuania and Estonia. These teams, with 
National Guardsmen as chiefs, work with the host Ministries of Defense 
to develop detailed plans of non-lethal cooperation. As a result, the 
host militaries learn about the effectiveness of a competent 
mobilization force under civilian control and in direct support to 
civil authorities.
    The purpose of this program is to build long standing institutional 
affiliations and people-to-people relationships with nations, while 
establishing democratic military organizations. By utilizing National 
Guardsmen in their dual roles as citizen-soldiers, the partner nation's 
military leaders are encountering highly trained and cost-effective 
members of the United States Armed Forces. Guardsmen serve as role 
models in making a compelling case for the ideals of democracy, 
professionalism, and deference to civilian authority. They also 
demonstrate the necessity and economy of Reserve Components with the 
ability to react immediately to civil and military emergencies.
    Guardsmen participate in Traveling Contact Teams that visit the 
partner country to give detailed information on requested civil-
military topics such as air search and rescue, medical evacuation, 
personnel, budgeting, administration, military law, professional 
military education, disaster response planning, and family programs. 
The Partner State hosts Familiarization Tours whereby Partner Country 
personnel visit State facilities to see specific areas of interest.
    The primary focus of the State Partnership Program is to convey and 
reinforce in the partner nations the concept that the proper role of 
the military in a democratic society is one of military subordination 
to civilian authority and of military support to civil authorities.
    Current Partner States and Countries in Eastern Europe and the 
Former Soviet Union are:

Alabama-Romania
Arizona-Kazakhstan
California-Ukraine
Colorado-Slovenia
Georgia-Rep. of Georgia
Illinois-Poland
Indiana-Slovakia
Louisiana-Uzbekistan
Maryland-Estonia
Michigan-Latvia
Minnesota-Croatia
Montana-Kyrgyzstan
Nevada-Turkmenistan
North Carolina-Moldova
Ohio-Hungary
Pennsylvania-Lithuania
South Carolina-Albania
Tennessee-Bulgaria
Texas-Czech Republic
Utah-Belarus
Vermont-Macedonia

    Associate Partner States are:

Nebraska-Czech Republic
New Jersey-Albania
Kansas-Ukraine

    The program recently was formally expanded to the SOUTHCOM Theater 
when NGB received approval to initiate several partnerships. Current 
Partner States and Countries in SOUTHCOM are:

Missouri-Panama
Louisiana-Belize
Kentucky-Ecuador
West Virginia-Peru
Puerto Rico-Honduras (Pending)
Florida-Venezuela (Pending)

    Associate Partner States are: New Hampshire-Belize.

    Previously, National Guard units have participated in a multitude 
of humanitarian and civic action projects supporting SOUTHCOM and U.S. 
interests in Central and South America.
    Partner Nations and States are currently developing partnership 
events for the coming year and for out years. These events build on the 
rapport that has been established. Some of the events currently being 
discussed are multi-national disaster preparedness exercises, search 
and rescue exercises, environmental operations, military justice, NCO 
development programs and civil/military cooperative programs.
    The participating nations have demonstrated their commitment to the 
democratic process and their willingness to work with their partner and 
others. In the summer of 1996, the Indiana and Alabama National Guards 
participated in Exercise ``Cornerstone 96'' in Romania. This exercise 
involved the rehabilitation of a military hospital, an international 
daycare center, and an orphanage for HIV infected children. Exercise 
``Baltic Challenge'' conducted in Latvia included participation from 
Maryland, Pennsylvania and Michigan National Guard elements with their 
partner nations Estonia, Latvia, and Lithuania. Last quarter several 
states participated in an earthquake preparedness exercise in 
Macedonia.
    Success of this program is also indicated by numerous requests for 
information on the State Partnership Program by other nations. 
Representatives from several African and Pacific Rim nations have 
expressed interest in participating in the Partnership program.
    The National Guard Bureau does not have a budget for the Mil-to-Mil 
Contract Program. Our participation in the program supports the theater 
Commander in Chief (CINC), who accesses various funding sources, such 
as CINC Initiative Funding, Warsaw Initiative Funding, and Cooperative 
Threat Reduction (CTR) money. The funding sources are used by all 
branches of service (Active and Reserve) to fund events approved by the 
Joint Staff, the Interagency Working Group, and the Theater CINC, in 
coordination with the host country, and the Ambassador's Country plan.
                                 ______
                                 

                 Questions Submitted by Senator Inouye

                           force integration
    Question. In your view, how well integrated are the reserves with 
the active force?
    Answer. Secretary of Defense Cohen is committed to transforming our 
military forces into an integrated force--a seamless Total Force--that 
provides the U.S. the flexibility and interoperability necessary to 
respond to the full range of military operations that we are called 
upon to do in today's uncertain world. In his September 4, 1997 Total 
Force memorandum to the Service Secretaries, Chairman of the Joint 
Chiefs of Staff, and Under Secretaries of Defense (attached) Secretary 
Cohen stated, ``Today, I ask each of you to create an environment that 
eliminates all residual barriers--structural and cultural--for 
effective integration within our Total Force. By integration I mean the 
conditions of readiness and trust needed for the leadership at all 
levels to have well-justified confidence that Reserve Component units 
are trained and equipped to serve as an effective part of the joint and 
combined force within whatever timelines are set for the unit--in peace 
and war.''
    Secretary of Defense's memorandum identified four basic principles 
required in order to achieve Total Force Integration. They include:
  --Clearly understood responsibility for and ownership of the Total 
        Force by the senior leaders throughout the Total Force;
  --Clear and mutual understanding on the mission for each unit--
        Active, Guard and Reserve--in service and joint/combined 
        operations, during peace and war;
  --Commitment to provide the resources needed to accomplish assigned 
        missions;
  --Leadership by senior commanders--Active, Guard and Reserve--to 
        ensure the readiness of the Total Force
    Post-Cold War military operations have demonstrated a dramatic 
increase in reliance on the Guard and Reserve. Some examples include 
the use of RC in the 1990-1991 Gulf War (over 250,000 Reservists); in a 
wide range of peacetime operations and joint exercises to relieve TEMPO 
stress on the Active force; and in support of Operation Joint Guard, 
and other contingency operations. The Congress and the Governors have 
been concerned over ``fair'' treatment of the RC. They have sought to 
minimize RC cuts and expand RC roles in the National Military Strategy 
in peacetime and wartime and in support to domestic emergencies.
    We're working today to achieve fuller integration on the AC and the 
RC. We're on the right course for the future.
    Since his memorandum, the Department of Defense has continued its 
proactive steps to further integration of the Active and Reserve 
components. Examples that we're on the right course today include:
  --Unprecedented RC involvement in DOD resource deliberations this 
        year.
  --Expanded support to Chairman JCS by adding two full-time advisors 
        at the two-star level, one from the Guard and one from the 
        Reserve.
  --Through the Defense Reform Initiative, introduced efficient 
        business practices such as the Defense Joint Military Pay 
        System under DFAS, and the future development of the Defense 
        Integrated Military Human Resources System.
  --Issuing a Green ID card to replace the Red ID card previously 
        issued to Ready Reservists.
  --Demonstrated commitment to integrating RC support to the nation by 
        aggressively pursuing DOD response to emerging terrorist threat 
        of domestic use of Weapons of Mass Destruction through Defense 
        Reform Initiative Directive # 25.
  --National Guard and Reserve components will provide Consequence 
        Management support to aid the efforts of the local first 
        responders who are the key initial disaster response 
        individuals.
  --DOD and the Department of Veterans Affairs working to address RC 
        health care issues through the Reserve Component Health Care 
        Summit.
  --Partnership for Peace (PfP) is a major NATO initiative, established 
        in 1994 and directed at increasing confidence and cooperative 
        efforts to reinforce European security. State Partnership for 
        Peace is the National Guard portion in this continuing role to 
        shape the international environment and provide stability to 
        emerging democracies in Eastern European.
    The Services individually are working hard to further integration. 
Some of these initiatives include:
  --The Army is assessing more than 30 initiatives to improve active-
        reserve force integration including integrated divisions, 
        conversion of combat structure to critically needed support 
        structure, use of reserve units in support of rotational 
        operational missions and addressing the growing threat to the 
        U.S. homeland.
  --The Air Force is building on their success by expanding Guard/
        Reserve missions, transferring force structure to the RC, 
        modernizing fighter units, enhancing RC participation in major 
        staffs, and others. The Air Force Chief of Staff commissioned a 
        special General Officer Steering Group to develop guiding 
        ``Principles for Determining the Air Force Active/Reserve 
        Mix.''
  --The Navy and Marine Corps are maximizing the contributions of their 
        RC's to relieve AC OPTEMPO and enhance utility for contingency 
        operations. Both services are conducting major assessment 
        efforts to maximize the contributions of their RC's and enhance 
        synergy with the AC.
                            Defense Agencies

   Office of the Under Secretary of Defense (Personnel and Readiness)

STATEMENT OF CAROLYN H. BECRAFT, DEPUTY ASSISTANT 
            SECRETARY OF DEFENSE (PERSONNEL SUPPORT, 
            FAMILIES AND EDUCATION)

                    U.S. Special Operations Command

STATEMENT OF BRIG. GEN. GARY W. HECKMAN, DIRECTOR, 
            CENTER FOR COMMAND SUPPORT

                        Defense Logistics Agency

STATEMENT OF FREDERICK N. BAILLIE, EXECUTIVE DIRECTOR 
            OF RESOURCES, PLANNING, AND PERFORMANCE 
            DIRECTORATE, DEFENSE LOGISTICS SUPPORT 
            COMMAND

                      TRICARE Management Activity

STATEMENT OF REAR ADM. TOM CARRATO, CHIEF OPERATING 
            OFFICER

                   opening statement of conrad burns

    Senator Burns. We will now hear from our second panel this 
morning representing the defense agencies. We have Brig. Gen. 
Gary Heckman, Director, Center for Command Support, U.S. 
Special Operations Command; Frederick Baillie, Executive 
Director, Resource, Planning and Performance, Defense Logistics 
Support Command, Defense Logistics Agency. We have Carolyn 
Becraft, Deputy Assistant Secretary of Defense for Personnel 
Support, Families and Education, Office of the Under Secretary 
of Defense (Personnel and Readiness), and also Rear Adm. Tom 
Carrato, Chief Operating Officer for TRICARE Management 
Activity.
    Ladies and gentlemen, it is nice to have you here this 
morning, and we appreciate you being with us. I think it will 
provide the subcommittee with an overview of your respective 
agencies proposed in the 1999 budget. You might keep your 
statements brief or if you can consolidate them. We will make 
your full statement a part of the record.
    Again, we hope that Senator Murray makes it back for her 
statement.
    We will start out this morning with Ms. Becraft. We are 
looking forward to your statement. Thank you for coming today.

                    statement of carolyn h. becraft

    Ms. Becraft. Thank you, Mr. Chairman. It is certainly my 
pleasure to be here today. I really want to thank you for 
providing a quality of life for our service members that 
reflects the uniqueness of the military service, and as Under 
Secretary de Leon has stated on many occasions, allows us to 
return quality, predictability, and stability to military life.
    I have submitted my full statement for the record, and I 
will just make some brief comments.
    The Department continues to place a high significance on 
community quality of life. We believe it is important to 
provide the troops and families with the requisite programs and 
services that will ensure that they have the tools necessary to 
deal with the stresses of military life. It is particularly 
important to provide quality of life because of the high 
OPTEMPO and PERSTEMPO in today's services. Your unwavering 
support for military construction of quality of life projects 
has allowed us to chart a course to sustain and improve the 
troops' standard of living. Military construction projects 
literally lay the foundation for our support programs that 
military families need from education to child care to physical 
fitness.
    I want to especially thank the members of the committee and 
your leadership last year for supporting a total of 16 quality 
of life projects, including five fitness centers, seven child 
care centers, three education centers, and a DODEA school 
project. I can relay from my many visits to bases and 
installations that there is no more demonstrable way to show 
support for quality of life than when the brick and mortar 
starts going up on the base. It really sends a strong message 
that this committee really cares for military people. So, I 
thank you so much.

                            quality of life

    The issue of construction for our military dependent school 
system has had my full attention. It is something that we need 
to do to improve the overall quality of life. Moreover we need 
to give the children of our armed forces a safe and 
educationally enriching environment for them to succeed.
    We have a long-term strategy to continue to address our 
facility requirements in our upcoming budget. Our DODEA fiscal 
year 1999 construction program focuses on our more urgent 
requirements. We have the first stages of two major initiatives 
in this request. The first major initiative is the construction 
of the permanent school facilities to serve the students on 
Guam, and the second is a long overdue replacement of aged 
DDESS schools at Camp Lejeune.
    Our first major initiative is on Guam. I have personally 
visited all of the installations and spoken to the commanders, 
students, faculties, and families. I have toured all of our 
makeshift buildings in Guam. I can tell you that the Navy and 
Air Force families heralded the opening of these schools. They 
were very, very excited. It was a major contributor to quality 
of life on the island, and it also is resulting in a 
significant reduction in unaccompanied tours by military 
families. So, in all, these schools have allowed us to really 
stabilize the accompanied tour for our service members in Guam.
    I also led a team of DOD leaders to Camp Lejeune to review 
the school requirements there. These schools do not meet the 
North Central Association nor Department standards due to the 
physical plant deficiencies. These schools have been Band-Aided 
after being hit by two hurricanes in 1996. They have major 
electrical problems, safety problems, and infrastructure 
problems that are beyond any economical repair.
    The remaining two projects that we have in our 1999 budget 
include an elementary school for the Antilles School District 
in Puerto Rico, a longstanding requirement, and our West Point 
Elementary School. Both of these projects address many of the 
same types of safety, space, and structural issues that plague 
the Lejeune and Guam schools. These schools are generally 
outdated. The Antilles school includes dilapidated temporary 
facilities that are structurally unsound. The classroom sizes 
are too small, and they do not meet current educational 
requirements, and they cannot be upgraded.

                           prepared statement

    In conclusion, I want to thank you for your support for 
DODEA's Milcon requirements, and moreover for the programs that 
support our troops and their families. Quality of life is key 
to preserving individual and family well-being, solidifying 
military and societal core values in our forces, while 
contributing to a trained and ready force. The continued 
congressional funding and support is essential to maintaining 
and upgrading these programs, services, and facilities. So, 
again, thank you very much, and I would be glad to answer any 
questions you may have.
    [The statement follows:]

                Prepared Statement of Carolyn H. Becraft

    Mr. Chairman and members of the committee, today I am pleased to 
report to Congress on the current status of a critical component of the 
Department's quality of life program, the Department of Defense 
Education Activity's (DODEA) construction program. As the Deputy 
Assistant Secretary responsible for community quality of life programs 
such as morale, welfare and recreation, voluntary education, child 
care, and the education of military dependents, I am also pleased to 
report that with the help of Congress, we continue to make great 
improvements in the military community. This is indeed a good news 
story, as it demonstrates, with concrete examples, our joint commitment 
to quality of life in support of both the well-being of our service 
members and their families and the long-term readiness and retention of 
our military forces.
    I want to especially thank the members of this committee for your 
leadership and support last year for quality of life construction 
projects; a total of 16, including five physical fitness centers, seven 
child care centers, three education centers and one DODEA school 
project. I can relay from my many visits to our bases and installations 
that there is no more demonstrable way to show support for quality of 
life, than when the brick and mortar starts going up at a base. I can 
assure you that troops and families are appreciative and know where 
this all starts.
    Before fully addressing the specific requirements for each DODEA 
project, let me give you an overview of our military community quality 
of life projects that we have submitted this year.
    The Department continues to place high importance on community 
quality of life. We believe it is important to provide troops and 
families with the requisite programs and services that will ensure they 
have the tools necessary to deal effectively with the stresses of day 
to day life. This is particularly important given the high operation 
and personnel tempo in today's military. Examples of programs that have 
a direct tie to high personnel TEMPO include physical fitness, child 
care and education.
                       physical fitness programs
    Physical fitness is directly linked to military outcomes and recent 
surveys showed it to be one of the top priority morale, welfare and 
recreation programs for our troops. The Department continues to put 
high priority on improvement of the operation, management and the 
physical plant for fitness programs. Funding for fitness in the Service 
accounts has increased steadily since 1995. With your support six 
fitness center projects were funded in fiscal year 1998 and we ask for 
your support for three projects for fiscal year 1999. Further, because 
of their contribution to positive military outcomes, the Department is 
taking special action to improve and modernize the services offered. 
``Operation Be Fit'' is a special fitness initiative launched to 
improve programs and increase individual participation in fitness 
activities.
                          child care programs
    The Department appreciates your continuing support for our child 
care programs. All seven projects authorized in fiscal year 1998 are on 
track and are either in the final stages of design or contract award. 
We request your support for the five projects in this year's budget. 
All five projects are replacement of existing substandard or temporary 
facilities.
    The Department is proud to have been singled out as a model for the 
nation in child care. On April 17, 1997, President Clinton issued an 
executive memorandum recognizing the DOD child development program as a 
model for the nation, and directed the Department to share its 
expertise with Federal and state agencies, and the private sector. DOD 
has developed partnerships with the Department of Health and Human 
Services, the General Services Administration, and the National 
Governors Association to meet that request. The Department also 
established a National Clearinghouse of Military Child Development 
Programs as a way to share materials and lessons learned. During the 
next year, DOD will be working cooperatively through each of these 
agencies to share our expertise and lessons learned, and thereby, 
contribute to the President's goal of improving child care throughout 
the nation.
    The Department of the Navy and the Defense Logistics Agency (DLA) 
continue to serve as our Executive Agents for determining the 
feasibility of outsourcing child care. The Navy has two outsourcing 
program initiatives underway. One initiative is to purchase child care 
spaces in existing accredited civilian child care centers by ``buying 
down'' the cost for military families. The Navy has been successful in 
purchasing spaces in four of the five locations they have targeted. 
While contracts have been established, the much needed--and highly 
expensive--infant toddler spaces are not available. The second Navy 
initiative is an A-76 Commercial Activities Study for the military 
child development program in the San Diego area. The goal of this study 
is to determine if the private sector can manage the current program 
utilizing on and off-base accredited centers and family child care 
homes as a way to expand the availability of care in the area.
    Finally, DLA is testing the management and operation of a military 
constructed child development center in Dayton, OH. The contract has 
been in effect for a little over 1 year. The Department is 
commissioning a RAND study to determine the cost effectiveness of all 
three of these options. This study will begin this spring.
                      voluntary education programs
    Last year three education centers were funded thanks to your 
support. The issue of lifelong learning is not new to DOD; we have 
always been a leader in providing troops with the educational 
opportunities for both professional and personal growth. Secretary 
Cohen has found on his visits with the troops, that educational 
opportunities are a major reason young people join the military. 
Beginning October 1, 1998, we will have instituted a standardized rate 
of support for tuition assistance across the Services. We are seeking 
to expand educational opportunities through distance learning. This is 
key if we want to remain an employer of choice in the 21st century. Our 
fiscal year 1999 construction plan includes one new education center. 
Participation in the voluntary education program remains strong, with 
over 600,000 enrollments in undergraduate and graduate courses and 
28,000 degrees awarded in fiscal year 1997. The high level of 
participation makes this program one of the largest and most diverse 
continuing education programs in the world.
                department of defense education activity
    When we talk about the Department of Defense Education Activity it 
is important to remember that this school system is one of the largest 
in the nation--with the added distinction of being spread around the 
world--with some 200 schools located in 15 foreign countries, several 
States, Guam and Puerto Rico. We take the business of educating the 
students in our ``school-houses'' very seriously.
    First some background on what we are doing inside the schoolhouse. 
The Department of Defense Education Activity supports the educational 
needs of children of American military personnel throughout the world. 
DODEA continues to lead the way by providing an educational program 
that exceeds the best U.S. public school system and one that prepares 
students to compete in a global economy. DODEA has stepped up to the 
plate by fully adopting the National Education Goals, implementing a 
plan to link all schools to the Internet, and has become a leader in 
the President's Technology Initiative.
    In support of the President's National Education Goals 2000 
Program, civilian and military leadership have become actively involved 
in partnering initiatives with local schools both on the installation 
and in the local community. Examples of programs that support a 
``family friendly'' work environment are: adopt-a-school; Drug Abuse 
Resistance Education (DARE); mentoring; and tutoring in math, science 
and reading. Outcomes, as measured by standardized testing, continue to 
show that DODEA students perform well, with Scholastic Aptitude Tests 
scores for combined verbal and mathematics above the national average.
    This strong educational emphasis combined with a good physical 
plant makes a schoolhouse. Our fiscal year 1999 military construction 
request is tailored to ensure that DODEA continues on the path towards 
excellence by addressing the facility component of our educational 
strategy. As the umbrella organization overseeing the Department of 
Defense Dependents Schools (DODDS) overseas, and the Domestic Dependent 
Elementary and Secondary Schools (DDESS) within the United States, 
DODEA has significant military construction requirements in both school 
systems. The fiscal year 1999 program will focus on the most urgent of 
these requirements in stateside schools. We have the first stages of 
two major initiatives in this request. The first major initiative is 
the construction of permanent school facilities to serve students on 
Guam and the second is a long overdue replacement of aged DDESS schools 
at Camp Lejeune. I have personally visited all of these installations 
and spoken to commanders, students, faculty and families. Navy and Air 
Force families stationed in Guam heralded the opening of Guam schools 
in time for this school year. I personally took a team of DOD leaders 
to Camp Lejeune to review school requirements there. These schools do 
not meet the North Central Association nor Department standards, due to 
physical plant deficiencies. We have a strategy to continue addressing 
Camp Lejeune and other serious facility requirements in the upcoming 
budgets.
    Specifics on each project in the fiscal year 1999 DODEA request are 
as follows:
Naval Activity Guam, Additions and Renovations to Building 4175 and 
        Building 200
    Programmed amounts are $8.6 million (bldg. 4175) and $4.5 million 
(bldg. 200). In July 1997, in response to requests from the military 
services and DODEA's assessment of the educational opportunities 
provided through the local school systems, the Department authorized 
the establishment of DDESS schools on Guam to serve approximately 2,500 
military dependents stationed on the island. Previously, children of 
military members attended Guam public schools through a contractual 
arrangement with DOD. The military services considered the availability 
of DDESS schools to dependents on Guam to be a significant quality of 
life issue, and their lack of availability a major factor in the high 
number of unaccompanied tours to Guam. The establishment of DDESS 
schools will allow more stabilized accompanied tours and improve 
overall readiness.
    Between July and September, renovations were completed on four 
facilities on Andersen AFB and two on the Naval Activity to provide the 
minimum facilities necessary to begin operation. Included in the 
renovations were extensive seismic upgrades to both facilities on the 
Naval Activity, interior reconfigurations, and installation of fire 
detection and suppression systems. In less than 90 days from the date 
establishment of the schools was authorized, approximately $6.5 million 
in renovation work had been completed, and supplies and materials had 
been purchased, shipped, and distributed to the various school 
facilities on the island. In addition, over 200 teachers and support 
staff were hired and prepared for school opening.
    The fiscal year 1999 military construction budget includes two 
projects to provide additional renovations and additions to facilities 
on the Naval Activity. The first of these is an $8.6 million project on 
the existing elementary school serving 860 students from the southern 
end of the island. The current facility has no gymnasium or physical 
education space, does not have a meal service facility nor adequate 
space for science, home economics, art, and music classes, and has a 
substandard media center. This project will construct a 28,400 square 
foot addition and renovate 11,000 square feet of existing space to 
provide the necessary functional areas required to provide a full 
educational program to the students being served.
    Also on Guam is a $4.5 million project to construct an addition and 
to renovate existing space within building 200 on Nimitz Hill, now 
serving as the high school for students from both the Naval Activity 
and Andersen AFB. This project will construct a new gymnasium, and 
renovate existing space in building 200 to provide a student meal 
facility, six additional general purpose classrooms, and three science 
labs to accommodate the long term enrollment projection of 
approximately 400 students.
Camp Lejeune--Replace Brewster Middle School
    Programmed amount is $16.9 million. Another major initiative in 
this year's budget request is the first of three school replacement 
projects at Camp Lejeune, NC. These schools have been band-aided after 
being hit by two hurricanes in 1996. Brewster Middle School was 
constructed in 1961 and has major electrical, safety, and 
infrastructure problems that are beyond economical repair. The school 
also utilizes a number of substandard temporary facilities that will be 
replaced as part of this project. This project will construct a new 
120,000 square foot facility for 750 students in grades 6-8.
Ft. Buchanan--Antilles Elementary School
    Programmed amount is $8.8 million. The existing school consists of 
a 35-year-old main facility, 8 temporary buildings, and a 35 year old 
open-ended Quonset hut that is used for physical education. Classrooms 
in the main facility are too small to support current educational 
requirements and the temporary buildings are dilapidated and have 
outlived their useful life. This project will provide a new 76,000 
square foot facility to serve approximately 570 students in grades 3-5 
on Ft. Buchanan.
West Point--Additions and Renovations, West Point Elementary School, 
        U.S. Military Academy
    The last project is a $2.8 million addition and renovation project 
at the West Point Elementary School. This project will construct a 
13,000 square foot addition to provide occupational and physical 
therapy and physical education spaces to meet the needs of West Point 
Elementary students, and convert the existing multipurpose room into 
classroom space to support the learning disabilities program. The 
current facilities for these functions do not meet current educational 
needs nor New York State requirements required to support a learning 
disabilities program.
Future Years Requirements
    DODEA has an aggressive out-years plan to address the 
infrastructure requirements of our schoolhouses worldwide. Our future 
years' DDESS construction program currently has a requirement of 24 
school projects in seven states. Projects are programmed in the out-
years to reduce this backlog. In addition to the Brewster Middle School 
project at Camp Lejeune, two elementary schools at that location are 
scheduled for replacement by projects programmed in fiscal year 2000 
and fiscal year 2001. Construction of a 1,800-student elementary school 
on Andersen AFB, Guam is also programmed for fiscal year 2000 and will 
provide permanent facilities for the elementary students currently 
housed in temporary buildings on Andersen. Also in fiscal year 2000, 
three projects are programmed to reduce the backlog of military 
construction requirements on overseas schools, as well as two 
additional stateside school projects. Our total overseas future years' 
DODDS construction requirement is for 16 projects.
    In conclusion, I want to thank the committee again for your support 
for DODEA's military construction requirements and moreover for all 
programs that support our troops and their families' quality of life. 
Quality of life is key to preserving individual and family well-being, 
solidifying military and societal core values in our forces, while 
concomitantly contributing to a trained and ready force. Continued 
Congressional funding and support is essential to maintaining and 
upgrading these programs, services and facilities. Thank you.

                      statement of gary w. heckman

    Senator Burns. Thank you very much. We will get around to 
asking some questions.
    General Heckman, thank you for coming this morning and I 
look forward to your testimony.
    General Heckman. Good morning, Mr. Chairman. I am pleased 
to be here today to discuss the fiscal year 1999 military 
construction budget request for the U.S. Special Operations 
Command, or USSOCOM. I am Brig. Gen. Gary Heckman. I am the 
Director of the Center for Command Support. That is one of five 
joint management centers on the staff headquarters at MacDill 
AFB, FL.
    With your permission, I will submit my formal statement for 
the record and provide a brief summary.
    Senator Burns. So ordered.
    General Heckman. Our military construction program has a 
direct, positive, and enduring impact on our joint special 
operations capability. The command's Guard, Reserve, and active 
duty soldiers, sailors, and airmen possess the highly 
specialized skills required to successfully execute a full 
range of joint special operations missions.
    The current military construction program is planned to 
provide essential facilities that preserve and improve force 
capability, that increase the readiness of complex weapons 
systems, and support our demanding joint training needs.
    Our military construction budget request for fiscal year 
1999 is $46.86 million. Of that, $41.21 million is for six 
major construction projects, $4.2 million for unspecified minor 
construction, and $1.45 million for planning and design for 
future projects. It provides facilities which directly support 
Reserve component, Army, Air Force, and Navy forces, and 
approval of this program is essential to the continued 
development of the joint special operations forces which 
support America's national security.

                           prepared statement

    The committee's support in prior years has greatly improved 
our operations capability. We look forward to working with your 
committee to acquire the facilities needed by USSOCOM to 
perform our mission and to ensure that we continue to have a 
fully trained and capable joint force.
    Thank you very much for the opportunity.
    [The statement follows:]

                 Prepared Statement of Gary W. Heckman

                              introduction
    Mr. Chairman and members of the committee, I am pleased to present 
the United States Special Operations Command (USSOCOM) fiscal year 1999 
Military Construction (MILCON) budget request. Our MILCON program has a 
direct positive impact on our special operations capability. Our 
soldiers, airmen and sailors possess the highly specialized skills and 
equipment required to successfully execute the full spectrum of special 
operations. A modern array of operations, training, and support 
facilities preserves and enhances these critical skills and equipment.
                                purpose
    The long-term goal of USSOCOM's facility program is to have all 
units and personnel working and living in adequate facilities to 
maximize training and operations capabilities. The current MILCON 
program is planned to provide facilities that will preserve and improve 
force capability, increase the readiness of complex weapons systems, 
and support diverse training needs. In particular, it provides 
facilities for units where no facilities exist, replaces substandard 
facilities, and alters existing structures to accommodate improved and 
expanded special operations forces (SOF) capability. All MILCON 
projects are integrated at the USSOCOM level to ensure the most needed 
projects are constructed at the right place, on time, and with the 
highest return on investment.
    The committee's support in prior years has greatly improved our 
operations capability. We look forward to working with your committee 
to acquire the facilities needed by USSOCOM to perform our mission and 
to ensure we have a fully trained and capable force in the future.
                             milcon program
    Our MILCON budget request for fiscal year 1999 is $46.86 million: 
$41.21 million for construction, $4.2 million for unspecified minor 
construction, and $1.45 million for planning and design. This total is 
less than 2 percent of USSOCOM's total obligation authority and 
represents an investment needed to ensure our physical plant supports 
critical mission requirements. The six military construction projects 
in this program include two projects for the Air Force Special 
Operations Command, two projects for the Naval Special Warfare Command, 
one project for the United States Army Special Operations Command, and 
renovation of USSOCOM's Command & Control Facility at MacDill Air Force 
Base, FL. Following is a brief description of each of the projects 
listed by state:
    Amphibious Operations Facility--$3.6 million--Naval Amphibious 
Base, Coronado, CA.--Constructs a boat storage facility and renovates 
an existing building for operational gear storage. Project provides 
physical security and environmental protection for Naval Special 
Warfare Boat Squadron ONE small craft, patrol boats and gear. Small 
craft to be serviced include Rigid Hull Inflatable Boats and patrol 
boats.
    General Purpose Aircraft Maintenance Shop--$2.21 million--Eglin 
Auxiliary (Duke) Field #3, Florida.--Constructs a general purpose 
maintenance shop to support the 919th Special Operations Group (Air 
Force Reserve). Provides an adequately sized and configured facility to 
maintain aircraft and train aircraft maintenance personnel. Existing 
facilities are too small and improperly configured and will be 
demolished upon completion of this project.
    Clear Water Aircraft Rinse--$2.4 million--Eglin Auxiliary 
(Hurlburt) Field #9, Florida.--Provides a clear water rinse facility 
for MH-53, MH-60, and C-130 aircraft after operations over salt water. 
The construction will provide an automatic drive-through facility for 
70 aircraft to prevent severe corrosion damage to these aircraft.
    Renovate Command & Control Facility--$8.4 million--MacDill Air 
Force Base, FL.--Renovates the interior of the existing USSOCOM 
headquarters facility. USSOCOM is currently housed in a facility 
constructed in 1967. Project rehabilitates the building's interior 
systems, finishes, electrical and mechanical equipment which are worn 
out from over 30 years of use and will provide more efficient use of 
existing work space.
    Aircraft Maintenance Hangar--$15.0 million--Fort Campbell, KY.--
Constructs an aviation maintenance hangar for MH-47 helicopters to 
accommodate increased aircraft and personnel assigned to the 160th 
Special Operations Aviation Regiment. Current facilities lack space for 
shop maintenance, flight operations support, mission planning, crew 
member training and unit administration.
    Operations Facilities--$9.6 million--Naval Station Roosevelt Roads, 
Puerto Rico.--Constructs operations and support space for Naval Special 
Warfare Unit FOUR. Project provides an 80-person isolation facility for 
temporary additional duty personnel, a boat maintenance/storage 
building with overhead crane, boat ramp and finger piers.
                                summary
    Our proposed fiscal year 1999 MILCON budget for facility 
investments will significantly improve the operational and training 
capability of special operations forces. Approval of this program is 
essential to ensure the continued development of our nation's Special 
Operations Forces.

                   statement of frederick n. baillie

    Senator Burns. Thank you very much, General.
    Mr. Baillie, how are you?
    Mr. Baillie. Very good. Thank you, sir. I am pleased to be 
able to return this year to work with your subcommittee on the 
DLA Milcon.
    Since you previously agreed to include the prepared 
statements, I just have a few brief oral remarks.
    The Defense Logistics Agency's fiscal year 1999 military 
construction request is $73.9 million for nine projects. This 
year the agency continues its emphasis on sustaining and 
enhancing the Department's fuel storage and distribution 
infrastructure. Seven of those nine projects that we are 
requesting are fuel related and support the Joint Chiefs of 
Staff and the services operational requirements. These projects 
include hydrant fuel systems to support strategic mobility and 
the replacement of fuel storage facilities at several military 
installations to comply with environmental standards.
    At critical military installations, we propose to replace 
fuel storage tanks and piping systems that are more than 40 
years old and cannot meet current operational requirements. 
These deteriorated facilities pose a serious environmental 
hazard because they lack the physical safeguards to detect fuel 
leaks or contain spills.
    Our request also includes two projects at Elmendorf Air 
Base and Lajes in the Azores to improve strategic en route 
refueling capability.
    One of the two remaining projects continues our program 
from prior years to construct hazardous waste storage 
facilities to conform with requirements of the Resource 
Conservation and Recovery Act.
    Finally, sir, at one of DLA's remaining supply centers, we 
will convert a vacant warehouse to administrative space for 764 
employees who are now scattered in approximately 36 temporary 
office trailers.
    In summary, our military construction program supports the 
DLA mission by providing vital facilities that enhance the 
services warfighting capabilities.

                           prepared statement

    Mr. Chairman, that concludes my oral statement. Again, 
thank you for asking me to appear, and I will certainly be glad 
to answer questions later.
    [The statement follows:]

               Prepared Statement of Frederick N. Baillie

    Mr. Chairman, and members of the Subcommittee: I am Frederick N. 
Baillie, Executive Director of Resources, Planning, and Performance, 
Defense Logistics Support Command, at the Defense Logistics Agency 
(DLA). I am pleased to have the opportunity to provide information 
about DLA's fiscal year 1999 Military Construction request.
                     military construction request
    Our total Military Construction request for fiscal year 1999 is 
$73,920,000. The program consists of nine projects that will enhance 
strategic en route fueling capability, increase mission responsiveness, 
eliminate environmental hazards, and improve facility readiness at our 
activities in support of the Agency's missions. This request includes:
  --$38.5 million for replacing or constructing additional fuel storage 
        tanks, fuel unloading facilities, and direct refueling systems 
        at five Air Force, Navy, and Army bases.
  --$23.6 million for replacing deteriorated, obsolete hydrant fuel 
        systems at two Air Force bases.
  --$1.3 million for constructing a conforming storage facility for the 
        disposal of DOD-generated hazardous waste.
  --$10.5 million for the conversion of an existing warehouse to 
        administrative space at DLA's Defense Supply Center in 
        Richmond, VA.
                   new fuel mission responsibilities
    In fiscal year 1996, DLA assumed new responsibilities for 
programming fuel-related MILCON projects for bulk and intermediate fuel 
storage and hydrant fuel systems at the Services' installations. The 
Office of the Secretary of Defense approved this responsibility 
transfer from the Services in fiscal year 1992 in its Plan for the 
Integrated Management of Bulk Petroleum. In carrying out this 
responsibility, we are requesting approval of 7 fuel-related projects 
at $62.12 million, which is 84 percent of our total program request. 
Five of these projects (at the Defense Fuel Support Point (DFSP) 
Jacksonville, FL; Fort Sill, OK; Camp Shelby, MS; Naval Station 
Mayport, FL; and, Pope Air Force Base (AFB), NC) are necessary to meet 
environmental compliance and operational requirements. The remaining 
two projects (at Elmendorf AFB, AK; and, Lajes, Azores) are priorities 
of the Joint Chiefs of Staff to provide critical fuels infrastructure 
to support strategic en route mobility.
Fuel receipt and storage facilities
    Our proposed investment of $38.5 million in fuel receipt and 
storage facilities is to replace or add fuel storage, distribution, and 
piping systems at five locations. These projects will overcome 
shortfalls affecting support of the bases' missions and eliminate 
potential environmental liabilities.
    At Defense Fuel Support Point Jacksonville, FL, we will construct 
an $11 million fuel storage facility. It will replace four existing 80-
year-old bulk fuel storage tanks that have failed, or are failing, due 
to their age and mechanical condition. Two recent tank failures account 
for a loss of more than half of the base's storage capacity for marine 
diesel fuel. In addition, the storage capacity of two remaining tanks 
has been limited due to structural deficiencies, causing the tanks to 
lean outward. These conditions have forced the Agency to store some of 
the area's critical prepositioned war-reserve fuel stock at less 
optimum locations. This new facility will provide three 70,000-barrel 
aboveground storage tanks, and allow the base to consolidate its war-
reserve and peacetime fuel stocks into storage tanks that comply with 
state and Federal environmental regulations. The four existing 
aboveground storage tanks will be demolished as part of this project.
    At Fort Sill, OK, we propose a $3.5 million project to construct a 
ground vehicle fueling facility to replace the existing fuel facility 
that was permanently shut down because of numerous leaks and piping 
system failures. This project replaces the installation's temporary 
facility, which is undersized and malpositioned to meet mission 
requirements. The new facility will provide the required storage 
capacity and a ground vehicle dispensing facility to support Fort 
Sill's crisis-response mobilization and peacetime missions.
    At Camp Shelby, MS, we will replace deteriorated bulk storage tanks 
that do not meet current environmental requirements. Our proposed $5.3 
million project will provide the tanks, spill containment structures, 
pumphouse, dispensing facilities, and mechanical controls to meet 
current environmental standards and reduce the potential for costly 
fuel-spill cleanups. The project includes the demolition of the 
existing fuel facilities. This facility supplies fuel for the training 
requirements for units of the National Guard, Reserve, and active 
Department of Defense components.
    At Naval Station, Mayport, FL, we will replace four old, 
deteriorated underground storage tanks (UST) with four new aboveground 
storage tanks. This $11.02 million project will fulfill an 
environmental compliance consent agreement with the State of Florida to 
take these 40-year-old UST's out of service by December 31, 2000. The 
project will provide two 40,000-barrel marine diesel tanks and two 
15,000-barrel jet fuel tanks with associated fuel systems and 
equipment.
    At Lajes Field, Azores, we will provide two aboveground fuel 
storage tanks and a pumphouse to replace 30 deteriorated underground 
tanks and a pumphouse that has been in service for more than 45 years. 
Our proposed $7.7 million project provides the operating tanks, spill 
containment structures, piping, and mechanical controls to meet current 
environmental standards, and reduces the potential for costly fuel-
spill cleanups and aquifer contamination. These tanks and pumps are 
essential for the continued operation of an 18-outlet hydrant fuel 
system, built in 1993. The project includes the demolition of the 30 
existing tanks and pumphouse.
Hydrant fuel systems
    Our proposed investment to replace old and deteriorated hydrant 
fuel systems, or provide new systems at critical bases, is $23.6 
million.
    We propose to replace a hydrant fuel system at Elmendorf AFB, AK. 
The $19.5 million project will provide a system of 12 modern, 
pressurized fuel hydrant outlets. The existing hydrant system, built in 
the 1950's, is technologically obsolete and incapable of supporting 
current wide-bodied aircraft refueling requirements. Repair parts, 
which are no longer available, must be individually fabricated or 
salvaged from other inoperable systems. Moreover, the deteriorated 
system is at the point of failure; it has already leaked several times 
this past year. This project is a high priority of the Joint Chiefs of 
Staff and the U.S. Transportation Command to support strategic en route 
mobility requirements.
    At Pope AFB, NC, we propose to construct a new $4.1 million hydrant 
fuel system to improve the base's capability to quickly refuel wide-
bodied aircraft. These aircraft are used to transport troops, 
munitions, and equipment deploying from Fort Bragg. Currently, refueler 
trucks are used to refuel these aircraft. Low pumping rates and long 
turnaround times to refill the required six-to-seven truckloads of fuel 
make use of refueler trucks unsatisfactory.
                 supply and service center investments
Supply centers
    At the Defense Supply Center, Richmond, VA (DSCR), we propose to 
convert an existing warehouse to an administrative facility to provide 
permanent, modern, energy-efficient office space to support the Supply 
Center personnel increase due to item transfer from the Services. 
Currently, these employees are scattered in a temporary complex of 36 
office trailers and in a deteriorated World War II wooden building. At 
$10.5 million, conversion of this warehouse is more economical than 
constructing a new administrative facility. The World War II building 
will be demolished as a part of this project.
Conforming storage
    Since 1980, DOD has tasked DLA with disposing of hazardous waste 
generated by DOD components. Before disposal, DLA must store this 
hazardous waste in conformance with Federal and state environmental 
regulations implementing the Resource Conservation and Recovery Act 
(RCRA). In fiscal year 1999, we are requesting $1.3 million to build a 
conforming storage facility at one of our Defense Reutilization and 
Marketing Offices to comply with these environmental requirements.
                                summary
    DLA's fiscal year 1999 Military Construction request reflects our 
efforts to support military readiness, protect the environment, and 
provide safe and adequate working conditions for our military and 
civilian work force. Seven of the nine projects provide vital fuel 
facilities to support the Services' warfighting requirements. The 
remaining two are needed to meet the Agency's non-fuel mission 
requirements to sustain operations into the 21st Century.
    Thank you, Mr. Chairman, for this opportunity to present our fiscal 
year 1999 Military Construction requirements.

                        statement of Tom Carrato

    Senator Burns. Thank you, it has been nice working with 
you. During the time that I have been here, you have been very 
cooperative and informative, and I appreciate that.
    Rear Adm. Tom Carrato. Is that it? Carrato?
    Admiral Carrato. That is correct. Carrato.
    Senator Burns. Chief Operating Office, TRICARE Management 
Activity.
    If there is anything that has been a discussion around 
here, it is TRICARE. You might want to just give me a brief 
explanation of TRICARE and how you think it is going. We look 
forward to your statement.
    Admiral Carrato. Yes, sir; good morning, Mr. Chairman. It 
is my pleasure to be here this morning.
    I will start by giving you a brief discussion of TRICARE 
and how I think it is going.
    TRICARE is the Department of Defense's managed care 
initiative. We are seeking to convert one of the largest and 
one of the most important health care systems in the world into 
a system of regionally based primary care physician managed 
care.
    In my estimation, TRICARE overall is proceeding to meet its 
goals of enhancing access, improving quality, containing costs. 
As with any undertaking of this size, converting an entire 
health care system to managed care, there are some bumps along 
the way which we are experiencing. We are listening to our 
beneficiaries and to Members of Congress and committee staff, 
and as issues are raised, we seek to address them.
    One of the ways that we are trying to take action to 
further address these issues was the creation of the TRICARE 
Management Activity. That is a direct result of the defense 
reform initiative, and we have created a defense field 
activity. The purpose is to manage the TRICARE program, manage 
it effectively and efficiently for all concerned.
    As part of the reorganization and with the creation of the 
TRICARE Management Activity, the Defense Medical Facilities 
Office is now within the purview of my office in the TRICARE 
Management Activity. I would like to present today a brief 
overview of our fiscal year 1999 medical military construction 
program and provide for the record a longer written statement.
    I just wanted to say that the Appropriations Committee has 
been very supportive of our medical construction program in the 
past, and I personally am looking forward to working with your 
subcommittee.
    Our mission is to provide preventive health care and 
mission readiness for the Department of Defense. Our fiscal 
year 1999 program requests an appropriation of $217,332,000 for 
27 major construction projects, as well as $1.9 million for 
unspecified minor construction. We are also seeking $8,555,000 
for planning and design efforts to complete designs on fiscal 
year 2000 projects and to commence design on projects 
identified for fiscal year 2001. The total request for our 
appropriation is $227,787,000.

                           program highlights

    I want to highlight a couple of aspects of the program. We 
seek the 10th and final increment of funding for the 
Portsmouth, VA, naval hospital project. Our fiscal year 1999 
budget request includes four projects for the hospital 
addition, alteration, life safety upgrade, and support 
infrastructure, two projects for medical training mission 
support, six medical readiness related projects, and 14 clinic 
replacements, additions, and alteration type projects. All 
these projects will either improve the departmental mission of 
readiness or quality of life for our beneficiaries and 
providers.
    We are constantly working on right-sizing DOD medical 
facilities to support demographic and beneficiary requirements.
    No portion of two overseas facilities, Royal Air Force 
Lakenheath, United Kingdom, and Naval Air Station, Sigonella, 
Italy is eligible for NATO funding.
    This concludes my overview statement of the fiscal year 
1999 medical military construction budget request. The program 
stands as a testament to our commitment to provide quality care 
to the men and women of our armed forces and to maintain our 
medical readiness.

                           prepared statement

    I would like to thank you for the opportunity to present 
our budget, and I welcome any questions you might have. Thank 
you, sir.
    [The statement follows:]

Prepared Statement of Diana Tabler, Deputy Executive Director, TRICARE 
                          Management Activity

    Thank you Mr. Chairman and Members of the Subcommittee. I am Diana 
Tabler, Deputy Executive Director, TRICARE Management Activity, Office 
of the Assistant Secretary of Defense for Health Affairs. I would like 
to open with some overview remarks:
    On behalf of the Assistant Secretary of Defense for Health Affairs, 
I thank you for the opportunity to present the Department of Defense's 
fiscal year 1999 Medical Military Construction Program budget request.
    Our fiscal year 1999 request seeks $217,332,000 in appropriations 
for 27 projects as well as $1,900,000 for Unspecified Minor 
Construction and $8,555,000 for planning and design, for a total of 
$227,787,000. I would like to provide a few details on our projects in 
this year.
    We are seeking $17,954,000 for the final phase of the Portsmouth 
Naval Hospital, Virginia project. Congress has appropriated 
$333,400,000 to date for this project. We continue to ask your support 
for this important teaching hospital which serves the largest 
population in the Navy.
    We request funds for two hospital addition/alteration projects. The 
Hospital Addition/Alteration project at Bremerton Naval Hospital, 
Washington, for a cost of $28,000,000, will modify a facility built in 
1979. The Pensacola Naval Air Station, FL, Hospital Addition/Alteration 
project requires $25,400,000 to construct an Outpatient Clinic addition 
and to partially renovate and perform life-safety upgrade work on the 
existing hospital.
    One of our projects at Royal Air Force (RAF) Lakenheath, United 
Kingdom requires a Hospital Annex Replacement for $10,800,000 to 
support the RAF Lakenheath/RAF Mildenhall communities. The current 
annex is a group of primarily World War II era ``Quonset huts'' 
connected together with a common corridor.
    Our fiscal year 1999 budget request includes 11 clinics that are 
either replacements or additions/alterations. A Composite Medical 
Facility Alteration and a Dental Clinic Addition at Moody Air Force 
Base, GA, at a cost of $11,000,000, will ``right-size'' the hospital to 
a clinic to meet local beneficiary health care requirements on a cost-
effective basis. Three Medical/Dental Clinic Replacements are 
requested, one at Fort Stewart, GA, for $10,400,000, and two at Camp 
Pendleton Marine Corps Base, CA, Margarita for $3,100,000 and San Mateo 
for $3,200,000. The fifth clinic, an addition/alteration to the 
existing composite medical facility, is required at Barksdale Air Force 
Base, LA. This clinic, at a construction cost of $3,450,000, will 
consolidate the operations of the Flight Medicine, Pediatrics, and 
Immunization clinics, which are located in separate buildings 
throughout the base. A Medical/Dental Clinic Addition/Alteration at 
Grand Forks Air Force Base, ND, will provide an adequate aeromedical 
service facility and a replacement dental clinic for $5,600,000. The 
seventh clinic, an Aerospace Medical Clinic Addition/Alteration, at 
Edwards Air Force Base, CA, is required to provide adequate space for 
several Aerospace Medical Clinic functions: Flight Medicine, Physical 
Exams, Public Health, Bioenvironmental Engineering, and Optometry at a 
cost of $6,000,000. The Clinic and War Readiness Material Warehouse 
Replacement project at McChord Air Force Base, WA, will provide 
outpatient and emergency care to flight crews, other military 
personnel, and eligible beneficiaries for a cost of $20,000,000. The 
ninth clinic is a Health Clinic Addition at Carlisle Barracks, 
Pennsylvania, at a cost of $4,678,000, for expansion of the existing 
health care clinic to meet healthcare requirements of the beneficiaries 
in the central Pennsylvania. An $11,000,000 Primary Care Clinic will 
consolidate functions from a troop medical clinic and provide family 
practice health services to active duty personnel assigned to the 
COSCOM area of Fort Hood, TX, and their eligible beneficiaries. The 
eleventh clinic is a Flight Line Dispensary at Sigonella Naval Air 
Station, Italy for $5,300,000 to replace an inadequate facility wrought 
with major electrical, mechanical and structural deficiencies.
    We are also requesting funding for two warehouse projects. The 
first is a 44th Medical Brigade War Reserve Materiel Warehouse for 
$6,500,000 at Fort Bragg, NC, to provide a consolidated, humidity 
controlled, facility for storage of medical supplies and other medical 
logistics operations. The second is a War Readiness Material Warehouse 
at Holloman Air Force Base, NM, at a cost of $1,300,000 to accommodate 
the peacetime storage of prepositioned medical war readiness material 
resources.
    We request $1,700,000 for a Patient Movement Items Operations and 
Distribution Center at Travis Air Force Base, CA. David Grant Medical 
Center is tasked to support both peacetime and contingency aeromedical 
evacuation operations for both the Continental United States and the 
Overseas theaters. Travis will serve as the main distribution center 
for the Western United States and the Pacific.
    Our program contains a Blood Donor Center at Fort Hood, TX, for 
$3,100,000 to support the Armed Services Blood program to provide blood 
components to military medical treatment facilities in the Continental 
United States, Panama, Hawaii, and Alaska.
    The program also includes two medical training mission related 
projects. The first one is a Physiological Support Division Addition/
Alteration project at Beale Air Force Base, CA, for $3,500,000 to 
modify a 30-year old facility that will provide adequately sized and 
properly configured space to meet the Aerospace Medicine Physiological 
Support Division requirements of the U-2 mission. The second project is 
a Hospitalman ``A'' School Addition at Great Lakes Naval Station, IL, 
for $7,100,000. This project will provide adequate and properly 
configured training facilities to present curricula in a centralized 
facility that provides a learning environment conducive to Navy 
Hospitalman ``A'' School training in one location.
    We are requesting two utility projects. The first is $9,200,000 for 
a Central Energy Plant at Eglin Air Force Base, FL, to replace the 
existing inadequate facility. The second is a Water Storage Tank at San 
Diego Naval Hospital, California for $1,350,000 to provide fresh water 
during emergency situations. Currently, in the event of a disaster, 
such as an earthquake and loss of the existing water main feeders, the 
only means of receiving fresh water is by truck and this would depend 
upon the road conditions.
    We request $5,700,000 to construct a Disease Vector Ecology and 
Control Center at Bangor Naval Submarine Base, WA. This facility will 
consolidate testing and evaluation laboratory and instruction 
facilities to replace leased space. This function provides 
entomological assistance, preventive medicine conservation, and is the 
sole provider of EPA/DOD approved Disease Vector Control and pesticide 
application certification training required for all Preventive Medicine 
Technicians in the Navy.
    We are also requesting two projects in support of the Fleet 
Hospital Life Extension Program at Cheatham Annex, Virginia. The first 
is an Administration Office and data processing facility for 
$1,900,000. The second is an Operational Warehouse for $9,400,000. 
These facilities consolidate activities from three separate locations 
on the West Coast resulting from the Base Realignment and Closure 
actions. All deployable combat zone fleet hospitals in support of U.S. 
Navy and Marine Corps forces throughout the world will be maintained, 
rebuilt and stored until rotated, at the Cheatham location.
    The last request is $700,000 for an Bioenvironmental Engineering 
Facility Replacement at Keesler Air Force Base, MS, to consolidate all 
of the Bioenvironmental Engineering functions necessary to support the 
industrial functions of the base.
                               conclusion
    This concludes my overview statement of the fiscal year 1999 
medical military construction budget request. The programs stand as a 
testament to our commitment to provide quality care to the men and 
women of our Armed Forces and to maintain our medical readiness. I 
thank you for the opportunity to present our budget and I welcome your 
questions on any aspect of the budget before you now.

    Senator Burns. Thank you very much.
    I want to follow up on the facilities for military 
readiness projects. Now, are these teaching centers? Are they 
training centers for military readiness?
    Admiral Carrato. They are training centers in support of 
the readiness mission, sir.
    Senator Burns. And that would be where we train corpsmen 
and medics and these support people?
    Admiral Carrato. We do have one training program for 
corpsmen at Great Lakes.
    Senator Burns. Well, that is the only Navy boot camp we 
have left, is it not? Great Lakes? We are moving inland. Figure 
that one out, folks. I will have to figure on that just a 
little bit, you know. Why do they move it inland when you are 
going to go to the ocean? It is beyond me. Getting there I 
guess is the challenge, though. [Laughter.]

     department of defense education activity [dodea] construction

    Ms. Becraft, can you just give me an overview of the 
backlog of the DODEA construction program? I have questions 
along that line. How large are your overall construction and 
modernization requirements right now?
    Ms. Becraft. Our unfinanced requirements?
    Senator Burns. Yes.
    Ms. Becraft. About $280 million. I might say that the $280 
million unfinanced requirement is our total system, including 
overseas.
    Senator Burns. Is it wise and have we ever sat down and 
took a look--now, you know we pay impact aid to communities, 
and these are paid to local school districts if the children of 
our military personnel go to public schools in that area.
    Ms. Becraft. That is correct.
    Senator Burns. Has it ever been compared? Rather than 
running education--elementary schools on our different bases, 
should we be going to our public schools off base?
    Ms. Becraft. Yes, sir; we have a study that Congress asked 
us for in the 1995 authorization act that is currently in 
coordination at OMB and with other agencies. It is similar to a 
study that Congress asked us to do in 1986, asking if we should 
turn over our domestic schools.
    Senator Burns. Yes, I understand that.
    Ms. Becraft. While the report is still in coordination and 
it is not completed--when completed, we will forward it over. 
There is a difference in the 1995 survey in that it asked us to 
survey the military leaders, families, and the local education 
agencies in addition to doing just a strict analysis.
    It appears that the significant impediment to transferring 
the schools is the concern of the local educational agencies 
[LEA's] and their ability to absorb additional costs. There is 
a cost issue to this, but I must say that our parents and our 
military leaders are passionate about these schools. At those 
bases where we have these schools, they are very good schools, 
and they are absolutely passionate about keeping these schools.
    Senator Burns. General Heckman, pressing requirements for 
the future. What do you see in the future? What do you see for 
your Special Operations Command?

                       socom future requirements

    General Heckman. Well, we are one of the few areas of the 
Department of Defense that has been experiencing growth, and I 
think the ``Quadrennial Defense Review'' reaffirms the worth of 
these type of forces. Right now we are funding at about 1 
percent of the value of our infrastructure. The $46 million 
represents that. We see, in probably the 2000 timeframe, the 
need to ramp up our investment in our infrastructure to about a 
2-percent level. We are looking for ideas for doing that. As 
far as detailed projects in the year 2000 and out, I would have 
to take that question for the record.
    [The information follows:]

         Fiscal Year 1999 Defense Agencies Construction Program

    The United States Special Operations Command will need increased 
Military Construction investment to the year 2003 to address space 
deficits and substandard conditions, and to maintain the quality of our 
facilities. New permanent construction is required to replace old, 
deteriorated structures currently housing Ranger operations and 
equipment maintenance functions at Fort Benning and Hunter Army Air 
Field, GA, and at Fort Lewis, WA. New facilities are also needed to 
replace aging World War II-era wooden buildings used by special 
operations forces (SOF) units at Fort Bragg, NC, and at Fort Campbell, 
KY. New airfield facilities are required at Eglin Auxiliary (Hurlburt) 
Field #9 in Florida, and CV-22 maintenance training projects will be 
required at several locations. Additional operational projects will be 
required at several locations. Additional operational support, 
training, and storage facilities will be needed by our Naval Special 
Warfare units at Little Creek and Dam Neck, VA; Coronado, CA; and Pearl 
Harbor, HI. Although not an inclusive list, these construction 
requirements are representative of the facility capital investment 
needed in the foreseeable future to enhance the operations, training, 
and readiness of SOF.

    Senator Burns. I would be interested in developing some 
kind of a dialog with you on what you see on out beyond 2002, 
2003, the programs we have out there. Of course, sometimes that 
is hard to do because Government I guess--and we should be 
ahead of the curve a little bit, but it is hard to tell because 
we never know what national emergencies or how our priorities 
change, they can change overnight almost. But, nonetheless, I 
think it has to give us some kind of an idea on where our 
thrust should be.
    Over in the Defense Logistics Agency, a number of projects. 
You tell me most of these are storage tank facilities and fuel 
handling.
    Mr. Baillie. Yes, sir; that is true.

                      dla environmental compliance

    Senator Burns. Give me an idea on your environmental 
compliance, how much of that budget. Have you any kind of a 
figure on what it is costing us just for environmental 
compliance?
    Mr. Baillie. Of the $62 million that we are requesting for 
next year for the entire fuels issue, at least 55 percent, if 
not more, is to correct environmental problems. One of the 
issues with environmental matters in the fuels arena is that, 
as an example, the Elmendorf project, while it is categorized 
formally as a strategic en route fueling, the hydrant system 
itself is also subject to leaks. It is a number of years old at 
this point. So, I would say the better part of what we are 
doing is environmental in the fuels arena.
    Senator Burns. The reason I bring that up and the reason I 
brought up the environmental cleanup in BRAC is of a concern, 
can we fund it, No. 1, but I think there is a perception in the 
American public that the Department of Defense is not aware of 
environmental problems and does not address those. I want to 
make that very clear that we are very sensitive to those areas 
and we are spending a hell of a lot of money in prevention and 
then also in cleaning it up after we get done. I am still 
concerned about the perception we have out there of our 
military and answering some of those questions. We are spending 
a heck of a lot of money and sometimes I think in areas where 
it sort of cripples us from doing other things and completing 
the mission of national security too. But we do not do it at 
the cost of the environment. We do it with those things in 
mind. And I appreciate that very much.
    I will tell you, Admiral, on TRICARE we were looking at 
some things. I have a daughter that just graduated from medical 
school. I get all my advice from her. Am I taking advice from 
the right person?
    Admiral Carrato. Absolutely. [Laughter.]
    Senator Burns. She gave me a tie the other day that had 
nobody but the Flintstones on it, and I asked her if there was 
a message. She called me a stone age father. So, I have no sway 
over this woman whatsoever. But she is also pretty nifty too, 
so I am pretty proud of her.

                     Additional committee questions

    Again, that is all the questions I have. I know there will 
be other questions that will come up as we look over the 
material and as we start through the appropriations process. I 
thank you for making yourself available to those questions. Of 
course, Senator Murray will have questions and her statement 
also on this particular area of appropriations will be part of 
the record. I would appreciate if you would respond to her and 
to the committee whenever she submits her questions. That is 
very, very important to us as we make some of these decisions.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]

                  Questions Submitted by Senator Burns

            department of defense education activity (dodea)
    Question. How are the DODDS schools projects prioritized?
    Answer. The DODDS and DDESS military construction requirements are 
prioritized according to the following criteria: correction of life, 
safety, and health deficiencies; overall space deficiencies; curriculum 
requirements; and infrastructure upgrades; as dictated by national 
educational accrediting association criteria.
    Question. What determines whether DOD should maintain schools in 
certain areas?
    Answer. Overseas, DOD maintains elementary and secondary schools 
wherever DOD dependents are stationed in sufficient numbers to warrant 
establishment of a school. A minimum of 100 space-required elementary 
school students or 300 space-required high school students is necessary 
to support a DOD school.
    Within the United States, the education of children including 
military dependents, is a State and local responsibility. Dependent 
children of military and civilian employees living on Federal property 
are, therefore, educated in schools controlled and operated by local 
education agencies (LEA's).
    The only exception to this policy of State and local responsibility 
for DOD dependent education occurs when the Local Educational Agencies 
(LEA) cannot provide an appropriate educational program, i.e. an 
instructional program comparable to that available in surrounding 
communities or comparable communities in the State. The insufficiency 
of Federal payments being made to the LEA's for the education of 
military dependents is not adequate justification for a DOD 
arrangement.
    Question. I understand that $8.8 million of the budget request is 
to build a new elementary school at Ft. Buchanan, Puerto Rico. Why is 
that a higher priority than schools at Camp Lejeune? I understand those 
schools are in deplorable condition.
    Answer. The schools at Camp Lejeune are in poor condition. 
Replacement of three of those elementary schools are scheduled during 
fiscal year 1999-2001. The elementary school at Ft. Buchanan is also in 
poor condition and was programmed for replacement several years ago. At 
the time the Ft. Buchanan project was programmed, a study was underway 
on the condition of five schools at Camp Lejeune to determine the most 
feasible method of bringing those facilities to acceptable standards. 
The study determined that two of the elementary schools at Camp Lejeune 
could be economically repaired, while five others warranted complete 
replacement. We are now beginning to implement the recommendations of 
that study with replacement of three of those elementary schools during 
the next 3 fiscal years.
    Question. Please provide us additional information about the DODDS 
study currently at OMB. How much additional funding would it cost to 
turn over schools within CONUS to local school districts?
    Answer. The study does not identify specific dollar amounts needed 
if the schools were to transfer back to the LEA's. Rather, the study 
noted that ``in the event of a transfer, all LEA's would require use of 
the existing DOD facilities or construction of new facilities. Many LEA 
officials also requested that the Federal Government provide transition 
funding to cover the initial costs of a transfer, as well as additional 
funding (beyond Impact Aid) to handle the increased student population 
that would result from a transfer and/or to cover capital outlays for 
the facilities that would house the new students''.
                    u.s. special operations command
    Question. General Heckman, I understand that your planning and 
design funds were cut this year in the budget development process. What 
impact will this reduction have on your MILCON program?
    Answer. Fiscal year 1999 planning and design funds would be needed 
in the amount of about $5,850,000 to support a fiscal year 2000 and 
2001 construction program ramp-up. If adequate design funds are not 
available, the command would fall behind in preparing currently planned 
projects for the budget submissions.
                                 ______
                                 

                  Question Submitted by Senator Murray

            department of defense education activity (dodea)
    Question. Ms. Becraft, you state in your prepared testimony that 
there are 5 child care projects in this year's budget, all of them 
either replacement of existing substandard or temporary facilities. You 
also state that the Department is determining the feasibility of 
outsourcing child care at civilian centers. I understand that there has 
been some success in training military mothers to care for children on 
base in their homes, but I see nothing in the testimony on this 
program. Is DOD supporting child care on base by training military 
mothers in this area, and what is the extent and success for this 
program? How would this program compare in expense to outsourcing into 
the civilian off-base community?
    Answer. Our experience shows that family child care is less 
expensive to operate than outsourcing in civilian Centers; however, our 
ability to expand this program beyond its current scope is limited. DOD 
is very proactive in licensing spouses of military members to provide 
child care in military housing. We have nearly 10,000 family child care 
providers. They account for over one-third of the child care offered in 
the military system. To ensure a consistent quality of care, we require 
comparable inspections, and oversight, training, and background 
clearances. While family child care providers negotiate fees directly 
with the parents, in general, fees compare favorably with the fees 
charged by our military centers. We are examining the potential to 
expand the availability of child care by licensing military spouses 
(family child care providers) living in off-base housing. We are 
successfully doing this in several locations through memorandums of 
understanding with State and local licensing agencies.

                          subcommittee recess

    Senator Burns. I appreciate you coming today, offering your 
testimony, and I look forward to working with each and every 
one of you. Thank you very much.
    [Whereupon, at 10:59 a.m., Tuesday, March 3, the 
subcommittee was recessed, to reconvene subject to the call of 
the Chair.]


       MILITARY CONSTRUCTION APPROPRIATIONS FOR FISCAL YEAR 1999

                              ----------                              


                        TUESDAY, MARCH 10, 1998

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 9:06 a.m., in room SD-124, Dirksen 
Senate Office Building, Hon. Conrad Burns (chairman) presiding.
    Present: Senators Burns, Faircloth, Craig, and Murray.

                         DEPARTMENT OF DEFENSE

                         Department of the Navy

STATEMENT OF HON. ROBERT B. PIRIE, ASSISTANT SECRETARY 
            OF THE NAVY FOR INSTALLATIONS AND 
            ENVIRONMENT
ACCOMPANIED BY:
        REAR ADM. DAVID J. NASH, COMMANDER, NAVAL FACILITIES 
            ENGINEERING COMMAND
        BRIG. GEN. JAMES M. HAYES, ASSISTANT DEPUTY CHIEF OF STAFF FOR 
            INSTALLATIONS AND LOGISTICS [FACILITIES], HEADQUARTERS 
            MARINE CORPS
        REAR ADM. JOHN B. TOTUSHEK, DEPUTY CHIEF, NAVAL RESERVE

                   OPENING STATEMENT OF CONRAD BURNS

    Senator Burns. The subcommittee on Military Construction 
will come to order. This morning we will be talking to the Navy 
and to the Air Force. It is a pleasure to have you here this 
morning.
    We will start off with the Navy component. We are still 
dealing with a lot of infrastructure, it seems like, in 
military construction. Yet we are having a terrible time 
finding enough money. It seems like we are going backwards 
instead of in the direction that I would like to see it go at 
this time.
    The services emphasized, primarily the Navy it looks like, 
we are improving barracks, family housing, and other critical 
quality of life facilities essential to meeting the longtime 
recruiting and retention goals. It is important that our 
service members and their families live in housing that is 
comparable to those of their civilian counterparts. However, I 
am still concerned about the low level of funding for the 
military construction family housing in the fiscal year 1999 
President's budget request for both the Navy and the U.S. 
Marine Corps.
    I will keep my statement fairly short, with one exception. 
Mr. Secretary, we were just going through our notes here on 
this morning that have come down from the staff and that is in 
our area of BRAC. I think for the first time this committee 
will probably hold some oversight hearings on environmental 
cleanup as a result of base closings and this type of thing.
    I am concerned about the amount of money that is being 
taken from the overall budget in military construction to 
environmental cleanup, and I am also a little bit concerned 
about, after we get them cleaned up, how fast those properties 
are making it into the private sector. I think once we get 
everything on the table we can take a look at some of those and 
maybe save some dollars. But I cannot ever remember coming 
before this committee with any kind of figures as far as what 
we are doing on environmental cleanup so that those bases can 
be closed out and moved into the private sector.
    So with that, we will hear from the Navy. But first, our 
ranking member and associate has been a terrific help on this. 
Nice to see you early this morning. We are starting at 9 
o'clock. I do not think you noticed that. Farm broadcasters and 
stockyard people get up and get around. Go ahead.

                   STATEMENT OF SENATOR PATTY MURRAY

    Senator Murray. Thank you, Mr. Chairman. I would note that 
it is 6 a.m. for me.
    Senator Burns. Well, we were wondering if you were not 
operating on Seattle time.
    Senator Murray. I do, I do.

      last year's authorization bill supported appropriation adds

    Again, thank you, Mr. Chairman. I appreciate you arranging 
this hearing on our Navy and Air Force military construction, 
BRAC, and housing programs. The programs the subcommittee 
reviews are crucial, focusing as they do on the quality of life 
of our uniformed personnel and on the vital infrastructure that 
allows our forces to operate with assurance as the world's sole 
superpower.
    These programs allow use to defend our interests and those 
of our allies and friends across an increasingly confusing and 
complicated world scene.
    Last year our subcommittee was able to mark up and report 
its annual bill out, get it through the Senate and conference, 
and to the President's desk early in the process. The committee 
attended to the needs of the country and added some $800 
million in funding to the budget request.
    I would note that the authorization bill that was passed 
after our bill, the reverse of the process as we would like it 
to operate, substantially endorsed the projects that we added. 
I would also note that we have just completed a long and drawn-
out process of overturning a rushed effort on the part of the 
administration to subject some 38 of our projects to the line 
item veto. It is a testimony to the care and thoroughness of 
our efforts to scrub and include only very worthy, worthwhile 
projects that we had the large support of our colleagues in 
both the Senate and the House in supporting our work and 
rejecting the attempt of the administration to strip out nearly 
$300 million in worthy projects.
    I hope that we will not have the same experience this year 
and I expect that we will use the same care in making any 
additions to the budget request and that we will again have the 
support of our colleagues.
    I note, Mr. Chairman, that the budget request has again 
been rather drastically cut below last year's appropriated 
amount, by some 15 percent or $1.4 billion below last year. If 
this were allowed to stand, the reduction over the last 2 
years, despite our additions last year, would amount to some 20 
percent. Surely this reduction does not reflect the overall 
funding for the defense budget. Yet the programs that we fund 
are crucial to maintaining a quality armed force with adequate 
infrastructure, housing, child care, barracks, and other 
critical programs. We will, I am sure, be taking a careful 
review of the adequacy of the quality of life programs in this 
budget.

                           guard and reserves

    In addition, Mr. Chairman, we again face what appears to be 
an invitation to rewrite the request for our Guard forces. The 
request is nearly the same as was requested last year, a 
request that we felt it necessary to more than double. 
Specifically, we added some $130 million to the budget request 
of $60 million for last year, for a total of $190 million for 
the Air National Guard. Yet, again, despite the sense that the 
budget was not adequate to a healthy Guard force, we are faced 
with an identical situation.
    The request this year is about $35 million, which if we 
accepted it would constitute the lowest appropriated amount for 
the Guard in 20 years. It is obvious that we will have to 
review the requests of adjutant generals across the country 
and, I would strongly guess, substantially rewrite the budget.
    As for housing and utility programs, the Department of 
Defense is moving toward privatization, a trend which appears 
promising but as yet not proven. Therefore, it is some cause 
for concern that the housing budget for the Navy is $170 
million less than last year, almost a 13-percent reduction. We 
have to exercise some care that the privatization programs 
will, in fact, work before we reduce this vital quality of life 
program area, since it not only affects the morale of our 
forces, but retention and recruitment as well.
    Again, I appreciate the efforts of the chairman to take the 
interests of all Senators and on both sides of the aisle into 
account, and I expect we will have a continuation of the 
excellent working relationship that we had last year again in 
considering the bill for fiscal year 1999.
    Thank you, Mr. Chairman.
    Senator Burns. Thank you, Senator Murray.
    We are joined this morning by our good friend Senator 
Faircloth from North Carolina, and I think he has some 
questions. Do you have an opening statement?

                  STATEMENT OF SENATOR LAUCH FAIRCLOTH

    Senator Faircloth. I do, just very briefly.
    Senator Burns. Very briefly, you may make your opening 
statement, Senator.
    Senator Faircloth. Thank you, Mr. Chairman.
    The point I made last week about the President's Army and 
defensewide budget request for military construction apply as 
well to the Navy and the Air Force. Again, the President has 
left it up to the Congress to add the funding that is necessary 
to continue to rebuild our Navy and Air Force infrastructure.
    Now, we are all aware of the limitations of the budget. We 
will add funds for the defense infrastructure and we will shift 
funds from those of lower priority to those that are more 
important. But clearly, I find it strange and unwise that our 
limited resources are being spent on projects that could be 
premature.
    An example of this is how the Navy is already spending 
money at the Oceana Air Station at Virginia Beach as if it had 
already decided to send the Cecil Field Hornet squadrons there 
before the environmental impact statement was complete. Now, 
Mr. Chairman, it is possible they have already decided and just 
have not told anybody.
    Mr. Chairman, I appreciate all your help in the past and I 
look forward to working with you this year to ensure adequate 
funds can be found for military construction. In order to do 
this, we need to stop wasting money on projects until the final 
decision has been made. I look forward to hearing from the 
first witness.
    Senator Burns. Thank you very much, Senator Faircloth.
    Secretary Pirie, nice to have you this morning. It is 
always enjoyable working with you, and you might introduce the 
folks that you have with you. You might want to shorten your 
statement, but be aware that full statements will be made part 
of this record, so that we might get on with the dialog of 
taking care of your needs and maybe some of ours.

                      statement of robert b. pirie

    Mr. Pirie. Thank you, Mr. Chairman. With your permission, I 
will just hit a few points in my full statement and submit the 
full statement for the record.
    Senator Burns. It will be so ordered.
    Mr. Pirie. With me this morning are: Rear Adm. Dave Nash, 
who is the Chief of the Naval Facilities Engineering Command; 
Rear Adm. John Totushek, who is Deputy Director of the Naval 
Reserve; and Brig. Gen. Mike Hayes, who is the Marine Corps 
Assistant Deputy Chief of Staff for Installations and Logistics 
[Facilities].

                    navy budget reflects priorities

    Mr. Chairman, a few things in my statement that I would 
like to underscore. First, our requests for military 
construction, for family housing and for bachelor housing are 
generally lower this year than they were last year, even 
without considering the projects added by the Congress to last 
year's President's budget. I want to emphasize that this 
reflects the administration's priorities in dealing with strong 
demand in other program areas.
    Reflecting on my 4 years in this job, I recall that in 1994 
there was great concern about readiness, in 1995 for quality of 
life, in 1996 and 1997 about modernization and beefing up the 
investment accounts. We have yet to have a year of concern for 
real property. I am not personally happy about this, but it is 
not the first time in my experience that the military 
construction and real property maintenance accounts have been 
used to pay other bills.
    In any case, our request is a straightforward expression of 
our priorities. We recognize that there is little flexibility 
in the balanced budget agreement for funds to be added, and we 
are prepared to live with what we have requested.
    The other area which I am not personally pleased about is 
that of family housing and public-private ventures. Our 
progress in this area has been far less than we had hoped. 
There are some fairly good reasons for this, but there are not 
any real excuses. The major source of funding for public-
private ventures is money appropriated for family housing 
Milcon projects. As I mentioned a number of times last year, 
this is an awkward device. The amount appropriated may bear 
little relation to the finally negotiated public-private 
venture.
    The fact that there is a housing project available for 
immediate obligation and start of construction may tempt the 
claimants to press on with the Milcon and not wait for a 
public-private venture to be developed and negotiated. There 
is, in fact, not much incentive for the claimants to go for 
public-private ventures. The savings that accrue are centrally 
managed and invisible to those in the field, and many of our 
people in the field have yet to be convinced that PPV's are the 
best way to provide housing for our people.
    Finally, the many stages of approval for public-private 
ventures tend to dampen enthusiasm about those projects. I am 
very concerned about this and have put this issue at the top of 
my priority list. We expect to make substantial progress during 
this coming year.
    Finally, also very high on my priority list is the matter 
of seeing to completing the BRAC actions of earlier years. We 
are nearly finished with the Milcon projects required to 
support BRAC relocations. We are beginning to convey 
substantial amounts of property to local redevelopment 
authorities for community reuse. In the coming year we expect 
to complete the decision process for 19 bases, clearing the way 
for conveyance of the property at such places as Naval Station 
Treasure Island, Naval Air Station Alameda, and Naval Shipyard 
Long Beach.

                           prepared statement

    Each conveyance has its associated issues, but we and the 
affected communities are learning how to deal with them 
somewhat better than in the past. We are helping the 
communities and their local redevelopment authorities to become 
better informed about the required processes and the 
constraints under which we must operate. I am optimistic that 
the bulk of the pending disposals will be in place by the end 
of next year, and thus our backlog of disposals from previous 
rounds of BRAC will be cleaned up well before disposals from 
future BRAC rounds could be ready to be processed.
    Mr. Chairman, that concludes my preliminary remarks.
    [The statement follows:]

               Prepared Statement of Robert B. Pirie, Jr.

    Good day, Mr. Chairman and members of the Committee. I am Robert B. 
Pirie, Jr., Assistant Secretary of the Navy for Installations and 
Environment. I appreciate the opportunity to speak to you today on the 
Department of the Navy's (DON) installations and facilities programs.
    My statement today will cover a number of areas:
  --Department of the Navy challenges;
  --The need for further infrastructure efficiencies;
  --Infrastructure budget in perspective;
  --Program highlights for family housing, military construction, and 
        Base Realignment and Closure (BRAC).
    Before I discuss our amended fiscal year 1999 budget request, I 
think it is important to consider the challenges we face in 
constructing a budget that balances numerous competing needs, including 
those for our infrastructure.
                   department of the navy challenges
    Naval forces project U.S. influence and power around the world to 
preserve American security through peacetime engagement and deterrence. 
At any given time, 60,000 Sailors and Marines are deployed around the 
world aboard 100 ships. Carrier battle groups and amphibious ready 
groups provide near continuous presence in the Mediterranean Sea, the 
Arabian Gulf/Indian Ocean, the Western Pacific, and the Caribbean. U.S. 
naval forces conduct exercises with our allies to insure our mutual 
ability to respond to international situations in a timely and 
effective manner.
    Maintaining this capability presents challenges in four key areas. 
Highly motivated PEOPLE are our most important asset. We must 
continually recruit American's best and brightest men and women, train 
them to perform up to their potential in a highly skilled technological 
environment, and retain them to perform even more challenging 
assignments in the future through an effective quality of life program. 
Quality of life is a key motivator for our people.
    Maintaining READINESS, both for today and for tomorrow remains a 
top priority. We must allocate sufficient assets to conduct training 
exercises, enable routine operational deployments, and respond to 
National Command Authority taskings during evolving crises. Providing 
adequate shore facilities, including piers, runways, training 
facilities and maintenance shops with the necessary environmental and 
occupational health and safety standards which helps to insure current 
fleet readiness.
    Investments we make today in TECHNOLOGY help to ensure that our 
readiness tomorrow remains both robust and superior to that of our 
adversaries. We must also translate technological innovation that is 
accomplished in the laboratory, into effective tools in the fleet 
through recapitalization of our weapon systems and platforms.
    Finally, we must recognize and embrace the need for greater 
EFFICIENCY. In the 1998 DON Posture Statement, the Secretary of the 
Navy, the Chief of Naval Operations, and the Commandant of the Marine 
Corps speak to the need to exploit technologies from the Revolutions in 
both Military Affairs and Business Affairs. These efforts are needed to 
give our forces the power and efficiency to dominate the battlefields 
of tomorrow. The Revolution in Business Affairs has particular 
significance for us as we continue efforts to reduce the size and cost 
of our shore infrastructure.
            the need for further infrastructure efficiencies
Infrastructure Analysis
    The DON continues the transformation process from the Cold War era. 
Four rounds of BRAC will have reduced the size of the Navy and Marine 
Corps infrastructure by 17 percent with projected net savings of $5.6 
billion when implementation is completed in fiscal year 2001. However, 
that reduction in shore infrastructure is significantly less than the 
45 percent reduction in ships and 30 percent reduction in military end 
strength we have experienced during that time.
    There have been numerous studies of Department of Defense (DOD) 
infrastructure. The recent Quadrennial Defense Review (QDR) found that 
there was enough excess capacity in DOD infrastructure to warrant two 
more rounds of closure and realignment similar in size to BRAC rounds 
in 1993 and 1995.
    The Defense Reform Initiative (DRI), begun in 1997, sought to 
establish a DOD corporate vision that would support our forces with ``a 
Department that is as lean, agile, and focused as our warfighters.'' 
The DRI report emphasized four key principles:
  --Re-engineer to adopt modern business standards;
  --Consolidate functions to streamline organizations, remove 
        redundancy, and maximize synergy;
  --Compete by applying market mechanisms to improve quality, reduce 
        costs, and better respond to customer needs;
  --Eliminate excess supporting infrastructure structures to free 
        resources and focus on core competencies.
    The Report of the National Defense Panel (NDP) in December 1997 
noted that DOD today is ``burdened by a far flung support 
infrastructure that is ponderous, bureaucratic, and unaffordable. 
Unless its costs are cut sharply, the Department will be unable to 
invest adequately for the future.'' The panel endorsed the need for 
further efficiencies and additional rounds of BRAC. Without such 
reforms, ``DOD will have to reduce optempo, cancel acquisition programs 
and reduce force structure and end strength.''
    In response to this external analysis, which is supported by our 
own estimates, the Secretary of Defense endorsed the need for further 
infrastructure consolidation and efficiency, and the President's budget 
for fiscal year 1999 requests approval for two more rounds of BRAC, one 
in fiscal year 2001, and another in fiscal year 2005.
Infrastructure Efficiency Efforts
    The DON leadership has embraced the conclusions of the QDR, DRI, 
and NDP and supports two additional rounds of BRAC. We have also moved 
forward aggressively in the pursuit of the Revolution in Business 
Affairs as we seek to improve the efficiency of the shore 
infrastructure, reduce costs, and improve service.
    The Deputy Chief of Naval Operations (Logistics) established an 
overall vision for this revolution this summer by publishing a 21st 
Century Shore Support Infrastructure Vision and Strategic Plan for the 
Navy. Key aspects of the plan include: eliminating certain functional 
services that are readily obtainable through the private sector; 
outsourcing; privatization; dual use of facilities; reduction of 
facility inventory; joint component use of infrastructure; and 
homebasing military personnel in fleet concentration areas.
    Many of these initiatives are already well underway.
  --Regional Maintenance.--The Navy has now established eight Regional 
        Maintenance Centers for ship and aircraft intermediate and 
        depot level maintenance. The Pearl Harbor Pilot Project 
        established 1 October 1997, will integrate over the next year 
        the Pearl Harbor Naval Shipyard with the Pearl Harbor 
        Intermediate Maintenance Facility. The consolidated work force 
        will form a common manpower pool that can be efficiently 
        assigned as required.
  --Regionalization of Base Support Functions.--The Navy on 1 October 
        1998 will consolidate base operations support (BOS) and real 
        property maintenance (RPM) support functions previously 
        provided by 18 claimants down to 8 claimants. This will allow 
        smaller claimants to focus on their primary mission, and 
        provide new opportunities to optimize these functions under a 
        single commander in a Navy fleet concentration area.
  --Outsourcing competitions.--The Navy and Marine Corps are proceeding 
        with competitive outsourcing, a business practice that holds 
        great potential to reduce infrastructure costs. In January 
        1997, I provided the Congress with notification of the Navy's 
        intent to compete 10,600 positions across the country under the 
        Office of Management and Budget Circular A-76 standards. The 
        Navy has now put contracts in place to support the studies and 
        published a technical performance-planning guide. Most of these 
        studies are now underway and are expected to be completed later 
        this year and early next year. This past January, I provided 
        the Congress with notification of our intent to study 7,200 
        more billets, with another 7,800 planned for later this fiscal 
        year. Ultimately, we plan to study 85,500 Navy and Marine Corps 
        billets in support areas such as food services, housing 
        management, community support, ground maintenance, facility 
        maintenance, training, data processing, and aircraft fueling. 
        Past competitions have shown 30 percent savings regardless of 
        whether the decision is to contract out the function or retain 
        it in-house with a new, most efficient organization.
  --Privatization of Housing and Utilities.--We are pursuing harnessing 
        the skills and techniques of the private sector to solve our 
        lack of adequate housing and to reduce utility costs. I will 
        discuss privatization in more detail later in my statement.
  --Building demolition.--The goal of the building demolition program 
        is to eliminate aging, unneeded facilities and their associated 
        operating and maintenance costs. Both the Navy and the Marine 
        Corps have established centrally managed demolition programs 
        and increased funding for them in fiscal year 1999. Last fiscal 
        year, the Navy undertook 48 projects to demolish 120 structures 
        representing 2.3 million square feet of space and $161 million 
        in plant replacement value (PRV). The Marine Corps undertook 8 
        projects to demolish 51 buildings representing 220,000 square 
        feet of space and $26 million worth of PRV. The fiscal year 
        1998 and fiscal year 1999 demolition effort will be even more 
        ambitious.
  --Smart Base.--The Smart Base project seeks to apply modern business 
        practices to reduce shore infrastructure costs and improve 
        services. Smart Base will host 20 technology demonstration 
        projects this year at the two designated demonstration sites: 
        Naval Station Pascagoula, MS, and Naval Shipyard Portsmouth, 
        NH. One project that has already begun is a distance learning 
        application that will provide selected training via the Navy 
        Wide Area Information Network called Smart Link to a remote 
        schoolhouse. This avoids the time and expense of sending 
        Sailors to a traditional classroom training experience.
    These efforts are needed to reduce infrastructure support costs and 
allow us to reallocate additional savings to support more robust weapon 
system and platform modernization efforts. As the Secretary of the Navy 
has stated in his Posture Statement for this year, ``shipbuilding plans 
are adequate in the near term to support the projected fiscal year 2003 
force of about 300 ships, however, beyond the FYDP, this rate of 
production will not permit us to maintain the required ship and 
aircraft inventory.'' The Department of the Navy is counting on further 
infrastructure savings to make a significant contribution to solving 
modernization issues.
Infrastructure Budget in Perspective
    Compared with overall DON fiscal year 1999 budget.--The Department 
of Navy Infrastructure budget includes: Military Construction, Navy; 
Military Construction, Naval and Marine Corps; Family Housing, Navy; 
Base Realignment and Closure (BRAC); and Environmental Restoration, 
Navy. In addition to these appropriations, base operations support and 
real property maintenance functions are included in the Operations and 
Maintenance accounts, Navy and Marine Corps, active and reserve. In 
aggregate, our total installation budget represents about $7.7 billion, 
or about 9.5 percent of the DON fiscal year 1999 budget request of 
$81.5 billion.
    Compared with fiscal year 1998.--Our fiscal year 1999 installation 
construction budget request (MILCON, Family Housing and BRAC) of $2.3 
billion is $500 million below our fiscal year 1998 President's budget 
request, and $593 million below the fiscal year 1998 authorization of 
appropriation level of $3,057.7 million.
    Most of the reduction is in our BRAC request; we were able to 
reduce our fiscal year 1999 BRAC request by $368 million below the 
fiscal year 1998 Presidents' budget and authorization of appropriation 
level because of fewer BRAC related construction requirements. Most 
BRAC construction is complete or underway. BRAC fiscal year 1999 
construction consists of 14 projects totaling $147 million, compared 
with 40 projects totaling $300 million in fiscal year 1998.
    Our Family Housing, Navy budget request of $1,196 million is $59 
million below the fiscal year 1998 President's budget request, and $160 
million below the fiscal year 1998 authorization of appropriation level 
of $1,356 million. The changes are due to reductions in new/replacement 
construction and efficiencies in operations and maintenance account. As 
I mentioned last year, we are stepping back from acquiring new homes 
that the Government will own and operate. We have two family housing 
replacement construction projects in our fiscal year 1999 budget 
request totaling $59.5 million, compared with 9 projects appropriated 
in fiscal year 1998 totaling $175.2 million. We appreciate the 
additional projects funded in fiscal year 1998.
    We have also reduced our Family Housing Operations, Maintenance, 
and Leasing request. Our fiscal year 1999 request of $915 million is 
$61 million below the fiscal year 1998 budget request and $50 million 
below the fiscal year 1998 authorization of appropriation level of $965 
million. This reduction is a result of an inventory reduction in fiscal 
year 1999 of 3,250 Navy and 1,000 Marine Corps units, and cost savings 
from management efficiencies in regional maintenance contracts, self-
help services, utility cost savings and furnishings inventory control 
improvements. These efficiencies will not affect the quality of life of 
our Sailors, Marines, or their families. We have added $10.5 million in 
the budget for new leases coming on-line in Naples, Gaeta, La 
Maddalenu, and Sigonella, Italy.
    Our fiscal year 1999 Military Construction, Navy budget of $468.2 
million and Military Construction, Naval and Marine Corps Reserve 
budget request of $15.3 million are $67.4 million below and $1.4 
million above, respectively, the fiscal year 1998 President's budget 
request and $203.4 million and $32 million below the fiscal year 1998 
authorization of appropriation levels of $671.6 million and $47.3 
million. While some of the reduction is due to lower inflation 
estimates, the primary reason for the reduction below the fiscal year 
1998 appropriated level is that we simply could not sustain the fiscal 
year 1998 level of funding into fiscal year 1999.
    While I would prefer to be here today presenting a more robust 
infrastructure budget, I must also observe that funding shortfalls in 
our area are no worse than elsewhere in the Navy budget. We need the 
authority to conduct two additional BRAC rounds. The additional 
closures and realignments, combined with the efficiencies we are 
pursuing, will significantly reduce our infrastructure, and thus, allow 
our Base Operating Support, Real Property Maintenance, and Military 
Construction funds to go further in tackling repair and replacement 
backlogs which continue to grow.
    I will now address each area of our budget in more detail.
                             family housing
Fix what we own
    Our family housing and barracks programs, combined with 
compensation, medical care, child care, family services, and morale and 
welfare programs, form the cornerstone of our quality of life efforts. 
Our core family housing philosophy remains to first fix what we own. 
The Navy's Neighborhoods of Excellence, and the similar Marine Corps 
Family Housing Campaign Plan, embodies the Department's efforts to 
improve the quality of life for our Sailors and Marines and their 
families by targeting resources to improve their living conditions. Our 
fiscal year 1999 budget request represents the continued implementation 
of these initiatives. An example of this is the family housing 
revitalization program which provides improvements in major home 
components (electrical and plumbing systems, replacement windows and 
doors, insulation, updated kitchens and baths, landscaping, better 
street lighting) for an entire neighborhood, rather than piecemeal 
improvements on selected components of individual homes. Our fiscal 
year 1999 improvement budget totals $212 million and would renovate 
2,270 Navy homes at 25 locations and 600 Marine Corps homes at 4 
locations.
    Our fiscal year 1999 budget also includes replacement construction 
of 162 homes at Naval Air Station Lemoore, CA, at a cost of $30.4 
million, and phase one replacement of 150 homes at Public Works Center 
Pearl Harbor, HI (Halo Moku housing area) at a cost of $29.1 million. 
We have also requested $15.6 million for planning and design of the 
improvements and replacement construction projects.
Basic Allowance for Housing
    We continue to rely on the private sector to provide housing for 
our Sailors, Marines and their families. Worldwide, 75 percent of Navy 
families and 66 percent of Marine Corps families live in private sector 
homes in nearby communities. Our bases have housing referral offices to 
help newly arriving families find suitable homes in the community. I am 
also very encouraged by the new Basic Allowance for Housing (BAH) 
established by the Congress last year. BAH is being phased in over the 
next 5 years and will better tie housing costs to local market 
conditions and equalize out-of-pocket costs for equivalent housing 
across the Nation. We will be watching closely how this affects the 
housing situation for our members and their families.
    Nonetheless, there may remain some locations where there are 
insufficient suitable \1\ homes for our members in the private sector. 
In the past, we have used family housing construction funds to build or 
acquire homes to solve our housing deficit. More recently, we have used 
these funds to replace housing that could not be economically 
rehabilitated. Several years ago, we realized that the pace of new and 
replacement construction combined with outyear funding expectations 
would never let us solve our significant and seemingly intractable 
housing problem. We worked closely with the Congress to establish 
ground breaking new authorities in fiscal year 1995 and fiscal year 
1996 on the use of public/private ventures as a housing tool.
---------------------------------------------------------------------------
    \1\ Suitability is based on the following DOD criteria: location 
(within 1-hr commute); cost (allowances cover 85 percent of housing 
cost); size (minimum square footage and number of bedrooms); condition 
(unit is well maintained and structurally sound); and, ownership (all 
owner occupied housing is suitable).
---------------------------------------------------------------------------
Public/Private Ventures
    The Navy remains the vanguard of DOD efforts to use public/private 
ventures to solve persistent housing inadequacies. I am pleased to 
report that we have completed two projects and Navy families are now 
occupying them.
    We signed an agreement in July 1996 with the Landmark Development 
Company of Austin, TX to design, construct, own, operate, and maintain 
400 two-, three- and four-bedroom townhomes on private land in the 
South Texas region. The Navy invested $9.5 million from the DOD Family 
Housing Improvement Fund and the developer invested $23.0 million, for 
a total project cost of $32.5 million. The developer built 300 homes in 
a development called Bridge Point in Portland, TX, to support personnel 
assigned to Naval Station Corpus Christi and Naval Station Ingleside, 
and 100 homes at a development called Hawks Landing in Kingsville, TX, 
to support personnel assigned to Naval Air Station Kingsville. All 
homes at Kingsville are leased and occupied, while all but 67 homes at 
Portland had been leased as of mid-February. Sailors occupy over three-
quarters of the Portland and Kingsville homes, although a majority of 
occupants at Kingsville are junior officers. There is a waiting list of 
59 Navy families/individuals for the Kingsville housing. Sailors have 
first preference to rent one of these homes, and rents are, by our 
evaluation, set at about $100 per month below comparable housing in the 
community. The partnership extends for 10 years, with an optional 5-
year extension. The Navy will share in the proceeds upon conclusion of 
the partnership and sale of the homes.
    We entered into an agreement in March 1997 with Dujardin 
Development Company of Everett, WA, to design, construct, own, operate, 
and maintain 185 homes on private land in Everett, WA. The Navy 
invested $5.9 million of Navy Family Housing construction funds, which 
represented 32 percent of the total project development cost. 
Construction of duplex homes in the development called Country Manor at 
Smokey Point began in April 1997, and was completed in November 1997. 
Occupancy began in August 1997, and full occupancy was achieved in 
December 1997. Enlisted Sailors occupy all homes, with the majority at 
the targeted E-4 through E-6 pay grades. Like the South Texas project, 
our Sailors had first preference to rent the homes at a cost of about 
$100 per month below comparable housing in the community. The 
partnership extends for 10 years, with 20 percent of the homes to be 
sold annually beginning with the sixth year. Navy families will get 
preference for purchasing the homes. The Navy will also share in the 
proceeds upon conclusion of the partnership.
PPV Policy
    While I am pleased with the completion of our first two PPV 
efforts, I must admit that subsequent progress has been less than we 
initially contemplated. A number of factors complicate the PPV process. 
First and foremost, each location brings a unique situation in terms of 
property values, availability of private sector housing, developer 
interest and expertise, property availability, and financing options. 
We must be certain, for each PPV, that we have locked in an agreement 
that will provide good housing for our people and also good for the 
Government in both the short term and long term. In addition, some in 
the Navy have been reluctant to abandon the traditional military 
construction option, in which they control project location, cost, 
construction standards, and assignment of personnel, and occupants have 
no out-of-pocket housing costs.
    We are still sailing in uncharted waters with PPV's and that 
rightly causes some concerns. But where we lacked an overall corporate 
philosophy about exactly how, when, and where we would apply the PPV 
tools, we now believe we can move forward with more confidence. I 
recently established DON policy to address many of these concerns. Key 
aspects of this policy are:
  --We will rely first on PPV's to meet our housing needs, including 
        replacement construction and whole-house revitalization. If a 
        careful analysis of economic, quality and market factors 
        conclusively demonstrates that a PPV is not feasible, we may 
        turn to more traditional means of meeting requirements.
  --Regional Scope.--All Navy housing in a region will be included in 
        the scope of PPV's, which will focus on privatizing the 
        replacement, renovation, maintenance and operation of existing 
        Government housing and used to meet any housing deficits. This 
        has led us to re-evaluate previous PPV projects into a regional 
        context.
  --Quality Standards and Amenities.--PPV housing quality will be 
        comparable to what the private sector would provide for 
        civilians in the same overall income ranges. Some homes can be 
        used to provide choices for dual-income families who can and 
        want to afford higher standards.
    Out-of-Pocket Expenses.--The goal is for service members to pay no 
out-of-pocket expenses for housing or utilities. However, where out-of-
pocket expenses are needed to make the PPV financially viable, they 
will not exceed the BAH limit for each paygrade.
  --Rent Scale.--Rents should be established in the same manner as the 
        private sector, i.e., by unit size and quality. Rent scales 
        should be consistent with regional needs.
  --Conveying Land or Units.--The DON will not normally convey 
        ownership of the land, unless it is excess to long-term needs. 
        PPV's can offer long-term lease of land or existing housing.
  --Allowing Non-Military Occupants.--Service members will have first 
        priority on PPV housing. PPV's may accommodate civilian 
        rentals, with the length of the lease limited appropriately, if 
        units cannot be filled with service members.
    While this new policy will not jump-start the PPV program, I am 
hopeful that it will help overcome uncertainty and reluctance in the 
field and lead to more, well considered PPV projects in the near 
future.
Future PPV's
    The Commandant of the Marine Corps has strongly endorsed PPV's as a 
means to leverage the Marines' limited housing revitalization funding 
and he has pursued an aggressive PPV program. The DOD recently provided 
the required 30-day notice to Congress prior to release of a Request 
for Proposal for a PPV at Marine Corps Logistics Base Albany, GA. The 
project would convey 419 existing off-base homes in an area called 
Boyett Village, as well as a former hospital site to a developer in 
exchange for development and management of up to 160 homes on base. 
This project, as currently conceived, would not require any 
construction funds, would avoid the need to renovate Boyett Village at 
an estimated cost of up to $35 million, and would meet the total 
housing needs of the base. The Marine Corps would provide the developer 
with a 50-year ground lease of land on base. The Marine Corps announced 
the PPV on 9 February 1998 in the Commerce Business Daily, and plans to 
issue the Request for Proposal in mid-March.
    Another Marine Corps PPV project has attained DON and DOD concept 
approval. The project at Marine Corps Base Camp Pendleton, CA, would 
seek to convey 512 existing on base homes to a developer in exchange 
for the revitalization and management of these homes and the 
construction and management of 200 new homes on base. A final Request 
for Proposal is now being prepared in coordination with the Naval 
Facilities Engineering Command, the acquisition agent for all Navy and 
Marine Corps housing.
    The Marine Corps is also nearing completion of a concept for a PPV 
at Air National Guard Base Stewart, NY, and Westover Air National Guard 
Base, Chicopee, MA. This project would seek to convey 320 existing 
homes at Stewart and 279 existing homes at Chicopee to a developer for 
private management and preferred rental opportunities for Marines and 
other service members. The Marine Corps is now developing a Request for 
Proposal at both locations.
    The two most advanced Navy projects are for follow-on PPV at 
Everett, WA, and San Diego, CA. Like ``Everett I,'' ``Everett II'' 
would target the E-5 and E-6 population, involve the construction of 
duplex homes on private land, and terminate at the end of a 10-year 
period with the sell-off of units. Unlike ``Everett I,'' however, 
``Everett II'' could include differential lease payments to adjust 
housing costs so that rent plus utilities would be capped at a maximum 
of 15 percent above the Basic Allowance for Housing for all enlisted 
pay grades.
    The Navy and Marine Corps have been working during the last year to 
develop the first DON regional privatization initiative. The PPV 
initiative for San Diego, CA, will include the privatization of nearly 
9,000 family housing units and the construction of up to 2,400 new 
homes. The DON has paid particular attention to detail to ensure the 
success of this initiative, but also to serve as a role model for other 
regional PPV's to follow. We expect to seek formal DON and DOD concept 
approval of both Everett II and San Diego PPV's in the near future.
    Four other projects, consisting of one Navy and three Marine Corps, 
are also under concept development. The Navy project is in the 
Northeast Florida region. The Marine Corps projects are at Marine Corps 
Air Station Beaufort, SC; Marine Corps Base Camp Lejeune, NC, and 
Marine Corps Air Ground Combat Center 29 Palms, CA. Site assessments 
have been completed in conjunction with the DOD Housing Revitalization 
Support Office at these locations. PPV projects at other locations are 
in preliminary discussions.
    Transfer of Family Housing Funds to Military Personnel 
Allowances.--There are a myriad of hurdles we must negotiate before we 
can actually sign a PPV agreement with a developer to replace 
Government owned housing or convert Government owned housing to a PPV. 
At the point that the replacement or transfer occurs, we no longer have 
to pay to operate and maintain the Government owned housing, and Navy 
and Marine Corps families begin to collect a monthly housing allowance. 
This uncertainty as to how long the process will take makes it 
difficult to predict for budget purposes at what point in the fiscal 
year we can reduce Family Housing Operations and Maintenance funds and 
increase Military Housing Allowances.
                         military construction
Focus on Replacement Construction and Modernization
    Our military construction, like that of recent years, continues our 
approach of budgeting for only those projects that meet the highest 
priority readiness needs of the Fleet and Fleet Marine Force, and their 
Reserve Components. There are 37 Navy projects totaling $301.7 million 
and 10 Marine Corps projects totaling $99.2 million, plus $8.9 million 
for minor construction and $58.3 million for planning and design in the 
fiscal year 1999 Military Construction, Navy budget. There are 3 Navy 
reserve projects totaling $7.5 million and 2 Marine Corps reserve 
projects totaling $4.9 million, plus $0.9 million for minor 
construction and $2.0 million for planning and design in the fiscal 
year 1999 Military Construction, Reserve budget.
    As in the case of Family Housing, we want to first fix what we own. 
We have concentrated most of our construction funds on replacement and 
modernization projects. Fully three-quarters of the combined Military 
Construction, Navy and Military Construction, Naval and Marine Corps 
Reserve accounts are for replacement and modernization projects. 
Examples include:
  --A $32.0 million Berthing Pier at Naval Station, Norfolk, VA, that 
        will replace Pier 2. This pier has limited deck space, and 
        structural limitations that severely restrict mobile crane 
        access to the pier and limit pierside operations and nesting of 
        ships. Modernization of piers and wharfs are a particular Navy 
        concern with current readiness. The Navy has 361 piers, most of 
        which were built in the early 1940's and 1950's. Because of 
        their age and the need to berth newer deep draft, power 
        intensive ships, about 40 percent of Navy piers are considered 
        substandard (capable of supporting current use, but requiring 
        repair or modification) or inadequate (cannot be made adequate 
        through economically justifiable means). Pier projects tend to 
        be very expensive. This project is divided into two phases, 
        with construction of a new pier in fiscal year 1999, and 
        demolition of the adjacent inadequate pier in fiscal year 2000. 
        We are seeking full authorization of the $45.5 million project 
        in fiscal year 1999, with an appropriation request of $32 
        million in fiscal year 1999 and $13.5 million in advance 
        appropriation for fiscal year 2000.
  --An $18.2 million Electrical Distribution System Upgrade for BRAVO 
        and MIKE Docks at Naval Station Pearl Harbor, HI. The project 
        would provide the power and electrical distribution needs for 
        the Arleigh Burke-class, power-intensive DDG-51 class ships and 
        fix electrical safety concerns.
  --An $11.4 million Engineering Management Building at Naval Sub Base 
        Pearl Harbor, HI, that will convert warehouse space to 
        administrative space and allow consolidation of functions. This 
        facility is key to the regional maintenance effort previously 
        discussed.
  --A $2.2 million Aircraft Engine Test Cell at Naval Air Station, New 
        Orleans, LA. This Naval Reserve project will provide an 
        enclosed facility with sound attenuation for testing F/A-18 jet 
        engines. Current testing is done on an existing foundation pad 
        under a small overhead cover with no sound attenuation.
  --Two Bachelor Enlisted Quarters at Marine Corps Base Camp Pendleton, 
        CA, totaling $28.2 million to provide 700 spaces (maximum 
        utilization) for E1-E4 personnel. Marines are currently housed 
        in open bay facilities constructed in the 1940's and 1950's 
        that have fire, safety, and seismic concerns.
    A few projects are intended to fix long-standing deficits, 
including:
  --A $5.3 million Bachelor Enlisted Quarters at Naval Support 
        Activity, Souda Bay, Crete, which will provide more housing due 
        to personnel increases to support new mission requirements.
  --A $1.8 million Missile Magazine at Marine Corps Air Station 
        Beaufort, SC, which will reconfigure one ammunition storage 
        facility into a missile magazine and build one new missile 
        magazine. The existing magazines are too small to handle the 
        current generation of larger missiles, leading to storage, 
        loading and safety problems.
  --A $4.1 million Reserve Center at Marine Corps Reserve Center 
        Galveston, TX, which will provide necessary facilities for 
        reserve training.
Quality of Life
    There are a number of important quality of life projects included 
in our fiscal year 1999 budget. Fully 23 percent of the Navy and 84 
percent of the Marine Corps military construction is to meet quality of 
life needs.
    The single largest effort is the replacement construction and 
modernization of Bachelor Enlisted Quarters (BEQ's). The Navy has 
included 5 projects totaling $59.8 million and the Marine Corps has 4 
projects totaling $68.8 million for BEQ construction. These projects 
will provide a maximum utilization of 918 new spaces for Sailors and 
1,780 new spaces for Marines. All are to house permanent party enlisted 
personnel. Four of the Navy projects are being built to the Department 
of Defense 1+1 standard. This configuration consists of two individual 
living/sleeping rooms with closets and a shared bath and service area. 
Three Marine Corps projects have been granted a waiver to the 1+1 
standard and will be constructed to an alternate 2+0 configuration 
i.e., two persons per room. This will allow the Marine Corps to more 
quickly improve quality of life for a larger number of Marines. One 
Navy project will house enlisted Sailors assigned to Marine Corps Air 
Station Kaneohe Bay, HI. It has been granted an interim waiver and 
would be built 2+0 configuration because it is adjacent to other Marine 
Corps BQ's also built to the 2+0 configuration. Similarly, the BEQ 
project at Marine Corps Air Station Miramar, CA (formerly Naval Air 
Station Miramar) is being built to the 1+1 standard because it will be 
adjacent to other BEQ's built to the 1+1 standard.
    Our military construction program also includes two child 
development centers (CDC): a $4.4 million CDC at Marine Corps Air 
Station Cherry Point, NC, and a $3.7 million CDC at Naval Air Station 
Key West, FL. The Navy continues to test the potential for outsourcing 
CDC services in San Diego, CA, and issued an RFP on 30 January 1998 to 
do so. Other quality of life projects include a $2.0 million Education 
Center at St. Mawgan, United Kingdom; and an $8.0 million Mess Hall at 
Marine Corps Recruit Depot Parris Island, SC.
Environmental Compliance and Safety
    The Navy has several environmental compliance projects included in 
the fiscal year 1999 budget, including:
  --A $22.9 million Sewer Outfall Extension at Public Works Center 
        Pearl Harbor, HI, that would extend the sewer line that now 
        terminates in the harbor into open coastal waters. The current 
        situation is a Class 1 environmental violation because 
        nutrients in the effluents exceed State water quality standards 
        in the harbor.
  --A $6.1 million Steam Condensate Return, also at Public Works Center 
        Pearl Harbor, HI, that would eliminate the untreated discharge 
        of high temperature steam directly in Pearl Harbor, in 
        violation of the Clean Water Act.
                      base realignment and closure
Realignment and Closure Status
    We are implementing four rounds of base realignment and closure as 
directed by law. The first was in 1988 under the Defense Authorization 
Amendments and Base Closure and Realignment Act of 1988 (Public Law 
100-526), and three additional rounds in 1991, 1993, and 1995 under the 
Defense Base Closure and Realignment Act of 1990 (Public Law 101-510). 
As a result of these decisions, we are implementing a total of 178 
actions consisting of 46 major closures, 89 minor closures, and 43 
realignments.
    These closures and realignments include major Navy and Marine Corps 
installations in Philadelphia, PA; Charleston, SC; Orlando, and 
Jacksonville, FL; Seattle, WA; San Francisco, Long Beach, San Diego, 
and Orange County, CA; Honolulu, HI, as well as other bases in Rhode 
Island, Alaska, and Guam.
    This has been a difficult and challenging journey for us as well as 
the communities that hosted our ships, aircraft, Sailors and Marines 
for so many years. Yet we, the Navy and Marine Corps team and the 
communities, are making significant progress. As of the end of February 
1998, we have completed the realignment or operational closure of 84 
percent (150 out of 178) bases. Operational closure occurs when all 
mission equipment and military personnel (with the exception of a small 
caretaker cadre) have been disbanded or relocated to a ``receiving'' 
site. As of the end of fiscal year 1997, we had obligated 98.4 percent 
of the $7.5 billion appropriated for Navy BRAC actions. This year and 
next will see the majority of the remaining realignments and 
operational closures occur, as we plan to complete actions at 12 bases 
in fiscal year 1998 and 11 in fiscal year 1999. Four more are scheduled 
in fiscal year 2000 and one in fiscal year 2001.

    ----------------------------------------------------------------

              Major Fiscal Year 1998 Realignment/Closures

    BUPERS, Arlington, VA (R)
    NAVFAC, Alexandria, VA (R)
    NAVCRUITCOM, Arlington, VA (R)
    NAS Dallas, TX (C)
    FISC Oakland, CA (C)

    Note: R=Realignment; C=Closure

    ----------------------------------------------------------------

BRAC Costs and Savings
    We have closed or realigned bases to help make the Navy's shore 
infrastructure more proportional to its force structure and to provide 
resources to recapitalize our weapons systems and platforms.
    Our focus has been on quickly reaching realignment or operational 
closure. This accelerates savings because it eliminates costs 
associated with operating and maintaining the bases, such as costs for 
utilities, fire and police protection, and maintaining the buildings, 
grounds, utility lines, pipes, streets, roads, piers, wharves, runways, 
warehouses, and homes.
    These savings are substantial. As a result of the four BRAC rounds, 
the DON will have saved through the end of fiscal year 1997 a total of 
$5.6 billion. To achieve these savings, we have also had to spend money 
to construct new buildings and expand utility systems at ``receiving'' 
bases. We have also had to move some personnel, equipment, ships and 
aircraft to their new homeports. We have spent $7.5 billion in BRAC 
related costs through the end of fiscal year 1997, for a net cost of 
$1.9 billion. We are approaching the crossover point where the 
cumulative savings of BRAC will exceed the cumulative costs. At the end 
of this fiscal year, we expect net savings (cumulative savings minus 
cumulative costs) to be +$1.4 billion.
    By the end of fiscal year 2001, when all four rounds of BRAC will 
be complete, we project that the DON will have spent $10.0 billion and 
saved $15.7 billion, for net savings of $5.7 billion. Equally 
important, beginning in fiscal year 2002, we will save an additional 
$2.6 billion each year because we no longer operate and maintain those 
bases. Environmental cleanup, however, will continue for a significant 
period of time beyond fiscal year 2001 at some bases.
BRAC Property Disposal
    As we approach the end of the realignment and closure process, we 
are increasingly turning our attention to the next and more challenging 
step: finishing environmental cleanup and disposing of the property. 
While we are on the ``downhill'' side for attaining realignment and 
operational closure, we are still very much on the ``uphill'' side for 
attaining property disposal. The National Environmental Policy Act 
(NEPA) process and Record of Decision is the vehicle we and the Local 
Redevelopment Authority (LRA) use to consider and evaluate the many 
competing concerns before we can convey property. These concerns 
include evaluating historic preservation, air quality, noise, traffic, 
natural habitat, and endangered species. We have to dispose of a total 
of 91 BRAC properties, totaling 166,000 acres. Through the end of 
January 1998, we had disposed of 33 properties, representing 8,700 
acres. We expect to dispose of about 12 or more properties per year for 
the next several years.
    Our rapid closure actions present opportunities for affected 
communities to accelerate their efforts towards promoting economic 
reuse of the property. Our disposal strategy is designed to support 
that effort. We have directed each BRAC closure base to develop a site 
specific phased disposal strategy that supports the LRA plans for 
redevelopment of each parcel of land. The Naval Facilities Engineering 
Command (NAVFAC) issued guidance to its field activities last fall on 
how to structure such disposal plans. We want to be both flexible and 
creative in structuring disposal agreements, and are pursuing several 
opportunities for CERCLA Section 334 early conveyance of property.
    We want to support immediate reuse opportunities for the LRA 
through Interim Leases and Leases In Furtherance of Conveyance. We have 
prepared the necessary environmental documents, known as Finding of 
Suitability to Lease (FOSL) and Finding of Suitability to Transfer 
(FOST). These actions have allowed us to put in place over 100 Interim 
Leases and one Lease In Furtherance Of Conveyances at BRAC locations. 
We estimate that these leases have created several thousand jobs in 
helping communities recover from the loss of the Navy and Marine Corps 
presence. We also work closely with the LRA to resolve any personal 
property transfer concerns.
    We have assigned NAVFAC to manage caretaker functions along with 
environmental cleanup responsibilities at all closed BRAC bases. We 
want to dispose of the BRAC properties as soon as practicable so that 
we can avoid caretaker costs and focus on our core mission. We have 
established cooperative agreements at many bases where the LRA has 
accepted responsibility for providing services such as fire, police, 
water, sewer, electricity, gas, and ground care as part of the property 
transition process.

    ----------------------------------------------------------------

                          BRAC Success Stories

    At the former Naval Air Station Glenview, IL, we have reached 
agreement for an Economic Development conveyance to convey 920 acres. 
We have previously conveyed by deed 645 acres to the LRA.
    At Naval Training Center Orlando, FL, we have transferred 214 
acres, known as the McCoy Annex, to the LRA. We have entered into a 
Memorandum of Agreement for an Economic Development conveyance of 1,211 
additional acres. We expect deed transfer of the remainder of the 
property by May 1998.
    We have executed a Lease in Furtherance of Conveyance (LIFOC) for a 
negotiated sale and port public benefit conveyance for 704 acres at the 
former Naval Construction Battalion Center Davisville, RI.

    ----------------------------------------------------------------

Environmental cleanup
    We have also asked the bases, with NAVFAC assistance, to tailor 
their environmental cleanup plans to best support the disposal strategy 
for that base. Our objective is to complete the cleanup (attain 
response complete or remedy in place) for each parcel of land in the 
order that the LRA has determined is needed for actual redevelopment.
    Each base has established BRAC cleanup teams comprised of remedial 
managers from the Navy, State, and EPA to assess, prioritize, and 
expedite the necessary cleanups. We want them to work to hasten cleanup 
and reduce costs. We want to immediately convey the property once 
cleanup is completed. There are substantial BRAC environmental funds in 
our budget request to support this effort: $364 million in fiscal year 
1998, and $280 million in fiscal year 1999. We recognize the dynamics 
of reuse, and stand prepared to adjust cleanup plans as needed to 
support evolving LRA needs. In short, environmental cleanup funds will 
support cleanup of parcels that have the most immediate realistic 
opportunity for conveyance and reuse by the LRA.
    One measure of our progress in cleaning up contaminated property is 
the number of acres that become suitable for transfer under the 
Comprehensive Environmental Response, Compensation and Liability Act 
(CERCLA) and the Community Environmental Response Facilitation Act 
(CERFA). The DOD has developed categories of property in order to track 
cleanup progress. Property in categories 1-4 is environmentally 
suitable for transfer. Cleanup was either completed or unnecessary in 
these areas. Property in category 5 indicates remedial investigations 
or cleanup is underway. Properties in category 6 require cleanup, but 
actions have not been started. Category 7 property has not yet been 
completely evaluated and cannot be categorized yet. Since last fiscal 
year, we have moved over one-third of category 5, 6, and 7 acres to 
category 1-4. Two years ago, we completed (i.e., response complete or 
remedy in place) 140 of the 1,000 sites at our closing bases. We have 
now completed 400 as of October, 1997.

------------------------------------------------------------------------
                                                   Acres (all BRAC)--As
                                                            of
                                                 -----------------------
                                                   September   September
                                                     1996        1997
------------------------------------------------------------------------
CERFA Cat 1-4...................................     107,833     143,100
CERFA Cat 5.....................................      11,260       1,596
CERFA Cat 6.....................................       7,572       6,395
CERFA Cat 7.....................................      39,194      14,768
                                                 -----------------------
      Total.....................................     165,859     165,859
------------------------------------------------------------------------

    We are searching for ways to reduce the cost of cleanup. We are 
using promising new cleanup technologies at a number of our BRAC sites. 
These new technologies can reduce cost or expedite the cleanup process. 
We are also working with regulators and communities to better tie 
cleanup standards to the intended reuse. For example, both the LRA and 
the Navy save cleanup costs if we can tie the need for a landfill cap 
with the LRA need for a parking area or runway extension over the same 
area.
    We use a BRAC cost-to-complete index as a measure of our efforts to 
reduce cleanup costs. Last year, our BRAC cleanup cost-to-complete (as 
of the end of fiscal year 1996) was $2.5 billion. One year later, our 
cost-to-complete (as of the end of fiscal year 1997) was $2.1 billion. 
The reduction of $400 million is the result of execution of fiscal year 
1997 appropriated funds and about $200 million in cost avoidance, such 
as changes in risk based approaches to cleanup, new information on the 
nature and extent of contamination, and use of new technologies for 
study or cleanup.
    That concludes my statement. I appreciate the support that this 
Committee and its Staff has given us in the past, and I look forward to 
continued close cooperation in the future.

                                housing

    Senator Burns. Thank you, Mr. Secretary.
    I was interested in your comments on privatization. You 
seem to think that the enthusiasm for that program might be 
losing a little bit of steam. Do you want to elaborate on that 
just a little bit, give us some instances why that is 
happening?
    Mr. Pirie. Well, I think there are a number of things, in 
addition to the fact that Milcon is the traditional way of 
doing it. That is the way people are used to doing it and 
certainly, if there is a project authorized and appropriated, 
it is the quickest way for people to put a house on the ground.
    The fact is that that house costs the taxpayer a lot more 
money to maintain and operate than the equivalent house that we 
could get through a public-private venture. But in any case, 
the number and range of authorities that we received in the 
Perry initiatives for public-private ventures is very 
impressive, but it complicates the process of kind of working 
through a deal in each individual location.
    Each location has a different situation, a different 
requirement for housing. So that matching the range of 
authorities that we have on the one hand and the requirements 
for housing we have on the other hand is a very complicated 
process, one which we are beginning to learn a lot more about.
    I will ask Admiral Nash to comment on this presently. We 
have had some projects that have worked and are on the ground. 
We have a substantial number of others that are just about to 
break and be ready for requests for proposals. But it has been 
slow. It has been an education process up and down the chain of 
command. And I think we are beginning to see light at the end 
of the tunnel.
    Senator Burns. Some of these complications, if they are 
different, is it different for each State? Is it building 
codes? I realize it is hard to write any kind of legislation 
that one size fits all, because Murphy's Law takes over right 
away. In fact, it is more prevalent than what we sign here.
    But where is the main areas of concern?
    Mr. Pirie. Well, the range of authorities we have allow us 
to, for example, contribute Government property as a stake in a 
public-private venture or as a stake to guarantee occupancy or 
simply to contribute cash. There are a variety of partnering 
arrangements in public-private ventures that are appropriate, 
and to figure out which one of these is best for a particular 
location is not all that straightforward and not something we 
are particularly used to.
    For example, one that we have just gotten permission to go 
forward with is a public-private venture in Albany, GA. That 
involves using as our stake Marine Corps housing which is 
essentially out in town, and we will contribute that to the 
partnership. In return, our developer partner will build 
quarters on the Marine Corps base and will be responsible for 
maintaining those over the course of the lease for the 
property.
    Each one of these is going to be somewhat different, Mr. 
Chairman.

                              brac cleanup

    Senator Burns. Elaborate a little bit. It looks like, for 
some unknown reason--give me a thumbnail sketch, environmental 
cleanup, where you are behind as far as the Navy is concerned, 
as far as moving some of our property into private hands, 
environmental impact statements and environmental cleanup. Give 
me your sketch of where we are and where we would like to be, 
and how can we do it better?
    Mr. Pirie. We do not see that environmental cleanup is 
going to impede the closure or conveyance of any of the 
properties that we have waiting. It is a very substantial job. 
Environmental cleanup at BRAC properties involves substantially 
having remedies in place before the properties can be conveyed 
to the community.
    The funding that we have in place now and in our program we 
believe will be adequate to clean up the properties and make 
conveyances in an orderly fashion. After the year 2001, the 
BRAC accounts will expire and the money that will be required 
to continue the cleanup at the remaining locations that are not 
completed cleanup will have to move into the component and 
environmental restoration accounts. So we will experience an 
increase in our environmental restoration accounts at that 
point.
    Senator Burns. Give me a status of El Toro?
    General Hayes. El Toro is still under consideration by the 
reuse authority. There are some four or five options. Most of 
the cleanup work we have done are in place. As Secretary Pirie 
indicated, probably in 2001 we will have about a $10 million a 
year monitoring requirement for whatever number of years, we 
think 8 or 10 years.
    Senator Burns. Will that property finally be conveyed to 
private hands?
    General Hayes. Yes, sir.
    Senator Burns. I hate to see old El Toro close up, but that 
is progress, I guess.
    In that respect, Mr. Secretary, what is the percent or what 
is the total amount the Navy has spent on environmental costs 
for BRAC installations for all previous rounds? What has your 
figure been on that so far?
    Mr. Pirie. Through fiscal year 1997, Mr. Chairman, we have 
spent $1.2 billion in BRAC environmental cleanup.
    Senator Burns. I think the taxpayers ought to know that 
figure, because it is hefty and it takes away some of the 
things that we should be doing probably with infrastructure. 
But we also think it is very, very necessary in order to make 
the properties saleable or presentable for the movement into 
the private sector.
    Mr. Pirie. Yes, sir; two things. One is that that is 
exactly right. We are obligated to clean this property up so 
that it can be reused by the community and contribute to their 
economic development.
    We are also obligated to clean up the environmental 
contamination in any case. We will do it eventually. BRAC just 
makes it necessary to do it on an accelerated schedule so that 
we can meet the turnover schedule.

                               demolition

    Senator Burns. Demolition program progressing?
    Mr. Pirie. I think we are making good progress on it. I 
will ask Admiral Nash to comment on it in more detail, but I 
think we are getting something on the order of a 4-year return 
on our investment for demolition. We are using about between 
$30 and $40 million a year in a centrally managed account, 
which is quite popular with the claimants. They want to get 
these old buildings that eat up maintenance costs off the books 
as well.
    Admiral Nash?
    Admiral Nash. Sir, I think it is progressing very well. As 
Mr. Pirie says, it is very popular and we are moving along very 
nicely. It is a good business decision and it is working well.
    Senator Burns. Senator Murray, you have some questions?

                                housing

    Senator Murray. I do. Thank you, Mr. Chairman.
    Secretary Pirie, a top priority for me has always been 
quality of life for our men and women in uniform, and housing 
is a big part of that. I see that in your budget this year you 
are requesting a total of $1.2 billion for Navy family housing, 
which is 13 percent less than the $1.37 billion that we 
appropriated last year, and it is even less than you requested 
in your own budget last year.
    Yet you request this decrease in the midst of this 
revitalization program you talk about in your statement. Can 
you explain for the committee in more detail what your plans 
for family housing are?
    Mr. Pirie. Our plans are to use the money now on the books 
for military construction projects in a number of locations to 
seed public-private ventures and to produce more housing than 
would otherwise have been produced from these accounts.
    As I explained in my opening statement, it is a very 
complicated business. It has gone a lot more slowly than I had 
hoped it would go. But we are beginning to see some projects 
develop. In Everett, of course, as you know, we have one that 
has been quite successful and we are about to proceed with an 
expansion of that project, which I think will be well met and 
will meet most of our housing needs in that area.
    We have a number of others: the Albany project that I had 
mentioned for the Marine Corps.
    Admiral Nash?
    Admiral Nash. Yes, ma'am. We also have less houses because 
some of them have left our inventory because of BRAC. We also 
have worked hard in trying to reduce the cost of ownership 
without reducing the quality of what we are doing. So some of 
those savings come from those kinds of good business things.
    Senator Murray. OK, I appreciate that. But I have to tell 
you, when I visit bases in my home State it is a No. 1 
priority. So I know the need is out there.
    Admiral Nash. Yes, ma'am.
    Senator Murray. You mentioned the Dujardin Development Co. 
of Everett and the 185 homes there that have been developed. Is 
this a model that we can use perhaps for public-private around 
the country?
    Mr. Pirie. It appears to be working in Everett. It might 
not be--there is no single housing solution for all of these 
locations because they all have unique problems.
    Senator Murray. Mr. Secretary, in the Senate report 
accompanying the fiscal year 1998 Milcon bill the committee 
expressed its concern over the overcrowding of the school 
district which serves Navy dependents at Bangor Submarine Base 
in my home State. The problem is particularly acute for special 
ed dependents. Bangor has been designated as a preferred 
assignment for military personnel with special needs children, 
including children with severe handicap conditions. The school 
district currently transports these children to facilities that 
are some distance from the home base because no facilities 
exist on that base to meet their educational needs.
    The committee in its report outlined this problem in a lot 
of detail last year and directed the Department of Defense to 
review the plan for a special needs in education center that 
was developed by the school district. The committee also 
directed DOD to provide a report on the viability of this plan 
to the congressional defense committee not later than 60 days 
after the enactment of the bill. We are obviously well past 60 
days. Can you tell me where that report is?
    Mr. Pirie. No; it is not in my area of cognizance, but we 
will certainly look into it and I will get you an answer.
    Senator Murray. I would appreciate that. We are waiting to 
hear how we can proceed on that.
    [The information follows:]

    The report to which you refer is in staffing within the Office of 
the Secretary of Defense. The expected delivery date to the 
Subcommittee is on/about July 31, 1998.

    Senator Murray. Mr. Chairman, I have to go introduce a 
constituent of mine at the Commerce Committee and I will be 
gone about 5 minutes and return.
    Senator Burns. I am on that committee, too. Tell them I am 
tied up, would you? Thank you, Senator.
    Senator Faircloth, do you have a question you might pose to 
the U.S. Navy?

               cecil field environmental impact statement

    Senator Faircloth. I do, Mr. Chairman, and thank you.
    One question, and whoever wants to answer it may. When is 
the Navy going to comply with this committee's direction to 
conduct an independent study to find the best solution for 
relocation of the F-18 squadrons from Cecil Field?
    Mr. Pirie. The Cecil Field environmental impact statement, 
final environmental impact statement, was completed last week 
and copies have, I believe, been conveyed to the committee.
    Senator Faircloth. I am sorry. If you would speak more 
directly into the microphone I would appreciate it.
    Mr. Pirie. I am sorry. The Cecil Field environmental impact 
statement, final environmental impact statement, was completed 
last week and copies have been provided. The record of decision 
will be entered in about 30 days, after the period for public 
comment has expired. I am not aware of direction to conduct an 
independent study.
    Senator Faircloth. Who did the environmental impact 
statement, sir?
    Mr. Pirie. The fleet commander was primarily responsible 
for developing the environmental impact statement, yes, sir.
    Senator Faircloth. Who? What commanders?
    Mr. Pirie. The Atlantic fleet commander, Admiral Reason.
    Senator Faircloth. Is it going to be reviewed by the EPA?
    Mr. Pirie. Yes; the environmental impact statement has to 
be.

                        nas oceana construction

    Senator Faircloth. Well, let me ask you, is there any 
money, any request for funding, in this for work where there is 
not yet a record of decision? In other words, are you 
requesting money for Oceana?
    Mr. Pirie. There may be military construction requests for 
Oceana. I am not at all certain. But certainly not in 
anticipation.
    Senator Faircloth. Who could tell me, sir?
    Admiral Nash. We have the project that you talked about. 
There are three in the program here for 1999.
    Senator Faircloth. I am sorry. If you would pull that mike, 
I could hear.
    Admiral Nash. Yes, sir; is that better?
    Senator Faircloth. Yes; now tell me again.
    Admiral Nash. We have three projects that are the 1999 
program that is before the committee.
    Senator Faircloth. For what?
    Admiral Nash. That are for the relocation of FA-18's.
    Senator Faircloth. Have you decided to do it? Have you 
decided to move them to Oceana?
    Admiral Nash. No, sir; as Mr. Pirie said, the EIS has been 
done, and the record of decision [ROD] will be completed in 
about 1 month. I have not decided--it is not mine to decide, 
but I am not aware of any decision yet.
    Senator Faircloth. Well, why would you be requesting money 
for something that you might not do?
    Admiral Nash. It had been past practice when we were moving 
forward to try to anticipate what was going to happen, but it 
is not predecisional, sir.
    Senator Faircloth. In other words, it been the past 
practice to get the money because you have made the decision 
before you tell what you are going to do.
    Admiral Nash. I do not know, sir.
    Mr. Pirie. I think it is fair to say that all of the 
options considered in the environmental impact statement 
involve moving some of the FA-18's to Oceana.
    Senator Faircloth. Well, how do you know how much money you 
need if you do not know how many you are going to move?
    Mr. Pirie. I think we will need, because of the fact that 
we will be basing some of the FA-18's at Oceana, we will need 
some facilities to support them. It is reasonable to expect 
that.
    Senator Faircloth. How do you know how much money to ask 
for if you do not know how many you are going to move? How much 
is some?
    Admiral Nash. Sir, the three facilities are an addition to 
a training facility, a weapons school, and a corrosion control 
hangar that would be used, I believe, no matter how many were 
moved.
    Senator Faircloth. I wrote you a letter, to Admiral Ryan, 
January 5, discussing this. I have never heard any response. I 
assume Admiral Ryan has a velvet wastepaper basket and this 
went in it.
    Admiral Nash. I do not know, sir.
    Senator Faircloth. I one time said on the Whitewater 
Committee that getting information out of the White House was 
like eating ice cream with a knitting needle. Getting 
information out of the Navy on what you plan to do here is more 
difficult. And yet, I feel a solid undercurrent that the do has 
been done. You want money to expand Oceana, yet you do not know 
what you are going to do there yet.
    You got money last year to work on Oceana to get it ready 
for these planes, did you not, Admiral Nash?
    Admiral Nash. I am not sure, sir.
    Senator Faircloth. Who would be sure?
    Admiral Nash. I will ask that question and enter it for the 
record if I may, sir.
    Senator Faircloth. Well, if you would let me know this 
afternoon.
    Admiral Nash. I sure will do, yes, sir, I will.
    [The information follows:]

    The fiscal year 1998 President's Budget included the following 
projects in fiscal year 1998 for Naval Air Station Oceana, Virginia:

       PROJECTS FOR FISCAL YEAR 1998--NAVAL AIR STATION OCEANA, VA
                        [In millions of dollars]
------------------------------------------------------------------------
           Account/number                 Project title         Amount
------------------------------------------------------------------------
BRAC III--P-160U...................  Flight Simulator                9.0
                                      Building Addition.
BRAC III--P-164U...................  Aviation Maintenance            2.7
                                      Facility Addition.
MILCON--P-712......................  Bachelor Enlisted              20.9
                                      Quarters.
MILCON--P-453......................  Jet Engine Test Cell            5.0
                                      Replacement.
------------------------------------------------------------------------

    The fiscal year 1999 Amended President's Budget included the 
following projects in fiscal year 1999 for Naval Air Station Oceana, 
Virginia:

       PROJECTS FOR FISCAL YEAR 1999--NAVAL AIR STATION OCEANA, VA
                        [In millions of dollars]
------------------------------------------------------------------------
           Account/number                 Project title         Amount
------------------------------------------------------------------------
BRAC III--P-161U...................  Training Facility Add/          5.8
                                      Renovations.
BRAC III--P-576U...................  Corrosion Control               6.5
                                      Hangar.
BRAC III--P-163U...................  Strike Weapons School..         4.1
------------------------------------------------------------------------


    Senator Faircloth. I am beginning to get a little tired, 
Mr. Chairman, of the sliding and the gliding and the decisions 
being made undercover, and you cannot get a straight answer.
    Admiral Nash. Sir, I will personally call this afternoon.
    Senator Faircloth. You will do what?
    Admiral Nash. I will personally call you this afternoon and 
tell you.
    Senator Faircloth. I want to know what is going on, what 
has been decided, how much money was spent there last year, 
what this money is for.
    Now, I hear clearly and loudly that 10 squadrons have been 
assigned to Oceana and 2, as an appeasement to Senator 
Thurmond, at Beaufort. Would you care to confirm that?
    Admiral Nash. No, sir; I cannot confirm that.
    Senator Faircloth. Could you, Mr. Secretary?
    Mr. Pirie. The preferred alternative in the final 
environmental impact statement is for all 11 FA-18 squadrons 
and the fleet replacement squadron to go to Oceana.
    Senator Faircloth. Why?
    Mr. Pirie. That is what is operationally best, and the 
final environmental impact statement outlines the fleet 
commander's reasoning in selecting that as the preferred 
alternative.
    Senator Faircloth. I do not think there was any doubt what 
the environmental impact statement was going to say before they 
even started it. I think the end was determined before the 
statement was begun.
    I cannot understand how you can say that Oceana is the best 
place. That is a training squadron. What if a plane goes out of 
control on landing or takeoff at Oceana? What is the 
possibility of many civilian deaths or accidents as compared to 
Cherry Point?
    Mr. Pirie. I am not technically qualified to answer that 
question, Senator.
    Senator Faircloth. Thank you, Mr. Chairman.
    Senator Burns. Now, those three facilities now at Oceana 
are what now, Admiral?
    Admiral Nash. Sir, a training facility addition, a weapons 
school, and a corrosion control hangar.
    Senator Burns. Now, those facilities would be built anyway, 
whether any kind of a move is made?
    Admiral Nash. They are associated with any kind of 
movement, so I would say, no, they would be associated with 
some sort of move.
    Senator Faircloth. May I ask one more question, Mr. 
Chairman?
    Do you mean that they would not be built if you do not make 
the move? Is that what you are saying?
    Admiral Nash. I will check that. I am talking without 
knowing. I will check that.
    Mr. Pirie. We will have under any of the alternatives 
considered in the environmental impact statement, we will have 
six FA-18 squadrons and the fleet replacement squadron at 
Oceana. So those facilities would be needed under any 
circumstances, any of the options in the environmental impact 
statement.
    Senator Faircloth. All the training takes place over North 
Carolina predominantly. Your bombing practice, all that is in 
North Carolina, is that not right?
    Mr. Pirie. Yes, sir; the shore ranges are in North 
Carolina.
    Senator Faircloth. So you have got to fly from Virginia 
Beach down to North Carolina to practice and then go back home.
    All right, thank you.
    Senator Burns. Going one step further on that, Admiral, 
will there be a request for additional family housing at Oceana 
as a result of a move, or can that be facilitated?
    Admiral Nash. I understand that we can handle--because of 
the availability of housing both in the economy and on the 
base, there will be enough housing for those that come with the 
additional squadrons.
    Senator Burns. We have been joined by Senator Craig of 
Idaho. Good morning to you.
    Senator Craig. Thank you, Mr. Chairman.
    Senator Burns. If you have a statement----

                  STATEMENT OF SENATOR LARRY E. CRAIG

    Senator Craig. I do appreciate that. I have a leadership 
meeting at 10 a.m., so I will be here until then. But I did 
want to certainly recognize the Secretary and welcome him and 
the Admiral. I appreciate your presence here today.
    I want to thank you also for the work that is going on at 
sometimes a little known and, therefore, not necessarily high 
profile facility in the great naval State of Idaho.
    Now, you all laugh out there. Now, you have got to 
understand that I have a seaport, the most inland seaport in 
the Nation. You did not recognize that, did you? And also a 
very significant submarine facility, and it is that which I 
want to visit with you only briefly about this morning.

                 acoustical research detachment center

    First of all, Admiral and Mr. Secretary, thank you for the 
work that is currently going on there to take some very old, 
antiquated buildings, build a composite facility. We are 
talking about the Acoustic Research Detachment Center at 
Bayview. While there will not be additional projects in 
relation to that facility until fiscal year 2000, and that is 
the P-211 project, I want to thank you for that and tell you 
that we watch that facility and I stand ready to assist to 
assure its longevity and the quality of work that goes on 
there, because the kind of robotics that we are using there and 
at Lake Ponderay has tremendous opportunity not only for us as 
a defensive measure, but for the savings of life and limb, if 
you will, of our citizens and our men and women in uniform. So 
let me thank you for that.
    I have no further questions of either the Secretary or the 
Admiral, but we watch that all with great interest. Thank you.

                        marine corps facilities

    Senator Burns. General Hayes, basically at Pendleton and at 
Lejeune you have still got a backlog of facilities and housing 
there?
    General Hayes. Yes, sir; we do.
    Senator Burns. Give me an idea?
    General Hayes. I think Lejeune is hard. They are both hard 
to answer because we are taking a relook at the community and 
what it offers. What is happening at Camp Lejeune is it is 
becoming less affordable, where it used to be quite affordable. 
So that resurvey work is going on. But order of magnitude is 
probably, between the two of them--I would like to take it 
exactly for the record, but it is substantial.
    [The information follows:]

    Yes. Those two installations represent our largest housing deficits 
(projected as 4,845 units at Camp Pendleton and 3,680 at Camp Lejeune). 
These deficits are based on market analyses completed in 1994 for 
Pendleton and 1995 for Lejeune. Unless market conditions change or 
allowances catch up with housing costs, we will not be able to reduce 
those deficits. Because nearly all our Family Housing funding is 
dedicated to operating and maintaining our existing inventory, we are 
trying to satisfy some of the deficit reduction with Public Private 
Venture housing projects.

    Senator Burns. And Twentynine Palms?
    General Hayes. Twentynine Palms, less of a problem. At 
Twentynine Palms, as well as Lejeune and Pendleton, we are 
looking at public-private venture, and in the case of 
Twentynine Palms the potential, because of some land 
flexibility there, for a whole base public-private venture.
    Senator Burns. Do we still maintain a facility, an 
amphibious facility at Oceanside, CA?
    General Hayes. Well, as part of Camp Pendleton.
    Senator Burns. That is all part of the Camp Pendleton?
    General Hayes. Yes; it all is part of Camp Pendleton, yes, 
sir.
    Senator Burns. OK, all right.
    We might sit down one of these days and take an inventory 
and see where we are in those areas and your priorities. In 
fact, that is where we get some of our best work done. But I 
just like to have some kind of an idea where we are out there. 
You know, still--it is like Senator Murray said, ``we are still 
not getting any funds for our Guard and our Reserves. It seems 
like that is always left up to the Congress to fight those 
battles. Then when it comes it is usually called with a big 
label on it that says ``pork'' for your State.''
    But we go right back, and I want to emphasize that I think 
the move, Mr. Secretary--we move from that kind of rhetoric to 
a demand or a move to integrated forces. In other words, we 
have a situation--we are going to talk to the Air Force next, 
but we have a red horse organization in Great Falls now that 
has both Air Guard and Regulars in that facility working 
together on the base the same day and occupying some of those 
positions.
    So when we talk about Reserves and responsibilities of the 
Reserves and our Guard, we talk about an integrated force. Yet 
we do not have the facilities with those Guard, and I think 
they deserve some of those kind of facilities, especially your 
Reserve sectors.
    I thank you, gentlemen, for coming this morning. If the 
rest of the committee has any questions, we will submit them 
for you and if you would submit it to the individual Senator 
and to this committee I would appreciate that. We will probably 
have some more questions as we look at this. As we look at the 
supplemental, we also might have some questions with you 
because evidently there are a couple of areas in there that 
they do not know whether it is going to be O&M or Milcon. We 
want to take a look at that and at what we are doing and our 
requirements for Bosnia, Iraq, and a host of other things.
    If you make yourself available for those questions I would 
sure appreciate that.
    Mr. Pirie. Yes, sir; absolutely, Mr. Chairman.
    Senator Burns. Thank you very much for coming this morning.
    Senator Craig. Mr. Chairman, as they are leaving, I do not 
want to fail to recognize General Hayes and the Marines.
    General Hayes. Thank you, Senator.

                     Additional committee questions

    Senator Craig. You never know when Idaho will need the 
Marines. Thank you, gentlemen.
    General Hayes. Always.
    Senator Craig. Always, that is right. [Laughter.]
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]

                  Questions Submitted By Senator Burns

                             funding levels
    Question. Mr. Secretary, what are the long-term implications of a 
steady decline of MILCON funding to our Navy and Marine Corps 
installations and infrastructure?
    Answer. The steady decline in MILCON will result in a gradual 
erosion in the ability of our shore infrastructure to support current 
and future readiness needs of the fleet and Fleet Marine Force unless 
we do something to reverse the current situation. We believe our 
efforts at creating greater efficiency in our shore infrastructure will 
reduce our total infrastructure needs, and allow our infrastructure 
dollars to go further toward tackling repair and replacement backlogs. 
I discussed a number of efficiency initiatives, including regional 
maintenance of ships and aircraft, regionalization of base support 
functions, outsourcing competitions, privatization of housing, and 
building demolition in detail in my written statement. These efforts, 
along with the request for legislation to establish two more rounds of 
BRAC, will enable us to reduce unneeded capacity and to operate it more 
efficiently and at lower cost.
    Question. What is your backlog of real property maintenance 
requirements for both the Navy and Marine Corps?
    Answer. Navy = $2.5 billion; Marine Corps = $0.7 billion, for total 
of $3.2 billion.
    Question. What percentage of the plant replacement cost does the 
Navy spend each year on maintaining those facilities? At that rate, 
what is the average replacement cycle in terms of years?
    Answer. We are spending approximately 1.7 to 1.8 percent of plant 
replacement value per year on facility maintenance, compared to a goal 
of 2.0 percent. This represents approximately a 63-year 
recapitalization cycle, including MILCON and RPM.
                         housing privatization
    Question. Mr. Secretary, explain for us the Navy's and the Marine 
Corps' future plans with regard to family housing privatization?
    Answer. It has long been Department of Defense policy to rely on 
communities near military installations as the primary source of 
housing for our service members. We program military family housing 
only where there is insufficient suitable housing in the community. We 
recently issued a new DoN housing policy that applies to existing Navy 
and Marine Corps housing and the acquisition of new housing. Key 
components include:
  --We will look first to Public/Private Ventures (PPV's) for all new 
        housing construction, replacement construction, and improvement 
        needs;
  --If a careful analysis of economic, quality and market factors 
        conclusively demonstrates that a PPV is not feasible, we may 
        turn to more traditional means of meeting requirements;
  --We will evaluate family housing needs on a regional basis;
  --We will use quality standards and amenities that the private sector 
        provides for similar income levels;
  --We have set a goal of no out-of-pocket expense for future PPV's. 
        Where that would render a PPV not financially viable, we will 
        limit the out-of-pocket expense to no more than 15 percent 
        above BAH.
    Question. Does the Navy intend to get out of the Family Housing 
Business?
    Answer. No. We do not see Public/Private Ventures as being the 
ultimate end state for all our housing, but we certainly see a gradual 
and perhaps significant decline in the number of homes that we own and 
operate.
    Question. When will you have some ``lessons learned'' from 
executing the privatization contracts in Washington and Texas?
    Answer. The entire process has been--and continues to be--a 
learning experience. From the earlier stages of project concept 
development, we learned how crucial it is to get not only the local 
commanders involved, but service members--the ultimate customers--as 
well. This lesson will manifest itself in the upcoming PPV in Albany, 
GA. There, we will have a representative from the Command Master 
Chief's office sit on the Source Selection Board; and, service members 
will also be a part of the project's technical evaluation process.
    Also, we have consistently heard the message that affordability is 
the most important criteria for these and future PPV's. Our PPV policy 
guidance signed out this past January specified that it is the 
Department's goal to structure projects with no out-of-pocket costs for 
the service members. Project evaluation criteria will reflect the 
relative importance of affordability compared to such items as unit 
size, amenities and support services.
    Finally, we have learned that we must restructure the budget 
process to accommodate the nuances of the PPV acquisition timeline. We 
are still learning how--and how not--to use the privatization 
authorities. However, we do know that the earlier we are able to assess 
an installations requirements, the better able we will be in developing 
an acquisition strategy that addresses its problems.
                              brac funding
    Question. Mr. Secretary, what percent of the fiscal year 1999 
funding request will be allocated to environmental studies, clean-up 
and restoration at BRAC installations?
    Answer. The Department of the Navy's fiscal year 1999 Amended BRAC 
Budget Estimate that was submitted by the President to the Congress in 
February 1998, included a total budget request of $622,932,000. 
Restoration accounted for $198,667,000 or 32 percent; Compliance 
accounted for $81,202,000 or 13 percent; and environmental studies 
accounted for $489,000 or about one-tenth of one percent.
    Question. What is the total amount that the Navy has spent on 
environmental costs for BRAC installations for all previous rounds?
    Answer. Through the end of fiscal year 1997, we have spent a total 
of $1.4 billion in BRAC environmental funds, consisting of about $100 
million in environmental planning (studies), $650 million in 
environmental compliance, and $650 million in environmental cleanup 
(restoration).
    Question. I understand that the Navy has approximately 90 BRAC 
properties to dispose of yet. What major problems are there with 
returning these bases to the communities?
    Answer. For all four BRAC rounds, Navy has to dispose of a total of 
91 BRAC properties. We have currently disposed of 36 properties; 42 
properties are operationally closed but not disposed pending 
environmental cleanup (8 of these were closed just last fall); and 13 
properties are not yet operationally closed. All but 7 properties are 
planned for disposal by 2001. Navy sees no major problems in 
transferring former Navy properties to the local communities.
                           demolition program
    Question. Mr. Pirie, explain for us your demolition program and 
provide us an estimate of how much money you are saving as a result of 
tearing old buildings down?
    Answer. The goal of our demolition program is to eliminate 
unneeded, dilapidated facilities and their associated operating and 
maintenance costs. On average, we expect to recover the demolition 
investment in 4 to 6 years through reduced maintenance costs.
    Question. Is this program adequately funded in fiscal year 1999? 
Could you use more money if it were made available?
    Answer. Yes, this program is adequately funded in fiscal year 1999. 
Our fiscal year 1999 budget includes $38 million ($33 million Navy; $5 
million in Marine Corps) for a centrally managed demolition account. 
There are an additional $25 million in fiscal year 1999 demolition 
funds included in other appropriations (MILCON, Family Housing 
Construction, Navy Working Capital Fund, non-centrally managed O&M). 
Like all other infrastructure programs, we could use additional funds. 
However, the current demolition budget request represents a reasonable 
balance with all other DoN funding needs.
    Question. Is there much resistance to this program from local 
commanders not wanting to give up facilities on their bases?
    Answer. No. To the contrary, there is great interest to use the 
centrally funded account. In the past, our base commanders had a 
difficult time finding money to support demolition needs.
                                 ______
                                 

                Questions Submitted by Senator Faircloth

    Question. When is the Navy going to comply with this Committee's 
direction to conduct an independent study, with a weighted comparison 
of the pros and cons of all scenarios, to find the optimal solution for 
the relocation of F/A-18 squadrons from Cecil Field?
    Answer. In response to the Committee's direction, the Draft 
Environmental Impact Statement (EIS) was sent to you under a cover 
letter dated September 12, 1997. Weighing the pros and cons of each 
alternative is inherent in the decision making process. The public 
review period following the release of the Final EIS will close on 
April 20, 1998. We will analyze all public comments received and, will 
balance all the relevant factors before reaching a decision.
    Question. Does the President's fiscal year 1999 Military 
Construction budget request include any funding related to BRAC rounds 
where there is not yet a Record of Decision? More specifically, there 
is not yet a ROD for moving Cecil Field Hornets anywhere. Does the Navy 
want to start or continue construction at Oceana, VA, or Beaufort, SC, 
related to the Cecil Field move, in anticipation of a decision?
    Answer. Projects for the realignment of F/A-18 aircraft from NAS 
Cecil Field and the realignment of E-2 aircraft from the former NAS 
Miramar are included in the President's 1999 budget request. The Navy 
has not started construction for the F/A-18 realignment at any of the 
potential receiving sites nor will the Navy begin construction until 
the Record of Decision (ROD) is signed.
    Question. Regardless that a minimum number of squadrons that would 
go to Oceana under any scenario in the Environmental Impact Statement, 
how do the military construction needs change if more than six 
squadrons are sent to Oceana? How can the Navy design properly sized 
buildings and adequate maintenance capacity if there is still 
uncertainty about how many planes and personnel will ultimately have to 
be supported?
    Answer. Construction needs at NAS Oceana for each of the Alternate 
Relocation Sites (ARS) are identified in Section 2.2 of the Final EIS. 
A summary of the construction cost at NAS Oceana for each ARS is 
provided below:

                        [In millions of dollars]
------------------------------------------------------------------------
                                               NAS Oceana       Total
   ARS (Number of F/A-18 squadrons at NAS     construction  construction
                   Oceana)                        cost          cost
------------------------------------------------------------------------
Fleet Replacement Squadron (FRS) and 11
 fleet squadrons............................         99.1          99.1
FRS and 9 fleet squadrons...................         95.0         106.9
FRS and 8 fleet squadrons...................         87.5         105.1
FRS and 6 fleet squadrons...................         68.8         240.0
FRS and 6 fleet squadrons...................         68.8         135.8
------------------------------------------------------------------------

    Many projects for BRAC related actions have been designed based on 
the EIS preferred alternative. Accordingly, projects for the 
realignment of F/A-18 aircraft from NAS Cecil Field have been designed 
based on the preferred alternative. In BRAC related actions, if the 
preferred alternative is changed in the ROD, we have the ability to 
move projects, change projects and/or initiate new projects with 
notification to Congress.
    Question. How did the Navy settle on the five options in the 
Environmental Impact Statement? Please describe the screening process 
and provide me a list of all other options considered which were 
determined to be inferior to these five final options. Please also 
explain for each option that was eliminated what factor(s) caused it to 
be eliminated and what were each option's positive attributes.
    Answer. Installations were screened first for necessary capacity 
and support infrastructure then for their ability to meet various 
operational criteria. Through that process, various installations and 
alternative basing scenarios were considered, but only five were 
determined to be fully feasible, reasonable alternatives. The five 
alternatives were given a full comparative analysis in which economic, 
environmental, and social concerns were evaluated. The remainder were 
eliminated from further analysis as not being feasible, with a short 
explanation in the EIS as to why (as required by the Council on 
Environmental Quality (CEQ) regulations).
    The following alternatives were considered, but eliminated from 
detailed analysis; an explanation for this elimination is also 
provided.

No action (aircraft remain at NAS Cecil Field)..........  Closure of NAS Cecil Field mandated by BRAC 95.
Single-siting at MCAS Cherry  Point.....................  Not consistent with the BRAC 95 Commission goal of
                                                           using existing infrastructure to the greatest extent
                                                           possible.
Single-siting at MCAS Beaufort..........................  Not consistent with the BRAC 95 Commission goal of
                                                           using existing infrastructure to the greatest extent
                                                           possible.
Triple siting...........................................  Unacceptable because of operational constraints and
                                                           high support costs associated with maintaining and
                                                           operating F/A-18 assets in multiple locations.
Separating the F/A-18 FRS from fleet squadrons..........  Unacceptable because of specific training, logistical,
                                                           and maintenance interrelationships between the FRS
                                                           and fleet squadrons
Moving assets to create capacity........................  Inconsistent with the intent of the 1995 BRAC
                                                           Commission recommendations.

    Section 2 of the Final EIS provides a more detailed explanation of 
the screening process and alternatives considered, but eliminated from 
detailed analysis.
    Question. The Final Environmental Impact Statement states that cost 
estimates for noise mitigation at schools and churches were not 
developed. How, then, can the Navy know whether or not the value of 
reducing environmental and noise factors around the densely populated 
Hampton Roads area exceeds any perceived operational downside impact of 
multi-site relocation for these squadrons? Please explain how you can 
compare the true value of the environmental benefits of sending fewer 
squadrons to Oceana if you did not consider these, and perhaps other 
mitigation costs.
    Answer. During development of the ARS's, it became apparent that 
relocating the F/A-18 aircraft to NAS Oceana would result in 
significant aircraft noise impacts. Although ARS 2 and 3 involve dual 
siting (placing some aircraft at MCAS Beaufort and MCAS Cherry Point, 
respectively), ARS's 4 and 5 were specifically developed to reduce 
noise impacts around NAS Oceana. ARS's 4 and 5 displace the largest 
number of aircraft from NAS Oceana which is considered to be 
operationally acceptable. Both the Draft EIS and the Final EIS clearly 
identified that significant noise impacts would result from relocating 
F/A-18 aircraft to NAS Oceana.
    Question. How does the value of Marine and Navy inter-service 
operability compare to what the Navy believes is the downside to multi-
site relocation?
    Answer. Benefits of joint basing of Navy F/A-18 aircraft with 
existing Marine Corps F/A-18 aircraft at MCAS Beaufort are included in 
the Final EIS. Benefits include: (1) training efficiency through the 
use of the existing flight simulator facility at MCAS Beaufort; (2) 
maintenance efficiency through utilization of existing MCAS Beaufort F/
A-18 maintenance assets, thereby eliminating the need for multiple 
spare part/equipment stocks or turnaround times necessary to get parts 
to and from a single repair site; and (3) personnel efficiency by 
eliminating the duplication in personnel inherent to siting aircraft at 
locations without existing F/A-18's. Realigning two F/A-18 fleet 
squadrons to MCAS Beaufort would also have the added advantage of 
collocating Navy and Marine Corps F/A-18 squadrons, which comprise one 
carrier air wing. (See Section 2 of the Final EIS.)
    Question. You have used a 30-year life cycle for comparing the 
relocation scenarios. Why? The planes will not be in service that long. 
How would the Net Present Values of the scenarios compare under a more 
realistic, shorter life cycle?
    Answer. There are two different types of assets, aircraft and 
facilities, and two different corresponding expected service lives. The 
expected service life is 12 years for military aircraft and 50 years 
for military facilities (U.S. Department of Commerce data from 1925-
1985). The Navy's primary investment in the BRAC relocation is 
facilities; the aircraft have already been procured.
    The Navy's facilities will certainly outlast the life of the F/A-18 
given the respective service lives. Historically, the Navy has used a 
period of 25 years for the economic life of facilities (Naval 
Facilities Engineering Command Instruction P-442, Economic Analysis 
Handbook of June 1986). However, based on guidance contained in the 
U.S. Office of Management and Budget (OMB) Circular No. A-94 of October 
29, 1992, the Navy used a period of 30 years for the life-cycle cost 
analysis.
    Question. In order to come up with life-cycle costs, many unknown 
factors had to be estimated. Did the Navy use point estimates or range 
estimates for these unknown factors? If a range of estimated values is 
appropriate, please give me the range of Net Present Values that result 
over the reasonable ranges of assumptions.
    Answer. Life-cycle costs are point estimates based on historical 
information. Although assumptions were required for such items as mode 
of transportation and cost of lodging for training, these items are not 
considered ``unknown.''
    Question. From a safety perspective, which is better: more take-
offs and landings and training flights in and over highly populated 
areas or in and over less densely populated areas? What value does the 
Navy place on the safety of the local populations under the various 
relocation options?
    Answer. From a safety perspective, flights over less densely 
populated areas are better than flights over more densely populated 
areas.
    The Navy places a strong emphasis on the safety of local 
populations. Through the Navy's Air Installations Compatible Use Zone 
Program (AICUZ), we continually strive to protect health, safety, and 
welfare of civilian and military personnel.
                                 ______
                                 

                 Questions Submitted by Senator Stevens

                         navy presence on adak
    Question. Mr. Secretary, what is the status of the interim leasing 
arrangement with the Aleut Corporation for Adak?
    Answer. Since Congress authorized commercial leasing last year, 
Navy entered into a crew transfer license with the Adak Reuse 
Corporation (ARC), the local redevelopment authority for Adak, which 
was subsequently modified to authorize cargo transfers as well. 
Pursuant to that license, ARC has sponsored several crew and cargo 
transfers at Adak by fishing vessels operating in that region. Most 
recently, in early March 1998, ARC authorized American Seafoods Co. to 
transfer nearly 1,000 tons of fish product and refuel several vessels 
at Adak. Navy also authorized ARC to sponsor three cruise ship visits 
to Adak during 1997 and conduct island tours for ship passengers. The 
Navy offered a proposed interim lease to the ARC on February 17, 1998. 
This lease would authorize a wide range of commercial reuses. ARC has 
recently provided comments on the proposed lease, and we expect it to 
be available for signature very soon.
    Question. I understand that the Navy must still approve every 
visitor to Adak. How long does the Navy intend to maintain that policy 
and for what reason?
    Answer. Navy policy requires two day advance notice for approval of 
visitors to Adak. The entire inhabited portion of Adak is a public land 
withdrawal which is Navy responsibility. Navy, through its base support 
contract, is the sole source for all services to the island population, 
which is exclusively made up of Government contractors and Government 
employees executing and managing ongoing contracts. Navy provides all 
housing, all food service, all on-island law enforcement, all on island 
transportation, and all medical services. The availability of these 
services is very limited. Without this clearance procedure, there would 
be no way to control access to the island and ensure that facilities 
are available to accommodate visitors to this harsh, isolated location. 
The island clearance process enables the Navy, other Government 
entities, or the Adak Reuse Corporation to sponsor visitors and assure 
that services are available to accommodate them. It applies equally to 
official Government visitors, Navy contractors, and those visiting for 
reuse related purposes. This process also enables screening for those 
persons who have been excluded from Adak for past conduct on the island 
which is incompatible with good order and discipline, such as drug or 
alcohol abuse, and those with recent felony convictions. Additionally, 
there are no Customs or Immigration capabilities at Adak and the island 
clearance process assures that all foreign visitors have been properly 
cleared for entry into the United States prior to arrival at Adak.
    The Navy intends to maintain this policy until responsibility for 
all aspects of support for all island visitors is assumed by others.
    Question. As you know, there are a number of families who would 
like to relocate to Adak. Explain to me why the Navy has not approved 
their request.
    Answer. The Navy has authorized visits by family members of 
contractor employees for up to 30 days, but it is premature to 
authorize permanent civilian residence on Adak. Under present law, 
given the wildlife refuge status of the property, there is no authority 
for a permanent civilian community on Adak, and the Navy contractor 
employees there now will leave as the environmental cleanup work is 
completed between now and the end of 1998. While legislation to remove 
a portion of the property from the wildlife refuge and transfer it to 
The Aleut Corporation has been introduced in the Congress as S.1488, 
this legislation is predicated upon a Transfer Agreement between the 
United States, represented by the Departments of Interior and Navy, and 
The Aleut Corporation. Despite many months of discussions, the parties 
have not been able to conclude that Agreement, and there is significant 
uncertainty about whether such an Agreement can be achieved.
    The Navy does not have the capability to provide support services 
on Adak to dependents, and the eight Navy personnel remaining on Adak 
do not have accompanying dependents. There is no political subdivision 
of Alaska State government with jurisdiction over Adak which can take 
responsibility for public services for a civilian community, nor does 
it seem prudent for Federal or State government to invest in providing 
such services until the future of such a community beyond 1998 is known 
with relative certainty.
                      Department of the Air Force

STATEMENT OF HON. RODNEY A. COLEMAN, ASSISTANT 
            SECRETARY OF THE AIR FORCE FOR MANPOWER, 
            RESERVE AFFAIRS, INSTALLATIONS AND 
            ENVIRONMENT
ACCOMPANIED BY:
        MAJ. GEN. EUGENE A. LUPIA, USAF, CIVIL ENGINEER, DEPUTY CHIEF 
            OF STAFF FOR INSTALLATIONS AND LOGISTICS
        MAJ. GEN. PAUL A. WEAVER, USAF, DIRECTOR, AIR NATIONAL GUARD
        BRIG. GEN. RALPH S. CLEM, DEPUTY TO THE CHIEF, AIR FORCE 
            RESERVE

                   opening statement of conrad burns

    Senator Burns. We will now hear from our second panel, 
which is representing the U.S. Air Force. We have the Honorable 
Rodney Coleman, Assistant Secretary of the Air Force for 
Manpower, Reserve Affairs, Installations and Environment--
always nice to welcome you back--General Lupia, the Civil 
Engineer, and we have had a great working relationship; and 
Maj. Gen. Paul Weaver, Director of the Air National Guard; and 
also Brig. Gen. Ralph Clem, Deputy to the Chief of the Air 
Force Reserve.
    Gentlemen, I appreciate your being with us today. We look 
forward to hearing your testimony. I think I will say that 
again we are looking at reduced funds. Some way or other we 
have to turn this around. I have a feeling that that money is 
going somewhere else. When we spend it it is OK, but when 
somebody else spends it it is waste. As you know, we all try to 
protect our turf.
    First of all, let me congratulate the Air Force for the 
operation--I mentioned it just briefly a while ago--at the 
Great Falls Air Force Base, where we have integrated up there 
with Guard and Regulars. I visited with the people up there, 
both the enlisted on the ground and the officers, and they say 
it is working out pretty well.
    I like the idea because if there was one thing that we 
learned, I think, in 1991, that getting those units together 
and getting them to go all in the same direction was a 
challenge. We met that challenge and I think we overcame it, 
but I like the idea of being a little more prepared. When you 
go into an emergency situation it is a bad time for on-the-job 
training. We like to be trained and at least be on the same 
frequency as we move.
    So, Mr. Secretary, thank you for coming in this morning. I 
appreciate that very much, and we look forward to your 
statement. You might introduce your guests.
    Senator Craig. Mr. Chairman, before he does that, may I 
make a brief opening statement, since I am going to have to 
split?
    Senator Burns. Sure, you may. Any time the leadership comes 
in and wants to make a brief opening statement, you just let 
them do it.

                    statement of senator larry craig

    Senator Craig. You are kind, but I did want to recognize 
Secretary Coleman and Generals all and tell you, first of all, 
how appreciative we are as a State delegation in the work that 
we have been able to do with you in the enhancement of the 
training range facilities at Mountain Home Air Force Base. That 
has moved along well. It is moving now as planned, timely. And 
I must say that the ability to bring all of the forces together 
appears to be working at this moment, and we are tremendously 
appreciative of that.
    I was in that community a few weeks ago. They are very 
enthusiastic about the range and what it offers to the 
composite wing and the whole development of that mission at 
Mountain Home Air Force Base.
    Obviously, the initial $2.4 million for construction and 
the $1 million for land acquisition in your budget I think 
continue to recognize for us the support that is necessary. It 
is a strong signal to all involved as it relates to the future 
of that range and the capability of that facility. So let me 
thank you for that. We enjoy working with you and we enjoy 
having the Air Force in our home State of Idaho. You are a 
great partner and a great neighbor, and we appreciate it. Thank 
you.
    Thank you, Mr. Chairman.
    Senator Burns. And keep in mind, we have got a lot more air 
space in Montana. That is big sky country up there.
    Senator Craig. Well, but ours is clear and cleaner. 
[Laughter.]
    Senator Burns. It does not take very long to get to either 
place, I will tell you that.
    Thank you, Mr. Secretary, for coming. Mr. Coleman, make 
your statement.

                     statement of rodney a. coleman

    Mr. Coleman. We thank you, Senator Craig, for your support 
on the enhanced training Idaho [ETI]. It is a big help to us.
    Mr. Chairman, it is good to be back. A lot has transpired 
since we were here last year. The Department of Defense has 
issued its ``Quadrennial Defense Review'' [QDR] and the defense 
reform initiative [DRI] and, as you know, the military 
strategy, the national military strategy, states that we need 
to shape and respond and prepare now for an uncertain future, 
and the QDR contains and balances the overall defense program 
to support that strategy, and the DRI offers three innovative 
approaches for executing that strategy.
    As you know, the DRI suggests that we adopt new business 
practices, streamline our operations through competitive 
sourcing, and eliminate unneeded infrastructure. I believe that 
we are on target and provide a clear roadmap for facilities 
investments.
    However, in order to embrace this military strategy and 
carry out the QDR and the DRI, I also firmly believe that we 
must be a seamless Air Force, which we are. Mr. Chairman, you 
know that two-thirds as many of our people today are deployed 
to four times as many places as in 1989, which is just 9 years 
ago. That remarkable feat could not be done nor in the future 
can it be done without what we term a seamless total Air Force.
    As you read in my written testimony, this thread of 
seamlessness is woven throughout our $1.5 billion Milcon and 
family housing budget, for it alone provides the balance needed 
to sustain force readiness, force modernization, and ignite the 
revolution in military affairs.
    With respect to the Guard and Reserve, we have kept their 
must-have military construction needs in the forefront of our 
Milcon investment strategy, and that is why you see a National 
Guard Milcon budget that is comparable to Air Combat Command, 
our premier fighting command. In addition, you will see that 
new mission funding for the Guard is greater than our European 
and Pacific Commands.
    In concert with this balanced approach is our continued 
commitment to examining our internal operations to support the 
activities to determine where we can right-size and demolish 
unnecessary structures and enhance joint use of facilities with 
other services, as well as truly embrace the revolution in 
business affairs through better business practices.
    As you know, base realignment and closure, or BRAC, rounds 
are a means of attaining these infrastructure reduction goals. 
And as you know, Mr. Chairman, we fully support two more BRAC 
rounds, as requested by the Secretary of Defense. As with our 
previous submissions, installation programs continue to reflect 
hard decisions and tough choices. The Air Force corporate 
strategy for the installation support program includes 
supporting quality of life priorities like family housing and 
buying out the gang-latrine dormitories, supporting level one 
environmental programs like the ETI in Idaho, and supporting 
our new mission beddown and core modernization. Now that our 
overseas drawdown is stable, we are investing in our remaining 
overseas bases and targeting dorm construction for our single 
members.
    In conclusion, Mr. Chairman, I want to personally thank the 
committee for its strong support of the Air Force Milcon 
program over the past 4 years that I have been in office. Your 
commitment resulted in countless benefits to Air Force 
readiness, retention, recruiting, and training.

                           prepared statement

    I believe that this year's Milcon submission does two 
things, Mr. Chairman: First, it reflects the corporate 
priorities supporting the total seamless Air Force vision; 
second, it balances our commitment to the intentions of the QDR 
and the DRI, while ensuring that we maintain a quality of life 
for our people.
    We will be glad to entertain any of your questions of you 
and Senator Murray.
    [The statement follows:]

                Prepared Statement of Rodney A. Coleman

                              introduction
    Mr. Chairman and members of the committee, good morning. I 
appreciate the opportunity to appear before you today to discuss the 
Department of the Air Force fiscal year 1999 Military Construction 
(MILCON) Program.
                                overview
    We must be a seamless Air Force! We have a national military 
strategy that states shape, respond, and prepare now for an uncertain 
future. The Quadrennial Defense Review (QDR) confirms that strategy and 
balances the overall defense program to support that strategy. What we 
see emerging now is that the QDR is not an end in itself, but rather 
the beginning of a debate that will shape the future of our military 
force. Thus, we have moved from the cold war to this era of peace 
troubled by regional conflict. The Air Force has been called upon to 
accept an ever-widening array of peacekeeping missions, wartime 
commitments and an ever-increasing number of deployments. In today's 
Air Force, two-thirds as many forces deploy to four times as many 
places as in 1989. This remarkable feat could not be done--and cannot 
in the future be done--without a seamless total force.
    The total force policy has guided decisions about how people--
reservists, national guardsmen, active duty, retired military, Federal 
civilian, service auxiliaries, and contractors--are structured to 
protect the nation's interest. We often talk about a ``seamless total 
force'' as though ``seamlessness'' is a spontaneously occurring state 
of nature--a foregone conclusion. Nothing can be farther from the 
truth. Seamlessness is the product of mutual respect won through hard 
work and consummate professionalism. Therefore, we must cherish the 
covenant of ``seamlessness'' within the Air Force. We now know and 
understand that no one can ``go it alone.''
    Seamlessness is not a panacea; however, it enables us to 
aggressively manage the most formidable obstacles to troop retention 
and readiness--OPSTEMPO and PERSTEMPO. Consequently, given the 
resulting increased OPSTEMPO and PERSTEMPO of our very capable and 
ready guard and reserve units, we must keep their ``must have'' 
military construction needs in the forefront of our strategy as we move 
our Air Force into the 21st century.
    We know that seamless support operations play a critical role in 
enabling the Air Force to live, train, and execute our National 
Security Policy. In order to support the total force, these support 
functions must become better, faster, and cheaper. They must be better 
because quality infrastructure, particularly installations, contribute 
to a quality of life that improves morale, retention, and hence the 
readiness of the force. They must be cheaper in order to fund force 
modernization to maintain battlefield dominance. Thus, we have adopted 
an approach to continually examine internal operations and support 
activities to determine where we can right-size, consolidate like 
functions, demolish, enhance joint-use of facilities among other 
services, and embrace the revolution in business affairs through better 
business practices. All of these are focused on improving the 
efficiency and performance of the Air Force facility support structure.
    Every year we balance installation support operations, while 
accepting a greater level of risk. As with previous submissions, 
installation programs continue to reflect hard decisions and tough 
choices. The maintenance and repair of facilities and infrastructure at 
Air Force installations are essential to our core competencies in 
support of national strategies and the QDR. We are striving to maintain 
facilities and infrastructure where Air Force people work and live to 
preclude weakening unit readiness, impairing mission accomplishment, or 
degrading Quality of Life (QOL). The Air Force corporate strategy for 
the installation support program includes:
  --Ensuring our MILCON Program places emphasis on supporting new 
        mission beddowns and current mission necessities, including 
        redirecting limited capital investment to our most pressing 
        requirements.
  --Maintaining our operations and maintenance programs to protect the 
        quality of life of our personnel and their families.
  --Reinvesting in the few remaining overseas bases, which even after 
        host-nation burdensharing have numerous facility needs critical 
        to Air Force core competencies.
  --Incorporate environment, health, and safety into core business 
        practice to lower cost and improve performance while continuing 
        to fund critical environmental projects to meet compliance 
        requirements.
    The Air Force recognizes that we must look at our installation 
facility requirements differently than in the past. That is why we must 
embrace the business revolution through better business practices. This 
includes the indoctrination of private sector business practices into 
everything we do: time management; paperwork; delegation of 
responsibility; production; accountability; customer focus; and 
attitude. Improved business practices led our transition to the Air 
Force corporate process, outsourcing, privatizing, and people first 
programs. All of these things will be melded into design templates for 
our installations in the 21st century. Properly done, these actions 
will be a powerful investment in the future.
    Mr. Chairman, we are cognizant that the Air Force could not 
maintain the quality of any of our facilities and the advantages they 
render without the strong support we have always received from this 
committee, for which we are most appreciative.
    Mr. Chairman, as we emphasize our seamless support requirements and 
desire to use better business practices, I would like to proceed now to 
discuss the major program areas of our fiscal year 1999 MILCON budget 
request. I will review the total force military construction program to 
include discussion of the military family housing program. Finally, I 
will address the Air Force perspective on the DOD request for Base 
Realignment and Closure accounts as stated in the QDR.
                 air force military construction budget
    The Air Force MILCON Program consists of five principal areas: new 
mission, current mission, planning and design and unspecified minor 
construction, environment, and Base Realignment and Closure (BRAC). New 
mission construction supports the beddown of new weapon systems and 
force structure realignments. Current mission MILCON revitalizes 
existing facilities and infrastructure, and builds new facilities to 
correct existing deficiencies. Planning and design and unspecified 
minor construction include funds to design our construction projects 
and a small program to handle urgent, unforeseen construction 
requirements. The environmental program consists of those regulatory 
compliance projects that must be accomplished to avoid increased health 
or safety risks to people on or off our installations. The BRAC program 
supports the transfer of property at closure installations to 
communities for economic reinvestment.
    Our total Air Force military construction budget request for fiscal 
year 1999 is $1.55 billion. This request includes $1.47 billion for 
active duty military construction ($455 million for traditional MILCON 
and $1.016 billion for military family housing), $34.8 million for Air 
National Guard MILCON, $10.5 million for Air Force Reserve MILCON, and 
$34.1 million for BRAC MILCON.
           the total air force military construction program
    Similar to last year, the Air Force's fiscal year 1999 military 
construction and family housing programs were developed using a 
facility investment strategy with the following objectives: Maintain 
what we own; Accommodate new missions; Maintain quality of life 
investments; Optimize use of public and private resources; Continue 
demolition program; Reinvest overseas; and Continue environmental 
leadership.
Program Overview
    Given the success of the corporate Air Force process, we continue 
to consider the Air Force total obligation authority as one pot of 
money. Those funds are systematically meted out based on the most 
urgent, corporate needs of the total force. The strategy for allocation 
of the funds is inextricably tied to Major Commands (to include the Air 
Force Reserve and Air National Guard), Chief of Staff, and Secretary of 
the Air Force priorities.
    The Major Commands submitted a prioritized, unconstrained list of 
their construction requirements. The MILCON integrated process team, 
used a proven weighting matrix to implement the strategy to establish a 
cross-cutting investment program. The result is an integrated priority 
list based on the most urgent needs of the total Air Force. The list 
integrates new mission, current mission and environmental projects for 
active, guard, and reserve components. This priority list was presented 
to the corporate structure, to include the Chief of Staff and the 
Secretary of the Air Force, for final review and approval.
Current Mission
    ``Maintain what we own'' is the investment strategy underlying our 
current MILCON Program. This concept results in identifying the minimum 
requirements to sustain readiness and quality of life while attempting 
to reduce the requirements via privatization and demolition. This 
strategy is rooted in the stewardship entrusted to us for maintaining 
eighty-seven major installations. We are still not looking to increase 
our maintenance dollar spending on infrastructure or new facilities. 
Conversely, we continue to target demolition of worn out or obsolete 
facilities and infrastructure in order to reduce reoccurring operations 
and maintenance costs. For example, we demolished over seven million 
square feet of facilities over the past two fiscal years.
    This year's current mission MILCON program consists of 33 projects 
totaling $286 million. These projects include a variety of facilities 
at a number of installations to include: a Control Tower at Selfridge 
Air Guard Base, Michigan; an Air Force Reserve Aircraft Maintenance 
Facility at Maxwell Air Force Base, Alabama; a Child Development Center 
at Andrews Air Force Base, Maryland; and Dining Facilities at 
Charleston Air Force Base, South Carolina, and McGuire Air Force Base, 
New Jersey.
    We will continue our vigil to effectively use available resources 
to determine what we need, to care for what we own, to renovate or 
replace worn out facilities, and to look for opportunities to 
consolidate functions in retained facilities.
Accommodate New Missions: Support Core Modernization, Beddown of New 
        Missions, And Expansion of Existing Missions
    Our people deserve to be equipped with the right tools to 
accomplish their missions. The Air Force modernization program is 
designed to enhance the unique capabilities embodied in our specialized 
core competencies. These competencies provide the rapid, precise, and 
global response that gives our combatant commanders the necessary 
options to respond to regional conflicts in support of the national 
defense strategies.
    Military construction is needed to support weapon system beddowns 
such as the C-17 and the Unmanned Aerial Vehicle (UAV), or improve 
personnel training by constructing the Enhanced Training Range in 
Idaho. The entire MILCON program supporting new mission requirements 
consists of 27 projects totaling $137.6 million.
C-17
    The C-17 Globemaster III aircraft is designed to replace our aging 
fleet of C-141 Starlifters. It combines the airlift capabilities of the 
C-141, the C-5 Galaxy's ability to carry oversize cargo, and the C-130 
Hercules' ability to land directly on short, forward-located airstrips. 
In November 1995, the defense acquisition board determined that the C-
17 met the nation's needs, after which, the Under Secretary of Defense 
approved the purchase of all 120 aircraft requested.
    At that time, McChord Air Force Base, Washington, was designated as 
the second active duty operational base for the aircraft. We had 
already identified Charleston Air Force Base, South Carolina, as the 
first active duty operational base, and Altus Air Force Base, Oklahoma, 
as the C-17 training base. Since then, we have identified Thompson 
Field, Mississippi, as the Air National Guard operating location. The 
fiscal year 1999 program includes several facilities at McChord Air 
Force Base. These projects include a Ramp/Hydrant System, Maintenance 
Facilities, and a Shortfield Assault Strip. The total program for 
fiscal year 1999 is $71 million.
Unmanned Aerial Vehicle (UAV)
    The UAV program is based at Indian Springs Air Force Auxiliary 
Airfield, Nevada. It is designed to provide long endurance tactical 
reconnaissance of the battlefield. The new mission beddown for two 
squadrons of 45 unmanned vehicles and 566 persons includes a Squadron 
Operations Facility, a Communications Maintenance Facility, and a 
Logistics and Training Facility for a total of $15 million in fiscal 
year 1999.
Enhanced Training In Idaho (ETI)
    The Air Force proposes to build a range on Bureau of Land 
Management land in southwest Idaho and modify airspace for local 
training by Mountain Home Air Force Base, Idaho, crews. The multi-year 
range program begins with a $2.4 million construction project and a $1 
million land acquisition. The ETI attempts to balance realistic local 
training with careful consideration of environmental, cultural, and 
economic concerns. The ETI also simulates real-world scenarios and 
allows aircrews to plan and practice complex missions. In addition to 
providing realistic training, ETI's close proximity to Mountain Home 
Air Force Base also enables crews to convert time currently spent in 
transit into actual training time. The range includes a 12,000-acre 
drop site; a 640-acre and four 5-acre no-drop, simulated target areas; 
and ten 1-acre and twenty .25-acre emitter sites. The total fiscal year 
1999 MILCON is $3.4 million for this program.
Quality of Life
    We can not effectively plan for the future needs of our Air Force 
community unless we start at the beginning, and our beginning is 
people. Military personnel readiness was in serious trouble by the end 
of the 1970's; and enthusiasm for a decent quality of life continues to 
be the only approach to both retain experienced personnel in the 
service and offer an attractive living environment to those aspiring to 
serve their country. Consequently, we believe that improved quality of 
life for our personnel translates into enhanced readiness as a result 
of our deployed airmen not worrying about the conditions of their 
families.
    The Department of the Air Force firmly believes that our people are 
the most important asset of our service. The Air Force recognizes the 
correlation between readiness and quality of life for our people; we 
succeed in our mission by putting people first. They are the foundation 
of our strength, and we must recruit, train, and retain the highest 
quality force possible. If we are to be successful, then this seamless 
Air Force team must take care of our people and their families.
    The Air Force quality of life Strategy identifies seven quality of 
life initiatives: compensation and benefits, balanced PERSTEMPO and 
OPSTEMPO, health care, housing, retirement, community support, and 
educational opportunities. The MILCON program improves quality of life 
by renovating or constructing dormitories and community support 
facilities. Our three-step dormitory investment strategy includes the 
buy-out of all permanent party central latrine dormitories by fiscal 
year 1999, building to meet the dorm deficit, and replacing or 
converting our worst existing dorms within 10 years (fiscal year 2000-
2009).
    Recent emphasis has been placed on housing for unaccompanied 
airmen; an area with a large impact on force retention and future 
recruiting. With your support, fiscal year 1999 will mark the year in 
which we ``buy-out'' our last remaining permanent party central latrine 
dormitories. As we reach our goal of eliminating these substandard 
facilities we will use the dormitory master plan as a roadmap to 
eliminate deficits and replace our ``worst'' dormitories while we 
balance additional requests for community support facilities.
    This year's program funds eleven enlisted dormitory projects at six 
stateside and five foreign installations for a total of $119 million. 
In addition to the dormitories, the program funds a Child Development 
Center at Andrews Air Force Base, Maryland, and Dining Facilities at 
Charleston Air Force Base, South Carolina, and McGuire Air Force Base, 
New Jersey for a total of $15 million.
Optimize Use of Public and Private Resources
    As the Air Force transitions to a seamless Space and Air Force, we 
must free up precious resources for modernization. To do this we are 
adopting modern business practices: removing redundancies, using 
competition to improve quality and reduce costs, and reducing support 
structures to free up resources and focus on core competencies. All the 
time we must keep in mind that the purposes of our outsourcing and 
privatizing initiatives are designed to preserve ``tooth,'' and 
streamline ``tail,'' while supporting modernization.
    One example of innovative business practices involves a unique 
opportunity to ``use the other guy's money'' in a land and facilities 
swap between the Air National Guard and the Phoenix Airport Authority. 
Phoenix Sky Harbor International Airport wanted to expand their 
infrastructure onto Air National Guard property and were willing to 
build us a new base. Through a mutually beneficial arrangement we will 
gain $65 million worth of new facilities, funded and constructed by the 
city, while experiencing no impact on operational readiness. That's 
smart government.
    We have been remiss for the amount of time used to award our first 
housing privatization effort; however, we are confident this award will 
happen this summer. The good news is that we have learned volumes about 
the necessary process and procedures that allowed us to eliminate many 
hurdles for future projects. We still believe that we will provide new 
homes to our airmen in less time than the standard military 
construction route--2 years, not 3. Another improvement includes the 
use of recommendations from the Family Housing Master Plan as a 
blueprint for guiding future privatization. This will also save more 
time and allow us to better program future privatization projects.
    Meanwhile, we are embracing a defense reform initiative that places 
us primarily in the energy management business and will reduce our role 
in the infrastructure business. We are seeking to privatize utility 
systems where it makes economic sense and where not required to 
maintain a readiness capability. Four pilot studies are underway at 
Hill Air Force Base, Utah; Scott Air Force Base, Illinois; Langley Air 
Force Base, Virginia; and Edwards Air Force Base, California.
    One example of an early success with utility privatization is at 
Youngstown Air Reserve Station in Youngstown, Ohio. In an effort to 
reduce expenses and satisfy the electrical demand at the station, the 
reserves pursued the privatization of the station power system. 
Congress approved the effort as a demonstration project to assess the 
feasibility and advisability of permitting private entities to install, 
operate, and maintain electrical power distribution systems at military 
installations. The contract with Ohio Edison Company was awarded in 
August 1997. The project replaces an undersized and obsolete electrical 
distribution system for $360 thousand less than if the Air Force had 
retained ownership of the system.
Overseas MILCON
    We must invest in force protection, safety, and quality of life at 
our overseas bases. We now have eleven overseas main operating bases: 
two in Germany, one in Italy, two in England and one in Turkey. In the 
Pacific, we have two in Korea and three in Japan. Given the stability 
of our overseas installations, after years of base closures and major 
force reductions, we can see that our reduced MILCON investment was not 
sufficiently augmented by host nation funding strategies. Consequently, 
we are actively pursuing NATO funding, host nation funding, and 
payment-in-kind; however, the need for quality of life improvements is 
bigger than available burdensharing opportunities can satisfy.
    Our 1999 program for our European and Pacific installations 
includes $71 million in unclassified MILCON. The program consists of 
dormitory projects at Kunsan and Osan Air Bases in Korea, RAF 
Lakenheath and Mildenhall in England; and Spangdahlem Air Base in 
Germany. We ask for your support for these important quality of life 
projects--they represent our most critical requirements for our airmen 
stationed overseas at our most stable installations, and buy out our 
first commitment to our airmen: central latrine dorms. We must also 
have the other projects including a central security control facility 
at Incirlik Air Base, Turkey; and squadron operations facilities at 
Mildenhall and Spangdehlem.
    For all European projects, we are sending a precautionary 
prefinancing statement to the NATO infrastructure committees. These 
statements will permit recoupment from the NATO infrastructure program 
if eligibility is subsequently established.
Environmental MILCON
    As our record shows, we are dedicated to improving our already open 
relationships both with the regulatory community and with our 
installation neighborhoods. We not only strive to ensure our operations 
meet all environmental regulations and laws, but we also seek out 
partnerships with local regulatory and commercial sector counterparts 
to share ideas and create an atmosphere of trust.
    Our continuing campaign to foster an environmental ethic within the 
Air Force culture, both here in the United States and abroad, has 
enabled us to sustain operational readiness, be a good neighbor, and 
leverage our resources to remain a leader in environmental compliance 
and cleanup.
    Over the past 2 years, as a result of these cooperative efforts, 
the Air Force environmental program received top honors for almost one-
half of the 28 awards areas recognized by the Department of Defense. We 
were recognized for overall environmental quality as well as recycling 
in non-industrial areas. Additionally, our measure of merit targeting 
no enforcement actions is paying dividends. We have reduced our open 
enforcement actions from 263 in fiscal year 1992 to 11 in fiscal year 
1998.
    Our environmental compliance MILCON request for fiscal year 1999 
totals $17.1 million for eight, level-1 compliance projects. Our 
program primarily focuses on environmental projects for fire training 
facilities. Closed due to ground water contamination from existing 
operations, these fire training facilities are located at Hurlburt 
Field, Florida; Grand Forks Air Force Base, North Dakota; Kirtland Air 
Force Base, New Mexico; MacDill Air Force Base, Florida; Maxwell Air 
Force Base, Alabama; Vance Air Force Base, Oklahoma; and Hector Field, 
North Dakota. They are designed to replace traditional jet fuel burning 
facilities with a modern standard design providing a more economical 
and environmentally safer training method. We also have a project to 
upgrade the sanitary sewer lines in support of the Air National Guard 
Base at Alpena County Airport in Michigan.
    All of these projects satisfy level-1 requirements. Level-1 
compliance requirements refer to conditions or facilities currently out 
of compliance with environmental laws or regulations, including those 
subject to a compliance agreement.
Unspecified Minor Construction
    We have requested $13.5 million in fiscal year 1999 for unspecified 
minor construction funds, which will provide the total Air Force with 
its primary means of responding to small, unforeseen facility 
requirements that cannot wait for the normal MILCON process. From 
fiscal year 1991 through fiscal year 1997, a total of $12.7 million was 
reprogrammed into the account to fund urgent requirements. The fiscal 
year 1993 through fiscal year 1998 accounts are fully obligated or 
committed to valid projects.
Planning and Design
    Our request for fiscal year 1999 planning and design is $46.6 
million. These funds are required to complete design of the fiscal year 
2000 construction program and to start design of our fiscal year 2001 
projects.
                        military family housing
    As in years past, the Air Force leadership considers military 
family housing to be one of our most important programs. We are 
convinced that no other facility program so greatly influences the 
performance and commitment of our people as much as having quality 
homes for their families. Maintaining our responsibility to the family 
housing program is even more important in this era of major force 
reductions and increased OPSTEMPO and PERSTEMPO demands. Because these 
factors are so stressful for military families, it is imperative that 
we continue to emphasize quality of life issues to mitigate the stress. 
Consequently, we have developed--consistent with the corporate 
priorities of the Air Force--our housing program to best serve our 
families.
    Due in large part to strong congressional support, our military 
family housing investment program has been sustained during recent 
force structure changes. Even so, the average age of our family housing 
inventory is 35 years, and over 61,000 of our current 110,000 housing 
units do not measure up to contemporary standards.
    Our military family housing program consists of three major 
programs: privatization, investment, and operations and maintenance 
(O&M). Under the privatization program, we will soon use the 
recommendations of the Family Housing Master Plan as a blueprint for 
guiding privatization efforts. There are twelve stateside housing 
privatization projects being examined; 420 units at Lackland Air Force 
Base, Texas, are scheduled for contract award this summer. The $226 
million fiscal year 1999 MFH investment program is programmed to 
construct 64 new units at Dyess Air Force Base, Texas; replace 784 worn 
out units at 12 separate locations; and improve 625 units at 10 
locations. Finally, the Housing O&M Program is $790 million. It 
supports ``must pay'' requirements such as refuse collection, snow 
removal, utilities, and leases. The program also supports the contract 
maintenance program to keep houses in good condition for our families.
    We continue to use the Fiscal Year 1996 Defense Authorization Act 
that created the family housing improvement fund for our privatization 
efforts. The authorization act permits military family housing 
initiatives that enable us to accelerate improvement and replacement of 
our family housing inventory. We ask for your continued strong support 
for our requested investment level so we have sufficient capital to 
ensure an accelerated fix of our inadequate housing.
Housing Improvements
    The Air Force ``whole house/whole neighborhood'' improvement 
concept has been extremely successful. Under this concept, we upgrade 
older homes to contemporary standards--updating worn-out bathrooms and 
kitchens, replace obsolete utility and structural systems, provide 
additional living space as permitted by law, and at the same time, 
accomplish all required maintenance and repair. The result is a very 
cost effective investment that extends the life of these houses 25 
years. In addition, the ``whole neighborhood'' program provides 
recreation areas, landscaping, playgrounds and utility support systems 
to give us attractive and functional living environments.
    Our fiscal year 1999 improvement request is $82 million. This 
amount revitalizes 625 homes at 10 bases. This includes $36 million for 
295 homes in the continental United States, $34 million for 330 homes 
overseas, and $12 million for six neighborhood improvement projects.
New Construction
    We are requesting $133 million for fiscal year 1999 projects at 12 
CONUS bases to replace 784 existing houses, and three housing and 
maintenance support facilities. The replacement units will take the 
place of existing homes that are no longer economical to maintain.
Operations, Utilities and Maintenance
    Our fiscal year 1999 request for family housing operations, 
utilities and maintenance is $672 million. These funds are necessary to 
operate and maintain the 110,000 homes remaining in the fiscal year 
1999 Air Force inventory. Approximately 42 percent of this requested 
funding represents the Air Force's obligation as the landlord for items 
such as utilities, refuse collection, and other key services. The 
remaining 56 percent of the funds are for major maintenance contracts 
to fix the deteriorating infrastructure, such as electrical 
distribution systems, streets and roofs.
Planning and Design (P&D) and Leasing
    We have requested $129 million for P&D and Leasing. This includes 
$11 million for P&D of new construction and improvement programs, and 
$118 million for leasing 4,175 domestic units and 4,125 foreign houses. 
The leasing program supports critical missions in non-traditional 
locations, such as foreign sites where family housing is not available, 
and for recruiters not located near military installation in the United 
States.
    Our fiscal year 1999 military family housing budget request 
reflects our policy to ensure our families have access to safe, 
affordable and quality homes; and mirrors our strategy to modernize on-
base housing by improving our ``worst-first.'' We are committed to 
improving retention by providing our Air Force families with homes and 
communities that are comparable in design and amenities to private 
sector housing. Our ``whole house-whole neighborhood'' concept for 
developing a housing community plan for each installation continues to 
put our people first by fostering a sense of community and supporting 
neighborhood identity. We seek to achieve a ``pride of ownership'' 
mentality within our family housing community.
                         base closure accounts
    The Air Force Base Realignment and Closure fiscal year 1999 MILCON 
request is $34.1 million for 12 projects at four locations based on 
BRAC 1995 decisions. These projects include a Communications Training 
Complex at Stewart International Airport, New York; three projects at 
Hill Air Force Base, Utah, to include alterations of a Product 
Management/Composites Facility, GTE Test Cell and F-117 Radar Facility; 
three projects at Tinker Air Force Base, Oklahoma, due to the 
realignment of Kelly Air Force Base, Texas; and five closure-related 
projects at Lackland Air Force Base due to the realignment of Kelly Air 
Force Base, Texas.
    The Air Force requirements included in the Department of Defense 
fiscal year 1999 budget request for the base closure accounts are 
designed to support the President's Five-Part Program by continuing to 
transfer property at closure installations as quickly and efficiently 
as possible to communities for economic reinvestment at the earliest 
opportunity. As part of the defense budget, the Air Force request 
reflects a thorough review of all remaining requirements and careful 
budgeting to fulfill validated requirements to the greatest extent 
possible within the budget constraints of the defense department.
    The Department of the Air Force continues to be committed to 
timely, thorough environmental restoration, and smooth transition of 
closing bases to civilian uses as soon as possible. In addition to 
turning over closure bases for reuse, we continue the realignment 
beddown process at remaining installations to ensure base closure 
neither disrupts our operational requirements nor adversely affects 
quality of life issues. We appreciate the support of this committee in 
helping us meet these objectives.
                               conclusion
    In conclusion, Mr. Chairman, I thank the committee for its strong 
support of the Air Force Military Construction Program and the 
resulting benefits to the Air Force in readiness, retention, 
recruiting, training and the quality of life for our personnel.
    The fiscal year 1999 Air Force Military Construction submission 
reflects the corporate priorities supporting the total Air Force vision 
to become the best Air and Space Force while working to maintain our 
constantly deteriorating plant. Our installations constitute a crucial 
factor in Air Force readiness. We rely on our bases to serve as our 
launch platforms as well as places for people to work to effectively 
project United States air and space power. This budget submission 
reflects our commitment to maintain the quality of Air Force 
installations and to help ensure that the United States Air Force 
remains the world's most respected Air and Space Force.
    Thank you Mr. Chairman and members of the committee.

    Senator Burns. Thank you, Mr. Secretary. Mr. Coleman, this 
is the last time you are going to appear before this committee.
    Mr. Coleman. Yes, sir.
    Senator Burns. And I did not bring a cake or anything.
    Mr. Coleman. We can come back----

                            south pole trip

    Senator Burns. No gold watches or anything like that. I say 
that with a little touch of sadness. I appreciate us working 
together on many projects.
    General Weaver, let me congratulate you right off the top. 
This last January we went to the South Pole, and I think you 
had a lot to do with the New York Air Guard and that airlift 
organization up there. They were very kind to us, I will tell 
you, and I imagine you probably made a couple of those trips 
down there----
    General Weaver. Yes, sir; I have.
    Senator Burns. I will tell you, if you ever go to the South 
Pole you have to really want to go. That is a backbreaker, and 
I do not know where they get thermostats to heat a C-130. I 
thought I picked myself out a little web seat that was pretty 
good and then I was wondering how come I got cold: I was 
sitting right next to a case that says: ``Keep frozen at minus 
80 degrees Centigrade.'' So my feet almost did not make it.
    We had a great trip down there, but my great support person 
here did not make that leg of the trip. She made it to New 
Zealand, but she did not make it out of Christchurch.
    I just wanted to say congratulations. I thought a very 
professional crew, very professional, and made our trip down 
there very, very enjoyable.
    General Weaver. Thank you, Senator.
    Senator Burns. Everything was going well until those 
penguins come hopping out of that water with an old killer 
whale right behind them. And I was about from here to you to 
the edge of that ice, and I think there was several folks that 
had a camcorder with them and picked up some expletives that 
are used in stockyards and the U.S. Marine Corps.
    General Weaver. Trip of a lifetime.
    Senator Burns. Trip of a lifetime, it really was.
    Senator Murray, do you have a statement for the Air Force 
that you might want to make at this time?
    Senator Murray. Actually, no.
    Senator Burns. Do you not want to go to the South Pole?
    Senator Murray. Well, I do not know how you went to the 
South Pole not thinking you were going to be cold.
    Senator Burns. No, no; it is just not that. It is just they 
have got to get some thermostats in the back end of the C-
130's. It is really kind of like riding with the cattle.
    General Weaver. That is correct.
    Senator Burns. I will tell you, they make it as comfortable 
as it possibly can be made under the circumstances, and we 
realize that. But you have got on all the clothes you own, and 
then they turn up the heat and you take them all off, and you 
wear yourself out.
    Senator Murray. And we have photos?

                            housing program

    Senator Burns. Yes; we have got photos, we sure do.
    Mr. Secretary, we start these hearings early so you can get 
out and go back to work. We do not want to keep a good man from 
his work, you know.
    But implications right now, putting everything in the 
priorities; where are we with our housing? Give me an overall 
status report and progress this past year, and where do you 
think we should be looking toward in the next couple of years?
    Mr. Coleman. You gave me a carte blanche, did you not?
    Senator Burns. Just give you a credit card and go?
    Mr. Coleman. Well, sir, I feel that we are doing well in 
our housing program to reduce the housing stock that we deem to 
be unfit for our troops. We have engaged in a privatization 
effort that is going to complement our housing, not supplant 
our military family housing program. It is going to supplement 
what we have. We are only going to do it where it makes sense, 
where it makes economical sense and practical sense.
    We have about 12 locations that we are looking at now that 
are in various degrees of completeness, one down at Randolph 
Air Force Base--I mean, Lackland Air Force Base in San Antonio, 
that we are putting on the street. It is on the street. We are 
waiting for project award in July. That is going to be about 
420 units.
    We have got one going into Robins Air Force Base where we 
are using one of the authorities given to us where we are going 
to give the developer some land across from the main base which 
is now used for base housing. We will give him that land and he 
can develop it.
    So we are methodically working on. I will have General 
Lupia give some more details on that after I take care of this 
carte blanche that you have given me as to how we are with our 
Milcon.
    Senator Burns. Do we have enough money?
    Mr. Coleman. No, sir; we do not have enough money to do all 
that we want to do with regard to quality of life, military 
construction, O&M, and military housing. We are working within 
a constrained budget. We are doing the best that we can to take 
care of force modernization and the modernization of our 
aircraft.
    I wish there was more. We are buying out all of our gang 
latrines this year and making sure that our troops do not have 
anything but the absolute best that our money can buy. We are 
doing the best that we can to prepare the Air Force for the 
next millennium. We are a much reduced force from when I was in 
uniform, a much reduced force from when I commenced this job 4 
years ago. We have steadily decreased our manpower. We have got 
22 bases closed, 17 realigned under BRAC.
    We need BRAC. I hope you will support that. I hope this 
committee will support that.
    In essence, sir, within our constrained $60-some billion 
budget, we are doing the very best for the troops that we can, 
knowing that our troops are deployed, as I said in my opening 
statement, quite a bit more than they ever have been deployed 
before for the number of troops that we have taking care of our 
work overseas.
    Gene, if you want to add into that.

                              dormitories

    Senator Burns. General Lupia.
    General Lupia. I would just like to say in terms of housing 
we typically talk about it in two ways. First, the housing--as 
you know, the Air Force has made quite a commitment to this. In 
this program, in 1999 they have $120 million for enlisted 
dormitories out of a $500 million program, which was a very 
tough decision for the Air Force to make.
    But what that does allow us to do is buy out the last of 
our central permanent party latrine dormitories. Three years 
ago we started out with 173 buildings where airmen still lived 
with central latrines. At the end of this military construction 
cycle, if you approve everything that we have brought to you, 
we will not have a permanent party dormitory left in the Air 
Force with central latrines.
    Next, we begin to buy out our deficit. We need 12,000 rooms 
in order for every unaccompanied airman in the Air Force to 
have a private room, that is every airman E-1 to E-4, which is 
our program. We begin to buy some of those this year and will 
continue in next year and the following years to do that. So by 
2009 every airman, E-1 to E-4, in the Air Force will live in a 
private room on base.
    Then finally, at the end of our program, we will begin to 
convert those two plus two dormitories that have worn-out to 
one plus one dormitories.

                             family housing

    On the family housing side, we still have 61,000 houses 
that really need major renovation or work. We cannot get there 
with our budget. We appreciate all the help that Congress has 
given us in the past and we hope that you will find it in your 
heart to still help some Air Force families.
    Senator Burns. Your demolition program is coming along as 
far as some of those old living quarters?
    General Lupia. Yes, sir; the old Wherry's and actually even 
some before the Wherry housing that we are tearing down, as a 
matter of fact. But our program has gone very well.
    So we still have a plan to put together for housing. We 
published a dormitory master plan last year, and this year we 
will publish a family housing master plan. In that we will go 
through every base in the Air Force and make decisions as to 
what base we can use privatization at, what base we need to use 
military construction at, what base we can solve our problems 
with O&M money, and then proceed down that road so that every 
dollar in the Air Force that we spend on either dormitory or on 
family housing is spent on the very worst ones we have. We fix 
those up first and work our way up to getting to those that are 
in better shape later.
    Senator Burns. General Clem, $10.5 million for the 
Reserves. That is not very much money.
    General Clem. Not a good year for us, Mr. Chairman.
    Senator Burns. You have got to be a better scrapper here.
    General Clem. I guess so. I guess I could dodge that and 
say this is my first month on the job, but that probably would 
not be fair, either.
    As you know, sir, we participate fully in the Air Force's 
Milcon development prioritization process. We have a seat at 
the table all the way through the process. Our projects were 
right there to be considered along with everybody else's. I 
think it is fair to say that, within an overall constrained 
budget this year, the Air Force has had a number of priorities 
that, frankly, were higher than ours.
    Our No. 1 project, the C-130H facility at Maxwell in 
Alabama, was funded. It appears at this point in the process 
for 2000, that we are going to do better next year. But I want 
to emphasize that we are part of the process and we stood up 
there with everybody else and, for one reason or another, just 
did not quite make it through this year.
    Senator Burns. General Weaver.
    General Weaver. Sir.
    Senator Burns. Air Guard.
    General Weaver. I think, along with what General Clem is 
saying, is what goes behind the scenes in the seamless Air 
Force. As you have mentioned on many occasions, the Air Force 
really truly sets the standards for Guard and Reserve as the 
total force with its active duty counterpart.
    Having sat through the boards and the councils' meetings 
behind the scenes in looking at all of the budgetary priorities 
and the constraints that we have to operate under, we get a 
voice. We get a very strong voice, and our voices are heard, 
thanks to Mr. Coleman, General Lupia, Mr. Dishner, who have 
really argued strong for us in these council meetings.
    But I think Mr. Coleman put it quite well: As compared to 
Air Combat Command, we have done quite well in comparison for 
Milcon. Can we live with it? Yes; we can. But I will also 
hasten to say that we appreciate what you have been able to do 
and your committee in the past in helping us out with add-ons.
    When I heard you use the term ``pork'' earlier on--and I 
mentioned this last year--it really, it is upsetting when I 
hear that, because I can point to every dollar that you have 
been able to muster for the Guard and Reserve and the Air 
Force, and it has led to our combat capability, which is the 
most combat capable force that we have got in the Department of 
Defense. That is as a direct result of what you have been able 
to put in our pockets in performing our military construction 
requirements and our total force.
    So it is a tough year. I think things will be still a 
little tougher the next couple of years. I am hoping that we 
will be able to look at our backlog in RPM and Milcon and get 
that turned around. But it is comforting to know that we are 
part of a total force and this total force truly stands up and 
argues for our requirements in the Guard and Reserve, with our 
great leadership.
    Senator Burns. Senator Murray.

                       reserve component funding

    Senator Murray. Well, thank you, Mr. Chairman.
    Let me just follow up on that, because I cannot help but 
notice that the funding request for the Air National Guard, 
despite the high degree of visibility it got last year and the 
fact that the Congress actually had to double the funding for 
it, is down to one-half of last year's exorbitantly low 
request. I really want to know whether we can realistically 
expect the Air National Guard to even function at $35 million, 
Mr. Secretary?
    Mr. Coleman. Yes, ma'am. I think--well, I know that they 
can. It is constrained. It is not what they want. It is within 
the corporate process, as we discussed.
    Two years ago General Fogleman and myself stated to the 
Congress that we were using Milcon money as a bill payer and we 
are going to take 1998 and 1999 and use a lot of the money for 
modernization, and that we committed to you to start ramping up 
in 2000. The paucity of that budget reflects what we said 2 
years ago. We needed to take more money and use for other 
things that were more demanding, and starting in 2000, which 
will be the next budget submitted to the Congress, we will ramp 
up both the Guard and the Reserve to a degree that it deserves.
    Senator Murray. General Weaver?
    General Weaver. I agree with Mr. Coleman. Is it what we 
like, the $35 million? No; we would have appreciated a lot 
more. But again, the process, when we looked at all the 
budgetary constraints. And we in the Guard and Reserve also 
look at the family housing, the dormitory requirements of our 
airmen and our families, and our quality of life in the Guard 
and Reserve are a little bit different. It is the facility 
which we are working in, and we still have some facilities out 
there with two-pronged electrical outlets, quonset huts. You 
have done a great job in helping us get a lot of that turned 
around.
    But when you look at the total picture--and again, 
corporately our Air Force, our modernization is an extremely 
important part of it. Some bills have been paid out of the 
Milcon. If you look at the entire picture, yes, we can handle 
$35 million. If it continues in the way future, I will have 
some serious concerns, as will the Air Force as well. But we 
have got a commitment from our Air Force leadership that this 
will get turned around.
    Senator Murray. Thank you.

                    c-17 deployment to mc Chord AFB

    Mr. Secretary, you requested $52 million for various 
aspects of the C-17 deployment to McChord Air Force Base in 
Washington. Can you give us a status of that program?
    Mr. Coleman. Gene, can you handle that?
    General Lupia. Yes, sir; I sure can.
    We are very pleased that we are able to put the C-17 into 
McChord. As you know, Charleston was our first base for the C-
17, McChord second. This year we really have the majority, a 
big slug of the facilities for McChord. We formed a senior 
executive review group that I sit on with the Army Corps of 
Engineers and the Major Command Engineer. We review our 
progress.
    We are ahead of all the time schedules. We are within 
budget on each of the projects that we have taken on so far. 
And I think, with the approval of the 1999 program, we will 
have that weapon system in there the way it should be.
    We are fortunate enough that at McChord we are putting the 
facilities in before we put the airplanes in. At Charleston we 
got the airplanes there a little bit early, before the 
facilities, and we scrambled. But I think at McChord we are 
going to be ahead of the airplanes and the program is right on 
schedule.
    Senator Murray. How many additional people will you need at 
McChord on the C-17?
    General Lupia. I cannot answer that one. I do not know what 
the manpower number is.
    Mr. Coleman. We can get that for you.
    Senator Murray. Yes; if you could get that for me.
    [The information follows:]
                         C-17 into McChord AFB
    Based on the current program, the Air Force anticipates there will 
be an increase of approximately 200 personnel at McChord Air Force Base 
by the time the C-17 is fully fielded.

    Senator Murray. Are the housing and child care facilities 
adequate for the additional people that we have coming?
    Mr. Coleman. I will get back to you on that, but we would 
not have put it there if it had not been adequate. But I will 
get a report to you.
    [The information follows:]
                   McChord AFB Housing and Child Care
    The Current housing and child care facilities capacity is 
considered adequate for the additional people.

    Senator Murray. OK, because I do see in your request here 
an item for $20 million for clinic and warehouse replacement.
    Mr. Coleman. Replacement, yes.
    Senator Murray. Right. Can you tell me exactly what that is 
and what the capacity for that clinic is?
    Mr. Coleman. I can get that for you also.
    [The information follows:]
              McChord AFB Clinic and Warehouse Replacement
    The clinic and warehouse replacement project at McChord AFB will 
consolidate all medical care and logistics storage for the 62nd Medical 
Group. The new facility will provide for modern functionalities and 
equipment with efficiencies and flexibility to accommodate 21st Century 
primary care medicine. The old, inefficient facilities currently 
occupied by the 62nd Medical Group will be vacated.
    The project is included in the DOD's fiscal year 1999 Medical 
Military Construction Program for $20 million. It is sized for a 7,326 
gross square meter (GSM) Clinic building; 1,348 GSM War Reserve 
Material Warehouse, and a 71 GSM Ambulance Shelter. The new facility 
will provide health care to an estimated 20,220 enrolled beneficiaries 
and will accommodate an estimated 112,000 patient visits annually.

    Senator Murray. Thank you, Mr. Chairman.

                           retention programs

    Senator Burns. One thing sort of sticks in the back of my 
mind, and you could probably help me out with this and help 
direct me a little bit. We still hear, and it is fairly 
noticeable, in the manpower, Mr. Secretary, we are losing 
skilled people in the U.S. Air Force. In fact, we are losing 
them as fast as we are recruiting them and training them. In 
some areas, I think maybe in the pilot area, we may be falling 
behind a little bit. Even though we have had very lucrative 
reenlistment offers made, we continue to lose people.
    That concerns me, and I am wondering in the assessment of 
that what us in Congress who would like to help the military in 
that retention--why are we losing them? Are we losing them to 
more lucrative opportunities in the private sector, or is it 
something that we are doing in the military that is not making 
us competitive with the private sector?
    Mr. Coleman. Well, the most obvious has been the OPTEMPO 
that the troops have had to endure. We have got that down. We 
are cutting it back even more. We are looking at ways of 
complying with the needs of Southwest Asia [SWA] and Southeast 
Asia [SEA]. But the air staff is looking at a number of things 
to decrease the deployments to execute the air expeditionary 
force concept, to take care of the Air Force's needs overseas, 
so the troops do not have to constantly be deployed in short 
spurts like the 45-day deployment or the 120-day deployment.
    We wish that we could PCS some people to SWA, but that is a 
foreign policy issue that we have no control over. It would 
greatly diminish the time and the strain on the young troops.
    You have increased the aircraft incentive pay, aviation 
incentive pay. It is a number of things, not one of them which 
you can put your finger on, in my personal estimation, that 
would save the pilots. There is an attractiveness principle 
with the airlines no matter what is going on in SWA or SEA, nor 
no matter what is the compensation package that a young troop 
would get.
    That is why the OPSTEMPO to me in my travels over the last 
4 years and having responsibility for personnel issues, the 
young troops have said to me: I cannot stand this OPS and 
PERSTEMPO.
    We have tried everything that we can to take care of the 
needs of the family back home--child development centers, 
making sure that the housing is A-OK and the family support 
centers are A-OK. We are doing the best job that we can with 
the funds that we have, and I think the Chief of Staff and the 
rest of the Air Staff are taking it upon themselves to devise 
means by which we do not have to deploy these troops as much as 
we have in the past.
    Senator Burns. Well with the downsizing in the military 
force structure, we assumed that we would be meaner and leaner, 
but we would also be more mobile--the ability to react and move 
within a short period of time. So I am just concerned about 
losing our skilled people, knowing that there will always be 
competition for skilled people in our military. And as 
technology--you know, we are talking to a different soldier and 
airman and marine. We just do not lock and load and let it off 
any more. It takes high skills and a very, very adaptable kind 
of an individual to do what we have to do in our military 
nowadays.
    There will be other questions come up, gentlemen. That is 
all the questions that I have. We have gone over your list. We 
are going to try very hard in this committee to support what 
you think is important.

                      base realignment and closure

    On another round of BRAC, Mr. Secretary, after talking to 
the Navy and seeing where they are as a result of the first 
three rounds, I am a little reluctant to support another round 
of BRAC until we get caught up. But my decision is not carved 
in stone, either. But if we can work through this process and 
help you maybe close some installations or realign some 
installations, why, we sure want to work with you in achieving 
that, because that is all part of it.
    In other words, are we wasting money in areas that we could 
be dealing with our attrition problem, and also where we want 
to go as far as an integrated, seamless force.
    Mr. Coleman. Sir, I would hope that you would not wait. We 
would avail ourselves--the Chief, the Acting Secretary, myself, 
Mr. Dishner, General Lupia. Anybody that you wish to discuss 
the facilities needs of the Air Force in the next millennium, I 
would be more than happy in my remaining days as an Assistant 
Secretary to help you facilitate that, as well as the rest of 
the Members of the Senate.
    We need BRAC. We need BRAC now. We have saved money. We 
have crossed the line. We have closed 22 bases. Some are in the 
hands of the communities totally, like England Air Force Base 
in Louisiana, Grissom, Gentile. We have successes that folks 
around the United States point to as solid, positive return 
investments to the communities on the books.
    We will be constantly appearing before you, not me, but 
somebody will be here talking about a very constrained budget 
taking care of 300,000-some with 160,000-some civilians and 
100,000-some in the Reserve components. We need your help to 
help us get to the point where $60-some billion can really buy 
something. We need more than $60-some billion, but within that 
$60-some billion that you give us we are doing the absolute 
best that I think that we could do to provide all of the things 
that are necessary.
    As my parting shot, sir--I will appear before a personnel 
hearing on the 18th--this U.S. military of which I have been a 
part in uniform and now as a senior official, civilian 
official, they need a pay raise, they need more money for 
housing, they need more money for Milcon, they need more money 
for quality of life.
    Otherwise, we are going to be here talking and talking and 
talking year after year after year. And you have got the purse 
strings and you can pull them. I have been up here 4 years 
trying to juggle a lot of things for a lot of people, and I 
have seen those people up close and personal like you have. 
They are the greatest that we have, and we have got to take 
care of them. The only way we can take care of them is to pay 
them and to give them what they need to execute their mission.
    Senator Burns. Well, I agree with that. I think, along with 
Senator Murray, we have changed the emphasis of Milcon to 
quality of life considerably. But I am also a facilities-based 
man and I get more upset than anything else when the proposed 
budget short changes Guard requirements, and forces us to add 
back that funding because each of our States have Guard units, 
including Montana. We are very proud of our F-16's in Great 
Falls, even though they have had a change in mission. But they 
still continue to be a very good and viable force, and we want 
to make sure of their facilities base, but we also want the 
quality of life.

                     Additional committee questions

    So we have changed that emphasis, and Senator Murray has 
had as much to do about that as anybody, I will tell you that, 
because she has been very, very much aware of the families on 
our bases. And I thank her for that.
    Senator Murray. Thank you, Mr. Chairman.
    Senator Burns. We will have some questions for the Air 
Force, and if you will reply to the individual Senators and to 
the committee I would appreciate that.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]

          Questions Submitted to Mr. Coleman by Senator Burns

                             funding levels
    Question. What are the long-term implications of a steady decline 
of MILCON funding to the Air Force installations and infrastructure?
    Answer. The steady decline of Air Force MILCON funding is a 
reflection of the difficulty facing the Air Force leadership in 
maintaining a balance between modernization, readiness, infrastructure, 
and quality of life. In the short term, requirements far exceed 
funding. Fiscal year 1999 MILCON requirements total $1.4B, but the 
budget barely funds one-third of this requirement. Although funding is 
projected to increase to $600M in fiscal year 2000, the Air Force has 
$2.2B in requirements. The cumulative effect of deferring valid MILCON 
requirements to future years is a backlog which we cannot address at 
current funding levels. The Air Force is funding the most urgent MILCON 
needs first--facilities having the potential to significantly impact 
the mission are being funded. However, without increased funding we 
will start to see mission capability degraded due to insufficient 
maintenance and repair or capital improvement.
    Question. What is your backlog of real property maintenance 
requirements?
    Answer. The fiscal year 1999 Total Force Backlog of Maintenance and 
Repair (BMAR) is approximately $4.7B.
    Question. What percentage of the plant replacement cost does the 
Air Force spend each year on maintaining your facilities? At that rate, 
what is the average replacement cycle in terms of years?
    Answer. In fiscal year 1999, the Air Force is spending one percent 
of Plant Replacement Value, excluding MILCON investments. At this rate, 
there is no re-capitalization of facilities, except through MILCON.
                      family housing privatization
    Question. Explain to us why the Air Force has taken a go slow, 
cautious approach to Family Housing Privatization?
    Answer. The Air Force is taking a measured approach to family 
housing privatization which will allow us to build solely on successes. 
Privatization is a new and an entirely different approach to 
acquisition requiring us to build a level of expertise over time. With 
increased experience afforded by time, we expect to become more 
familiar and comfortable with authority application and may expand our 
initiatives as appropriate. Even with our moderate approach to housing 
privatization, the Air Force is pursuing 12 privatization initiatives 
through fiscal year 2000. We will continue to pursue privatization when 
the economics of ventures prove them feasible.
    Question. What challenges are out there with respect to this 
program?
    Answer. A major obstacle to implementing our program is the lack of 
actual project execution experience. We are close to completing our 
first solicitation under the new authorities and have already used 
lessons learned to improve our project development process. In spite of 
these challenges, the Air Force has 12 family housing privatization 
ventures under development. We are meeting these challenges head-on and 
working hard to overcome any obstacle to our success. As we move more 
deals toward award, we are developing baseline documents (Requests For 
Proposals, ground leases, mortgage documents) that can be reused in 
subsequent deals.
    Question. Does the Air Force plan to give up land in exchange for 
some of these housing deals?
    Answer. The Air Force is considering structuring ventures that may 
involve leveraging the value of land in exchange for quality housing. 
If conveyance of land is central to the economics of a successful deal 
and the land is or can be detached from the operational portion of the 
installation, then the approach will be pursued. For example, 
government land (300 acres) is being offered as part of our Robins AFB 
deal.
                           demolition program
    Question. Explain your Demolition Program and provide us an 
estimate of how much money you are saving as a result?
    Answer. The Air Force's goal is to reduce physical plant inventory 
and associated Operation and Maintenance costs as one means to ``right 
size'' Air Force installations. The Air Force has sourced approximately 
$15M in fiscal year 1999 out of the current $195M (fiscal year 1999-
2003) requirement. The estimated one time savings (generated the year 
after demolition) from this $15M investment is approximately $1M. 
Thereafter, benefits gained are through cost avoidances.
    Question. Is this Program adequately funded in fiscal year 1999? 
What is your real requirement? Could you use more money if it were made 
available?
    Answer. The Air Force has sourced approximately $15M out of the 
current $195M identified demolition requirement. The Air Force could 
use an additional $140M of the remaining $180M requirement to demolish 
facilities in fiscal year 1999.
    Question. It would seem that this Program pays for itself. Why 
hasn't the Air force provided the funds necessary to do this program in 
order to achieve those savings?
    Answer. Given overall budgetary constraints, we feel the current 
Air Force demolition program is appropriate. There is a great need to 
address other modernization, quality of life, and infrastructure needs 
with the funds allotted the Air Force.
                                 ______
                                 

         Questions Submitted to Mr. Coleman by Senator Stevens

                    elmendorf housing privatization
    Question. I understand that Elmendorf AFB is being considered as a 
candidate for family housing privatization. What is the time line for 
this initiative in Alaska?
    Answer. The privatization concept was approved by the Deputy Under 
Secretary of Defense (Industrial Affairs and Installations). The 
Industry Forum which precedes the development of the request for 
proposal was held 16 and 17 April 1998 on Elmendorf AFB. We are 
projecting award of the project by June 1999.
    Question. If the Air Force decides not to proceed with this plan, 
will the traditional MILCON go forward for Elmendorf?
    Answer. Yes.
    Question. If this privatization concept proceeds, will the DFAR 
provision requiring local hire in Alaskan construction contracts, be 
included in the contract?
    Answer. The DFARS provision requiring local hire in Alaskan 
construction contracts (DFARS 252.222-7000, entitled Restrictions on 
Employment of Personnel) is only included in contracts subject to the 
Federal Acquisition Regulation (FAR). The Elmendorf Housing 
Privatization agreement will not be subject to the FAR as it will be 
set forth in a land lease and operating agreement and structured as an 
investment transaction, rather than as a FAR transaction. As a matter 
of practice, we have been incorporating many FAR clauses into the 
structure of our privatization agreements, and we intend to incorporate 
a local hire provision in the forthcoming Elmendorf agreement.
                                 ______
                                 

         Questions Submitted to General Weaver by Senator Burns

                             budget request
    Question. How does this year's budget request for the Air National 
Guard compared to previous years? Does it meet all of our requirements?
    Answer. The Air National Guard's (ANG) fiscal year 1999 budget 
request is the smallest in 19 years. Although it is 42 percent less 
than the fiscal year 1998 budget request, it does represent the ANG's 
most important military construction (MILCON) requirements. Higher 
Department of Defense and Air Force budget priorities continue to 
prevent MILCON requirements from being fully funded. While the ANG's 
most critical facility needs are being met within the constrained 
budget request, many new mission and current mission MILCON 
requirements are having to be deferred to later years.
                                backlog
    Question. What is your backlog for real property?
    Answer. The Air National Guard's (ANG) backlog of real property 
maintenance (RPM) at the end of fiscal year 1997 was $564 million. RPM 
funding for the ANG in fiscal year 1999 continues to be constrained and 
is at the lowest level in 18 years. The limited RPM funding will not 
keep pace or arrest the growth of the backlog.
                                 ______
                                 

     Questions Submitted to Brigadier General Clem by Senator Burns

                             budget request
    Question. It appears that the Air Force Reserve has a very lean 
budget request for military construction in fiscal year 1999--only 
$10.5 million.
    Answer. Yes. The Air Force Reserve's fiscal year 1999 budget 
request is its leanest ever. It is 28 percent less than our previous 
low, the fiscal year 1998 request of $14.5 million.
                                backlog
    Question. What is your backlog on MILCON and real property 
maintenance requirements?
    Answer. The Air Force Reserve's MILCON backlog consists of 107 
projects at $485.74 million, which includes our sole $5.20M project in 
the fiscal year 1999 budget request. The Air Force Reserve's end-of-
year real property maintenance backlog for fiscal year 1999, as 
reported in the fiscal year 1999 budget request, is $170.74 million.

                          subcommittee recess

    Senator Burns. Your full statements shall be made a part of 
the record. Thank you for coming this morning and have a nice 
day, and these hearings are closed.
    [Whereupon, at 10:24 a.m., Tuesday, March 10, the 
subcommittee was recessed, to reconvene subject to the call of 
the Chair.]


       MILITARY CONSTRUCTION APPROPRIATIONS FOR FISCAL YEAR 1999

                              ----------                              


                         TUESDAY, MAY 12, 1998

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 10:11 a.m., in room SD-138, Dirksen 
Senate Office Building, Hon. Conrad Burns (chairman) presiding.
    Present: Senators Burns and Murray.

                         DEPARTMENT OF DEFENSE

                         Department of the Navy

STATEMENT OF ROBERT B. PIRIE, JR., ASSISTANT SECRETARY 
            (INSTALLATIONS AND ENVIRONMENT)

                   OPENING STATEMENT OF CONRAD BURNS

    Senator Burns. I call this committee to order. I am sorry, 
I want to apologize, I was meeting with your boss over at the 
Pentagon. I do not know whether it is harder to get out or to 
get in that place. But, nonetheless, I want to apologize.
    I did not want to set this hearing back again, because I 
think it is very important to all of us who are finding ways 
now to try to stretch the budget, cover a lot of things that we 
should be doing in the military, and deal with the Base 
Realignment and Closure Commission [BRAC], the base closures 
and the costs of environmental cleanup, to move those bases 
into the different hands. We are in a mode now--and I do not 
have my prepared statement, I am going to forego that, because 
we are going to start with the witnesses--but a recent trip to 
the Middle East and, of course, to Bosnia and those areas 
taught us one thing that I think was very obvious--that we are 
stretched very thin for money. We may be doing some things at 
the expense of modernization and things that we should be 
doing--quality of life, those things that lift morale in our 
troops, and expenditures in areas where sometimes some of those 
expenditures, we hope, could be avoided.
    So, with that, I want to welcome Mr. Pirie, Mr. Johnson, 
and Mr. Dishner this morning. I will say that you can 
consolidate your statement. I have read all three statements, 
by the way, and have some questions with regard to those. This 
is the opening session that will deal with environmental 
cleanup of our bases, and I hope we can develop a dialog, where 
we can maybe help you and you can help us.
    And now I want to turn to my ranking member, Senator 
Murray, who also has some concerns about this. And we welcome 
you here this morning.

                   STATEMENT OF SENATOR PATTY MURRAY

    Senator Murray. Thank you, Mr. Chairman. And thank you, Mr. 
Pirie, Mr. Johnson, and Mr. Dishner for being here today.
    I will just submit my opening statement for the record and 
allow the witnesses to go ahead and testify.

                           prepared statement

    I appreciate your interest and work on this hearing and 
moving forward. I will not be able to stay long; I do have a 
conflict, but I will submit my questions for the record, Mr. 
Chairman, if that would be all right.
    Senator Burns. That will be fine.
    [The statement follows:]

                  Prepared Statement of Senator Murray

    Secretary Pirie, Mr. Johnson, and Mr. Dishner, I wish to join my 
chairman in extending you a warm welcome this morning.
    DOD has come a long way this last decade in creating a 
comprehensive and result-producing environmental program. It has been a 
work in progress, with DOD and all the services fine-tuning and 
expanding upon both successes and failures to find the most fiscally 
responsible and acceptable solutions to DOD's environmental 
responsibilities.
    Environmental restoration is relatively new ground to most of the 
Government, beginning in earnest only about twenty years ago. With 
regulations and standards continually changing, it is pleasing to see 
the services so amenable to constructive criticism and positive change. 
In fact, over the last three years the services have moved from 
studying restoration projects to actual clean-up and restoration. 
Furthermore, the services have taken to heart the concerns of the 
community in developing a system of priorities and joint partnerships. 
We are moving in a positive direction in which funding is stabilizing, 
pollution prevention initiatives are moving to the forefront, and 
complete installation environmental restoration is actually a goal in 
our near-term sights.
    There are still matters that need to be ironed out, including 
oversight of all services' environmental management systems, the cost-
effectiveness of partnering contracts, and so on.
    I look forward to hearing your candid views on these and many other 
issues.

          prepared statements of senators faircloth and craig

    Senator Burns. I thank you for that. I also have statements 
from Senators Faircloth and Craig that I would like to put in 
the record.
    [The statements follow:]

                Prepared Statement of Senator Faircloth

    Mr. Chairman, I thank you for holding this hearing. With Secretary 
Cohen's request for two more BRAC rounds and what appears to be a 
politicization of BRAC decisions from previous rounds, it is very 
important that we have a clear picture of whether or not we are on the 
right track.
    I have never been convinced by the Defense Department's mantra that 
we must keep closing bases because we need that money for force 
modernization. As soon as a decision is made to close bases, the 
manpower and operational savings are not available for force 
modernization, but they are needed for more construction and work at 
the bases being closed. All the BRAC ``savings'' are in the form of 
``projections.''
    I look forward to getting a better understanding of whether the 
cost, typically, of returning a base to a local community is as low as 
possible to American taxpayers, and, if lower cost approaches had been 
considered at bases, why were they not the chosen way to proceed.
    Thank you, Mr. Chairman.
                                 ______
                                 

                  Prepared Statement of Senator Craig

    Mr. Chairman, thank you for holding this important hearing related 
to Department of Defense environmental clean up.
    I realize there are tremendous budgetary implications of the 
Department of Defenses' environmental liabilities. As you know, the 
federal government's responsibility for the costs of cleaning up 
environmental contamination has received much attention here on Capitol 
Hill and throughout the country.
    It is paramount that we have reliable and accurate information 
regarding the federal government's liability for cleanup cost and 
natural resource damages to allow us to carry out our appropriations 
functions. Unfortunately, it is often difficult, and even frustrating 
to obtain accurate estimates of the Natural Resource Damages at defense 
facilities. Private party experience at major sites are often similar 
to defense sites, in that damage claims are often two to three times 
the clean up cost.
    The estimates of the federal government's liability for cleanup 
costs alone are enormous. The reality of those costs may prove to be 
much, much larger. If costs continue to be much higher than initial 
estimates, the DOD's liability alone could jeopardize our federal 
budget.
    I realize this is a very important issue, and have questions that I 
would like to submit for the record. I am also particularly interested 
to hear the witnesses' testimony about not only current cost, but where 
we will be in future.
    I thank the witnesses in advance for their testimony, and look 
forward to hearing about their reports and recommendations for policy 
options in the future.

                   statement of robert b. pirie, Jr.

    Senator Burns. Mr. Pirie, we will open up with you this 
morning. And if you want to consolidate your statement, we will 
make your full statement a part of the record this morning. 
Thank you for coming and thank you for being so patient.
    Mr. Pirie. Well, thank you, Mr. Chairman. I am glad to be 
here. I will just take a few brief points out of my statement, 
if I may.
    First, with respect to cleanup as a percentage of overall 
BRAC funding. For the Navy, through the end of fiscal year 
1997, cleanup has been about 19 percent of BRAC spending to 
date. That is, about $1.4 billion out of $7.5 billion that the 
Navy has expended on BRAC to date.
    For fiscal year 1999, we expect environmental costs will be 
about 45 percent of the total required. And as we go forward, 
the proportion of total BRAC account spent on cleanup will 
rise, because everything else will be done.
    After 2001, there will be no more BRAC funding, and 
residual cleanup is planned to be done with funds from the 
environmental restoration account, which is what we use to 
clean up non-BRAC bases. Alternatively, Congress could extend 
the BRAC account in anticipation of further rounds of closures, 
as the administration has requested.
    Concerning the obligation to do the cleanups, we are 
absolutely obligated to clean up contamination at all existing 
Navy sites. At BRAC sites, we must accelerate our cleanup 
schedule to support community reuse plans. It is not certain 
whether this acceleration makes the cleanups more expensive or 
not. Our experience so far is that we have been successful in 
reducing project costs at most locations.
    Stable funding is important. Each BRAC base has a property 
disposal strategy. The disposal strategy is based on the reuse 
plans of affected communities. Cleanup is a key component of 
the disposal strategy. Generally, priority in cleanup schedules 
and funding goes to those communities that are farthest along 
in their reuse plans. If we have to juggle funding and change 
schedules, it affects our credibility with the communities and 
our ability to convey the property.
    In the worst case, we could see a rush to get court or 
regulatory orders to force us to particular schedules. This 
would tie up funding and make execution much more difficult. 
Another reason for stability is that turbulence in project 
funding and management negatively affects the progress of the 
cleanups.
    Cleanup is important to support reuse, job replacement and 
prompt conveyance of the property. To do otherwise is generally 
to leave an ugly eyesore as a reminder to the community that it 
once had a base and the associated economic activity. This is 
not the way we want to treat people of the community or our 
employees, who have loyally supported us for many years.

                           prepared statement

    In summary, Mr. Chairman, the right thing to do is to clean 
up these properties promptly, get them off our books, so that 
the communities can begin with reuse and we can avoid prolonged 
caretaker costs.
    Thank you, sir.
    [The statement follows:]

               Prepared Statement of Robert B. Pirie, Jr.

    Good day, Mr. Chairman and members of the Committee. I am Robert B. 
Pirie, Jr., Assistant Secretary of the Navy for Installations and 
Environment. It is a pleasure to be here again. I last appeared before 
this Committee on 10 March 1998 to discuss the Department of the Navy 
shore infrastructure, military construction, family housing, and Base 
Realignment and Closure (BRAC) programs for fiscal year 1999. I 
appreciate the opportunity to discuss with you in more detail the 
environmental component of our BRAC program.
    Let me begin by first putting our BRAC environmental efforts in 
context with our overall BRAC program.
                    brac implementation perspective
    We are implementing four rounds of base realignment and closure as 
directed by law. The first was in 1988 under the Defense Authorization 
Amendments and Base Closure and Realignment Act of 1988 (Public Law 
100-526), and three additional rounds in 1991, 1993, and 1995 under the 
Defense Base Closure and Realignment Act of 1990 (Public Law 101-510). 
As a result of these decisions, we are implementing a total of 178 
actions consisting of 46 major closures, 89 minor closures, and 43 
realignments.
    These closures and realignments include major Navy and Marine Corps 
installations in Philadelphia, PA; Charleston, SC; Orlando and 
Jacksonville, FL; Seattle, WA; San Francisco, Long Beach, San Diego, 
and Orange County, CA; Honolulu, HI, as well as other bases in Rhode 
Island, Alaska, and Guam.
Implementation Strategy
    Our BRAC implementation strategy has been to first quickly reach 
realignment or operational closure, then to cleanup and dispose of the 
property in support of the conversion and redevelopment efforts of 
local communities. Operational closure is when all mission equipment 
and military personnel (with the exception of a small caretaker cadre) 
have been disbanded or relocated to the ``receiving'' location and the 
military mission has ceased.
    This strategy accelerates BRAC savings because it quickly reduces 
or eliminates costs associated with operating and maintaining the 
bases, such as costs for utilities, fire and police protection, and 
maintaining the buildings, grounds, utility lines, streets, roads, 
piers, wharves, runways, warehouses, and homes.
    In practical terms, this has meant giving top priority to funding 
military construction projects at receiving sites, then budgeting for 
the Operations and Maintenance costs to move personnel and equipment 
and pay separation benefits associated with reductions in force.
    In terms of overall BRAC implementation costs, BRAC environmental 
costs have been proportionally much smaller during these early years. 
In addition to environmental cleanup, there are environmental planning 
and environmental compliance costs that directly support closure or 
realignment. Much of the initial BRAC environmental cleanup costs are 
to perform base wide assessments, to characterize the nature and extent 
of contamination, and to consider remediation alternatives. These costs 
are typically a small fraction of the cost to perform any subsequent 
cleanup.
    BRAC environmental planning supports functions such as National 
Environmental Policy Act (NEPA) analyses. These analyses allow us to 
weigh and evaluate competing alternatives, e.g., BRAC directed 
realignments of equipment and personnel within the context permitted by 
the BRAC legislation; and reuse or redevelopment of BRAC property.
    BRAC environmental compliance funds are used to remove or close 
underground storage tanks; close active, permitted hazardous waste 
storage facilities; and perform asbestos, lead based paint, and PCB 
assessments and removals where necessary. (Environmental compliance 
funds for normal operations at the base prior to closure are funded 
from Operations and Maintenance, Navy and Operations and Maintenance, 
Marine Corps appropriations, not BRAC funds).
    As the following table displays, our overall BRAC budget peaked at 
$2.5 billion in fiscal year 1996, and continues to decline because most 
BRAC construction is now complete or underway. Similarly, most of the 
realignments (which require BRAC O&M funds) will be completed by next 
year. In contrast, BRAC environmental costs have been proportionally 
low, and under current estimates, peak in fiscal year 2000 at about 
$400 million. As BRAC construction and relocation needs have been 
completed, BRAC environmental cleanup is becoming the predominant 
portion of our BRAC budget.
[GRAPHIC] [TIFF OMITTED] TMILCON.001

Realignment and Closure Status
    As of the end of February 1998, we have completed the realignment 
or operational closure of 84 percent (150 out of 178) bases. This year 
and next will see the majority of the remaining realignments and 
operational closures occur, as we plan to complete actions at 12 bases 
in fiscal year 1998 and 11 in fiscal year 1999. Four more are scheduled 
in fiscal year 2000 and one in fiscal year 2001.
BRAC Costs and Savings
    We have closed or realigned bases to help make the Department of 
the Navy's shore infrastructure more proportional to its force 
structure and to provide resources to recapitalize our weapons systems 
and platforms.
[GRAPHIC] [TIFF OMITTED] TMILCON.002

    These savings are substantial. You may recall the above chart from 
my testimony last month. It shows that we are approaching the crossover 
point where the cumulative savings will exceed the cumulative costs. At 
the end of this fiscal year, we expect net savings (cumulative savings 
minus cumulative costs) to be +$1.4 billion.
    By the end of fiscal year 2001, when all four rounds of BRAC will 
be complete, we project that the DON will have spent $10.0 billion and 
saved $15.7 billion, for a net savings of $5.7 billion. Equally 
important, beginning in fiscal year 2002, we will save an additional 
$2.6 billion each year because we will no longer operate and maintain 
those bases.
                         brac property disposal
BRAC Cleanup in Support of Property Disposal
    As we approach the end of the realignment and closure process, we 
are increasingly turning our attention to the next and more challenging 
step: finishing environmental cleanup and disposing of the property. 
Most if not all of these cleanup costs would be required even if the 
bases were not closing; however, the closures force us to clean them up 
for reuse at a faster pace.
    The National Environmental Policy Act (NEPA) process and Record of 
Decision is the vehicle we and the Local Redevelopment Authority (LRA) 
use to consider, evaluate and resolve the many competing concerns 
before we can convey property. These concerns include evaluating 
historic preservation, air quality, noise, traffic, natural habitat, 
and endangered species. We have to dispose of a total of 91 BRAC 
properties, totaling 166,000 acres. Through the end of January 1998, we 
had disposed of 33 properties, representing 8,700 acres. We expect to 
dispose of about 12 or more properties per year for the next several 
years.
    Our rapid closure actions present opportunities for affected 
communities to accelerate their efforts towards promoting economic 
reuse of the property. Our disposal strategy is designed to support 
that effort. Each BRAC closure base has developed a site specific, 
phased disposal strategy that supports LRA plans for reuse and 
redevelopment of each parcel of land. The disposal strategy is based on 
guidance issued last fall by the Naval Facilities Engineering Command 
(NAVFAC) to its field activities.
    We want to be both flexible and creative in structuring disposal 
agreements, and are pursuing several opportunities for early conveyance 
of property under the Comprehensive Environmental Response, 
Compensation, and Liability Act (CERCLA) Section 334. Section 334 
allows us to convey contaminated BRAC property before a cleanup remedy 
has been completed. I am pleased to report that we have two prospects 
in hand for Section 334 conveyance: Memphis, where ground water 
concerns could otherwise delay transfer for several years; and San 
Diego, where the LRA is working with us to construct our landfill cap 
as part of their runway extension project. We are continuing to develop 
these two prospects, and are optimistic that other opportunities will 
develop in the future as we continue to work with communities.
    We have assigned NAVFAC to manage caretaker functions along with 
environmental cleanup responsibilities at all closed BRAC bases. We 
want to dispose of the BRAC properties as soon as practicable to 
promote economic development and productive reuse of valuable federal 
assets before deterioration sets in. We have established cooperative 
agreements at many bases where the LRA has accepted responsibility for 
providing services such as fire, police, water, sewer, electricity, 
gas, and ground care as part of the property transition process.
              brac environmental requirements and budgets
Requirements Determination
    Public Law 101-510, Section 2906(e) requires the BRAC account to be 
the exclusive source of funds for environmental restoration at BRAC 
installations. The purpose for fencing the BRAC account was to avoid 
the competition for environmental resources between closing bases and 
active bases.
    BRAC cleanup requirements, plans, and schedules are prepared by a 
BRAC cleanup team (BCT) at each BRAC base. The BCT is comprised of 
remedial managers from the Department of the Navy, state, and EPA who 
collectively oversee and prioritize the necessary cleanups. With the 
help of the Naval Facilities Engineering Command and its field 
divisions, each base tailors its environmental cleanup plans to best 
support the disposal strategy for that base. Our objective is to 
complete the cleanup (attain ``response complete'' or ``remedy in 
place'' status) for each parcel of land in the order that the LRA has 
determined it is needed for actual redevelopment, and then immediately 
convey the property.
    Each cleanup plan is based on cleanup standards established 
cooperatively between the BCT for the base. Input on reuse from the LRA 
and the views of the Restoration Advisory Board are also essential 
ingredients for a successful cleanup. The Restoration Advisory Board 
(RAB), which is co-chaired by a base representative and a community 
member, provide an open forum for citizens to better understand the 
nature and severity of contamination on our active and closing bases, 
and to have a voice in the decision-making process.
    It is Department of Defense policy to match cleanup standards to 
the intended reuse to the extent feasible. For example, we would not 
normally apply a residential cleanup standard if the property was an 
industrial area prior to closure. The BCT's work in partnership to 
develop and seek approval of specific cleanup standards, to hasten 
cleanup and to reduce costs.
    We closely evaluate the timing and cost of cleanup with the 
disposal strategy of each base. Where reuse potential is weak, we defer 
funding in favor of those locations or parcels with more immediate and 
realistic reuse needs. Where we plan to convey property to another 
federal agency, we will use the Department of Defense relative risk 
prioritization model to establish cleanup priorities. If the overall 
relative risk is ``low'' or ``medium,'' we may defer cleanup to a 
future date, thus allowing us to apply scarce resources today to 
support cleanup and property disposal.
    Last year, we conducted a ``BRAC Environmental Top-Ten Review.'' We 
first identified the ten closure bases with the most expensive 
estimated cleanup cost. We then asked each base to come to Washington 
and brief us on their disposal strategy, and how currently budgeted 
environmental cleanup funds supported that strategy. Bringing together 
real estate managers, environmental cleanup managers, and financial 
managers at the Major Command, Chief of Staff, and Secretary of the 
Navy level brought fresh insight and unified the direction of the BRAC 
cleanup and property disposal effort.
BRAC Environmental Budget
    Our fiscal year 1999 BRAC environmental budget reflects our 
continued strategy to match cleanup priorities with realistic reuse 
needs. Of course, many communities would prefer a more accelerated pace 
of cleanup. Some communities have complained that contamination, or the 
threat of contamination, makes it more difficult to market BRAC 
property. I recognize that concern, but fiscal realities and competing 
budget priorities limit how much we can allocate to this effort. 
Nonetheless, as the following table displays, there are substantial 
BRAC environmental funds in our fiscal year 1999 budget request to 
support this effort. This funding supports both Navy and Marine Corps 
BRAC environmental efforts.

                        [In millions of dollars]
------------------------------------------------------------------------
                                                      Fiscal year
              BRAC environmental              --------------------------
                                                 1997     1998     1999
------------------------------------------------------------------------
Planning.....................................       14        2  .......
Compliance...................................      154      122       81
Cleanup......................................      175      240      199
                                              --------------------------
      Total..................................      343      364      280
------------------------------------------------------------------------

    As I previously mentioned, most of the BRAC cleanup funds in the 
first several years of BRAC are used for initial site evaluation and 
characterization studies. We are well beyond that now. As the following 
table displays, most of our BRAC environmental funds are for actual 
cleanups, not studies.
    We recognize the dynamics of reuse, and stand prepared to adjust 
cleanup plans as practicable to support evolving LRA needs. 
Environmental cleanup funds will support cleanup of parcels that have 
the most immediate realistic opportunity for conveyance and reuse by 
the LRA.
[GRAPHIC] [TIFF OMITTED] TMILCON.003

                   environmental cleanup perspective
BRAC Cleanup versus Non-BRAC Cleanup
    Many people seek to compare cleanup at BRAC locations with cleanup 
at active (i.e., non-BRAC) locations. There are many similarities.
    Both BRAC and active bases operate within the context of CERCLA, 
and the Resource Conservation and Recovery Act (RCRA) to cleanup soil 
and water contamination from past DOD activities. Both may have one or 
more sites of potential or known contamination--typically there are 20 
to 40 sites being investigated, but sometimes as many as two hundred. 
Both have bases where the contamination on at least one site prompts 
the Environmental Protection Agency to include the entire base on the 
National Priorities List (NPL). The Department of the Navy has 7 BRAC 
NPL bases and 42 non-BRAC NPL bases. Both use the DOD relative risk 
model to evaluate each contaminated site for its potential to effect 
human health and the environment. Approximately 24 percent of the 998 
BRAC sites are considered relatively high-risk, while 25 percent of the 
3,450 active sites are high-risk. Both have RAB's.
    There is, however, one fundamental difference: absent an imminent 
health or environmental threat, BRAC cleanups are driven by the need 
for economic reuse and redevelopment of property. This critical 
difference is what led President Clinton to announce in 1995 a Five-
Point Plan for Revitalizing Base Closure Communities: Job-centered 
property disposal as an economic incentive; Fast track environmental 
cleanup to facilitate reuse; Base Transition Coordinators to reduce red 
tape; Ready access to redevelopment assistance; and Larger 
redevelopment planning grants.
    The Deputy Under Secretary of Defense for Environmental Security, 
and the Deputy Under Secretary of Defense for Industrial Affairs and 
Installations have developed DOD programs and policies to support each 
aspect of the President's Plan. These include the Fast Track Cleanup 
program to streamline the cleanup decision process; establishment of 
Base Transition Coordinators (BTC's) to act as the single point of 
contact between the base and the local redevelopment authority; and new 
policies such as the Finding of Suitability to Lease, and Finding of 
Suitability to Transfer.
    The Department also participates in the Defense Environmental 
Response Task Force (DERTF), which includes representatives from DOD, 
EPA, the General Services Administration, the Department of the 
Interior, states and public interest groups. The DERTF examines 
performance and policy issues related to the BRAC environmental program 
and issues a Report to Congress each year. In particular, the DERTF is 
currently examining issues involving the use and long-term viability of 
institutional controls. The Department of the Navy continues to be an 
active player in DERTF discussions and work groups.
BRAC Cleanup Costs
    Through the end of fiscal year 1997, we have spent a total of $1.4 
billion in BRAC environmental funds, consisting of about $100 million 
in environmental planning, $650 million in environmental compliance, 
and $650 million in environmental cleanup. In addition, we spent $115 
million of Defense Environmental Restoration Account funds to clean up 
sites on these bases before they were included on the BRAC list.
    We are continuing to search for ways to reduce cleanup costs. We 
are using promising new cleanup technologies at a number of our BRAC 
sites. These new technologies can reduce cost or expedite the cleanup 
process. We are also working with regulators and communities to better 
match cleanup standards to the intended reuse. For example, both the 
LRA and the Navy save cleanup costs if we can tie the need for a 
landfill cap with the LRA need for a parking area or runway extension 
over the same area, as we are planning to do at Naval Training Center, 
San Diego, CA. The fiscal year 1999 budget request already incorporates 
program savings from these initiatives.
    We use a BRAC cost-to-complete index as a measure of our efforts to 
reduce cleanup costs. Last year, our BRAC cleanup cost-to-complete 
estimate (as of the end of fiscal year 1996) was $2.5 billion. One year 
later, our cost-to-complete estimate was $2.1 billion. The reduction of 
$400 million is the result of execution of fiscal year 1997 
appropriated funds and about $200 million in cost avoidance, such as 
changes in risk based approaches for cleanup, new information on the 
nature and extent of contamination, and use of new technologies for 
characterization or cleanup.
    Our estimated cost-to-complete at the end of fiscal year 2001 when 
the BRAC account ends is $525 million. Approximately half of this 
funding is for continued cleanups at two bases, and the remainder for 
long-term monitoring and long-term operation of in-place cleanup 
systems. The funds for this effort are currently programmed in the 
Environmental Restoration, Navy account, and the Operations and 
Maintenance accounts for Navy and Marine Corps.
BRAC Site Close-out Projection
    The environmental contamination on our bases are the results of 
actions over decades which we now realize are harmful to human health 
and the environment. However, we cannot expect to rectify the situation 
overnight. It will take time, money, and management attention by all 
concerned parties. We are, however, making significant progress. At the 
end of fiscal year 1997, we had completed cleanup (response complete or 
remedy in place) at 41 percent of the 998 contaminated sites at BRAC 
locations. The following chart displays our close-out projections based 
on current funding levels through the end of the Future Years Defense 
Plan. Final cleanup of all sites is projected to be achieved in fiscal 
year 2009. 
[GRAPHIC] [TIFF OMITTED] TMILCON.004

Cleanup funds and Disposal: One Example
    Naval Air Station Glenview, IL, is a good example of successfully 
linking cleanup dollars, cleanup schedules and prompt conveyance of 
property to meet the firm reuse plans of a local redevelopment 
authority, in this case, the Village of Glenview. Glenview is a BRAC 93 
closure action.
    The property transfer mechanism for Naval Air Station Glenview, an 
Economic Development Conveyance (EDC), was split into two phases: one 
for the golf course and the other for the main base. Because the golf 
course required virtually no environmental cleanup, it was transferred 
in December 1997, within months after approval of the overall EDC.
    For the second phase of the EDC execution, the main base was 
subdivided into five parcels. We invested $26 million in BRAC 
environmental cleanup funds over the period of fiscal year 1994 through 
fiscal year 1997 to characterize and clean up three of the sites. This 
allowed us to transfer these parcels to the Village of Glenview in 
three increments: August 1997, December 1997, and in March 1998. 
Groundbreaking for infrastructure developments on these parcels started 
last month. The remaining two parcels are scheduled for transfer in May 
1998 and September 1999, based on the $17 million in cleanup funds 
budgeted in fiscal year 1998.
    The disposal strategy, supported with timely BRAC cleanup funds, 
allowed us to quickly convey the property, thus getting it off Navy 
rolls, eliminating long-term caretaker management and costs, and 
allowing the Village of Glenview an early start on redevelopment with 
commensurate job generation and tax-base improvement.
                               conclusion
    In conclusion, the Department of the Navy has budgeted BRAC 
environmental funds to first meet operational closure and realignment 
dates, and then to support realistic economic reuse and redevelopment 
efforts of the Local Redevelopment Authorities. Because BRAC 
construction and realignments are nearly complete, funding requirements 
for these purposes have decreased, and we are now shifting our focus on 
cleanup and disposal of BRAC property. Each BRAC base develops its 
cleanup requirements based on expected reuse standards, and are 
designed to support the disposal strategy for conveyance of the BRAC 
property to others. Overall fiscal constraints force us to limit BRAC 
cleanup funds to what we believe are the most realistic and pressing 
reuse needs.
    I urge your continued support of this funding. Without it, BRAC 
communities will be left with a one-two punch of closed bases and 
contaminated property that precludes job producing reuse and 
redevelopment.
    I appreciate the support that this Committee and its Staff has 
given us in the past, and I look forward to continued close cooperation 
in the future.
                         Department of the Army

STATEMENT OF PAUL W. JOHNSON, DEPUTY ASSISTANT 
            SECRETARY OF THE ARMY (INSTALLATIONS AND 
            HOUSING), OFFICE OF ASSISTANT SECRETARY OF 
            THE ARMY (INSTALLATIONS, LOGISTICS AND 
            ENVIRONMENT)
    Senator Burns. Thank you, Mr. Secretary.
    Mr. Johnson, thank you for coming today. And, again, thank 
you for your patience.
    Mr. Johnson. Thank you very much, Mr. Chairman. I am glad 
to be here to speak about the BRAC program and the 
environmental costs that go along with it.
    Of our four rounds of base closures, we have spent about 
$5.2 billion; saving $1 billion per year by the end of 2001. We 
will have recurring savings for an indefinite period of time.
    The Army BRAC savings in 1997 began to exceed our 
implementation costs. That means we started breaking even in 
1997. So we are spending less than--or we are getting back at 
least as much as we are spending.
    The Army is closing and disposing of 112 installations and 
realigning 27 installations. We have not been significantly 
encumbered by environmental processes, and we have been able to 
return property to the local communities consistent with the 
time schedules. And in a number of cases, we have sold property 
to the private sector for reuse.
    Where significant environmental cleanup work was to be 
done, we worked with the local redevelopment authority to phase 
property conveyances and/or lease property in furtherance of 
conveyance so that reuse and cleanup can occur simultaneously.
    Beginning in fiscal year 1999, and in future years, 
environmental cleanup costs constitute the majority of the BRAC 
budget. It does not mean that the BRAC costs are going up; it 
means that we are getting further into the realignment process. 
We have found that through each succeeding base closure round, 
we have been able to transition the property from the Army to 
future users more quickly and in a manner that allows 
communities to recreate jobs that were lost during the closure.
    As soon as we convey the property, we end the operation and 
maintenance bills forever and begin to realize all the savings 
associated with closing installations. And, of course, you know 
that is real O&M money.
    Fiscal year 1999 represents a critical year for the Army 
BRAC program. The Army plans major restoration efforts of more 
than $10 million at each of eight installations, four of which 
are on the national priority list. Out of these eight, the 
environmental cleanup is supporting imminent reuse at Seneca 
Army Depot, Fitzsimons Medical Center, Fort McClellan, Fort 
Ord, and Fort Devens. Cleanup and conveyance of these 
properties will result in new jobs for these communities. At 
Fitzsimons alone, the community is creating more than 10,000 
jobs.
    Through the BRAC process, we have been able to accelerate 
and streamline environmental processes that in the past were 
rather cumbersome. The nature of the BRAC process requires all 
parties with a vested interest to work together to achieve 
success. Partnerships have developed at all BRAC locations 
between State and Federal regulators and the Army, known as the 
BRAC cleanup team, allowing us to identify quickly the most 
cost-effective remediation that is most suitable to the local 
community's future plans for the property.

                           prepared statement

    Mr. Chairman, I would like to thank you and the members of 
this committee for all the work that you have done to allow us 
to make significant improvement in the BRAC process. With every 
BRAC base that we clean up, we clean up those future 
liabilities that would have confronted the Department at some 
point in the future, and most likely at a much greater cost. We 
are making property available to local communities and 
promoting the creation of jobs and economic redevelopment in 
communities that served the interests of national defense for 
decades. We are real proud of all of our installations. We do 
not have any bad installations, but some have a greater 
military value than others, which is the reason for the BRAC 
process.
    Thank you, Mr. Chairman.
    [The statement follows:]

                 Prepared Statement of Paul W. Johnson

                              introduction
    Mr. Chairman and members of the subcommittee, it is a pleasure to 
appear before you to discuss base closure and realignment actions for 
fiscal year 1999. These matters are of considerable importance to 
America's Army, as well as this committee, and we appreciate the 
opportunity to report to you on them.
    Our facilities strategy strives to meet the needs of today's 
soldiers while also focusing on the changes required to support the 
Army of the 21st century. To do this we identify the amount of 
infrastructure we need in order to focus our resources on modernization 
and readiness. The Army requires fewer facilities than we are currently 
maintaining. We must reduce the total cost required to support our 
facilities and manage and maintain our real property inventory. The 
principal way this is being accomplished is through BRAC. Although the 
Army is reducing its infrastructure considerably, more reductions are 
necessary. Therefore, we support the Secretary of Defense's request for 
two additional rounds of BRAC in 2001 and 2005.
    The BRAC process has proven to be the only viable method to 
identify and dispose of excess facilities. The Army is in the process 
of closing 112 installations and realigning an additional 27 from the 
first four rounds of BRAC. We are now in the final third of the 13 year 
process to implement these first four rounds. By implementing BRAC, the 
Army is complying with the law, while saving money that would otherwise 
support unneeded overhead. These closed assets are now available for 
productive reuse in the private sector.
    BRAC savings do not come immediately because of the up front costs 
for implementation and the time it takes to close and dispose of 
property. The resulting savings are not as substantial as originally 
anticipated because potential land, facilities and equipment revenues 
are being made available to support local economic opportunities that 
create jobs and expand the tax base. Environmental costs are 
significant and are being funded up front to facilitate economic 
revitalization. The remaining challenges that lie ahead are 
implementing the final round, BRAC 95, ahead of schedule, disposing of 
property at closed bases, cleaning up contaminated property and 
assisting communities with reuse.
    In fiscal year 1999, we will begin to focus almost exclusively on 
BRAC 1995, the last of the four rounds, along with the conveyance of 
properties to local communities for conversion to non-military reuse. 
The fiscal year 1999 budget is important because it contains the 
resources needed for major construction actions and unit movements, and 
allows us to increase our focus on environmental restoration and 
property transfer. Therefore, we request that the Congress appropriate 
and authorize $489,222,000 in support of the Army's fiscal year 1999 
BRAC program.
    The Army is accelerating all BRAC actions to obtain savings and 
return assets to the private sector as quickly as available resources 
will allow. We completed the remainder of all the five closures and 
realignment actions approved by the 1991 Commission during fiscal year 
1997. In fiscal year 1998, we are closing Stratford Army Engine Plant, 
Connecticut; Fort Ritchie, Maryland; Fort Missoula, Montana; and Fort 
Indiantown Gap, Pennsylvania. We completed the disestablishment and 
realignment of the Aviation and Troop Command from St. Louis, Missouri 
to four other locations in December 1997. The fiscal year 1999 budget 
supports the movement of the military police and chemical schools to 
Fort Leonard Wood, Missouri and the closure of Fort McClellan, Alabama. 
The Army also plans to close East Fort Baker, California, and move the 
Concepts Analysis Agency from leased space in Bethesda, Maryland to a 
new facility at Fort Belvoir, Virginia. These actions will nearly 
complete all planned closure actions except for the six that are 
scheduled for fiscal years 2000 and 2001.
    Although the extensive overseas closures do not receive the same 
level of public attention as those in the United States, they represent 
the fundamental shift from a forward deployed force to one relying upon 
overseas presence and power projection. Without the need for a 
Commission, we are closing about seven of ten overseas sites in Europe, 
where we are reducing the number of installations by 68 percent. Forty 
partial closures represent an additional 5 percent. Reductions in 
infrastructure roughly parallel troop reductions of 70 percent. In 
Korea, the number of installations are dropping from 104 to 83, or 20 
percent. Another 8 percent are partial closures.
    While we constantly evaluate the role of forward deployed forces, 
overseas presence helps to reassure friends and deter potential 
enemies. It can reduce our response time in crises by positioning 
forces nearer potential trouble spots. The Army currently has 100,000 
soldiers stationed overseas, and deployed another 31,000 during fiscal 
year 1997 on operational missions and training exercises. This provides 
tangible proof of the nation's commitment to defend American interests 
and those of our allies.
    The President's Five Part Community Reinvestment Program, announced 
on July 2, 1993, speeds economic recovery of communities where military 
bases are closing by investing in people, investing in industry and 
investing in communities. The Army is making its bases available more 
quickly for economic redevelopment because of the additional 
authorities we now have.
    During 1997, the Army reached agreements to convey properties to 
local communities at four BRAC installations that will result in 
immediate property reuse. The Army is using all of the conveyance 
options, to include interim leasing at Letterkenny Army Depot, economic 
development conveyance at the Materials Technology Lab in Watertown, 
Massachusetts and Detroit Arsenal, and negotiated sale at Fort 
Sheridan, Illinois. In many instances, employment levels are expected 
to exceed those of the Army when the bases were active.
                 base realignment and closure--overseas
    On September 18, 1990, the Secretary of Defense announced the first 
round of overseas bases to be returned. Since that time, there have 
been a total of 22 announcements. On January 14, 1993, DOD announced it 
will withdraw all U.S. military forces from the Republic of Panama and 
transfer all facilities by December 31, 1999. Of the 13 sites in Panama 
announced for closure, 10 have been returned. The total number of 
overseas sites announced for closure or partial closure is 664 (see 
Table 1). Additional announcements will occur until the base structure 
matches the force identified to meet U.S. commitments. At this time, we 
do not see the need for many more overseas closures.

                                Table 1

                                                           Installations
Germany...........................................................   573
Korea.............................................................    29
France............................................................    21
Panama............................................................    13
Netherlands.......................................................     6
Turkey............................................................     6
United Kingdom....................................................     5
Greece............................................................     4
Italy.............................................................     4
Belgium...........................................................     3
                        -----------------------------------------------------------------
                        ________________________________________________
    Total.........................................................   664

    Most of the 188 million square feet (MSF) of overseas reductions 
are in Europe, where we are returning over 600 sites. This is 
equivalent to closing 12 of our biggest installations in the U.S.--Fort 
Hood, Fort Bragg, Fort Benning, Fort Stewart, Fort Leonard Wood, Fort 
Lewis, Fort Bliss, Fort Carson, Fort Gordon, Fort Meade, Fort Campbell 
and Redstone Arsenal. Unquestionably, these reductions are substantial 
and have produced savings to sustain readiness.
    The process for closing overseas is much different than in the U.S. 
First, unified commanders nominate overseas sites for return or partial 
return to host nations. Next the Joint Staff, various DOD components, 
National Security Council and State Department review these 
nominations. After the Secretary of Defense approves them, DOD notifies 
Congress, host governments and the media. The Army ends operations by 
vacating the entire installation and returns it to the host nation. If 
we reduce operations, we end up keeping some of the facilities.
              base realignment and closure program status
    The Army has completed all realignments and closure actions from 
the BRAC 88 and BRAC 91 rounds. The work of property disposal and 
environmental remediation at 18 installations will continue for several 
years. The Army continues to work with local communities to promote 
economic redevelopment in disposal of these properties. Introduction of 
economic development conveyances and interim leasing has resulted in 
accelerating property reuse and jobs creation at installations that 
were previously unavailable pending completion of environmental 
restoration efforts.
    The Army continues to accelerate the implementation of the BRAC 93 
and BRAC 95 rounds. BRAC 93 is complete, with the exception of the 
realignment of Fort Monmouth, which is scheduled for fiscal year 1998. 
The Army is in the third year of the implementation of BRAC 95, after 
which 19 of the 29 closure and four of 11 realignment actions will be 
complete. Interim leases and economic development conveyances are 
making properties at these installations available to the local 
communities earlier in the process. The Army is currently working with 
local communities at Letterkenny Army Depot and Detroit Arsenal to make 
industrial facilities available for reuse in 1998. The former 
Fitzsimons Army Medical Center is now being converted to a University 
Medical Center. Negotiations and required environmental restoration 
continue at other installations, and additional conveyances are likely 
in the near future.
    For the period 1989 through 1997, the Army has spent $3,570,251,000 
to implement the first four rounds of BRAC. The Army is realizing 
$649,951,000 in annual recurring savings in fiscal year 1998, and has 
realized a total of $2,556,807,000 in savings during the implementation 
period through the end of fiscal year 1997. Upon implementation of all 
actions from the first four BRAC rounds the Army will achieve annual 
savings of $949,000,000 beginning in fiscal year 2002.
    The Army has completed environmental actions at 747 of a total of 
1,943 environmental cleanup sites through fiscal year 1997. 
Environmental restoration efforts were complete at 63 installations 
through fiscal year 1997, out of a total of 122 installations. The Army 
remains focused on supporting environmental cleanup actions required to 
support property reuse and will continue to fund environmental cleanup 
actions that are required in support of property transfer and reuse.
                                summary
    Closing and realigning bases saves money that otherwise goes to 
unneeded overhead and frees up valuable assets for productive reuse. 
These savings permit us to invest properly in the forces and bases we 
keep to ensure their continued effectiveness. Continuation of 
accelerated implementation requires the execution of the fiscal year 
1999 program as planned and budgeted. We request your support by 
providing the necessary BRAC funding for fiscal year 1999.
    We remain committed to promoting economic redevelopment at our BRAC 
installations. We are supporting early reuse of properties through 
economic development conveyances, as well as the early transfer and 
interim leasing options made possible by Congress last year. Real 
property assets are being conveyed to local communities, permitting 
them to quickly enter into business arrangements with the private 
sector. Local communities, with the Army's support and encouragement, 
are working to develop business opportunities that result in jobs and 
tax revenues. The successful conversion of former Army installations to 
productive use in the private sector is something all of us can be 
proud of.
    Mr. Chairman, this concludes my statement. Thank you.
                      Department of the Air Force

STATEMENT OF JIMMY G. DISHNER, DEPUTY ASSISTANT 
            SECRETARY OF THE AIR FORCE (INSTALLATIONS)
    Senator Burns. Thank you.
    Mr. Dishner, thank you for coming this morning.
    Mr. Dishner. Yes, sir; thank you, Senator Burns.
    The Air Force continues in its environmental review 
process. And expenditures, our total is about $1.5 billion that 
has been spent to date. And we will do, after 2001, about $1.3 
billion more, to finish up. So, about $2.8 billion will be the 
total expenditures that the Air Force has done.
    The percentage of expenditures from the base realignment 
and closure account for environmental costs is going up 
compared to previous years, because now we are into the actual 
cleanup of the bases, where before we had Milcon being done to 
beddown the other missions that would be moved from a closing 
to a gaining base. So the percentage of the total goes up a 
little bit for operating and maintenance cost on those bases. 
The majority, however, will be environmental. The agency in the 
Air Force, as compared to the other two services that do this, 
is the Air Force Base Conversion Agency that I set up in 1992. 
They have about 338 employees that includes both the total at 
each one of the bases and those we have in Virginia. So that 
percentage gets smaller and smaller as we convert more 
installations. I have a chart here, Mr. Chairman, that I will 
show you, where those expenditures on the environmental side 
are headed.
    We committed to a timely and thorough environmental 
restoration and smooth transition of our closing bases to 
civilian uses. We are very proud of the cooperative ethic that 
we have with those bases and the communities. We efficiently 
clean up not to an excess standard but to a standard that is 
acceptable and required by law, and also to remain a good 
neighbor to those people who supported the Air Force for so 
many years.
    As I mentioned a moment ago, a significant portion of our 
future budget will be used to continue operating and monitoring 
our cleanup systems. Most of the LTO/LTM--that is long-term 
operation and long-term monitoring--will be in place, and we 
will be able to continue to monitor the cleanup. Most of that 
work, by the way, and most of that expenditure, is in 
underground water contamination.
    We have not had any national priority list [NPL] delisting 
as yet. However, we have a process underway, in meeting with 
the Environmental Protection Agency [EPA], to see how we can 
look at that, to get some of these locations that are on the 
NPL delisted.
    Our associates in the regulatory community and our 
neighbors in BRAC communities are part and parcel of the 
success that we are having and continue to have. We strive to 
ensure that our closure and disposal actions meet all 
environmental regulations and laws, and seeking out those 
partnerships which the Air Force Base Conversion Agency has 
been very successful in working out with all the regions 
throughout the United States, where we have bases and have to 
deal with the EPA regions, and with the local communities and 
the States--have been very, very successful.

                           prepared statement

    Through the support of this committee, of course, we 
continue to meet our environmental responsibilities--and your 
interest--to look at this expense as it continues to go on, on 
bases that were closed in 1988, 1991, 1993, and 1995, is 
certainly focused correctly. And I think the Air Force can show 
where, with a very conservative approach, we have been able to 
spend those dollars and project the expenditure of those 
dollars in the best way possible.
    And it is a privilege to be here today to testify. Thank 
you, Mr. Chairman.
    [The statement follows:]

                 Prepared Statement of Jimmy G. Dishner

                              introduction
    Mr. Chairman and members of the committee, I want to thank you for 
this opportunity to update you on the progress we are making toward 
meeting the Air Force challenges of Base Realignment and Closure (BRAC) 
today and to discuss the challenges we face in the next century. I 
first want to assure you that by incorporating our environmental 
program into the base conversion process the Air Force protects the 
interests of our communities and facilitates reuse.
                                overview
    The Department of the Air Force continues to be committed to timely 
and thorough environmental restoration, and smooth transition of 
closing bases to civilian uses as soon as possible. The Air Force BRAC 
environmental program continues to lead the way as responsible stewards 
of our human, fiscal and natural resources by:
  --Fast track environmental clean up efforts;
  --Constructing and operating remedies to clean up contaminated sites;
  --Fully complying with all environmental regulations;
  --Building strong partnerships with regulators and communities;
  --Accelerated reuse through the use of the Early Transfer Authority; 
        and
  --Using risk-based decisions, innovative technologies, peer reviews 
        of proposed remedies and optimization techniques for our 
        remedies and monitoring to reduce costs and make our 
        appropriated dollars go farther.
    Our campaign to foster a cooperative ethic within the Air Force 
culture has enabled us to efficiently clean up property for transfer 
and create jobs on former installations, remain a good neighbor, and 
remain a leader in environmental cleanup. Through these cooperative 
efforts, the Air Force received concurrence of a cleanup system 
operating properly and successfully at Norton Air Force Base (AFB) in 
1996. This means that the cleanup effort is accomplishing what we set 
out to do, with concurrence of EPA and state regulators. This enabled 
over 1,200 acres to be made available for deed transfer. To date there 
are only five such occurrences in the federal government.
    After deed transfers, the Air Force intends to meet its legal 
obligation to do the long-term maintenance and long-term monitoring 
connected with the clean-up action until National Priority List 
delisting and site closure.
                     environmental success stories
    Through the Annual Report to Congress on environmental cleanup we 
highlight our success stories and progress. However, the annual report 
highlights only a fraction of the success stories of the Air Force BRAC 
environmental program. I would like to take this opportunity to relay 
other successes regarding our strategies for reducing costs and making 
our appropriated dollars go farther. These successes are a result of 
our open relationship and partnering with both the regulatory community 
and our installation neighborhoods.
  --At Plattsburgh AFB, NY, Air Force personnel completed a remedial 
        design for two landfill caps. The design incorporated the use 
        of 30,000 cubic yards of pre-treated soil from the base as part 
        of the landfill caps. This resulted in a significant cost 
        avoidance of $400,000-$500,000, the cost of clean fill 
        material.
  --At Kelly AFB, TX, results from monitoring a groundwater plume 
        indicated the plume size was diminishing due to natural 
        degradation. The potential cost avoidance of selecting natural 
        attenuation versus installation of a cleanup system will be 
        significant.
  --At Wurtsmith AFB, MI, we have demonstrated and received regulatory 
        concurrence that natural attenuation is the preferred remedial 
        alternative at seven sites where the groundwater is 
        contaminated with trichloroethylene (TCE). This will result in 
        saving the cost of installing a cleanup system at each of the 
        sites.
                          environmental budget
    Our environmental budget for fiscal year 1999 totals $152M. Our 
program primarily focuses on environmental projects to clean-up 
contaminated sites which expedites property transfer. From fiscal year 
1990 through fiscal year 1999 we will have received $1.9B for the BRAC 
environmental program. These funds will have allowed us to install all 
necessary cleanup systems at 20 of our 28 bases. The Air Force 
continues to work with communities impacted by our base closure 
realignment to clean up the environmental contamination and put 
property and facilities into economic reuse. On our current schedule, 
we plan to have remedies in place at all our BRAC installations by the 
year 2002, with the exception of McClellan AFB in CA.
    After fiscal year 1999 our projected yearly program drops 
significantly. Our fiscal year 2000 through fiscal year 2005 budget is 
projected to be $617M. Using peer reviews, technical assistance visits, 
innovative technologies, partnering, and approaches to optimize long-
term operation and maintenance we are controlling and reducing long-
term costs associated with operation and monitoring of cleanup systems. 
We will avoid $178.1M in environmental costs through completion of the 
program utilizing these strategies. The methods that Air Force is 
utilizing to optimize cleanup costs over the life cycle of the program 
have become a model that is being used by the other services.
    The following graph provides a snapshot of our BRAC cleanup 
program. Although the graph indicates that 27 installations will have 
cleanup systems in place by fiscal year 2002, the work doesn't end 
there; in fact, the real environmental cleanup begins.
[GRAPHIC] [TIFF OMITTED] TMILCON.005

    A significant portion of our future budget will be used to continue 
operating and monitoring our cleanup systems until our cleanup goals 
are achieved. The Air Force has taken the lead in working with our 
stakeholders to develop the framework for meeting our cleanup goals and 
reaching site closeout. This effort is expected to be published as a 
joint DOD/EPA guidance document and includes efforts such as cleanup 
performance reviews, delisting of National Priority List sites, long-
term monitoring, and decommissioning of cleanup systems and wells. We 
are looking forward to briefing you in the near future on the lessons 
we have learned in meeting cleanup goals and reaching site closeout to 
finish the cleanup job!
                          community relations
    We are maintaining our good neighbor ethic in every BRAC community 
we previously called home. Our cleanup programs offer us a unique 
opportunity to show our communities that we care and respect them as 
legitimate partners in reaching community-based solutions to enhance 
reuse. By working together with our communities toward the common goal 
of job creation and a safe environment, the State of Indiana and the 
United States Air Force made history last year when they became the 
first to implement a dynamic new law established to assist in economic 
redevelopment. Grissom AFB represents one of the first instances of 
applying the amendment to Superfund law that allows the transfer of 
contaminated federal property with the concurrence of the governor 
prior to the completion of cleanup while cleanup efforts proceed. As a 
result the State of Indiana is able to meet a pressing public-safety 
need and will be constructing a multi million dollar state prison that 
will create hundreds of jobs for the community. Use of this early 
transfer authority was a win-win for Air Force, the state and the 
community while still addressing the environmental concerns of all 
parties. In light of this success we are in the process of using this 
authority at Mather, Griffiss and Lowry AFB's and will continue to 
identify opportunities for its application.
    As our record shows, we are dedicated to improving our already open 
relationships both with the regulatory community and with our former 
neighbors in BRAC communities. We strive to ensure our closure and 
disposal actions meet all environmental regulations and laws, but we 
also seek out partnerships with local regulatory and commercial sector 
counterparts to share ideas and create an atmosphere of trust.
    Our community Restoration Advisory Boards (RAB's) are an integral 
part of planning and prioritizing our environmental cleanups. We 
provide RAB's with a summary of all projects, create subcommittees to 
review technical documents, provide periodic site tours, and provide 
training in the installation restoration program. We have moved forward 
with the implementation of the Technical Assistance for Public 
Participation (TAPP) program. The TAPP program allows DOD to help RAB 
community members use the services of independent experts to explain 
the more technical aspects of our cleanup efforts. The RAB advice is 
proving invaluable as we move forward putting remedies in place at all 
of our installations. The RAB's are also providing advice for 
adjourning once our cleanup systems are in place. For example, the 
Bergstrom and Norton RAB's, were adjourned because they had fulfilled 
their advisory purpose since all cleanup actions had been implemented 
at these bases.
                               conclusion
    Through the support of this committee we continue to meet our 
environmental responsibilities. We are investing our dollars wisely. We 
have completed our studies and installed most of our clean-up systems. 
We are cleaning up the contamination and we are actively protecting 
human health and the environment as we transition property for reuse 
and development.
    Thank you Mr. Chairman and members of the Committee for the 
opportunity to come before you to share what we believe is a very 
innovative, progressive and efficient environmental program.

    Senator Burns. Thank you.
    And, Senator Murray, if you have some questions and you 
have a conflict, do you want to lead it off this morning, and 
then you can put the rest of them in the record?
    Senator Murray. Thank you, Mr. Chairman. Actually, I just 
have one that I would like to ask, and then I would insert the 
rest into the record.
    Senator Burns. Sure.
    Senator Murray. Thank you very much.
    The President's request includes authority for a new BRAC 
round, but no money to begin execution in fiscal year 1999. Can 
you tell us whether you have specific assessments of the cost 
of a new BRAC round? And can you supply us with some of those 
figures yet?
    Mr. Pirie. We can provide you with estimates for the 
record. There is no cost since the rounds requested are in 2001 
and 2005. We would not incur any costs in fiscal year 1999. But 
we have, in fact, put notional wedges in the out-year programs 
for BRAC closures.
    Senator Murray. OK, if we could have those, I would 
appreciate it.
    Mr. Pirie. Yes, ma'am.
    [The information follows:]

    Table F-7 on page 120 of Appendix F of ``The Report of the 
Department of Defense on Base Realignment and Closure,'' of April 1998 
provided the following estimated costs and savings for new BRAC rounds 
in fiscal year 2001 and fiscal year 2005 for DOD:

                                              COSTS AND SAVINGS ESTIMATES FOR BRAC ROUNDS IN 2001 AND 2005
                                                        [In billions of fiscal year 1999 dollars]
--------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                                                                                                  Steady
                           Round                              2002   2003   2004   2005    2006    2007    2008    2009    2010    2011    Total   state
--------------------------------------------------------------------------------------------------------------------------------------------------------
BRAC 2001:
    Costs..................................................    1.2    1.9    1.7    1.2     1.1     0.8   ......  ......  ......  ......    7.8   ......
    Savings................................................    0.4    0.6    1.1    1.4     1.6     1.7     1.7     1.7     1.7     1.7    13.6     1.7
    Net cost (savings).....................................    0.8    1.3    0.5   (0.2)   (0.5)   (0.9)   (1.7)   (1.7)   (1.7)   (1.7)   (5.8)   (1.7)
                                                            ============================================================================================
BRAC 2005:
    Costs..................................................  .....  .....  .....  ......    1.2     1.9     1.7     1.2     1.1     0.8     7.8   ......
    Savings................................................  .....  .....  .....  ......    0.4     0.6     1.1     1.4     1.6     1.7     6.8     1.7
    Net costs (savings)....................................  .....  .....  .....  ......    0.8     1.3     0.5    (0.2)   (0.5)   (0.9)    1.0    (1.7)
                                                            ============================================================================================
Total:
    Costs..................................................    1.2    1.9    1.7    1.2     2.3     2.6     1.7     1.2     1.1     0.8    15.6   ......
    Savings................................................    0.4    0.6    1.1    1.4     2.0     2.2     2.8     3.1     3.3     3.4    20.4     3.4
    Net costs (savings)....................................    0.8    1.3    0.5   (0.2)    0.3     0.4    (1.1)   (1.9)   (2.2)   (2.6)   (4.8)   (3.4)
--------------------------------------------------------------------------------------------------------------------------------------------------------

    Estimated future costs and savings for fiscal years 2002 and 2003 
are contained in DOD's FYDP.

    Senator Murray. Thank you, Mr. Chairman. I will submit the 
rest of my questions.

                     base environmental assessment

    Senator Burns. OK. Thank you, Senator Murray.
    I was interested in some of the statements, I want to go 
into them a little more. In the majority of cases, and I say 
maybe in all cases, whenever you start in a base that is 
finally shutdown from all operations, and you start in the 
environmental cleanup, can you give me a thumbnail sketch--and 
maybe all three of you do it the same way--what is the process 
we go through when we start environmental cleanup?
    In other words, what process--now that all the people, the 
mission is gone, the equipment is out of there, you have an 
empty base, with probably, what, some operations and 
maintenance [O&M] people to kind of keep everything intact--
what is the process? What is the next process that you start 
when you start cleaning up a base?
    Mr. Dishner. Senator, I will start and then defer to Robert 
or Paul.
    The process is very strictly, but not overly so, defined, 
because it all builds up to the subject of today, which is the 
environmental assessment. The communities are required to 
prepare a land use plan. And that land use plan done by the 
community is submitted to the Air Force. And it really is the 
predicate to anything that is done subsequently. The land use 
plan projects what the raw land and the improvements will be 
used for.
    The Air Force then--and I think the other services are the 
same--take that and do an environmental impact statement, and, 
say, do the assessment of that against the properties which 
they are going to use. That assessment then directs what level 
of cleanup, how we would clean up, what are some of the 
mitigating factors that we need to assess to do for that 
specific use.
    I cannot recall ever where the reuse got changed, that we 
had to go back and redo an environmental impact statement 
[EIS], as an example, which is a very time consuming and very 
expensive document to prepare. But it is really driven by what 
the community feels they want to reuse that base for.
    Subsequently, the environmental impact statement is done. 
That is a part of the whole process of the secretarial decision 
of the record of decision of how the base is going to be used. 
So, the environmental impact of that reuse is No. 1. Then there 
is the secretarial determination in support of that, and saying 
why the Secretary is directing that this record of decision be 
issued.
    Then, as we go down the pike, of course, working with the 
communities, and now going from not only a study of the 
environmental aspect with the background of the reuse that is 
projected by the community, is where we get into what are the 
things that need to be done. Do we have lead-based paint? Which 
currently we leave that in situ. But we notify them, by the 
way, the building or the wall that has lead-based paint.
    If it is friable asbestos, which comes from insulation, et 
cetera, we are required to take it out. If it is nonfriable, we 
are not required to take it out.
    The big issue and the big dollar spenders, of course, is 
where we unfortunately have polluted the water supply, the 
groundwater supply. It is a very expensive, very long-term 
cleanup to pump that water, pump and treat, and put it back 
again. That is laid out also. And it is done throughout the 
base. If you have looked at some of the drawings--I am sorry I 
do not have any for you today, but it is almost pockmarked, and 
you can sort of see where those environmental impacts were 
done.
    The community uses that as a guide to outline areas that 
cannot be deeded real fast because we have not cleaned it up. 
Some subsequent mechanisms to give them the property in 
furtherance of conveyance is helping that. So, we are able to 
define for the community where we have these problems that we 
cannot deed it today, but we can give you the use of it today 
until, in fact, we will eventually clean it up.
    So, to me, it is an iterative process. It is started, 
however, with what is the future use of that base that the 
community thinks they are proposing for the next 5 or 10 or 15 
years--the ultimate use of the base.
    Mr. Pirie. Our process is very similar to the Air Force 
process. But let me make a few other remarks about the whole 
closure process.
    We go through various stages of closure, from mission cease 
to operational closure to conveyance of the property. And 
during the time that that is going on, there are differing 
levels of activity on the base. Even after operational closure 
of the base you still have a very substantial number of 
military and civilian employees on the base, doing various 
things. There may be tenant activities that are slow to move 
out and all that kind of thing.
    Meanwhile, we are dealing with the local redevelopment 
authority about how the conveyance is going to take place. And, 
in particular, if there are places on the base that they want 
to lease and start using fairly early, then we have to proceed 
with a finding of suitability to lease and so forth. So that 
would affect the cleanup plans for that particular area.
    In most cases, when we know we are going to close a base, 
we get started on the cleanup before any of the local 
redevelopment authority activity takes place or before they 
have a plan. In many cases, we are already cleaning up the 
base, because that is simply an ongoing process of ours.
    So, you have a lot of overlapping activities, both in the 
moving-out process and in the process of cleanup.
    In some cases, we convey bases to the community, where the 
cleanup--for example, the groundwater cleanup--simply is 
ongoing. And we will monitor that over a long period of time 
after the base is turned over to the communities. So, it really 
depends upon the local situation a great deal exactly when the 
cleanups start, how they are focused and so forth. We generally 
try to accommodate the communities' concern about reuse.
    Senator Burns. Is it the same with the Army, Mr. Johnson?
    Mr. Johnson. Pretty much the same. We start with an 
environmental baseline study, to determine what the 
contaminants are.
    Senator Burns. Is that a complete EIS? Do you use the EIS?
    Mr. Johnson. We do that. We start the NEPA process a little 
later, after we get the EBS completed to determine the 
contaminants that are there, after the community comes up with 
a reuse plan. Then we put it in the program for funding. The 
priorities are the health and safety problems that we have. 
Reuse is also a high priority, because we want to get it back 
on the tax rolls. We follow the NEPA process all the way 
through.
    Senator Burns. All of you do an EIS before you--is an EIS 
required?
    Mr. Pirie. Environmental impact statements are required 
where there is a choice or an alternative. Where the Commission 
has said you will move X to Y, and there is no alternative, 
then an environmental impact statement is not required. But if 
there is an alternative location to which the activity can be 
moved, then an environmental impact statement is required.

                          contractor selection

    Senator Burns. Once you have made the assessment, once you 
have made the environmental assessment of what is going to be 
needed to make conveyance, now then you engage a contractor, an 
environmental contractor? Or do you do that in-house?
    Mr. Johnson. Sometimes we do it in-house and sometimes by 
contracting out. If we have the same type of reuse, we may get 
by with just an environmental assessment. We can do that in-
house. But if it is a change in reuse then we get an EIS.
    Mr. Dishner. Normally we would use probably a contractor 
under the Air Force Center for Environmental Excellence [AFCEE] 
at Brooks Air Force Base, which handles most of that. Because 
we want to have it centered in one place and we do not want to 
be doing it somewhere else. So if there is a question on the 
environmental, whether it be on the study, an assessment of 
what is there, or actually doing the contracting to clean 
something up and treat it, et cetera, the majority of our work 
is done through AFCEE. There is a little bit done by the Corps 
of Engineers, but the majority of it is done by AFCEE.
    Senator Burns. Is it the same with the Navy, Secretary 
Pirie?
    Mr. Pirie. Yes, sir.
    I think this is fairly confusing, because you have a lot of 
different laws and processes at work here. But to give you an 
example from the Navy point of view, the closure of Cecil Field 
in Florida and the movement of the F/A-18's to Oceana or Cherry 
Point or Beaufort. If the Commission had directed that the 
activity at Cecil Field be moved only to one location, say, 
Oceana, then from the point of view of Cecil Field, an 
environmental impact statement would not have been required. We 
would have done an assessment.
    The Cecil Field reuse authorities are going to use it as a 
commercial and industrial activity, so as Mr. Johnson said, 
since it is going to be used for the same kind of activity, we 
would not be required to go into an extensive environmental 
impact statement. The reason we are doing an environmental 
impact statement for the Cecil Field move is the impact on the 
environment of the receiving activities. And so we have to do 
it at both ends.
    Senator Burns. Now, once the contract has been given and an 
environmental activity started--in other words, the contractor 
starts completing the mission of cleaning up--now, whether it 
be in-house, using Corps of Engineers, our own people that are 
in the military or whether we are using a civilian contractor, 
who supervises those contracts and the work?
    Mr. Pirie. In the Navy, the Naval Facilities Engineering 
Command supervises the contracts and the work wherever we are 
cleaning up bases.
    Mr. Dishner. The Air Force Base Conversion Agency, which is 
the agency to do all the closure, real estate, and environment, 
through the AFCEE that I mentioned earlier.
    Mr. Johnson. Mostly the Corps of Engineers, as far as the 
EIS is concerned. But if you are talking about further cleanup, 
of course, that is the contracting officer. In most cases, it 
is the Corps of Engineers.
    Senator Burns. And are time lines set up and these type 
things? Is that all in the contract? In other words, there is 
an expected time when we are done with it and the expected 
result?
    Mr. Johnson. That is correct. Of course, sometimes during 
cleanup you will find something that you did not know was 
there, particularly unexploded ordnance and that sort of thing. 
It takes a long time, because you have got to have your people 
``mag'' it and ``flag'' it and then either dig it up and move 
it or detonate it in place. So, the time lines are set for the 
unexploded ordnance.
    And, of course, groundwater monitoring is very costly and 
time consuming. So it can go on for years.
    Senator Burns. Secretary Johnson, you bring up a point. Do 
we have the technology to dispose of our ordnance that should 
be disposed of?
    Mr. Johnson. Yes, sir.
    Senator Burns. And we do have centers that do that? Or do 
we do that on site?
    Mr. Johnson. Well, it depends. We do have centers. But if 
you are talking about unexploded ordnance, then you flag it. If 
you can pick it up and move it, you move it to a place that you 
can detonate it. If you cannot move it, you have to get some 
approval from EPA, to detonate it in place. That is basically a 
very primitive technology that we have in cleaning up the 
unexploded ordnance.

                      Air Force ordnance disposal

    Senator Burns. How about the Air Force or the Navy in the 
disposal of ordnance?
    Mr. Dishner. The Army does the large ordnance. Some of the 
small firing ranges, et cetera, we handle in-house.
    Senator Burns. In-house?
    Mr. Dishner. Yes, sir.
    Mr. Pirie. The same for the Navy, Mr. Chairman.
    Senator Burns. Can that be recycled?
    Mr. Dishner. Well, in the case of firing ranges, where most 
munitions now have lead base on the point, they have a mountain 
of sand, which they use as a buffer to fire into, that is just 
loaded with lead. And we have been successful, I think, in one 
location, where we went to the community, and the community 
said, well, the State police want to continue using the range 
after conveyance. They said to not clean it up and that we 
could fire more lead into it. So they assumed the liability for 
taking the lead, because it was going to continue to be used as 
a firing range.
    Senator Burns. That was the next thing, you know. The 
supervision of those contracts when you are all done. How tough 
has it been? Now, Mr. Johnson, you made the statement that you 
are starting to get a return on your cleanup now. In other 
words, you are conveying some of that property into private 
hands, and those moneys, I guess put against the environmental 
cleanup or the entire operation of cleaning up the base, you 
say that we are starting to realize some return on that?
    Mr. Johnson. Yes; so far, we have received $112 million and 
we have some accounts receivable of about $45 million more. It 
is due to some of the deals we have made where we do not take 
the money up front, we let the reuse authority pay us a little 
later on. That is the $45 million.
    Now, that money goes back into the BRAC account. And we 
have used some of that to do other BRAC operations, such as 
cleanup.

                          brac residual funds

    Senator Burns. In other words, the funds for conveyance, 
the sales of a unit or a camp or whatever, that goes back in 
the BRAC account, that does not go back into the U.S. Treasury?
    Mr. Johnson. That is correct. It goes into the BRAC 
account. And we reuse it for BRAC actions.
    Mr. Dishner. That was established by law, referred to as 
the account for BRAC residuals. The Air Force account, as an 
example, has about $20 million to $21 million. And I think just 
a few months ago I released $15 million of that to actually 
reduce some costs. They were not environmental, unfortunately, 
at the specific time, but they can be used for anything. So 
that we do not have to come back, then, and borrow those 
additional dollars from the taxpayers.
    Mr. Pirie. But the money from the property sales is a 
relatively small amount. You are talking about tens of millions 
compared to the expenses of BRAC which in the Navy's case has 
been about $7.5 billion. The real savings in BRAC come from the 
closure of the bases and getting the employees off the rolls.
    Mr. Johnson. I want to put in a pitch about keeping the 
BRAC account open beyond 2001, because that is where we put the 
money from the accounts receivable back into O&M.
    Mr. Dishner. When that BRAC runs out, I do not know if the 
dollars we get back are going right back into the Treasury. So 
it would be--woops--because it is easy to show, then--at some 
point in time I think we all would like to know where the 
expenditure or projected expenditure, has gone. Offset to 
whatever degree the income was from that transaction.
    As soon as that happens, I guess we can have an accounting 
procedure to count it before it goes into the Treasury, but to 
me that is another issue. There are two BLIPS with that 
process. One is to continue a BRAC designation to be able to 
continue to corral those costs and know right where you are at 
from day to day, year to year. The second is to have the income 
against that show what additional dollars were not asked for, 
because although low dollars as Robin said, is absolutely 
correct, that is one less dollar then we had to take out from 
the regular account.
    Senator Burns. That is under the woops theory. I understand 
that. You learned that at Texas A&M, I assume. [Laughter.]
    Mr. Dishner. Yes, sir; I did.
    Senator Burns. What happens--and I guess the next question, 
what happens if there is no conveyance? Now, are we funding 
some property that is unsalable, that is just undesirable for 
the market? Have we run across that yet?
    Mr. Dishner. I think in the Air Force we found properties 
or a property, maybe two T's, properties, not the whole base, 
but are slower because they are in an area that is very rural, 
and in other rural areas, but we have no bases that there is no 
one renting them or leasing them, and purchasing some 
environmentally clean property. There are no bases just laying 
there fallow, where we have just locked the gate and walked 
away because they cannot be used.
    Mr. Pirie. We do not expect to have any that cannot be 
conveyed, Mr. Chairman, and the experience before the BRAC law 
came in in 1988 of bases that were just abandoned and put in 
caretaker status and locked up is not encouraging. They become 
an eyesore and a public nuisance. We would be much better off 
to clean these places up and turn them over to the communities.
    Senator Burns. We did that in the case of radar bases in 
Montana that they had a very definite use for, and by the way, 
Mr. Dishner, that is a very successful program for those 
communities, like in Conrad, MT, and we did another one in 
Forsythe, MT. These were very small radar installations for the 
low-flying missions up there, and so that has been very 
successful.
    But I was just wondering what would happen if there is no 
conveyance made, and I would imagine now the Navy may end up--
of course, I think the Army probably has a better opportunity 
to move some of their properties into private hands more than 
Air Force and Navy, because you just use land, for your uses.
    Tell me about the progress at Marine Corps Air Station El 
Toro.
    Mr. Pirie. Well, the Marine Corps Air Station El Toro is in 
the process of being closed and cleaned up. There is contention 
in the community about whether it should be an aviation 
facility or something else when it is reused in the community. 
That has not been resolved, but in terms of progress and 
closure and moving the Marine Corps out, that is proceeding in 
an orderly way.
    Senator Burns. What kinds of challenges do you find there? 
Underground tanks, I would assume? I know something about that 
base. That is where I was mustered out.
    Mr. Pirie. We have underground storage tanks that have to 
be remediated. We have some petroleum in the soil that needs 
work. I am not certain about a landfill or not, but I would be 
surprised if there was not a landfill that did not have to be 
probably capped and monitored, things of that kind, Senator.
    Senator Burns. Has that work started?
    Mr. Pirie. Some of that work has started, yes, sir.
    Senator Burns. Did we have some questions about Clark Air 
Force Base? No; Presidio. How are we doing on Presidio in San 
Francisco? Has that conveyance been made?
    Mr. Johnson. Yes; we still have some cleanup questions 
about San Francisco. Almost the whole thing has gone into the 
trust, the Presidio Trust I believe is the name of it, but yes; 
the transfer has been basically complete. We still have some 
cleanup work.

                       castle AFB cleanup status

    Senator Burns. Castle Air Force Base is the one in 
California. Progress on that?
    Mr. Dishner. It is doing very, very well, 90 percent in 
reuse, so that one has been right up there. In fact, they just 
gave me, if I may, BRAC reuse data for 1988-95 bases. BRAC 
1988, is at 98 percent; BRAC 1991, 76 percent reuse; BRAC 1993, 
70 percent reuse; BRAC 1995, 5 percent, an average of 64 
percent reuse, sir.
    Senator Burns. All right. I guess those are the questions I 
had on that.
    Now, Fort Ord, that conveyance has been made?
    Mr. Johnson. Most of it has been made, but we still have 
quite a ways to go on it. We have an EDC in for the rest of it. 
Most of it has been transferred to the State University, which 
is underway. Things are going fine.
    Senator Burns. Tell me, if I was a contractor and my job 
was environmental cleanup spills, no matter what, how could I 
do business with you if I wanted to find work?
    Mr. Johnson. We have a regular procedure where we have a 
computerized form that you fill out and send to Dallas, TX. I 
believe it is where the consolidation place is.
    Senator Burns. You might want to pull that microphone up 
there. We are getting a complaint; folks cannot hear.
    Mr. Johnson. We have a regular system for contractors to 
get in touch with the Corps of Engineers, which do most of the 
Army's work, and that is located, I believe, in Dallas, TX, 
where we give anybody that is interested a form. They fill it 
out, mail it in, and if they are qualified to do work, then 
they are put on the list.
    Senator Burns. Is that the same with the Air Force?
    Mr. Dishner. Yes, sir; at the Air Force Center for 
Environmental Excellence at Brooks in San Antonio. You can come 
up on the web, come up on the Internet, find out what projects 
are available if you want to put your name in the hopper as a 
contractor or remove certain information whatever it may be as 
a contractor in the environmental arena.
    You have to have certain certifications to do that, as I 
know you know, Mr. Chairman, but that is how you would find out 
what was happening in your area or in your State, sir.
    Mr. Pirie. We have essentially the same process in the 
Navy, through the Naval Facilities Engineering Command.

                 contractor competitive bidding process

    Senator Burns. Now, are those put out on competitive bids?
    Mr. Dishner. Yes, sir; we have some contractors we picked 
up earlier, earlier meaning 2 or 3 years, where we did what is 
referred to as an ID/IQ, which is indefinite delivery, 
indefinite quantity, to do that. They in turn are then 
triggered when a request comes in from a base to do certain 
work.
    But not all the work is covered through that mechanism of 
an ID/IQ. The main thrust was to try to make sure we did not 
forget the contractor in the local community and give them a 
chance to put a bid in for a contract. It was to be sent, not 
necessarily as a Small Business Administration [SBA], to make 
sure the contractor had an opportunity to bid.
    Senator Burns. The same with you, Mr. Johnson?
    Mr. Johnson. Basically it is, if we have--the construction 
work is done competitively. If it is architect-engineer work, 
then it is negotiated.
    Mr. Pirie. It is a competitive process in the Navy. As in 
the case of the Air Force we have large omnibus contracts that 
are open and can be assigned work as it develops.
    Senator Burns. I bring that up for the simple reason I can 
remember going back to the old Reserve Officer's Training Corp 
[ROTC] days when we went through the savings and loan [S&L] 
fiasco, and in order to be an auctioneer they required a $1 
million bond. Well, I can tell you from auctioneers there ain't 
none of us worth $1 million. [Laughter.]
    And they were trying to hire auctioneers in Chicago to sell 
property in Phoenix, and that did not work very well, and 
sometimes local contractors have local knowledge. That saves us 
all money in the long run.
    I had this hearing today--and we are going to be cutting it 
a little bit short. I want to work with you on this particular 
problem of environmental cleanup, and the reason for the 
hearing is no more than this, that Congress is aware that we 
have had these obligations and we want to do them as 
economically and as expediently as we can, understanding 
budgetary strains and all other things that are falling now on 
the military, and I am very, very concerned about some areas of 
it. We are just looking for ways to streamline and to do some 
things.
    I will probably have some more questions. I appreciate your 
statements. I do not think the American public was really aware 
of our obligations out there, or the cost of those obligations, 
and I think they should be made aware of that whenever we start 
conveying this property, we want to convey a property that is, 
I would hope, environmentally what its next use will match.
    I do not think we have to clean them up to the point where 
you will be able to eat off the runway, so to speak, but 
nonetheless I really believe that the next use--and that is the 
involvement of the communities and what that is going to be 
used for--is very, very important in those communities.

                     Additional committee questions

    So I appreciate that. I have probably got two or three 
other questions that I will ask and write to you and we will 
get those cleared up.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]

    Questions Submitted to Assistant Secretary Robert B. Pirie, Jr.

                  Questions Submitted by Senator Burns

                          environmental costs
    Question. How much money will you have spent by the year 2001 to 
clean up the bases from the first four rounds of base closure?
    Answer. Based on funding trends in the current budget, $2.9 billion 
will be spent on environmental (planning, compliance, cleanup) for all 
four BRAC rounds through fiscal year 2001.
    Question. The costs of environmental cleanup will extend beyond the 
statutory limit for base closure expenditures. What kind of 
environmental activities will continue and for how long? How much do 
you anticipate that these long-term procedures will cost?
    Answer. In addition to continuing cleanup at several locations, 
most notably Hunter's Point Naval Shipyard and Long Beach Naval 
Complex, we will need to continue long-term operations and monitoring 
of cleanup remedies into the year 2010 and beyond. Our current 
projection is $526 million in environmental cleanup costs beyond fiscal 
year 2001.
    Question. What steps are you taking to reduce the overall costs of 
long-term environmental monitoring?
    Answer. We are working with EPA and State regulators now to 
identify issues, develop alternative operating practices and associated 
costs for long-term environmental monitoring. Our objective is to agree 
to a streamlined and simplified practice that still ensure proper 
operating parameters at a reasonable costs.
    Question. Do we have technology available to effectively cleanup 
groundwater contamination and unexploded ordinance?
    Answer. Depending on site conditions and types and levels of 
contaminants, there are many alternative remedies available to cleanup 
groundwater contamination. Cleanup of unexploded ordinance, however, is 
at this point a difficult and expensive proposition with few choices. 
The Army, with support from the other services and private industry, is 
focusing research and development efforts on detection systems as well 
as cleanup alternatives for unexploded ordinance.
    Question. What are the major cost drivers with respect to cleaning 
up BRAC installations?
    Answer. Many of the major costs drivers for cleanup at BRAC 
locations are identical to the cost drivers at non-BRAC installations 
(e.g., assessments, sampling, remedial studies and the actual cleanup). 
Environmental baseline surveys, done only for closing bases, add 
additional cost. There is, however, one major difference: BRAC cleanup 
is driven by reuse and redevelopment needs and timelines. This 
generally accelerates cleanup needs. Reuse needs can also affect 
cleanup standards.
    Question. To what degree do Federal and local regulators dictate 
the plan and pace of the environmental clean up at BRAC sites?
    Answer. Reuse and redevelopment needs are a far greater factor in 
dictating the plan and pace of cleanup at BRAC sites. Each major 
closing base has formed a base cleanup team, or BCT, comprised of 
representatives from DON, EPA, and State regulators. They work closely 
with local redevelopment authorities to set mutually agreed cleanup 
standards, priorities, and time lines for cleanup.
                           program challenges
    Question. What is your most significant challenge to completing the 
environmental cleanup on the BRAC installations?
    Answer. Matching reasonable cleanup alternatives and time lines to 
community expectations. If we perform the cleanup too quickly, we may 
be spending money that would be better served at another location with 
more pressing needs; or we may waste money doing unnecessary cleanup; 
or lose the opportunity to save money by tying a cleanup remedy to the 
reuse plan (e.g., a cleanup remedy that calls for a landfill cap along 
with a reuse plan that calls for a runway extension over the same 
ground). Conversely, if we go too slow, we will likely delay reuse, 
redevelopment and job creation opportunities for the communities that 
hosted our Sailors and Marines for many years.
    Question. How are you cleaning up ranges with unexploded ordnance?
    Answer. For inactive (not now in use, but could be used) and active 
ranges, we perform range maintenance functions such as surface sweeps, 
but do not do cleanup. Under the new DOD range rule, we are in the 
early stages of establishing a CERCLA like process for cleanup of 
closed, transferred, and transferring ranges. We expect to begin 
initial site characterization efforts in fiscal year 2000.
    Question. What is the status of efforts to turn over facilities 
with lead-based paint? What is the DOD position on this issue?
    Answer. We are working with EPA to resolve issues in this area. HUD 
Title X regulations provide requirements for lead based paint hazards 
in residential areas. DOD complies with these regulations. Some 
regulators contend that DOD should go beyond these regulations. DOD, 
HUD and GSA are developing a field guide to ensure that all personnel 
understand the requirements. There are no specific regulations 
governing lead based paint in non-residential areas. Our basic approach 
is to do everything that is required of non-military sites.
                                 reuse
    Question. How do you establish priorities for cleaning up BRAC 
installations?
    Answer. Our first priority is always to immediately address any 
contamination that poses an imminent health and safety threat. These 
are rare situations.
    Unless there is an imminent health risk, cleanup priorities are 
developed by the base cleanup team at each base. The BCT is comprised 
of remedial project managers from the DON, and State and EPA 
regulators. The BCT's work closely with the local redevelopment 
authorities to establish mutually agreeable cleanup standards, cleanup 
remedies, and time lines. The Restoration Advisory Board, which serves 
as a community sounding board for cleanup issues, also plays an 
important role. These cleanup plans are then reviewed by various 
elements of the chain of command for technical merit and affordability.
    Question. What major impediments do you face in turning over 
properties to civilian use or other Federal agencies?
    Answer. There is, of course, a standard screening and 
prioritization process that we must follow. Other challenges include: 
(1) the establishment of an official local redevelopment authority, and 
the development and approval process for a reuse plan; (2) preparation 
of necessary NEPA documents that address the reuse plan and potential 
environmental impacts; and (3) doing the cleanup in a timely, cost-
effective manner that protects human health and the environment.
    Question. When you are unable to turn properties over to local 
reuse authorities, do you still incur costs in maintaining the base?
    Answer. Yes, we incur caretaker costs for minimal maintenance 
functions, police and fire protection, utilities, etc. We attempt to 
minimize these costs by encouraging leases and leases in furtherance of 
conveyance as a means of generating revenue, and negotiating the shift 
of caretaker functions to the local redevelopment authority as part of 
the property transition process.
                     expiration of brac--post-2001
    Question. I understand that each of the services was instructed to 
include their post-2001 BRAC requirements in their operation and 
maintenance account. Do you have concerns with the merging of active 
and BRAC cleanup costs?
    Answer. Defense Planning Guidance directed the services to program 
BRAC cleanup costs after fiscal year 2001 in their respective 
environmental restoration accounts (used to fund cleanup at non-BRAC 
bases), not their O&M accounts. This decision was reached based after 
DOD and the components evaluated several competing alternatives. We can 
establish sufficient management controls within the environmental 
restoration accounts of the components to ensure visibility of funding 
for cleanup at both BRAC and non-BRAC bases.
    I might also add that this decision was made prior to SECDEF 
announcing legislation for two more rounds of BRAC, the first in 2001 
and the second in 2005. If this legislation is approved, we should 
perhaps reconsider extending BRAC cleanup funds from prior rounds to 
the new rounds.
    Question. The BRAC accounts have been protected since the inception 
of this process. If these environmental costs are not fully funded in 
O&M, will your service lose faith with the local communities interested 
in reuse?
    Answer. Absolutely. We are told time and again by the local 
redevelopment authorities, mayors at BRAC locations, and other local/
State representatives of the importance in continuing our cleanup 
efforts. They often view this as one of the most important ingredients 
in their reuse plans.
    Question. What kind of visibility will you have if the ongoing BRAC 
costs roll to operation and maintenance?
    Answer. We will establish budget sub-accounts and accounting 
practices to maintain proper visibility of funds in the event that BRAC 
costs remain in the component environmental restoration accounts (not 
O&M accounts).
    Question. Would it be advantageous to keep the BRAC accounts 
separate from the service's operation and maintenance accounts?
    Answer. It is certainly advantageous to keep the BRAC accounts 
separate from the service O&M accounts. There are, however, pros and 
cons for continuing cleanup in the component environmental restoration 
accounts, or extending the BRAC accounts beyond 2001, particularly if 
legislation is approved to do two more rounds of BRAC.
    In any case, current BRAC statutes require all BRAC cleanup to be 
funded from the BRAC account. This legislation must be reviewed and 
amended after current authority expires in 2001.
    Question. With four rounds of BRAC behind us now, how do you track 
the savings for each closure or realignment:
    Answer. Projected BRAC savings are recorded in the annual budget 
submission of the Department of the Navy. Savings identified in the 
budget submission reflect the best estimates we have to date.
    Question. What is your methodology for updating these savings 
estimates?
    Answer. Projected savings are calculated based on estimated 
personnel savings to be derived from the closure or realignment action, 
cost avoidance for base operating costs, and the cancellation of 
planned construction and procurements resulting from closure or 
realignments. Those projected savings are then calculated against the 
projected costs for the closure or realignment actions and result in 
net savings. Claimants are required to update savings estimates with 
each budget submission.
    Question. What assurance can you give us that future rounds of BRAC 
would, in fact, save the amount that is forecasted?
    Answer. With each successive round of BRAC, we have applied our 
latest knowledge and experience. As a result, our estimates reflect the 
most up to date experience. Various audits to date assure us that these 
estimates are consistent with reality.
                                 ______
                                 

                 Questions Submitted by Senator Murray

    Question. It is my understanding that community involvement and 
public trust in the cleanup process is essential to ensuring the 
success of your cleanup efforts. Could you comment on the RAB's 
(Restoration Advisory Boards) and how they are working for the services 
in this process? Once a project is underway, will the RAB's continue to 
guide and oversee the ongoing protection of human health and the 
environment after operational closure of an installation and transfer 
of property?
    Answer. The RAB is an advisory body designed to act as a focal 
point for the exchange of information between the base and the local 
community regarding restoration activities. The RAB is intended to 
bring together community members who reflect the diverse interests 
within the local community, enabling the early and continued two-way 
flow of information, concerns, values, and needs between the affected 
community and the installation. The RAB continues to oversee 
environmental restoration at the affected base until cleanup is 
complete, regardless of the operational or disposal status.
    Question. A key element of the DOD's fast-track cleanup approach is 
the establishment of BRAC cleanup teams to manage cleanup at closing 
and realigning bases. Could you tell the Committee a little more about 
the composition of the cleanup teams, and what their function is? Is 
there emphasis put on the needs of the specific community and is that 
amply represented on these teams?
    Answer. BRAC Cleanup requirements, plans, and schedules are 
prepared by a BRAC cleanup team (BCT) at each BRAC base. The BTC is 
comprised of remedial managers from the Department of the Navy, State, 
and EPA who collectively oversee and prioritize the necessary cleanups. 
With the help of the Naval Facilities Engineering Command and its field 
divisions, each base tailors its environmental cleanup plans to best 
support the disposal strategy for the base. Our objective is to 
complete the cleanup (attain ``response complete'' or ``remedy in 
place'' status) for each parcel of land in the order that the Local 
Redevelopment Authority (LRA) has determined it is needed for actual 
redevelopment, and then immediately convey the property. Each cleanup 
plan is based on cleanup standards established cooperatively between 
the BCT members and the LRA for the base. As such, the community needs 
are amply represented.
    Question. I understand that the Defense Environmental Response Task 
Force drafted a resolution that was adopted last year recognizing the 
importance of State participation in cleanup activities and the 
increase in public trust that results from broad and effective 
collaboration between States and DOD. Has this attitude been embraced 
by the services?
    Answer. The Navy has been the most active service in partnering 
with the States. The Navy has a variety of formal and informal 
partnering processes in place. The following two examples are 
illustrative. on the West Coast, the Navy has formed an Environmental 
Management Executive Committee (EMEC) with five States. The EMEC 
jointly plans and prioritizes remedial activities and discusses issues 
of mutual interest. In EPA region IV, the Navy, Air Force, EPA region 
IV and several States have developed a partnership with installation 
level and management level tiers. The Navy has also been proactive in 
bringing State and EPA regulators into the DOD budget process. Most 
recently, the Navy produced a ``DOD guide to the environmental security 
budget'' in cooperation with the Environmental Council of States.
    Question. In the post-2001 period, separate BRAC environmental 
funding will end and the continuing funding requirements will be merged 
into the operations and maintenance accounts. Have you determined what 
the impacts will be on readiness of this merging of accounts? Have you 
decided to attempt to extend the present system of separate accounts, 
and how likely is it that DOD will extend that system?
    Answer. Merging BRAC requirements into the operations and 
maintenance accounts will not impact readiness unless Congress does not 
take this increased requirement into account. Navy has already planned 
to carry continuing BRAC costs in these accounts. If the DOD BRAC 
account expires we will establish separate sub-accounts to keep 
visibility on these BRAC costs.
                                 ______
                                 

   Questions Submitted to Deputy Assistant Secretary Paul W. Johnson

                  Questions Submitted by Senator Burns

                        brac environmental costs
    Question. How much money will you have spent by the year 2001 to 
cleanup the bases from the first four rounds of base closure?
    Answer. The Army has programmed to spend a total of $2.051 billion 
on environmental restoration at BRAC installations through fiscal year 
2001.
    Question. The costs of environmental cleanup will extend beyond the 
statutory limit for base closure expenditures. What kind of 
environmental activities will continue and for how long? How much do 
you anticipate that these long-term procedures will cost?
    Answer. The Army will have some amounts of environmental 
restoration and compliance work remaining after fiscal year 2001. 
However, the majority of the efforts remaining after fiscal year 2001 
are for long-term monitoring and operations. The Army has programmed a 
total of $450 million for these activities for fiscal years 2002-2005.
    Question. What steps are you taking to reduce the overall costs of 
long-term environmental monitoring?
    Answer. Due to the lengthy monitoring times and substantial cost, 
the Army is developing a strategy to try to gain efficiencies in the 
long-term operations and monitoring area. The study and subsequent 
guidance will consist of intensified reviews of past decisions, 
redirection of our remaining cleanup decisions away from remedies with 
expensive long-term operations, more efficient contracting of long-term 
monitoring, and use of new technologies.
    Additionally the Army's Peer Review, which is an independent review 
initiative, will also, we believe, find efficiencies within our cleanup 
remedies such that long-term operations and monitoring will decrease.
                        brac environmental costs
    Question. Do we have technology available to effectively clean-up 
groundwater contamination and unexploded ordinance?
    Answer.
Unexploded Ordnance (UXO)
    Yes, but methods are extremely costly, time-consuming, and have 
adverse impact to existing flora and fauna. In fact, ecological 
considerations sometimes preclude extensive or robust cleanups. The 
current method involves use of a magnetometer to locate and flag 
metallic anomalies. Then we must manually excavate and detonate, or 
detonate the UXO in place as the situation dictates. We are currently 
evaluating and testing infrared technologies in conjunction with 
Geographical Information Systems (GIS) to improve detection 
capabilities and potentially save time and excavation dollars.
Groundwater
    The difficulty with treating groundwater is achieving long-term 
cleanup contaminant levels by the pump and treatment technology. Pump 
and treat, while initially effective, is only poorly to moderately 
effective in achieving long-term cleanup goals. It is very dependent on 
type of contamination and type of geology. We are working to restrict 
pump and treat to only the most favorable geology/contaminants. An 
alternative solution involves monitored natural attenuation and 
restrictions on use of groundwater, where applicable/feasible, and 
compatible with intended reuse.
    Question. What are the major cost drivers with respect to cleaning 
up BRAC installations?
    Answer. Groundwater contamination and unexploded ordinance along 
with the general complexity of the restoration process are driving the 
cost of this program. Reaching agreement on the restoration remedies 
with the regulators has caused program delays and increased costs. In 
some cases local reuse authorities urge the Army to clean to more 
unrestrictive standards than current uses of the property which 
requires additional restoration efforts.
    Question. To what degree do Federal and local regulators dictate 
the plan and pace of the environmental clean up at BRAC sites?
    Answer. The regulators play a crucial role in our plan and the pace 
of cleanup. The BRAC Cleanup Teams (BCT), which include an EPA and 
State regulator, comprise a decision-making partnership with the 
regulators. Under E.O. 12580 we are still the ``lead'' in determining 
or selecting the remedy, but look for concurrence from the regulators. 
Most delays are due to disagreement with the regulators on cleanup 
goals. At NPL installations we must have concurrence from EPA on the 
chosen cleanup remedy, and EPA can select the final remedy if there is 
a dispute.
                           program challenges
    Question. What is your most significant challenge to completing the 
environmental cleanup on the BRAC installations?
    Answer. Reaching agreement and consensus with the regulators and 
communities on cleanup goals and remedies that support the proposed 
reuse of the property and is a cost-effective solution is generally our 
biggest challenge. In the case of UXO cleanups, the problem is 
generally balancing community reuse plans with cost of removal, 
technical feasibility, and ecological concerns.
    Question. How are you cleaning up ranges with unexploded ordinance?
    Answer. Personnel walk the site with hand-held magnetometers and 
flag magnetic anomalies. Other personnel excavate each anomaly. If the 
anomaly is UXO, remove if possible and detonate elsewhere. If unable to 
remove safely, detonate the UXO in place. Improvements to the process 
under consideration are radio-controlled vehicle-mounted magnetometers, 
and instrument methods of identifying magnetic anomalies as non-UXO 
without excavation.
    Question. What is the status of efforts to turn over facilities 
with lead-based paint? What is the DOD position on this issue?
    Answer. The Army is continuing to lease and transfer properties 
that contain lead-based paint by following the requirements of the 
Residential Lead Based Paint Hazard Reduction Act of 1992 (Title X). 
The process requires notification, inspection and/or abatement of the 
lead based paint in residential structures. While we have not received 
full agreement from the regulators on our Finding of Suitability to 
Transfer (FOST's) we have been able to proceed with transfer of the 
property. DOD is currently working with EPA to establish a National 
policy.
                                 reuse
    Question. How do you establish priorities for cleaning up BRAC 
installations?
    Answer. The Army places highest priority on requirements driven by 
imminent reuse of the affected property. Other reuse driven 
requirements and continuation of ongoing programs are the next 
priorities. The Army next prioritizes projects required to support 
Federal Facilities Agreements, RCRA consent orders, and any other 
legally driven requirements. Any remaining funding is distributed based 
on relative risk evaluation. Throughout this process the Army is 
protective of human health and the environment and we immediately fund 
any imminent threats.
    Question. What major impediments do you face in turning over 
properties to civilian use or other Federal agencies?
    Answer. The major impediment to turning over properties to civilian 
use is determination of future use and obtaining cleanup level 
consensus with the regulators. Sometimes the regulators want us to 
clean to standards above what is being dictated by the intended use and 
in other cases the intended use is unknown or undetermined when cleanup 
decisions are being made. We are experiencing similar problems with 
turning over property to other Federal agencies. In some cases transfer 
to another Federal agency has proven even more difficult, i.e. Presidio 
of San Francisco and Woodbridge Research Facility. Property that is 
staying within the realm of the United States government does not 
trigger the requirements of CERCLA 120(h) prior to transfer. However, 
Federal agencies are usually not willing to take property unless all 
cleanup has been completed, regardless of the planned reuse.
    Question. When you are unable to turn properties over to local 
reuse authorities, do you still incur costs in maintaining the base?
    Answer. Yes. The Army incurs caretaker costs from the time the base 
closes until the property is disposed.
                     expiration of brac (post-2001)
    Question. I understand that each of the services was instructed to 
include their post-2001 BRAC requirements in their O&M account. Do you 
have concerns with the merging of active and BRAC cleanup costs?
    Answer. Yes, we do have concerns with the merging of Active and 
BRAC program cleanup costs. We see the need to maintain separate 
accounting of these programs. The goals and objectives are different in 
these two programs; BRAC being reuse driven and Active sites being to 
reduce the relative risk of contaminated sites.
    Question. The BRAC accounts have been protected since the inception 
of this process. If these environmental costs are not fully funded in 
O&M, will your service lose faith with the local communities interested 
in reuse?
    Answer. The Army has programmed $450 million after fiscal year 2001 
which is based on our current requirements projections. This is the 
level of spending that we believe will support reuse and allow us to 
dispose of most of the BRAC properties. Less funding will begin to 
delay cleanup actions and property disposal, which could adversely 
impact the local communities and result in unmet expectations.
    Question. What kind of visibility will you have if the ongoing BRAC 
costs roll to operation and maintenance?
    Answer. The Army has reserved the funds programmed after fiscal 
year 2001 in a separate programming package exclusive to environmental 
restoration at BRAC installations. During execution, the Army could 
establish a separate program element to capture these costs in the 
finance and accounting system.
    Question. Would it be advantageous to keep the BRAC accounts 
separate from the service's operation and maintenance accounts?
    Answer. Yes. Consequently, the Army supports the concept of 
extending the life of the BRAC account to authorize appropriations for 
BRAC environmental restoration after fiscal year 2001.
                   additional rounds of base closure
    Question. With four rounds of BRAC behind us now, how do you track 
the savings for each closure or realignment?
    Answer. The Army makes an extensive effort to determine and 
validate BRAC savings at the time that each round is announced by the 
Commission. Our implementing Major Commands (MACOM's) develop BRAC 
implementation plans which include detailed financial cost and savings 
analyses. These estimates are reviewed, audited as required, and 
submitted to the Congress as the budget justification books.
    Question. What is your methodology for updating these savings 
estimates?
    Answer. The Army reviews the savings estimates annually as part of 
the budget development process, and revises the numbers as necessary. 
Beginning in 1996 the Army reemphasized the need to review savings 
estimates, and initiated an audit of savings on 10 major BRAC 95 
packages. These efforts resulted in revisions in the savings estimates 
in the fiscal year 1998 and fiscal year 1999 budget justification 
books.
    Question. What assurance can you give us that future rounds of BRAC 
would, in fact, save the amount that is forecasted?
    Answer. The Army can not provide installation specific data as to 
where we will achieve future BRAC savings. We have completed notional 
analysis of future infrastructure requirements which did indicate that 
additional closure actions are required and that savings would result. 
The Army will achieve annual recurring savings approaching $1 billion 
upon full implementation of the first four BRAC rounds. The scope of 
any future BRAC rounds will determine the level of savings. Although we 
expect savings from future rounds to be generally less than closures to 
date, we know that substantial savings remain to be achieved.
                                 ______
                                 

                 Questions Submitted by Senator Murray

                        questions for the record
    Question. It is my understanding that community involvement and 
public trust in the cleanup process is essential to ensuring the 
success of your clean-up efforts. Could you comment on the RAB's 
(Restoration Advisory Boards) and how they are working for the Services 
in this process? Once a project is underway, will the RAB's continue to 
guide and oversee the ongoing protection of human health and the 
environment after operational closure of an installation and transfer 
of property?
    Answer. For the most part, the Army believes that RAB's are very 
effective in involving the local community in the cleanup of our 
installations. RAB's will continue at Army installations until such 
time as all remedial systems are in place and/or there is still 
community interest in the on-going cleanup.
    Question. A key element of the DOD's fast-track cleanup approach is 
the establishment of BRAC cleanup teams to manage cleanup at closing 
and realigning bases. Could you tell the Committee a little more about 
the composition of the cleanup teams, and what their function is? Is 
there emphasis put on the needs of the specific community and is that 
amply represented on these teams?
    Answer. Each BRAC Cleanup Team (BCT) consists of a service 
representative who is the BRAC Environmental Coordinator (BEC) and an 
environmental representative from the EPA and State. The BCT focuses on 
ensuring that cleanup efforts are timely and protective of human health 
and the environment while ensuring remedies support community reuse 
needs.
    Question. I understand that the defense environmental response task 
force drafted a resolution that was adopted last year recognizing the 
importance of State participation in cleanup activities and the 
increase in public trust that results from broad and effective 
collaboration between States and DOD. Has this attitude been embraced 
by the Services?
    Answer. Yes it has. A State environmental representative has always 
been a member on the BRAC Cleanup Team (BCT). The State BCT member is 
financed through the Department of Defense State Memorandum of 
Agreement (DSMOA) which the Army believes to be an effective program to 
ensure State involvement in our cleanup program.
    Question. In the post-2001 period, separate BRAC environmental 
funding will end and the continuing funding requirements will be merged 
into the Operations and Maintenance accounts. Have you determined what 
the impacts will be on readiness of this merging of accounts? Have you 
decided to attempt to extend the present system of separate accounts, 
and how likely is it that DOD will extend that system?
    Answer. The Army has reserved the O&M funds programmed after fiscal 
year 2001 in a separate package exclusive to environmental restoration 
at BRAC installations. We expect this to negate any impact on readiness 
accounts. In execution the Army could establish a separate program 
element to capture these costs in the finance and accounting system.
                                 ______
                                 

   Questions Submitted to Deputy Assistant Secretary Jimmy G. Dishner

                  Questions Submitted by Senator Burns

                          environmental costs
    Question. How much money will you have spent by the year 2001 to 
clean up the bases from the first four rounds of base closure?
    Answer. We estimate that by the end of fiscal year 2001 we will 
have spent approximately 2 billion dollars.
    Question. The costs of environmental cleanup will extend beyond the 
statutory limit for base closure expenditures. What kind of 
environmental activities will continue and for how long? How much do 
you anticipate that these long-term procedures will cost?
    Answer. We anticipate the cost for environmental cleanup, 
operations and monitoring of Air Force BRAC locations after fiscal year 
2001 will be approximately $1.3B through final closeout action at 
Mather AFB (estimated in 2069). Most of the cleanup costs in that 
amount are for McClellan AFB. The long-term costs (through 2069) 
associated with completing the cleanup include: Operations of Cleanup 
Systems, Treatment, Equipment Replacement/Modifications, Sampling/
Analysis, Long-Term Monitoring of contaminated groundwater, Landfill 
Cap Maintenance, Institutional Control Monitoring, On-Going Community 
Involvement activities, Decommissioning of Cleanup Systems and Wells, 
Regulatory Reporting, and Performance Reviews.
    Question. What steps are you taking to reduce the overall costs of 
long-term environmental monitoring?
    Answer. We are taking the following steps to reduce Long-Term 
Monitoring: Utilization of optimization technique, use of innovative 
technology, peer reviews, technical assistance visits, partnering with 
regulators, and reaching consensus on site closeout process/procedures/
requirements with regulators.
    Question. Do we have technology available to effectively clean-up 
groundwater contamination and unexploded ordinance?
    Answer. Ground water cleanup technology is available, however, it 
is expensive and time intensive to achieve cleanup standards. 
Unexploded ordinance (UXO) cleanup has been successfully accomplished; 
however, it can be very expensive. We need to exploit new technology on 
UXO cleanup.
    Question. What are the major cost drivers with respect to cleaning 
up BRAC installations?
    Answer. The major cost drivers are associated with groundwater 
treatment and strict regulatory requirements.
    Question. To what degree do Federal and local regulators dictate 
the plan and pace of the environmental clean up at BRAC sites?
    Answer. Regulatory concurrence on clean up decisions and 
documentation is required by statute, policy, and/or Federal Facility 
Agreements. The cleanup process requires compliance with Federal, 
State, and local regulations. State and local regulations vary and are 
only applicable if they are more stringent. Through partnering, and 
dispute resolution, the Air Force and the regulatory community resolve 
cleanup issues. Federal and local regulators often dictate the plan and 
degree of cleanup. DOD, through the annual congressional appropriations 
process, controls the pace of cleanup. Various efforts to waive Federal 
sovereign immunity would upset this delicate balance, possibly leading 
to State control of scope and pace of cleanups.
                           program challenges
    Question. What is your most significant challenge to completing the 
environmental cleanup on the BRAC Installations?
    Answer. Our most significant challenge is achieving cleanup of 
contaminated groundwater. The available technologies are expensive and 
are slow to achieve our cleanup standards. In addition, this is 
compounded by the applicability of varying State and local cleanup 
standards.
    Question. How are you cleaning up ranges with unexploded ordinance?
    Answer. To date we have not identified any BRAC unexploded 
ordinance requirements. The majority of this cleanup in the Air Force 
is accomplished by the active Environmental Restoration Account in 
accordance with Air Force policy. BRAC facilities have cleanup 
responsibility for small arms ranges associated with BRAC 
installations.
    Question. What is the status of efforts to turn over facilities 
with lead-based paint? What is the DOD position of this issue?
    Answer. The Air Force complies with Title X for residential 
property. The purpose of Title X is to reduce the threat of childhood 
lead poisoning in housing owned, assisted or transferred by the Federal 
Government. As required by law, the Air Force discloses the presence of 
any known lead-based paint or lead-based paint hazard in the sale or 
lease documents of any target housing constructed prior to 1978. In 
addition, the Air Force requires the grantee to abate lead-based paint 
hazards in pre-1960 housing if it will be used for residential 
purposes. We are working jointly with DOD & EPA to establish policies 
on non-residential properties.
                                 reuse
    Question. How do you establish priorities for cleaning up BRAC 
Installations?
    Answer. Priorities are established based on protection of public 
health and the environment, legal and reuse requirements.
    Question. What major impediments do you face in turning over 
properties to civilian use or other Federal agencies?
    Answer. We have not faced major impediments in turning over 
properties to civilian use or to other Federal agencies. We use long-
term leases and the early transfer authority to transfer property for 
community reuse to overcome our potential impediments to deed property 
to the communities while environmental cleanup is ongoing. The 
communities ultimately need the deed to the property, however, 
regulatory cleanup requirements sometimes involve a lengthy process.
    Question. When you are unable to turn properties over to local 
reuse authorities, do you still incur costs in maintaining the base?
    Answer. Yes, we incur costs; however through interim and long-term 
leases we are still able to allow reuse of the property and minimize 
costs associated with maintaining the base.
                      expiration of brac post-2001
    Question. I understand that each of the services was instructed to 
include their post-2001 BRAC requirements in their Operation and 
Maintenance account. Do you have concerns with the merging of active 
and BRAC cleanup costs?
    Answer. Currently, the Defense Planning Guidance and the POM 
Preparation Instructions direct post-2001 BRAC requirements be included 
in the appropriate account. However, we would prefer to continue with 
the BRAC account. It maintains exclusivity and high visibility for the 
BRAC cleanup dollars.
    Question. The BRAC accounts have been protected since the inception 
of this process. If these environmental costs are not fully funded in 
O&M, will your service lose faith with the local communities interested 
in reuse?
    Answer. The regulators and reuse community already express concerns 
about DOD commitment to complete the cleanup. Additionally, we will 
experience compliance problems resulting from missed milestones in FFA 
schedules and other legal commitments if requirements are not fully 
funded in the proper account (Operation and Maintenance for 
environmental compliance; Environmental Restoration-Air Force, for 
cleanup requirements). All will affect the reuse abilities of our local 
communities.
    Question. What kind of visibility will you have if the ongoing BRAC 
costs roll to Operation and Maintenance?
    Answer. If BRAC costs roll to Operation and Maintenance they would 
lose their current exclusiveness and high visibility that is critical 
to facilitating reuse. In addition, the BRAC account is currently a no 
year account; this provides the necessary flexibility for meeting our 
commitments to the communities for cleanup and reuse.
    Question. Would it be advantageous to keep the BRAC accounts 
separate from the service's Operation and Maintenance accounts?
    Answer. Yes. It will ensure funding for these must pay requirements 
do not lose visibility.
                   additional rounds of base closure
    Question. With four rounds of BRAC behind us now, how do you track 
the savings for each closure or realignment?
    Answer. Savings are best estimates. By their very nature, estimates 
of savings are subject to some uncertainty. However, once the estimates 
were made, the estimated amount was removed from the Air Force budget. 
No audit trail, single document, or budget account exists for tracing 
the end use of each dollar saved through BRAC. The Department is 
committed to improving its estimates of costs and savings in future 
BRAC rounds.
    Question. What is your methodology for updating these savings 
estimates?
    Answer. The gross savings estimates have not been changed from the 
amount initially identified and removed from the total Air Force 
budget. Net savings are updated annually as the projected costs for 
requirements are revalidated and refined.
    Question. What assurance can you give us that future rounds of BRAC 
would, in fact, save the amount that is forecasted?
    Answer. In future rounds of BRAC, we will concentrate on retaining 
historical financial records, reconciling costs for workload increases 
at receiving bases and BRAC-related personnel changes, and improving 
reporting on savings. Specifically, a questionnaire will be developed 
and completed annually for each base affected by future BRAC rounds. As 
envisioned, the questionnaire will more accurately track savings during 
the six-year implementation period. While these initiatives will 
improve the accounting for savings, the volume of decisions made 
through Congressional budgeting process will continue to affect the 
savings estimates and complicate the accounting for these savings. 
However, audits of the savings estimates from the previous rounds 
indicate that the forecasts were correct.
                                 ______
                                 

                 Questions Submitted by Senator Murray

                      restoration advisory boards
    Question. It is my understanding that community involvement and 
public trust in the cleanup process is essential to ensuring the 
success of your clean-up efforts. Could you comment on the RAB's 
(restoration advisory boards) and how they are working for the Services 
in this process?
    Answer. In the Air Force, RAB's have served a twofold purpose. As a 
conduit of information between DOD and the community, RAB's have been 
pivotal to community acceptance of environmental restoration decisions 
at closing and realigning installations. Secondly, RAB's have provided 
valuable input into cleanup plans and documents which are the 
foundation for cleanup decisions. This relationship exists to fulfill 
not only the spirit and the statutory goals of CERCLA and RCRA, but 
also ensure that the community remains involved as we finish the job of 
cleaning up our installations.
    Question. Once a project is underway, will the RAB's continue to 
guide and oversee the ongoing protection of human health and the 
environment after operational closure of an installation and transfer 
of property?
    Answer. While RAB's provide input into the environmental 
restoration decision making process in their advisory role as DOD/
community liaison, responsibility for ensuring ongoing protection of 
human health and the environment at cleanup sites will continue to rest 
with the Air Force. As closing/realigning installations approach the 
last phases of the Installation Restoration Program and move toward 
closeout of environmental sites and installations, RAB's have the 
option to remain intact, to meet less frequently or to adjourn.
    Question. Mr. Dishner, in your testimony you discussed a new 
technical assistance for public participation program. Could you tell 
the Committee a little more about this and how it will assist the 
RAB's?
    Answer. TAPP is a new community involvement tool available to all 
interested RAB's who demonstrate a need for assistance in understanding 
and interpreting the technical aspects of DOD's environmental 
restoration program. RAB's may utilize the program if other sources are 
not available and the technical assistance is likely to contribute to 
the efficiency and effectiveness of the environmental restoration 
program and to community acceptance. TAPP was created in response to 
RAB's request for help in better understanding the highly technical 
material they were being asked to advise on and in developing 
confidence in the input they were providing BRAC Cleanup Teams, leading 
to faster, cost-effective cleanups consistent with the President's 
Five-Part Plan.
                             cleanup teams
    Question. A key element of the DOD's fast-track cleanup approach is 
the establishment of BRAC cleanup teams to manage cleanup at closing 
and realigning bases. Could you tell the committee a little more about 
the composition of the cleanup teams, and what their function is? Is 
there emphasis put on the needs of the specific community and is that 
amply represented on theses teams?
    Answer. The BRAC cleanup teams are comprised of an Air Force 
employee (BRAC environmental coordinator), a representative from the 
State environmental regulatory agency, and a representative from the 
U.S. Environmental Protection Agency regional office. Their function is 
to identify opportunities for acceleration and to expedite conveyance 
of property. The BRAC cleanup team seeks early dialogues with and 
encourages participation of the Restoration Advisory Board and the 
Local Reuse Authority.
                 state participation cleanup activities
    Question. I understand that the defense environmental response task 
force drafted a resolution that was adopted last year recognizing the 
importance of State participation in cleanup activities and the 
increase in public trust that results from broad and effective 
collaboration between States and DOD. Has this attitude been embraced 
by the Services?
    Answer. Through our BRAC cleanup teams and partnering initiatives 
we emphasize and embrace the importance of State participation in 
cleanup activities. This collaboration proves effective in achieving 
public trust as well as accelerating cleanup and transfer of property.
                       brac environmental funding
    Question. In the post-2001 period, separate BRAC environmental 
funding will end and the continuing funding requirements will be merged 
into the Operations and Maintenance accounts. Have you determined what 
the impacts will be on readiness of this merging of accounts? Have you 
decided to attempt to extend the present system of separate accounts, 
and how likely is it that DOD will extend that system?
    Answer. Merging of the accounts would not have a direct impact on 
readiness. We would prefer to continue the BRAC account as in the past 
to ensure the exclusivity and high visibility within the community and 
maintain regulatory trust in our commitment to complete cleanup. A 
separate account would continue to provide the flexibility needed to 
forestall compliance problems and facilitate economic reuse of the 
property. Absent congressional action to continue the BRAC account, the 
DOD Defense Planning Guidance instructs the services to program their 
BRAC requirements into the appropriate O&M account beyond fiscal year 
2001. For environmental compliance related issues, the O&M account 
would be appropriate. For environmental cleanup issues, the 
Environmental Restoration-Air Force account, would be appropriate.

                         conclusion of hearings

    Senator Burns. If there is anything we can do from the 
committee standpoint to help you facilitate your work we stand 
ready to do that, and we appreciate your coming today.
    The subcommittee is recessed.
    [Whereupon, at 10:55 a.m., Tuesday, May 12, the hearings 
were concluded, and the subcommittee was recessed, to reconvene 
subject to the call of the Chair.]


       LIST OF WITNESSES, COMMUNICATIONS, AND PREPARED STATEMENTS

                              ----------                              
                                                                   Page
Baillie, Frederick N., Executive Director of Resources, Planning, 
  and Performance Directorate, Defense Logistics Support Command, 
  Defense Logistics Agency, Department of Defense................    39
    Prepared statement...........................................    47
Becraft, Carolyn H., Deputy Assistant Secretary of Defense 
  (Personnel Support, Families and Education), Office of the 
  Under Secretary of Defense (Personnel and Readiness), 
  Department of Defense..........................................    39
    Prepared statement...........................................    41
Burns, Hon. Conrad, U.S. Senator from Montana, questions 
  submitted by.................31, 55, 81, 105, 106, 107, 137, 141, 144

Carrato, Rear Adm. Tom, Chief Operating Officer, TRICARE 
  Management Activity, Department of Defense.....................    39
Clem, Brig. Gen. Ralph S., Deputy to the Chief, Air Force 
  Reserve, Department of the Air Force, Department of Defense....    87
    Questions submitted to.......................................   107
Coleman, Hon. Rodney A., Assistant Secretary of the Air Force for 
  Manpower, Reserve Affairs, Installations and Environment, 
  Department of the Air Force, Department of Defense.............    87
    Prepared statement...........................................    90
    Questions submitted to.....................................105, 106
Craig, Hon. Larry E., U.S. Senator from Idaho, prepared 
  statements.....................................................3, 111

Dishner, Jimmy G., Deputy Assistant Secretary of the Air Force 
  (Installations), Department of the Air Force, Department of 
  Defense........................................................   125
    Prepared statement...........................................   126
    Questions submitted to.......................................   144

Faircloth, Hon. Lauch, U.S. Senator from North Carolina:
    Prepared statement...........................................3, 110
    Questions submitted by.......................................    83

Hayes, Brig. Gen. James M., Assistant Deputy Chief of Staff for 
  Installations and Logistics [Facilities], Headquarters Marine 
  Corps, Department of the Navy, Department of Defense...........    57
Heckman, Brig. Gen. Gary W., Director, Center for Command 
  Support, U.S. Special Operations Command, Department of Defense    39
    Prepared statement...........................................    45
Helmly, Brig. Gen. James R., Deputy Chief, Army Reserve, 
  Department of the Army, Department of Defense..................     1

Inouye, Hon. Daniel K., U.S. Senator from Hawaii, questions 
  submitted by...................................................    36

Johnson, Paul W., Deputy Assistant Secretary of the Army 
  (Installations and Housing), Office of Assistant Secretary of 
  the Army (Installations, Logistics and Environment), Department 
  of the Army, Department of Defense.............................1, 119
    Prepared statement...........................................   120
    Questions submitted to.......................................   141

Lupia, Maj. Gen. Eugene A., USAF, Civil Engineer, Deputy Chief of 
  Staff for Installations and Logistics, Department of the Air 
  Force, Department of Defense...................................    87

Moore, Alma B., Acting Assistant Secretary of the Army 
  (Installation, Logistics, and Environment), Department of the 
  Army, Department of Defense....................................     1
    Prepared statement...........................................     5
Murray, Hon. Patty, U.S. Senator from Washington:
    Prepared statements.........................................29, 110
    Questions submitted by........................33, 56, 140, 143, 146

Nash, Rear Adm. David J., Commander, Naval Facilities Engineering 
  Command, Department of the Navy, Department of Defense.........    57

Pirie, Hon. Robert B., Assistant Secretary of the Navy for 
  Installations and Environment, Department of the Navy, 
  Department of Defense.........................................57, 109
    Prepared statement..........................................61, 112
    Questions submitted to.......................................   137

Squier, Brig. Gen. Michael J., Deputy Director, Army National 
  Guard, Department of the Army, Department of Defense...........     1
Stevens, Hon. Ted, U.S. Senator from Alaska, questions submitted 
  by........................................................32, 85, 106

Tabler, Diana, Deputy Executive Director, TRICARE Management 
  Activity, Department of Defense, prepared statement............    51
Totushek, Rear Adm. John B., Deputy Chief, Naval Reserve, 
  Department of the Navy, Department of Defense..................    57

Weaver, Maj. Gen. Paul A., USAF, Director, Air National Guard, 
  Department of the Air Force, Department of Defense.............    87
    Questions submitted to.......................................   106
Whaley, Maj. Gen. David A., Assistant Chief of Staff for 
  Installation Management, Department of the Army, Department of 
  Defense........................................................     1


                             SUBJECT INDEX

                              ----------                              

                         DEPARTMENT OF DEFENSE

                            Defense Agencies

                        Defense Logistics Agency

                                                                   Page
DLA environmental compliance.....................................    54

   Office of the Under Secretary of Defense (Personnel and Readiness)

Department of Defense education activity [DODEA] construction....    53
Quality of life..................................................    40

                      TRICARE Management Activity

Program highlights...............................................    50

                    U.S. Special Operations Command

SOCOM future requirements........................................    53

                      Department of the Air Force

Air Force ordnance disposal......................................   133
Base environmental assessment....................................   129
Base realignment and closure.....................................   103
Bidding process, contractor competitive..........................   136
BRAC residual funds..............................................   134
C-17 deployment to McChord AFB...................................   101
Castle AFB cleanup status........................................   135
Contractor selection.............................................   132
Dormitories......................................................    98
Family housing...................................................    99
Housing program..................................................    97
Reserve component funding........................................   100
Retention programs...............................................   102
South Pole trip..................................................    97

                         Department of the Army

Advanced appropriations..........................................    29
Barracks.........................................................    23
BRAC.............................................................    29
Capital venture initiative.......................................    25
Chemical demilitarization........................................    27
Environmental cleanup............................................    26
Milcon funding, Army National Guard..............................    27
One plus one.....................................................    23
Quality of life..................................................    24
Requirements, priority of........................................    28

                         Department of the Navy

Acoustical Research Detachment Center............................    79
Authorization bill supported appropriation adds, last year's.....    58
BRAC cleanup.....................................................    73
Cecil Field environmental impact statement.......................    75
Demolition.......................................................    74
Guard and reserves...............................................    59
Housing..........................................................72, 74
Marine Corps facilities..........................................    79
NAS Oceana construction..........................................    76
Navy budget reflects priorities..................................    60

                                   - 
</pre></body></html>
